<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                                                                      
 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                    JERRY LEWIS, California, Chairman

 C. W. BILL YOUNG, Florida                 JOHN P. MURTHA, Pennsylvania
 DAVID L. HOBSON, Ohio                     NORMAN D. DICKS, Washington
 HENRY BONILLA, Texas                      MARTIN OLAV SABO, Minnesota
 GEORGE R. NETHERCUTT, Jr.,                PETER J. VISCLOSKY, Indiana
Washington                                 JAMES P. MORAN, Virginia     
 RANDY ``DUKE'' CUNNINGHAM, 
California
 RODNEY P. FRELINGHUYSEN, New Jersey
 TODD TIAHRT, Kansas
 ROGER F. WICKER, Mississippi 
                                                                        
                                                                        

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Kevin M. Roper, Alicia Jones, Gregory J. Walters, Doug Gregory, Paul 
W. Juola, Steven D. Nixon, Betsy Phillips, Paul D. Terry, Greg Lankler,
  Kris M. Mallard, John G. Shank, and Sarah E. Young, Staff Assistants

      Sherry L. Young and Clelia M. Alvarado, Administrative Aides
                                ________
                                 PART 1
                                                                   Page
 Secretary and Chief of Staff of the Army.........................    1
 Secretary of the Navy, Chief of Naval Operations, and Commandant 
of the Marine Corps...............................................  205
 Secretary and Chief of Staff of the Air Force....................  345
 Secretary of Defense, Annual Report to the Congress..............  481
                                ________

         Printed for the use of the Committee on Appropriations

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 92-804                     WASHINGTON : 2004


                   COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                        DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                   JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                   NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                   MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                        STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina         MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                     PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma           NITA M. LOWEY, New York
 HENRY BONILLA, Texas                      JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan                 ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                    JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey       JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi              ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,                DAVID E. PRICE, North Carolina
Washington                                 CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,                ROBERT E. ``BUD'' CRAMER, Jr., 
California                                 Alabama
 TODD TIAHRT, Kansas                       PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                      JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                          MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky                 LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama               SAM FARR, California
 JO ANN EMERSON, Missouri                  JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                        CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania            ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia            CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California             STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                      SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York                 MARION BERRY, Arkansas            
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida 
                                                                                                                                                                                                                                                                                                                                  
                                                                                                                    
                                                                        
                                                                                                                                                                                                                                                                                               
                                                                                                                                                

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2004

                              ----------                              

                                         Wednesday, March 12, 2003.

                     FISCAL YEAR 2004 ARMY POSTURE

                               WITNESSES

HON. THOMAS E. WHITE, SECRETARY OF THE ARMY
GENERAL ERIC K. SHINSEKI, CHIEF OF STAFF, UNITED STATES ARMY

                              Introduction

    Mr. Lewis. The Committee will come to order.
    General, I think we will begin by apologizing to both you 
and the Secretary for the delay in starting the hearing.
    As you know, we lost some young soldiers overnight on a 
Black Hawk helicopter that went down. It is always painful when 
we lose our young people, and the members of the Committee want 
you to know that our hearts as well as our thoughts are with 
you and their families.
    General Shinseki. Thank you.
    Secretary White. Thank you.
    Mr. Lewis. This afternoon the Committee welcomes the 
Honorable Thomas E. White, the Secretary of the Army, and 
General Eric K. Shinseki, Chief of Staff of the Army, as we 
hold an open hearing on the posture and acquisition programs of 
the United States Army.
    Mr. Secretary, General, on behalf of the Committee I want 
to welcome each of you and thank you for your service in these 
very difficult times. I will come back to that in just a 
moment.
    Today, we meet to hear your testimony in support of the 
fiscal year 2004 budget request. I would note that this budget, 
and those that have preceded it in recent years, continue the 
path of change that you and your associates in Army leadership 
have embraced as the challenges of this new century have become 
steadily more apparent. It is not an understatement to say that 
your efforts to rethink the Army's organization of its forces; 
develop different and better equipment for a more agile and 
responsive Army; and, above all else, to hold true to the 
enduring importance of people, leadership and fielding an Army 
that fights as it trains, those basic tenets have been right on 
the mark in the view of this committee and at least from this 
member's perspective.
    We want you to know that we are deeply appreciative of the 
thought that has gone into this. I think your insistence on 
these priorities have been highly regarded and legitimately so 
in many a circle. In my view, as time goes on, they will be 
historically significant to all who observe the work of our 
national forces during this critical time.
    You have already achieved considerable success in this 
regard. The Congress and the American people have seen the 
results firsthand again and again from Bosnia to Kosovo to 
Afghanistan to the current operations pertaining to Iraq.
    As we all know, the hardest tasks before those in 
leadership positions is to successfully promote and to produce 
change. And with respect to the Army, the two of you, the DOD, 
this Committee and others have all seen our share of 
frustrations along the way. This is not new, especially when it 
comes to developing and fielding equipment.
    Many of us recall vividly a hearing this subcommittee held 
3 years ago where representatives from the Army were unable to 
answer basic questions about the status and continued relevance 
of your acquisition programs. As a result, we pushed the Army 
to rethink both the process for developing and acquiring 
weapons and how the Army organizes itself to accomplish that 
task. Mr. Secretary and General Shinseki, you both heard us; 
and you have responded.
    We know what it is like to propose new ideas and 
technologies. Not so long ago--we have talked about this a lot. 
Not so long ago, this Committee had to struggle with all of the 
military services to win the acceptance of Unmanned Aerial 
Vehicles as a regular element of the forces you deploy. Now, 
with the successes of these systems in the Balkans, in 
Afghanistan and elsewhere, one almost takes for granted the 
capabilities of these systems, what they bring to the fight and 
to each of the services as well.
    And, General Shinseki, I would like to say to you that our 
troops who have used the Stryker medium combat vehicle, those 
troops and our warfighting commanders, they feel the same way 
about a system which was not brought into this world in a 
typical fashion, a major new program which will fill a 
dangerous void in our Nation's power projections capability.
    Now it goes without saying that, even while we are here 
principally to discuss the 2004 budget request, all this takes 
place at a very dangerous time in our world history and indeed 
a very dangerous time for our Nation. Your forces are engaged 
around the clock supporting the global war on terrorism in 
Afghanistan and elsewhere. You have deployed thousands of 
troops for a likely conflict in Iraq, and events on the Korean 
peninsula continue to represent a cause of grave concern. And 
let us not forget those tens of thousands of Reservists who 
have been called to duty who are not only on the front lines 
overseas but also, in a way we have not seen since the Second 
World War, providing for our homeland security as well.
    No one ever believed we would need soldiers to protect our 
places of business, production and public gatherings. But the 
troops who have taken on this job have been a soothing reminder 
of those who are willing to protect our Nation with their 
lives; and the soldiers have performed their duties with good 
cheer, grace, and efficiency that have made them welcome 
everywhere they have gone.
    The lesson is that the world, at least for we Americans, 
has changed. Yet America's Army is where it has always been, on 
the front lines, wherever those front lines may be.
    We understand the tremendous pressures that these events 
place on your equipment, your facilities and all of those Army 
families, the military and civilian, their loved ones, those 
called to duty, and those with ties of blood and history to 
those who serve.
    We are here today to hear your views on these matters and 
have a number of questions we need to discuss with you in that 
regard. I want you to know that your entire statement will be 
included in the record as we proceed. This member and all of 
those sitting on this Committee have, over the years and 
especially since September 11, seen firsthand the hard work and 
the difficult missions carried out by our forces in the field.
    Indeed, within the past few weeks, some of us have traveled 
to observe our forces deployed on the front line to see those 
young men and women firsthand; and indeed it is not just a 
thrilling but in many ways a frustrating experience.
    This is a testament to all of the work of our Armed Forces, 
but the teamwork that exists in connection with this commitment 
in many ways is personified by a man who I believe has been in 
the right place at the right time. I would like to take just a 
moment, if you will, to talk about an individual. This young 
man of whom I speak, throughout his 37 years in the service of 
our country, beginning with West Point, to distinguished 
service in Vietnam, and then the postings with the Army in 
Europe during the Cold War, he served the Nation with 
distinction. He was part of that force which both kept the 
peace during that time and thenmade possible the dismantlement 
of so many of those walls in Europe.
    Then, in the new world following the end of the Cold War, 
he assumed positions of increasing responsibility; and just 6 
years ago he was placed in command of the multinational forces 
who helped bring some measure of peace to Bosnia and also 
Kosovo. Now, after 4 years as Chief of Staff, through those 
very tough, demanding years, he can look back as being the man 
who was ahead of many in making the concept of military 
transformation shift from being a slogan to a working reality. 
He did this with a clear vision, candid talk and perseverance 
and, by so doing, helped bring this Nation to the top of the 
Defense agenda.
    He has done all of this while presiding over an Army which, 
following the shock of September 11, moved around the world to 
help liberate Afghanistan and which as we meet today is hunting 
terrorists and protecting America's interests in many places. 
That same Army today is now joined with the Navy, the Marines, 
the Air Force and others in carrying out what we all know is a 
very difficult, crucial and probably long-term mission in the 
Middle East.
    Of course, you all know that I am referring to General Eric 
Shinseki. Ric, you have been a great friend of this Committee. 
We want the country to know what we think of your service. A 
soldier who has fought in the Nation's wars along with many 
others and who has also benefited from the opportunities 
granted by our country in the military that services it. 
General, we thank you for your work.
    Mr. Secretary, we thank you for your work.
    Secretary White. Thank you.
    Mr. Lewis. Before we move on to that testimony, I suggested 
earlier I would like to call on my friend and colleague from 
Pennsylvania, Jack Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. As you know, Mr. Secretary, the Chairman, 
myself, Mr. Dicks and Mr. Hobson just came back from Kuwait. 
What a transformation. When I was there in August--I mean, in 
August I knew we weren't going to war in the near future; and 
today they are ready to go.
    I stood there with my nephew, who is in the other branch of 
the service, in tents left over from the Army and a flag that I 
gave him that was flown over the Capitol and I listened to 
those young folks talk about how well prepared they were and 
some of the systems that we put in place.
    The Chairman is too modest when he talks about the 
Predator. If it hadn't been for him, there would be no 
Predator. He was the guy who pushed it. He was the guy that got 
criticized, and he was the guy that they tried to stop from 
putting it out in the field. He persisted, and that Predator is 
one of the most important systems that we have. The combat 
systems that they have today, which have been improved so much, 
the batteries so much smaller, which gives them such an 
advantage. And they are confident that they will win this war. 
There is no question in our mind about it.
    There is no question that the conditions are very austere 
and very difficult. But I was so impressed by the new logistic 
system we have where you can go in there--
    And, by the way, I asked how many were Reserve and Guard 
people; and half of them held up their hands; and they were 
seamless. You couldn't tell the difference between who was the 
Guard and the Reserve.
    But they will be able to save money by not stockpiling 
stuff in the front. They will be able to send it out where it 
is needed because of the computerized system that works so 
well.
    And they are going to prevail. None of us want to go to 
war. But if we have to go to war when the President makes the 
decision, I am so confident under your leadership you have done 
such a good job. And, of course, the lighter Army is going to 
be the Army of the future; and you folks have done so much. 
Greg Dahlberg, who was here, was in the forefront--and Kevin 
Roper.
    All of us in this Committee feel so strongly that we have 
got to move the Army in another direction, along with you. So I 
look forward to hearing your testimony and congratulate you and 
compliment you on the work that you have done, because the 
product is out there in the field ready to go.
    Mr. Lewis. Mr. Secretary, please proceed. Your entire 
statement will be placed in the record.
    [Clerk's note.--The Fiscal Year 2003 Joint Posture 
Statement of the Secretary of the Army and the Chief of Staff 
of the Army is printed at the end of this hearing. See page 
140.]

                  Summary Statement of Secretary White

    Secretary White. Thank you, Mr. Chairman, Congressman 
Murtha, distinguished members of the Committee. I am grateful 
for this opportunity to talk to you today about the Army.
    Our priorities remain the same as they were a year ago: Win 
the global war on terrorism and transform the Army, as you have 
talked about, to prepare it for future wars.
    First and foremost, I wish to thank this Committee for your 
continued support of the Army. The 2003 budget has allowed us 
to make significant improvements in many key areas. We have 
structured our budget request for 2004 in exactly the same 
fashion as 2003, based upon our top priorities of People, 
Readiness and Transformation.

                         PERSONNEL INITIATIVES

    The people front. Thanks to you and your support, we are 
making significant strides in the personnel area with 
initiatives including a fully funded general pay raise for all 
soldiers, targeted pay raises in selective cases, significantly 
reduced soldier out-of-pocket expenses for housing, and an 
accelerated Residential Communities Initiative to improve on-
post quarters for our families.
    This year, we are examining options under an initiative 
called personnel transformation to shift away from our 
individual replacement system to a unit manning approach that 
will enhance the cohesion and combat readiness of our 
formations while improving the predictability of assignment 
patterns for Army families. As you know, we have had over 
30,000 National Guardsmen and Reservists on active duty 
consistently since the 11th of September of 2001; and, as of 
today, we have activated over 130,000 soldiers for current and 
potential future federal operations at the federal level. In 
addition, over 2,700 soldiers currently are activated for state 
service.
    These Reserve Component soldiers are performing 
magnificently, and we appreciate the tremendous support they 
have received from their employers as well as the American 
public. We recognize the unique sacrifices made by these 
citizen soldiers as they step up to do their duty as citizens 
and patriots.

                         READINESS AND OPTEMPO

    In readiness, the Army is ready for any additional 
operations that we are ordered to perform in the future; and 
our great soldiers are successfully meeting our many current 
obligations around the world.
    With your help in 2003 and again in our 2004 budget 
request, we gave priorities to funding training requirements 
for the force, significantly improved our spare parts 
availability and accelerated fielding of soldier support 
systems and unit communications equipment to make our units as 
ready as possible.
    Having said that, our operational tempo--I think the Chief 
would echo this--has never been higher in the 40 years of 
experience that I have with the Army. We are indeed an Army on 
the move.
    While we are actually funded normal OPTEMPO training, 
including the full complement of pre-9/11 missions such as 
Bosnia and Kosovo and the Sinai and Korea, we have many other 
obligations as we pursue the global war on terrorism as part of 
the joint force. Post 9/11 missions in the past 18 months 
include Operation Noble Eagle here at home, Enduring Freedom in 
Afghanistan, as well as operations in the Philippines and 
elsewhere.
    Finally, we have the significant flow, as you have seen 
personally, of Army forces into the Persian Gulf in support of 
the diplomatic effort to insure the disarmament of Iraq.
    Given this level of activity, I don't think it is any 
surprise that supplemental funding will be required in 2003 as 
we progress during the year.
    We are working hard to balance our readiness imperative for 
realistic training with our obligation to be good stewards of 
the environment. That balance is reflected in DoD's range 
preservation initiative that we ask your support for. It is 
essential for us to maintain the balance between the use of 
military lands for their uniquely military purposes and the 
need for environmental protection and species preservation. The 
readiness of our soldiers going into harm's way depends upon 
it, so we ask for your help with this important initiative.

                             TRANSFORMATION

    Transformation. You have mentioned it, and you have fully 
supported it in the Committee for a long time; and for the 
Chief, almost four years now since he laid the marker down. We 
are transforming our Army even while we execute combat 
operations and prepare for future contingencies. This 
simultaneity is not only a necessity, it is an imperative.
    We are transforming the business side of the Army as well 
as the operational forces, and we are transforming within the 
joint context not merely in a service centric manner. We have 
held steady to the azimuth established by the Chief, General 
Ric Shinseki back in 1999.

                          FUTURE COMBAT SYSTEM

    In 2004, we request funding for the fourth of our six 
Stryker brigades to be fielded at Fort Polk, Louisiana, to the 
Second Armored Cavalry Regiment. We remain focused on the 
Objective Force with the restructured Comanche armed 
reconnaissance helicopter program. We are postured to 
successfully meet acquisition Milestone B in May for the Future 
Combat System or FCS. FCS includes the non-line of sight 
variant, the initial fielding increment which will meet the 
cannon requirements previously addressed by the Crusader 
program. We remain on glide path to field the first Objective 
Force unit in 2008 with an initial operational capability, IOC 
in 2010.
    On the business side of the Army, we fully solicit your 
support for the DoD transformation package that would greatly 
streamline our operations and give us the flexibility to manage 
the Department in the most efficient manner. In the same vein, 
our business transformation initiatives are designed to achieve 
greater value for the taxpayer dollar.

                   RESIDENTIAL COMMUNITIES INITIATIVE

    Our Residential Communities Initiative or RCI, which really 
has been championed by many of you over the years in this 
Committee, to privatize family housing continues to be, I 
think, an enormous success. By 2007, the Army will have 
established partnerships to bring every set of family quarters 
up to standard. We are able to do this because, with an 
investment of roughly $600 million, we have attracted over $7 
billion in private capital. This is a tremendous value for the 
taxpayer and the soldier and we believe the model of how better 
business practice can help us with non-core functions such as 
housing.
    We are seeking to apply the same manner and model of 
public-private partnership on a challenge of on-base utilities 
in our installations, consolidating all installation management 
under one command, centralizing Army-wide, contracting over 
$500,000 per contract in our Army Contracting Agency. We are 
seeking to regionalize utilities contracting and achieve 
economies of scale that were not possible with our previous 
business management structure. Private capital would be 
required to fix the utilitiesinfrastructure on our bases, and 
we are setting the conditions to attract it just as we did with RCI.
    Finally, we are conducting what we call our Third Wave 
initiative, which seeks to eliminate all non-core functions 
currently consuming Army people and dollars.
    Rest assured we will pursue these business initiatives in 
full consultation with you and the Congress.
    From a risk perspective, balancing the risk associated with 
near-term modernization and mid-term transformation has 
required us to make some very tough choices. We have had to 
terminate or restructure numerous current force modernization 
programs to generate the capital to fund transformation. In a 
nutshell, our 2004 budget submission funds people, readiness 
and transformation at the expense of some of our infrastructure 
accounts in current force modernization. We have made judgments 
only after careful balancing of both the operational risk and 
the risk of not transforming to provide the capabilities the 
Army needs to meet the obligations of the mid- and long-term 
joint operational concepts that we are a part of.

                                SUMMARY

    In conclusion, I wish to return to those who I mentioned 
first in these remarks, our soldiers. Their performance in 
Afghanistan speaks volumes: Dead of winter, landlocked country, 
toughest terrain imaginable, collapsed the Taliban regime, put 
al Qaeda on the run. It has been my privilege as it has been 
your privilege to visit them in Afghanistan and Kuwait, in 
Bosnia and Kosovo, all around our country. You couldn't meet a 
finer group of young Americans. They are flat out in my 40 
years the best soldiers I have ever seen; and we all ought to 
be very, very proud of them. Rest assured they stand ready, 
along with our sister services, to accomplish any tasks ordered 
by our Commander-in-Chief.
    Thank you for this opportunity, Mr. Chairman, to discuss 
the 2004 budget submission of the Army. I look forward to your 
questions.
    Mr. Lewis. Thank you, Mr. Secretary.
    General Shinseki.

                 Summary Statement of General Shinseki

    General Shinseki. Mr. Chairman, Congressman Murtha, first 
let me begin, Mr. Chairman and Congressman Murtha, by 
expressing my thanks to both of you and the other members of 
this Committee for the very generous opening remarks.
    I have been a soldier every day for about 37 and a half 
years, and I have enjoyed every one of those days. I have done 
a few things in that period of time. I think the last four 
years will always be very special. But part of that privilege 
has been the high point of working with great patriots here in 
the Congress and, uniquely, with those members of this 
Committee who have taken a little bit of risk, listened to a 
description of what the future could be, and then gave us the 
support and the resources to generate enough momentum to come 
back to you and suggest that we had something going here. Then 
to again demonstrate your confidence in us and Secretary 
White's leadership has been phenomenal in helping us maintain 
that momentum. So, to the members of this Committee, thank you 
for your great support.
    Mr. Chairman, Congressman Murtha, I am honored to join the 
Secretary today, as I have indicated, whose leadership and 
guidance has produced tremendous momentum for what we have been 
about in this thing called the Army Vision, my privilege in 
joining him to report out to all of you on the posture of the 
Army and its readiness today.
    Today, soldiers, as the Secretary has indicated, are 
serving magnificently as part of a joint team with all of our 
other members, other uniformed services, tremendous young 
Americans doing terrific work defending our freedom in this war 
against terrorism and then preparing for any other contingency 
they may be called upon to do. In the Army alone, over 242,000 
soldiers are deployed forward, stationed overseas someplace. 
Almost 133,000 of our Reserve Component soldiers have been 
mobilized at this point in the past 6 months.
    All of you, the Secretary, and I have visited a good many 
of them. I have stood with them where they worked and trained, 
spoken with them as well, those who arrived back here at Walter 
Reed Army Medical Center. I have spoken to them candidly, had 
frank discussions with them about their sense of the Army's 
readiness to respond to the calls of this Nation.
    The Army is ready. We have the best army in the world. It 
is not the largest, but it is the best. It is the best trained, 
the best equipped, and the best led.
    But, as you all know, it is more than just about equipment. 
We have the best soldiers. Their determination and commitment 
are as firm as I can recall in all my years of service. They 
are immensely proud to serve this Nation. They will take any 
objective. They will accomplish any mission we give to them. I 
am proud of what I have seen. Soldiers are standing by in a 
hundred camps and stations waiting for orders, and they will 
fight, and they will win decisively this war on terrorism and 
any other we might ask them to fight.
    I am daily reassured of my assessment. America's Army 
remains the most respected land power to our friends and allies 
and the most feared ground force to those who would think about 
threatening the interests of the United States.
    We want to project that degree of respect and readiness of 
this great Army we have today into the future. To do so, over 
the last three plus years, we have described a need to be more 
responsive, more deployable, an Army that is more agile and 
versatile, an Army that is as lethal as this great Army is 
today and more survivable but a lot more sustainable to reduce 
our foreign footprint.
    Three and a half years ago, we knew that there was a war in 
our future. We didn't imagine what the situation would be 
today, but we knew there was a war some time in our future. We 
just didn't know when, where or against whom. The relative 
predictability that I guess we may say we got used to during 
the years of the Cold War, that relative predictability had 
given way during the 1990s to a continuing chaos of 
unpredictability. Voices inside and outside the Army suggested 
a need for change, and some of those voices were right here.

                             TRANSFORMATION

    Because of that fundamental nature of change, it was more 
than just modernizing a platform or two. It asked for the Army 
to take a fundamental, comprehensive look at itself and make 
some decisions. We didn't call it modernization. We decided to 
call it Transformation because it was so broad reaching and 
would reach for a long period of time. With the unwavering 
support of the Administration and this Congress, we are 
transforming today rapidly to be more capable of dominating any 
future crises.
    To mitigate the risk that is inherent in any comprehensive 
change, no matter the institution, we structured Army 
Transformation along three broad and mutually supporting 
vectors. There is a near-term, a mid-term and a distant far-
term vector.
    On the near-term axis, we preserve the readiness of today's 
legacy fighting force to fix the long-standing operational gap 
between the light and the heavy components of today's Legacy 
Force.
    We created a requirement for an interim capability which 
has come to be called the Stryker Brigade Combat Teams. We are 
fielding six of them. We have described the requirement for 
six. We have put aside the funds to do that. That is on the 
mid-term axis.
    And it is on the third and final axis that we are readying 
the Army for the long term. We are developing future concepts 
and technologies that will provide consistent capabilities of 
overmatch through the middle of the century.
    Our Future Combat System Milestone B Defense Acquisition 
Board decision. This first acquisition decision comes up in May 
of this year, and we intend that that will be a successful 
event, and we intend to begin fielding the Future Combat System 
in 2008.
    Our Secretary White has noted balancing these requirements 
over time dictates difficult but prudent choices. Recognizing 
the constraints that come with finite resources, the Army has 
had to make and we believe we have made prudent calls on how to 
balance those risks. We have terminated and restructured 
programs to help fund Transformation to the degree we can from 
our own internal resources, carefully weighing the operation of 
the demands of today's missions while preparing for the future.
    Your support, which has been vital, will continue to be 
vital as we explain to you why we are doing the things we are 
and to gain your understanding and support as we go forward.

                    FISCAL YEAR 2004 BUDGET REQUEST

    The Army's fiscal year 2004 budget strikes the essential 
balance to maintain readiness throughout the Program Objective 
Memorandum, POM, period and beyond. We are confident that we 
have done that well.
    We are already seeing dividends from our own investments in 
future readiness. Monies that we have invested in the last 
three years are generating technologies that are coming on-line 
early today: Superior body armor for dismounted soldiers today, 
robots in caves and antitank warheads on unmanned aerial 
vehicles today, unprecedented blue force tracking capabilities 
today.
    Then, most recently, during the last joint exercise, the 
largest joint exercise in our history, something called 
Millennium Challenge 2002. With the help of the United States 
Air Force, the Army air-delivered a Stryker platoon onto a dirt 
strip in a place called Fort Irwin, California. Just three 
years after the Army described its requirement for an Interim 
Force, we are demonstrating increased strategic operational and 
tactical versatility that Stryker Brigade Combat Teams will 
provide to combatant commanders.
    This summer the first Stryker Brigade Combat Team will join 
us on the war on terrorism. So it is not just about 
capabilities we intend to field in 2000 and beyond. It is also 
about enabling soldiers fighting this war on terrorism and 
preparing for any future mission we may give to them. It is 
about reducing the operational risk borne by our soldiers today 
and in the future.

                               PERSONNEL

    Now, having said all of this, Mr. Chairman, people remain 
the engine behind all of our magnificent moments as an Army. 
That has been true throughout the 200-plus year history of this 
Army. It is true today. It will continue to be true in the 
future.
    Their well-being is inextricably linked to our readiness. 
Thanks to your help on things like pay, health care, retirement 
benefits, housing and other well-being programs, we are doing 
better than ever at taking care of our people. Our soldiers, 
our civilians, our veterans, our retirees and their family 
members appreciate your support more than I can say. We are 
grateful for your unwavering, bipartisan leadership and for 
your unyielding devotion to our soldiers. With your continued 
strong support, we will win this war against global terrorism. 
We will meet our commitment to our friends and allies. We will 
remain ready to contend with the unpredictability. There are 
certainly unpredictable events in our future, and we will 
transform ourselves for those decisive victories on future 
battlefields. You keep us the most respected land force in the 
world.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Lewis. Thank you, General Shinseki.
    [The joint statement of Secretary White and General 
Shinseki follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               READINESS

    Mr. Lewis. Mr. Secretary and General, normally, I don't ask 
questions at the beginning of the hearing but rather pass it 
on. But on this very special occasion--
    General Shinseki, you have outlined the training and the 
fact that we are the best. Let me, if you will, first say to 
you that I can't tell you how proud I am to have this 
responsibility at this moment in our history to chair the 
Subcommittee of Appropriations that does the spending of money 
for our national security. But, having said that, when you are 
challenged, you need to be ready. But we also want to have 
confidence we can be successful.
    So, General Shinseki, while all of us have been hoping over 
time for a peaceful option, it is my personal view that when 
some of our friends in Europe decide to walk away, they close 
the door that was that door. So, because of that, I ask you the 
question: If the President, the Commander in Chief, were to 
make a call tomorrow, are we ready and will we succeed swiftly?
    General Shinseki. Mr. Chairman, you have asked a question 
about readiness to do the most difficult of missions that we 
think about, plan for and prepare for. And normally in our 
deliberations we talk about the word readiness in a variety of 
categories. We talk about training. We talk about new 
equipment. We talk about spare parts and maintenance of our 
systems. We talk about ammunition. We talk about the kinds of 
things that affect the morale of our people. It is only when we 
come to a major operation like this we roll it up into the one 
word about readiness.
    So I will tell you that in September of 2001, when the 
President addressed the Houses of Congress, and those of us of 
the Joint Chiefs who were present, and indicated that there was 
a war being declared on terrorism and that there were other 
concerns with other actors who were not behaving in accordance 
with the best interests of our country and our friends and 
allies, the Secretary and I immediately, after that speech, put 
the Army in a wartime footing.
    We directed the Army to increase its tempo of training, we 
increased the requirement to train with their weapons, 
increased the rate at which they would fire, increased the 
requirements for chem/bio training, continued the development 
of young leaders who would continue to fill leadership 
positions. It is as a result of the last 18 months' focused and 
dedicated effort that I answer your question about will the 
Army be able to meet the call if the President succeeds 
unequivocally as a yes.
    The Army is ready. There are lots of unknowns out there. 
Chem/bio is probably the toughest aspect of what we have to do 
to prepare. But in all of these things, the Army, over the last 
several years has invested to deal with those unknowns, whether 
it is new equipment in the chemical and biological environment 
that results in new suits, new masks, increased training.
    But the answer to your question is, the Army is ready. If 
it is ordered to conduct this operation, it will do so 
decisively.
    Mr. Lewis. Thank you, Chief.
    Mr. Young.

                          MORALE OF THE TROOPS

    Mr. Young. Mr. Chairman, thank you very much and thank the 
Secretary and the General. Thank you for being here.
    I have had just very recently an opportunity to spend a lot 
of time with both of them and have talked about a lot of 
issues.
    But I just wanted to make one comment for the record; and 
you have a good attendance here today, Mr. Chairman, so I am 
not going to use up a lot of time.
    As you know, my wife and I spend a lot of time at the 
hospital at Walter Reed; and we try to establish a relationship 
with all of the soldiers that are wounded in Afghanistan or 
anywhere in the region and stay with them until they either go 
home or go back to their unit. And one thing that runs--a 
thread that goes through all of them is their enthusiasm for 
their training, for their leadership, for their equipment, and 
for the motivation of where they were and why they were there. 
I would tell you, to see these young kids with--missing an arm 
or missing a foot or a leg or in a brace of some kind saying, 
Congressman, how soon can you get me back to the fight--I mean, 
the morale is outstanding.
    That is just a tremendous, tremendous accolade to you and 
all of your leadership, for those who lead these young kids 
into these areas of hostility. You have done a really good job.
    I, for one, appreciate, General, very much your role not 
only in the recent activities but in that 37-year period.
    Secretary White, I will tell you, he is tough. He tells it 
like it is, which is, you know, something that I appreciate 
very much. Because I am not very diplomatic. I just want to get 
right to the core of the thing.
    But you have done such a really good job, and I am happy 
that you feel that this Committee has been very supportive. 
Because that is our direction, that is our intent, to make sure 
that our soldiers have the best training, that they have the 
best equipment, that they have the best planning and that they 
aren't sent off on wild goose chases to do something and risk 
their lives for something unimportant. They are doing something 
extremely important, which is crucial to the survival of our 
Nation as we know it.
    So I just wanted to take those few words to compliment both 
of you and your leadership team that have provided this 
tremendous education and leadership for these young kids that 
serve in our uniform. I appreciate it very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. Gentlemen, you both mentioned the fact that this 
Committee operates very much in a nonpartisan fashion. That is 
in no small part--that is due to the work I have the privilege 
of doing with my colleague from Pennsylvania, Jack Murtha. 
Jack.

                 FISCAL YEAR 2003 SUPPLEMENTAL FUNDING

    Mr. Murtha. There is only one concern I have, and that is 
pay. I understand that the Army is going to be in bad shape if 
you don't get a supplemental by May.
    Now tell me the technical--you know, the services say this, 
and then they seem to find a way to get by. Technically 
speaking, when are we talking about a deadline here? What is 
the answer to this pay problem, Mr. Secretary?
    Secretary White. Well, on the--actually, the OMA 
appropriation, the operation and maintenance appropriation, is 
really a shorter fuse than the personnel accounts. On the OMA 
appropriation, we are looking at the end of April where we are 
going to need a supplemental help beyond our share of the 
omnibus appropriation. The military personnel side is roughly 
June. So in both cases, as opposed to last year where it went 
later in the year, because of the scale of mobilization and the 
scale of the activities, we are on fairly short fuses on both 
accounts.
    Mr. Murtha. Mr. Secretary, every year we hear this, and 
then somebody gives you orders that you have to find a way 
topay it. When is the deadline? Tell us when we have to have a 
supplemental so that you would run out of money and you couldn't pay 
the troops.
    Secretary White. I think that, well, in terms of paying 
people, June. In terms of operations and maintenance, before 
that.
    Mr. Murtha. So we would have to have a supplemental passed 
in May in order to pay the troops and O&M. You can't use the 
Feed and Forage authorities to get by.
    Secretary White. Well, you could. But I think the most 
preferable solution and assuming that the supplemental will be 
here shortly, as you can imagine, there is intense work going 
on on this. But we would like to see it pass before the Easter 
recess.
    Mr. Murtha. That is all I have, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Murtha.
    Mr. Hobson.

                         REMARKS OF MR. HOBSON

    Mr. Hobson. Thank you. I won't be quite as quick. I haven't 
written a book like Jack has. First of all, Mr. Secretary, 
General Shinseki, I want to thank you for your service. You 
have persevered under some difficult times, both of you; and 
all of us are appreciative of what you have done.
    I just have--and I have a number of questions I will do for 
the record. But I have four things I would like to talk about.
    When we were in Kuwait, one the most serious--we always ask 
everybody, what do you need? What do you need to get this done? 
The number one critical thing that we heard was bandwidth. I 
don't have enough. And they are buying--and there are some 
other things in that theater we could talk about. But I want to 
go into three other things real quick.
    I am concerned--I have another hat I am now wearing that 
relates to civil work in the Corps of Engineers. I am concerned 
about what is going to happen to the Corps. Actually, if you 
look at the money, you don't get a new pocket of money if you 
get rid of the Corps.
    Thirdly--I can't give this up, guys, even though I am not 
the chairman anymore of military construction. MILCON is close 
to me. As you know, the housing and things of that sort. I am 
not the chairman now, but I am concerned that MILCON has been 
put on hold, and I am wondering where that money is going or 
going to go or not go.
    Lastly is a thing that I think they need over there. There 
are some things called hemo coolers which are--we can't kick 
out the combat medical support--which is a system for taking 
blood and keeping it at a temperature. And we have tried. And 
you are going to call all of a sudden and want all of these 
things, and they are not going to be ready because we can't 
kick the money out of the combat support medical procurement 
staff at Fort Detrick.
    So those are real quick things.

                        ARMY CORPS OF ENGINEERS

    Secretary White. Let me talk about a couple and let me 
defer the bandwidth discussion to the Chief on the operational 
side.
    As far as the Corps of Engineers is concerned, I think they 
do a magnificent job, in my opinion. If you were to look--you 
have just been in Kuwait--at all of the construction that has 
gone on there to properly bed down and build up this force, 
that is the Corps of Engineers. If you were to look at the Port 
of Beaumont and Corpus Christi where I was a week ago and look 
at the relationship between the Corps and the port authorities 
to deploy major units through those two ports, in my opinion 
and in times like this, the Corps is worth its weight in gold. 
The fact that we can have that capability there largely funded 
by the civil works appropriation is, for me, a great deal.
    Mr. Hobson. And it doesn't cost you any money.
    Secretary White. Right. I think it is a great deal. They 
have done a wonderful job.

                     MILITARY CONSTRUCTION (MILCON)

    On the MILCON fund front, we have funded it at $1.7 
billion, a little over that. You plussed it up last year, which 
we deeply appreciate. We are focusing on barracks and the bills 
necessary for Transformation, and that is what we could afford, 
looking at the total budget. We have worked a whole series of 
things in getting the force ready to be in position should the 
President so order it in the Persian Gulf, not only on the 
medical side, but radios and all sorts of other things. I am 
sure you saw that when you were there.

                              HEMACOOLERS

    I will have to get back to you on the specific issue that 
you brought up about the hema cooler.
    [The information follows:]

    The U.S. Army Medical Research and Materiel Command at Fort Detrick 
is actively moving ahead with this important technology. The Command 
received $250,000 in research and development money in April 2001 for 
development of a low-power blood cooling and storage device. That money 
was provided to Energy Storage Technologies, Inc., of Dayton, Ohio, in 
the form of a cooperative research and development agreement. Energy 
Storage Technologies completed development of the device and provided a 
briefing to the Army on a prototype device on March 4, 2003. Testing is 
required on the device before a full production contract can be 
awarded.

                               BANDWIDTH

    Mr. Hobson. Chief, do you want to talk about bandwidth?
    General Shinseki. I will.
    Congressman, bandwidth really has been an issue for as long 
as I have been in the Army. Even with radios. We had to manage 
frequencies because of the demands for bandwidth and in place. 
What we had to do was you discipline the force on the available 
spectrum that you had, and you allocated it, and we managed 
inside that limitation. What has happened to us was the demand.
    Mr. Murtha. Excuse me. If the gentleman would yield, don't 
you have to buy that, though, from the commercial side?
    General Shinseki. No, it was allocated to us, and we 
operate it.
    Mr. Murtha. But aren't you also buying commercial? Yes, 
sure you are.
    General Shinseki. Yes, we are today.
    Mr. Murtha. Big cost out of O&M.
    General Shinseki. Yes, we are today. But the appetite for 
bandwidth, because it is less specified in terms of 
frequencies, is significant. What we need to do is take a good 
hard look and understand what it is we need and prioritize that 
for what are the most important military functions we have and 
then declare what additional bandwidth is going to be required 
to do what, and some of that is work we have to do.
    Mr. Hobson. They tell us we need another satellite 
positioned better. That is something we need to work on. I 
don't know if we can fix it short term here, but it is 
something we all need to think about. Because this is becoming 
a major part of your operation, the seamless communication 
between everybody, and if we need it we need--I think what we 
are trying to point out is these people feel long term they 
need additional capability that you don't have to buy, sir.
    General Shinseki. Yes, sir.
    Mr. Lewis. Thank you, Mr. Hobson.
    The Committee has long had the support of our Chairman and 
the Ranking Member of the full Committee. Without their help, 
it would be hard to get it done as we try to do, so it is my 
privilege to call on David Obey, Ranking Member of the full 
Committee and in service here.

                   POST-CONFLICT REQUIREMENTS IN IRAQ

    Mr. Obey. Thank you, Mr. Chairman.
    First of all, General, let me simply say I fully agree with 
the statements made by the Chairman about your service. You are 
a first-rate professional, and I think Members of Congress 
respect the fact that you are a straight shooter and will give 
straight information. That is pretty rare on either side of the 
table in this institution.
    Let me ask--and I don't want to get into the question at 
all of whether we should or shouldn't deal with Iraq. That is 
not where I am going at all. I just want to look at some 
questions in terms of the adequacy, the size of our forces over 
the long haul; and let me ask three questions, roughly.
    First of all, in Iraq, if things go less well than we would 
like, if we don't have large-scale surrender of Iraqi troops, 
we don't see a lot of white flags, if we wind up having to kill 
a lot of Iraqi soldiers and if we have got a lot of ethnic 
fighting going on at the same time, what kind of troop levels 
do we think would be required to maintain the pacification 
effort?
    General Shinseki. As you know, Congressman, there is a plan 
in place with a troop list that has been identified by our 
combatant commander; and that troop list addresses all of the 
possible scenarios he anticipates that it could take him to get 
to his final set of objectives.
    Mr. Obey. Let me say I am not talking about how many troops 
we need to, you know, to go in there and do what is needed. If 
things turn out a lot rougher than we expect and hope--and I 
don't think they will be, but if they do--what numbers are we 
talking about on the pacification end after the--after we have 
taken the place?
    General Shinseki. The post-hostilities period?
    Mr. Obey. Yes.
    General Shinseki. Well, again, you know, the best person to 
answer this is the combatant commander who is in the process of 
planning that as a follow-on phase to his current operation. 
The troop list for his current operation also presumes that 
there is going to be a follow-on phase that he has to begin 
process of transitioning through, and the troop list that he 
has declared makes that transition.
    What the final numbers are when they settle out here could 
be, as I have suggested, could be a high-end number. We would 
all hope that it was something less. But these are----
    Mr. Obey. Well, what is the high-end number?
    General Shinseki. Well, it is a number that was provided a 
couple of weeks ago, I believe, it could be as high as several 
hundred thousand. But, again, what goes into determining that 
kind of number----

                       END-STRENGTH REQUIREMENTS

    Mr. Obey. I understand. What I am getting at is this, we 
have got a lot of places where we might have to use troops. I 
mean, we have got Iraq, we have got Korea, we have got other 
problems, minor problems, to say the least. I guess the 
question I am getting at is, when you look at the strain on 
regular forces and if you look also at the heavy use of Reserve 
and Guard forces, do we have an Army that is large enough to do 
the job that we might be called on to do over the next 5 or 10 
years? What is your judgment on that?
    General Shinseki. Well, for the last three and a half years 
in testimony, Congressman, I have been consistent about 
describing the Army as smaller than the mission profiles that 
it has carried, and that continues to be true today.
    Mr. Obey. I mean, my--I don't know what point it is where 
we get to the point where the Reserves--I mean, given the 
surprises that we have delivered to a lot of people in the 
Reserve forces, I don't know how many of them we are going to 
keep when this operation is over. So I think we really need to 
have a frank discussion about what size our active force needs 
to be and I guess what would be your best professional judgment 
about what that level ought to be, say, five years from now if 
we were to be comfortable with having adequate force to do 
whatever job we might be called on to do.
    General Shinseki. Congressman, I am sure there is a right 
number out there, but there are also a lot of numbers that 
could be off the mark.
    I think if there is ever a time that we would have the best 
possible basis for answering that question, looking atwhat 
this--all of our services--but in the case of the Army what we have 
done here through the 1990s and at this particular point in time where 
we are dealing with a war on global terrorism, operations that have us 
in a variety of places, the potential operation in Southwest Asia and a 
potential growing crisis in Korea--potential, I say--I think looking at 
what our responsibilities are to provide responsive options to our 
leadership, this is about as good a time as it is to get to some good 
numbers.
    The Secretary indicated part of this is answering the 
questions about do we have the soldiers who are on active 
service today filling the right positions. That is part of the 
answer.
    The end-strength answer, as I have testified over the last 
three years, is that the Army is smaller than the mission 
profile that it carries. So there is a piece here that deals 
with end strength.

                    ACTIVE AND RESERVE COMPONENT MIX

    But there is also the piece that you are suggesting, that 
is, the right mix between our active and Reserve components. We 
have relied on our Reserve components far more heavily than I 
believe anyone intended when they designed this program. But 
they were always seen as this strategic capability that in the 
case of an unanticipated requirement where we needed immediate 
response that the Reserve components needed to fill that 
transition for us. They have done that magnificently in this 
requirement for additional formations on short notice and many 
of them on very short notice. We have asked them to move, and 
they have done it magnificently.
    Secretary White. If I could add a couple of things to that.
    There are a lot of dimensions to this. One, obviously, is 
the Secretary of Defense has talked about the overall posture 
of the force in Europe, the overall posture of the force in 
Korea and how much of it going forward needs to be forward 
stationed and what changes and changes in posture can we make 
to take advantage of the strategic situation we face going 
forward.
    As the Chief said, the whole business of the Active 
component/Reserve component mix--there are units in the RC 
today that have been repeatedly mobilized over the last three 
or four years, military police, the MP units, for example. The 
question is, does that mean we need more MP units in the active 
component going forward because you can't continue--we have had 
MP units that were mobilized 9/11/01 to 9/11/02, demobilize, 
and some of them are being recalled again. So there is a broad 
range of work going on right now within the Department of 
Defense involving us, obviously, and the combatant commanders 
to get this mix right and the posture right going forward.
    Mr. Obey. Well, I guess all I would say in closing is that 
I know that in the New York Times of March 12 an article 
appeared which said this: Independent Comments. James F. 
Dobbins, who served as special envoy to Afghanistan in the 
current Bush administration, said that even the lowest 
suggested requirement of 75,000 troops to stabilize Iraq would 
mean that every infantryman in the U.S. Army spend six months 
in Iraq out of every 18 to 24.
    Then it goes on to talk about the costs associated with 
that. And I guess the question I would simply raise, sitting 
here knowing the Budget Committee is marking up their budget 
resolution today, is it seems to me if we have this kind of 
potential and the other long-term needs of our Armed Forces, 
not to mention what is going on on the domestic side, but we 
ought to think seriously about whether we can afford any tax 
cut at this time. I don't expect you to get into that, but that 
certainly--I think any prudent person would raise additional 
cautionary flags about the advisability of a tax cut at this 
time.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much, Mr. Obey.
    Mr. Nethercutt.

                         COMBAT FEEDING PROGRAM

    Mr. Nethercutt. Thank you, Mr. Chairman; and welcome, 
gentlemen. Pleased to have you; and thanks to your team behind 
you, too. I know it is a joint effort here.
    Secretary White, I want to talk with you about the combat 
feeding program for a minute. The Army is the executive agent 
which provides one-stop shopping for all the DoD feeding 
requirements from procurement or research through procurement. 
It is a small program, but it is an important one to the 
soldiers in the field and the personnel in the field.
    Congressman Frelinghuysen and I have actively supported the 
program over the years. Despite our efforts, there has been a 
cut by the Army in funding to the program; and we perceive 
there to be additional management bureaucracy attached to it.
    Last October, you sent me a letter saying that the Army 
intends to fully restore funding in the upcoming POM upon 
validation of requirements for fiscal year 2006 to 2009. My 
understanding is that not only was the funding not restored but 
that funding in fiscal year 2004 was cut another $550,000. Is 
that your sense of it? And it may be too precise to recall.
    Secretary White. I will have to get back to the record for 
that. I am sorry, but I don't have the facts right at my 
fingertips.
    Mr. Nethercutt. That is fine. We just think that the 
current program structure should be maintained. I think Mr. 
Frelinghuysen and I agree with it, and the Committee has 
adopted that position as well.
    Secretary White. Thank you. I will look at that and get 
back to you.
    [The information follows:]

    The Army still intends to restore the research, development, test, 
and evaluation funding for the combat feeding program. We see no 
evidence of any $550,000 cut in the fiscal year 2004 program. However, 
Congress directed a fiscal year 2003 cut in the Congressional marks and 
language for reduced program growth. The combat feeding program falls 
under the Combat Feeding, Clothing, and Equipment line. Within this 
line are four other soldier-related projects. Since the Congressional 
language did not specify which program to decrement, a percentage of 
the $4.2 million was taken from all five projects within the line. The 
field feeding program percentage was calculated to be $87,000.

                          LAND WARRIOR PROGRAM

    Mr. Nethercutt. Let me ask you about Land Warrior. This 
year the Army is proposing to take a significant step forward 
with the Land Warrior program. There is a request of $97 
million to begin acquisition and it was zero before. And over 
the Future Years Defense Program, the FYDP, we are going to 
look at $772 million and another $552 million in research. I 
wonder if there have been any changes that you can articulate 
to the Committee with the prime contractor on Land Warrior. I 
am wondering what the Cox technologies--what will be used for 
this system and what the program architecture will be; and that 
may be too technical for you right at this moment. I know you 
have got your hands full on other things, but I know there are 
a number of competing technologies available for incorporation 
into the program, and I am interested to know what your sense 
of the program, the future, will be.
    We are committing, it looks like, $1.2 billion for the 
program over the long haul without being sure exactly what the 
latest iteration of the Land Warrior will involve. Is that 
something you can respond to now or would you prefer to later?
    Secretary White. In addition to providing detail for the 
record, Land Warrior is an integral part of the Objective 
Force. We are pursuing to make the individual soldier an 
integral part of the Objective Force and give them 
extraordinary capabilities. And consequently we have given it 
very, very high priority in its development. I don't know that 
we have made for the 1.0 version specific technology selections 
yet, because we haven't in broader Objective Force in the 
Future Combat System. But as you can see from the way we have 
funded it, we consider it to be tremendously more important, 
and I will get you more detail for the record.
    Mr. Nethercutt. That would be great. I hope you will look 
at the technologies because I have an interest in it, a strong 
interest in it, and hope that these technologies could be 
pursued.
    [The information follows:]

    Although full functionality of the Land Warrior initial capability 
system was achieved during developmental testing, overall developmental 
testing results and low demonstrated reliability in an early functional 
assessment indicated that this system would not likely be reliable 
enough to enter operational testing as originally planned. As a result, 
the program is now concentrating on developing a reliable system for 
meeting the Land Warrior system requirements for Stryker integration 
and will not produce any units in fiscal year 2004. The Army is working 
to re-designate the fiscal year 2004 Land Warrior procurement dollars 
to support additional Land Warrior research, development, testing, and 
evaluation as well as procurement of items under the Rapid Fielding 
Initiative.
    The Army competitively awarded General Dynamics Decision Systems 
(GDDS) the Land Warrior prime contract on January 30, 2003. GDDS has 
total integration responsibility for Land Warrior and will consider 
technologies as they become mature for integration in the Land Warrior 
to meet operational requirements. GDDS will take advantage of 
components available from government agencies, internally designed, and 
commercial off-the-shelf components and technologies. This approach 
minimizes the use of Land Warrior-unique hardware and software and 
utilizes an open system architecture to provide greater flexibility to 
incorporate technology upgrades, reduce intellectual and proprietary 
rights issues, and reduce developmental and support costs. Looking to 
the future, the Land Warrior advanced capability will incorporate 
mature technologies from the Objective Force Warrior science and 
technology advanced technology demonstration and emerging commercial 
technologies to provide the Objective Force soldier with advanced 
capabilities in lethality and survivability.

    Mr. Nethercutt. I would just say two other things if I may 
in the quick moment that I have left. I appreciate, General 
Shinseki, your comments about a year or so ago about a spray 
cooling technology in the Future Combat System, the value of 
that technology in the future platform acquisitions for the 
Army and other services as well. I think it has great potential 
and I hope you still feel that way, that it has potential.
    General Shinseki. We do.

                      COMANCHE HELICOPTER PROGRAM

    Mr. Nethercutt. And finally I would just ask if you could 
for the Committee summarize an update about the Comanche. I 
know there have been numerous restructurings. Are we at the 
last restructuring for Comanche? I am interested to know what 
the status of the program is.
    Secretary White. We in the past year, culminating in a 
Defense Acquisition Board review, have done an extensive review 
of Comanche. We brought in outside people to take a look at it. 
And where we came out was, number one, we are focusing squarely 
on the armed reconnaissance version in the first three blocks 
of the aircraft because our most pressing need is an armed 
scout for the Objective Force that would replace Kiowa Warrior. 
Second, we have changed the structure of the Sikorsky-Boeing 
team into a single program office. Third, we have rebaselined 
the program into what I think--for the last time, I might add, 
into a program that is achievable on the timelines that we 
needed to be. And we have fully funded to our cost estimates 
not only the 2004 budget but in the program out to 2009 when 
the initial fielding would be the program and it is time to 
deliver Comanche as an integral part of this. And we took it 
through the Defense Acquisition Board. Everyone has agreed on 
it and we are off and running. We are going to deliver this 
helicopter. It is critical to the Objective Force.
    Mr. Nethercutt. I agree and I hope we can get a status 
report. I may have a question that I might want to just add for 
the record, if I may, Mr. Chairman; more technical, just some 
benchmarks report. But thanks so much for your testimony. Thank 
you, Mr. Chairman.
    [The information follows:]

    Extensive Army and outside reviews of the Comanche program over the 
past year culminated in a Defense Acquisition Board review. As a 
result, we have focused the program squarely on the armed 
reconnaissance version in the first three blocks of the aircraft 
because our most pressing need is an armed scout for the Objective 
Force that would replace the Kiowa Warrior. A second result was the 
creation of the joint Sikorsky-Boeing program office in an effort to 
improve cooperative development. The third major change was 
rebaselining the program into an evolutionary approach with affordable 
and achievable timelines. I believe this is the last time we will need 
to restructure this program.
    The Army sent Congress a quarterly report on Comanche this past 
February and will send additional reports at the end of April, July, 
and October 2003. We fully funded the Comanche program to our cost 
estimates not only in the fiscal year 2004 budget, but also in the out 
years to initial fielding in fiscal year 2009. We are going to deliver 
this helicopter. It is critical to the Objective Force.

    Mr. Lewis. Mr. Dicks.

                            STRYKER BRIGADES

    Mr. Dicks. Well, I want to welcome General Shinseki and 
Secretary White and I want to associate myself with the remarks 
of the Chairman and the Ranking Member about the service of 
General Shinseki who I think has done a fantastic job. And we 
have watched out at Fort Lewis the first two of these Stryker 
Brigades, and looking forward to seeing this program completed.
    I just would mention that section 8121 of the Fiscal Year 
2003 Defense Appropriation Act requires the Department of 
Defense to program and budget for no less than six Stryker 
Brigades. Now I understand that there is some question about 
this; that we have got approval now on the first four; but the 
last two, the Department is still reviewing it or studying it 
or doing something. Can you advise us on that?
    Secretary White. Yes, sir. As I said in my opening 
comments, the fourth of the six Stryker Brigades is in the 
fiscal year 2004 budget, Second Armored Cavalry Regiment at 
Fort Polk, and the money to support brigades five and six is in 
the program, the fiscal year 2004/2009 program.
    Mr. Dicks. Where is five and six going to be?
    Secretary White. Five is Hawaii, 25th Division; and six is 
in the National Guard in Pennsylvania. We have been asked by 
the Secretary of Defense to complete a study that looks at 
whether modification should be made to the design of the 
brigade to (a) make it more of a transformational step, make it 
look more like a unit of action--for example, the addition of 
aviation and perhaps other things; and then (b) to look at the 
stationing of brigades 5 and 6. We all report to the Secretary 
of Defense on that. We intend to complete that in the near 
future and send it up to him.
    My view is brigades five and six are imperative. We need 
those six brigades. I also think it is imperative that the 
National Guard get brigade six. We have never been more One 
Army than we are today, as you know, from being numerous places 
in the world, and we need to have them a part of 
Transformation, and brigade six does that. So it is in our 
program. We will do the study and have further discussions with 
the Secretary.
    Mr. Dicks. If you made decisions to add capability to five 
and six, I would assume that at some later date those 
capabilities would be added to one, two, three, and four.
    Secretary White. Well, you could do that or----
    Mr. Dicks. Spiral----
    Secretary White. You could say certainly we are going to 
improve one through four over time, and spiraling as Objective 
Force technologies come along. As we are fielding our units of 
action on the Objective Force side, we will look to infuse, 
where it is appropriate, those technologies into the existing 
force which obviously would include brigades one through four.

                       FUTURE COMBAT SYSTEM (FCS)

    Mr. Dicks. Tell me about the status of the Future Combat 
System. You have mentioned that in your remarks and Congress--
as I understand, the fiscal year 2004 budget includes $1.7 
billion in Army research development and funding. Can you give 
us a little more feeling about the Future Combat System and how 
that is going to work?
    Secretary White. Yes. The Future Combat System is a system 
of systems. It includes 19 different systems: manned, unmanned, 
air, ground, Land Warrior for the individual soldier, and, most 
importantly, the network that ties all of this together into a 
Network Centric Force. We have sent out requests for proposals 
for 24 different technology packages to support this. Industry 
is going to give us a tremendous response. I think we are going 
to get back over 300 proposals from industry on this.
    We will package those together into an increment, one that 
will be the first installment as we roll this out. We will look 
at the analysis that indicates that increment one makes sense 
to do, that it is affordable and that the technical risk of 
fielding it in 2008 makes sense; bring all this to a Defense 
Acquisition Board decision in May, and proceed in a system 
design and development from there forward. So it is on track.
    We focused our science and technology, S&T money along with 
the Defense Advanced Research Projects Agency, DARPA to keep 
this on track, and the next three or four months are critical 
between now and May to get this through a successful task.
    Mr. Dicks. I yield to Mr. Murtha.
    Mr. Murtha. This is going to be coordinated with the Navy 
and Air Force?
    Secretary White. Yes, sir; absolutely. And this force is 
designed to work in a joint environment.
    Mr. Dicks. Let me finish this up Mr. Chairman.
    Mr. Lewis. One more question.

                 FUTURE COMBAT SYSTEM--KEY TECHNOLOGIES

    Mr. Dicks. Thank you, Mr. Chairman. What are the areas of 
emphasis on these various technologies that comprise Future 
Combat System? What are some of the things we are talking 
about?
    Secretary White. Number one----
    Mr. Dicks. The 24 Requests for Proposal, the RFPs and all 
that.
    Secretary White. Right. The network and how all of these 
interrelate from a software, computing, communicating 
structure, number one. Number two, a common theme through this 
is our robotic technologies. The Crusader program had an 
automatic loader that we have transferred over. I think that is 
critical. Third, logistics economy. We are seeking to make this 
force as significantly a lower logistic burden than the 
existing force, so we are focusing on that. Four,survivability 
technologies that will give us equivalent survivability of a heavy 
force today at far lower weight. Fifth, intelligence and sensor 
packages. We have an operational concept for the Objective Force that 
says we are going to see first, we are going to decide first, then we 
are going to act and close decisively. There are technology packages 
that focus on the ``see and decide'' in this thing that I think are 
fundamental.
    General Shinseki. Let me just add, Mr. Chairman, if I 
might, the Secretary has outlined for you a very, very 
aggressive program, and the $1.7 billion, Congressman Dicks, 
that you talk about in fiscal year 2004 is really a fiscal year 
2004 piece to an effort that has been underway for about 3 
years. If you look at the President's budget in 2001, 2002 and 
2003, there were decisions made that moved on the order of 
$12.5 billion into science and technology. That has already 
been underway that is going to deliver here in the next year or 
so the kinds of capabilities that the Secretary outlined.
    You all put about another $3.2 billion into the Army's 
accounts to sort of jump-start and give us momentum. So we are 
talking here about $16 billion of effort already accomplished; 
$1.7 billion is the fiscal year 2004 piece, and that $1.7 
billion breaks up into about three big bins: manned platforms, 
unmanned ground, and aerial platforms. So those are two, about 
a third each of that $1.7 billion. And the third is a network 
that makes them capable of acting in a synchronized manner. 
That investment is important because it then allows us to 
deliver that fiscal year 2008 capability we are focused on.
    Some of this plays back to the questions that Congressman 
Murtha asked about a supplemental. If we are not able to take 
care of our 2003 requirements, as you know, what happens is we 
start looking for flexibility in other accounts, and when that 
happens to be this investment in the future, you begin to 
unravel in 2008. So these are fairly well-knitted-together and 
balanced priorities, and our ability to deliver the assurances 
in May that our Future Combat System Milestone B Defense 
Acquisition Board is on track, very much tied to being able to 
hold the $1.7 billion in research and development that is 
itemized for 2004.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you Mr. Dicks. I kind of failed the 
Committee at the very beginning, for I promised myself in the 
future that I am going to say to all of those who are willing 
to listen, who are present, if we have any cell phones, 
``Blackberries'' or any other kinds of berries in the audience 
or otherwise, they should be turned off. They can be heard in 
the hall, but otherwise not in this room.
    Let's see. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman. Jack, The 
Predator, is made in my district.
    Mr. Murtha. That is right. That is absolutely right.
    Mr. Cunningham. We need additional money for production of 
Predator B's that will go to Iraq.
    Mr. Murtha. The more I see about it, the more I agree with 
you. It is marvelous.
    Mr. Lewis. You are doing real good, friend.

                 ENVIRONMENTAL RESTRICTIONS ON TRAINING

    Mr. Cunningham. You raised a question on Comanche. My 
concern is it has been 20 years in production. When I was still 
on active duty, we were talking Comanche. And I know the 
Russians, they have got some pretty good capabilities with 
their helos as well. And my concern is if it has taken 20 plus 
years to develop, are we still putting any modern technology 
into these helos? And so I want to follow that.
    Camp Pendleton is located just north of my district. The 
Marines literally go in off the beach in their amphibs. But 
they have to assemble as a group once they hit the beach, and 
go through a narrow corridor because there's gnat catchers on 
both sides of them. They can't make a full plus assault. They 
can't dig foxholes. They can't do lot of combat maneuvering. 
They are training in some areas where they are limited to 
pushing--literally walking with boxes, acting like tanks. Is 
the Army at its bases facing similar restrictions in training?
    Secretary White. I think we all are, Congressman. That is 
why the Range Preservation Initiative which is the Department 
of Defense-wide initiative which basically is aimed at giving 
us the flexibility to sustain training fundamental to 
readiness, but, at the same time, being good stewards of the 
environment is critical. What tends to happen is that the laws 
are litigated in the courts. The solutions tend to become 
extreme and that produces highly restrictive situations like 
the one that you referred to.
    Mr. Cunningham. So you would say those conditions do exist 
today on restrictions and training?
    Secretary White. Yes.
    Mr. Cunningham. And you need our help.
    Secretary White. Yes.
    Mr. Lewis. If the gentleman would yield for one moment.
    Mr. Cunningham. Absolutely, sir.
    Mr. Lewis. To that point, the National Training Center for 
the Army is located in the Great Mojave Desert, no longer in my 
district but nonetheless the most important training center in 
the world, was held up by way of expansion for years and years 
regarding the desert tortoise. The reason it was held up was 
because the only healthy population of the tortoise that could 
be found in the whole region could be found on the base, 
because the Army was better stewards of land than our other 
agencies that are involved.
    There is enough territory there for four Eastern States. 
And for well over a decade, some of us have been calling upon 
them to plant eggs out in that east Mojave to revitalize that 
population. There is absolutely no consideration of that, while 
in the meantime the stewards get kicked around who happened to 
be training these fine troops that we are talking about on that 
very fine base. Thank you.

                         RESERVE COMPONENT PAY

    Mr. Cunningham. Thank you, Mr. Chairman. I have another 
real problem. My district director in San Diego is a Marine 
Corps Reservist. And he is being called up to deploy to Iraq. 
Our office is going to lose him to a deployment. And during 
Team Spirit, I was the CO of a unit that was responsible for 
that exercise, and we used a lot of Reservists to supplement 
Team Spirit in Korea. And the problem is that when my reservist 
goes from working for me to the Marine Corps, he cannot even 
make his house payments on the Marine Corps pay. I have come to 
find out that we as Members of Congress can't supplement that.
    Secretary White. Can't?
    Mr. Cunningham. Cannot. And I am looking for bonuses, 
anything I can to support this young man and his family. And I 
know that other Reservists lose pay when they go to the Reserve 
active duty, and I just need your help and the Members'. That 
it is something I think that we ask thesemen and women to go 
over, and yet when they do and when they sacrifice for this country, 
they can't even meet their house payments. And you know as well as I 
do, one of the things they want to know when they are overseas is that 
their families are doing okay.
    Secretary White. That is right.
    Mr. Cunningham. So I think it is an area that in Congress 
we really need to take a look at. I don't know what the 
complement should be with looking at the new scenarios with all 
the services in Reserve and Guard, but that is one of the areas 
that really started bothering me when I looked at my own 
district director, that he couldn't even pay his house payment.
    Secretary White. There is significant economic hardship. It 
depends on where you are. If you work for a private sector 
corporation, a lot of times they will equalize the pay. I rode 
around in Afghanistan, Pakistan, in a Guard C-130 where the 
crew all worked for Northwest Airlines. And Northwest Airlines 
equalized the pay so that there wasn't economic--but that is 
not a uniform deal. People that own their own businesses, run 
their own businesses, are particularly hard hit by this. So 
there is significant economic hardship to the extended 
mobilizations.

                               IMPACT AID

    Mr. Cunningham. The last thing I would say is that many of 
us feel that the President was wrong on reducing Impact Aid for 
those people that live off base, and we have a caucus that I am 
sure will override the budget and put that money back in to 
take care of our troops.
    I yield back.
    Mr. Lewis. Thank you, Mr. Cunningham. By the way, every 
President this century has eliminated those Impact Aid monies 
because they know the Congress will put it back in. That is a 
kind of game we play.
    But in the meantime, the ever-patient Mr. Sabo.

                   NON-LINE OF SIGHT CANNON (NLOS-C)

    Mr. Sabo. Thank you, Mr. Chairman. And Secretary, General, 
welcome to the Committee.
    A year ago this Committee was struggling with the issue of 
the Crusader. In the end we added some money, stopped the 
Crusader, but provided $370 million to continue deploying an 
indirect fire system, including a deployable chassis. What has 
happened with the Congress past last year and in consultation 
with the administration?
    Secretary White. The progress has been excellent. We are in 
the midst of executing the 2003 program. We are transferring 
the Crusader technology, the robotic loader, the cockpit, all 
the other pieces of this. We will have a cannon system on the 
common FCS chassis, and I expect that it will be an integral 
part of increment one, and we will begin fielding in 2008. So I 
think it has played out exactly the way we hoped it would as 
the program was restructured last year and as Crusader was 
terminated.
    Mr. Sabo. One of our concerns was the question of how one 
would integrate a fairly large artillery piece on a lighter 
chassis. How is that problem working out?
    Secretary White. Well, I think it is fair to say that on a 
20-ton chassis as opposed to a 37-ton system, a Crusader, that 
you won't get the same caliber-length gun, and that you will 
probably carry fewer rounds; but we will still have an 
enormously capable artillery piece to get after the fundamental 
fire support requirement that remained valid and was recognized 
as valid when Crusader was terminated. Precisely what that will 
be we will know a lot more of as we go through Milestone B here 
in a couple of months, but I expect that this will be a very 
successful development.
    Mr. Sabo. When we acted last year, we put the management 
responsibility with the same program that had been charged with 
developing the artillery system, and my understanding is that 
for 2004 the Army is requesting or proposing combining this 
funding with the Future Combat Systems. Why is that and what is 
the impact of that?
    Secretary White. Well, I don't think it has got any impact 
on the development of the cannon variant of the Future Combat 
System. It is just that because they are all going to be on a 
common chassis, we wished to manage this as an integral part of 
the family. But the pieces of it, the digital cockpit that was 
developed, the gun-cooling technology, all the other things 
that we had invested in in the Crusader program, will be an 
integral part of the NLOS cannon variant and it will go on the 
common FCS chassis.

                     FISCAL YEAR 2003 SUPPLEMENTAL

    Mr. Sabo. Thank you. One further question, Mr. Chairman.
    We don't know the size of a supplemental, but could you 
give us some idea in terms of the additional cost? I expect 
there will be two parts to that, and one is the cost for 
deployment; and then, secondly, whether there is or isn't 
combat, a different type of supplemental--but simply for the 
deployment of the additional funds that are requested, how much 
of those funds that are required go directly to the services 
ratio-wise versus those going to outside contractors that we 
hire?
    Secretary White. I will have to get back to you in terms of 
the split because the contractor is going to be largely in the 
O&M part of the supplemental. The supplemental will be, or our 
request for it is about a little over 90 percent, I would say, 
of either military personnel or O&M, and I will have to get 
back to you with the breakout. And the supplemental hopefully 
will be here shortly and we can make it more specific.
    Mr. Sabo. Are those cost-plus contracts?
    Secretary White. Sir?
    Mr. Sabo. Are they cost-plus?
    Secretary White. I suppose it depends on precisely what 
part of it you are talking about and for what service; whether 
it is construction, emergency construction, or whether it is 
operation of food service or whatever. But I will get back to 
you with more detail for the record.
    Mr. Sabo. Thank you.
    [The information follows:]

    Based on current planning assumptions, up to one-third of the 
Army's supplemental funding may be provided to support contract 
requirements in the Operations & Maintenance and Procurement 
appropriations. Specific requirements, especially for reconstitution of 
the force and recapitalization, cannot be predicted at this early 
stage.

    Mr. Lewis. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Thank you both for your service to our country, and in 
particular, General Shinseki, thank you for your leadership. 
Thirty-seven years ago I had yet to be drafted and you were 
already there. And it is incredible to think of that length of 
service to our country, how proud you must be. We are proud of 
you.
    General Shinseki. I am. Thank you.

                           ARMY COMBAT POWER

    Mr. Frelinghuysen. Our all-volunteer--and we haven't heard 
that term here this afternoon--military has done us proud. And 
for all the talk years ago about what might have been the 
caliber of the young men and the women as an all-volunteer 
force as not meeting the mark, those myths and concerns have 
been dispelled or debunked. I think you and your colleagues 
have done an incredible job, particularly, and it has been 
mentioned, melding the Active and Reserve. It wasn't easy. 
There were characterizations about Reserves and Guard, and I 
think those characterizations today as a result of your 
leadership and your predecessor's has been removed. There is 
more professionalism, better training, better pay. And I like 
to say when I am on the stump, that the Army in particular, but 
the military generally, is the greatest equal opportunity 
employer in the Nation.
    I don't think the military gets credit for it. And maybe 
this is in the way of an advertisement because the Army is 
here, the Army never really gets credit for being the largest 
part of that equation. As you have said on other occasions 
testifying and in my office, you have more troops ready to go 
literally today than any other service--and we are not in the 
business here of beating up on other services--and you have 
more boots on the ground.
    I want to just put out a general question that might be 
considered to be a softball, but relative to the issue of boots 
on the ground, often around this table we talk about the term 
``overwhelming superiority,'' and maybe that has to do with the 
excellence of our Air Force and the overwhelming power that 
they deliver.
    Can you talk a few minutes about the Army's part of that 
equation? Because I think sometimes the Army is too modest 
about what it does, and in some ways has allowed some of our 
fellow citizens to think that wars can be won without losing 
lives and that wars can be won by overwhelming air superiority.
    I don't forget the Marines either. His lips didn't have to 
move. I knew that if there was a whisper--the Ranking Member, 
for the record.
    General Shinseki. Congressman, no question how proud the 
Secretary and I are of our service, but we are also very, very 
proud of the services that stand with us--the great Air Force 
we have and Navy and Marine Corps. But ultimately the issues 
that we deal with are the issues of people, and they continue 
to reside on the ground and ultimately this gets resolved by, 
as we say, boots on the ground. It does not have to be Army 
boots, but it takes people invested on the ground to go and 
bring to finality all the other things that we can do.
    If you want to look at the issue of precision and that gets 
a lot of attention because----
    Mr. Frelinghuysen. Precision, fire power, we have got it.
    General Shinseki. It is sometimes described as a 
counterpoint to ground capability, and I don't think it is ever 
intended to be that way, nor do I think it is a very accurate 
way of describing what our capabilities are or our professions 
are. Precision has a value to the way we prosecute this 
business of combat.
    But there is precision with fires and there is also 
precision with maneuver, and in the business of precision with 
fires, you have two components of that. You have the accurate 
location of a target and then you have the accurate delivery of 
fires. Accurate delivery of fires, I think we have demonstrated 
that we have the technology to be able to do that. We are 
always challenged with that first piece, and that is the 
accurate location of a target. Unless you can bring target 
location error and circular error probability of a location of 
a target and a strike of a weapon, precision is sort of less 
than we would like it to be.
    Where ground forces provide contributions is resolving the 
front end of that, and that is locating, fixing, isolating that 
target so that you can bring to bear precision fires, and so 
there is a complement here. And certainly in the ground 
warfighting doctrine, fires and maneuver are always talked 
about as complementary capabilities.
    In the joint arena, maneuver and fire still have that 
relationship, and a final resolution of most of the scenarios 
that we look at and prepare for ultimately end up on the 
ground. You have those situations in which a target not only 
cannot be identified or located, but even if identified and 
located are conflicted because you have innocents around them, 
and so your fires are not able to be necessarily employed to 
the extent you would like, and it takes, then, ground 
capability to go in there, get the separation you want or to 
take targets down.
    I think we have seen all of our services mobilized for this 
potential operation, and I think all of us have demonstrated. 
As General Jim Jones and I used to say, we were never on an 
overly crowded battlefield. There is enough work for everybody.
    Mr. Frelinghuysen. Great. Thank you.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    Mr. Visclosky.

               ABRAMS AND BRADLEY MODERNIZATION PROGRAMS

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. Mr. Secretary, as I 
understand it, the Abrams and Bradley Fighting Vehicles were 
modernized, were two divisions, but that the proposal now is to 
terminate the modernization program, despite the fact that it 
has not occurred, for the Third Armored Cavalry Regiment. What 
is the rationale for the termination of that?
    Secretary White. Up until this year, our plan had been to 
fully modernize three and a third divisions. The three 
divisions of III Corps: 1st Cavalry, 4th Infantry Division, 3rd 
ID and its cavalry regiment, 3rd ACR. This year we had to make 
some tough choices about how much we could modernize, and the 
core of the modernization is the M1A2, most advanced variant of 
the Abrams, and the Bradley A3 variant.
    This year in making trades that I referred to in my opening 
remarks and needing the money to supportTransformation, we had 
to reduce the modernization to six brigades, two divisions, the 1st Cav 
and 4th ID, and forego the modernization of the other division and the 
ACR. And it was a choice that we had to make in order to fully fund 
Transformation, and we had to limit the degree that we would otherwise 
would have liked to have done in modernization of the existing force, 
and that is the call that we made.
    Mr. Visclosky. How much money would be involved, Mr. 
Secretary, approximately? What was the trade-off moneywise 
then?
    Secretary White. I will have to get the details as to how 
much four brigades' worth would have been to modernize Bradley 
and Abrams, but I will get you those numbers.
    [The information follows:]

    To provide both the 3rd Armored Cavalry Regiment and the 3rd 
Infantry Division with the same vehicle mix that the rest of the 
Counterattack Corps has, consisting of the Abrams M1A2-SEP tank and the 
Bradley M2/3A3 Infantry Fighting Vehicle, the cost would be $1.936 
billion for Abrams tanks and $1.589 billion for Bradley Fighting 
Vehicles. If the Army were to use M1A1 AIM-D with second-generation 
forward-looking infrared radar, the cost would be $165.4 million plus 
$1.589 billion for the Bradley Fighting Vehicles. Other variations of 
the Bradley Fighting Vehicle could also be assessed for such an 
upgrade.

    Mr. Visclosky. I have one or two questions for the record 
on the Abrams Tank and the Bradley Fighting Vehicle.
    [Clerk's note.--Questions submitted by Mr. Visclosky and 
the answers thereto follow:]

    Question. In order to pay for the Army of the future (the Objective 
Force), this Committee has supported the Army's termination and 
reduction of dozens of current programs over the past two years. In 
fiscal year 2004, the Army again asks us to support program 
terminations and reductions--this time a total of 48 programs impacted.
    Two of these programs are the Abrams Tank and Bradley Fighting 
Vehicle. These are the current force's most potent weapons to ensure 
both enemy defeat and soldier survivability. The Army now proposed to 
terminate Abrams and Bradley modernization after fielding of modern 
versions of each vehicle to only two divisions. This leaves the 3rd 
Armored Cavalry Regiment--the other unit in what the Army calls the 
Counterattack Corps--with Abrams and Bradley vehicles that are more 
than 10 years old.
    Please explain your rationale for terminating the M1A2 SEP tank and 
Bradley A3 Fighting Vehicle before fielding to the 3rd Armored Cavalry 
Regiment.
    Answer. The Army favors a pure Abrams tank fleet for III Corps; 
however, as with many other major weapons systems, it is cost 
prohibitive to procure a M1A2 SEP tank for every armored crew. This is 
especially true when considering the significant bills we are faced 
with in order to transform the Army. As a result, the Army has made 
some difficult decisions on equipping the armor corps. The end state 
for the tank fleet based on these decisions will be M1A2SEP tanks in 
the 4th Infantry Division and 1st Cavalry, and M1A1HA, M1A1AIM or M1A2 
tanks in the rest of the active force. We are currently working options 
to buy back M1A2SEP's and M3A3's or M1A1AIM-D+ tanks and M3A2ODS++ for 
3rd Armored Cavalry Regiment giving them the digital architecture to 
communicate with the rest of the digitized III Corps.
    Question. Please provide your analysis of this decision that shows 
how the need to terminate these programs for affordability reasons 
outweighs the operational combat risk.
    Answer. The Army has made some difficult decisions on equipping the 
current force with the most modern and capable equipment. Although we 
have assumed some risk by not producing enough M1A2SEP tanks to equip 
the 3rd Armored Cavalry Regiment and 3rd Infantry Division, we still 
maintain both survivability and lethality overmatch with the current 
tank force. The delicate balance required to transition from the 
current force to the Objective Force will require some acceptable risk, 
but never to the extent of putting our troops at an unacceptable risk.
    Although every armor unit will not be equipped with the M1A2SEP 
tank, all Active Component units, less 3rd Infantry Division, will 
receive a new AIM tank providing even greater survivability, mobility, 
and increased operational readiness rates. The 3rd Infantry Division is 
scheduled to keep their newer M1A1 heavy armor tanks providing them 
with a similar level of armor protection.
    The Army is preparing a response to a Congressional report 
requirement requesting a study on the compatibility of a mixed tank 
fleet and the adequacy of such a mixed fleet to meet the heavy corps 
mission. We except this study to be finished in July 2003.
    Question. Can this Committee be assured that if it provides the 
Army additional resources to procure the required M1A2 SEP tanks and 
Bradley A3 vehicles that the Army will spend the funds for that purpose 
and that the Army will provide the balance of funding required to 
complete that procurement?
    Answer. Yes, to the extent that the Army is continually reviewing 
the delicate balance of the Army's contributions to the Joint war 
fight. Modernizing the 3rd Armored Cavalry Regiment is one of the 
Army's top priorities and every effort will be made to use all 
available assets to accomplish that goal.
    Question. Would the Army be willing to work with the contractors 
for each of these combat vehicles to find an innovative solution to 
resourcing the needed M1A2 SEP tank and Bradley A3s to include zero sum 
movements of funding within each program?
    Answer. The Army shares your concerns about the long-term viability 
of United Defense LP and General Dynamics Land Systems. We have 
initiated a series of discussions with corporate representatives in an 
effort to ensure these facilities can successfully bridge the gap 
between the end of the production of legacy systems and the initial 
production of the Future Combat Systems. We will continue to support 
the Abrams fleet as the Army transitions to the Objective Force, 
maintaining minimal risk on all fronts.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky.]

                 COUNTERATTACK CORPS ARMOR REQUIREMENTS

    General Shinseki. May I add to this discussion, 
Congressman? Three years ago when we began this review of the 
state of the Army, in fact we had a focus on this counterattack 
corps, three and a third divisions. And as we projected forward 
the investments at the end of 10 years, at that would 
accomplish for us if we were to do everything we had described, 
we would have three and a third divisions that were quite 
capable, quite modernized, essentially a heavy force that we 
have today, and the ability to transport it rapidly would still 
be challenging.
    It is on that basis that we went back and took a look at 
whether the Army would be best served with one piece of it, 
this one corps that was wholly modernized, whether it was 
strategically more important for us to go back and look at the 
entire Army and put in place a modern transformation program 
that would give us all of our divisions that would be in the 
same condition as that one corps, all of them capable of being 
moved quickly, being lethal, and having the descriptors that I 
used earlier. A strategic change for us. And we decided to 
refocus our dollars and our energy and to make some tough 
decisions that would give the Army, the entire Army, the 
capabilities that we had been sort of husbanding for a single 
piece of it.
    We think in the long run that will bear out as having been 
the right decision. We understand that whenever you go through 
this transformation, there are pressures on existing members in 
the industrial base. We understand that. And 3\1/2\ years ago 
we made very clear in our early presentations that we could not 
do this, this major change in transformation, without the 
support of industry, and we invited industry to join us. We 
told everyone this would be a bold step, but we needed their 
help to step off, and we would do the best we can to resolve 
risks and work through this.
    There are a number of early beneficiaries of this. The NLOS 
cannon, common chassis FCS business, has already identified 
some members of industry who have already begun to make that 
return on early investments because they are part of this 
effort to make the change. Others took risk on their own and 
stepped off smartly with us and are yet to have the benefit of 
those decisions. Others were a little slower to step off for 
reasons of their own. There may be even some who chose not to 
step off. But there are a variety of categories of situations 
for industry. For the most part, industry has stepped up with 
us. We would not be where we are today--even if we had the 
funding available, we would not be where we are today if 
industry as a whole hadn't supported us in this effort.
    We will continue to look at those concerns that are 
expressed by Members that say they have got periods here that 
have to be bridged, but it is not too late to step off with us, 
and I think it is----

             FISCAL YEAR 2003 FUNDS FOR ABRAMS AND BRADLEY

    Mr. Dicks. Would the gentleman yield just briefly?
    Mr. Visclosky. Sure.
    Mr. Dicks. What are you going to do with the 2003 money for 
these upgrades and the tanks?
    Secretary White. Spend it.
    Mr. Dicks. On something else or on----
    Secretary White. No. In other words, to get the fully 
modernized capability----
    Mr. Dicks. At the Corps you have got to spend the money on 
the 2003----
    Secretary White. Right. We are talking about 2004 money, 
not 2003.
    Mr. Dicks. Right.
    General Shinseki. The 2003 dollars were assigned against 
risks that we did not want to take, and so those dollars are 
being focused on that. It is the 2004 monies that we begin to--
Congressman, it is really beyond the 2004 and it is really 2005 
and 2006, that some of these trend lines begin to drop more 
significantly.

                            LIFE CYCLE COSTS

    Mr. Visclosky. I have a lot of reasons to be proud to serve 
with the members on this Committee. Besides their focus on the 
quality of life of those individual troops, it is also the 
issue of operation and maintenance and spare parts and all 
those things that don't capture headlines. And I share their 
concern particularly as far as the rising cost of readiness and 
the issue of paying attention to life cycle costs during system 
development. And my sense is that that life cycle cost of a 
system generically on average is about 72 percent of the 
overall cost.
    What programs or proposals do either of you gentlemen have 
in place to try to better address that issue? And I understand 
there is always that impulse, and I think it is a natural 
impulse, to get right to that cutting edge of that technology 
or new system but not look at the overall cycle costs in 
maintenance problems that may impose?
    Secretary White. That thrust line is a central part, a 
critical part, of the Future Combat System development. We 
absolutely must reduce the logistic burden associated with the 
Future Combat System over the current heavy force that drives 
the life cycle cost.
    Another part of it is robotic technology. If you look at 
Crusader, and now the FCS Non-Line of Sight Cannon, the biggest 
classed element in the life cycle is the cost of the crew. And 
so if you go to unmanned systems and robotics and become more 
efficient with people going forward, it will also have an 
enormous impact on the O&M cost. So the automatic loader that 
we are transferring over to the cannon in the Future Combat 
System, which allows us to put a significantly smaller crew on 
the cannon, will also have a significant impact on the life 
cycle question.
    So I absolutely agree with you and that is a central thrust 
on the Objective Force. The same with Comanche.
    Mr. Visclosky. Thank you. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Tiahrt.

                      BUSINESS INITIATIVE COUNCIL

    Mr. Tiahrt. Thank you, Mr. Chairman. I would also like to 
add my voice in thanking you for your service to the country. 
You could have done a lot of other things with your life. You 
chose to serve our country, and so thank you very much.
    I want to make a comment to start with. You have started an 
Army Business Initiative Council. I think it is very 
innovative. The Federal Acquisition Regulations are lethargic, 
cumbersome, and they block getting new technologies into our 
soldiers' hands. And I would like to extend an offer to work 
with you to change the process if we can, so we can shorten the 
time it takes to get a good idea in the hands of the people who 
defend this great Nation.
    Secretary White. I look forward to that.

                             TRANSFORMATION

    Mr. Tiahrt. Second, we used to call it modernization, it is 
now transformation. We have an aging Legacy Force and in our 
efforts to upgrade them sometimes we have come up with multiple 
systems out there. We have about four different models of an M-
1 tank, I am told three models of the M-2Bradleys, a couple 
models of the helicopters, Apache helicopters. The Black Hawks have 
more versions than that out there.
    So we have these upgrades that cost a lot with O&M, and I 
think it consumes our resources. How do you balance between 
maintaining some of these items in our Legacy Force with new 
procurement, new ideas? What is the criteria that we are going 
to use in the future to decide whether we maintain an existing 
system or discard it for a new technology?
    Secretary White. Well, let me start, and the Chief can--let 
us take aviation, for example. We have invested over the years 
to put together an aviation fleet with Apache, Black Hawk, and 
currently Kiowa Warrior and, in the future, Comanche, that we 
are paying to upgrade to digital capability and to have a 
common set of helicopters and retire the AH-1s and the Hueys 
that were in our fleet in previous years. So the overall fleet 
is going to be smaller by about 1,000 helicopters. But it will 
be more modern and it will all be digital cockpits, and that is 
the decision we made on how to modernize aviation and bring 
Comanche on as a part of it.
    We will make decisions on block improvements and infusion 
of technology into existing systems as a trade against bringing 
in new systems in the Objective Force. And as you have heard in 
the previous discussion, we have found it necessary to limit 
the modernization of the Legacy Force in order to support 
Transformation because we think there are enormous advantages 
to doing that. But it is a tough call and in this particular 
budget, the call is made in favor of the Transformation side as 
a way to get to the O&S costs and a lot of other things and 
strategic deployability of the force.
    General Shinseki. I would only add, Congressman, that this 
is a challenge that all the services had, and the Army has had 
to walk this line between taking care of today's Legacy Force, 
that force that you go to the unanticipated crises, that go to 
fight wars on short notice, understanding that if you don't 
husband resources and take care of the future, that future 
force is the same one you have today, just older.
    So all of the challenges that you have today about where 
you can deploy, how fast you can deploy, and what it takes to 
sustain it, is just more significant 10 years from now. And so 
what the Army has done over the last three years and where it 
stands today is to have balance, exactly what you asked us to 
do; and that is to ensure that today's force can go and handle 
today's crises, but to put as much energy as we can towards the 
Future Combat System.
    Much of that momentum that we have today came right out of 
this Committee. I mean there was $3.2 billion added a few years 
ago to give us that kind of momentum. It is a challenge. We 
have taken risk in the Legacy Force, but I can tell you that 
the answer I provided to the Chairman in the opening here as he 
asked is this force ready, and I unequivocally said, yes, it 
is, and it can go and do what it is that the President might 
order--I will tell you that that risk has been acceptable in 
our estimation, and we are as confident in this force today as 
we thought we would be here in the year 2003. But at the same 
time, we have put the energy for capability in 2008, 2010, that 
will allow a future Chief, yet again once removed, to be able 
to say that right decisions were made in 2003 to give him the 
best Army in the world in 2008-2009.
    Mr. Tiahrt. I realize this is an open hearing, Mr. 
Chairman, and I would have other questions if it were closed, 
but I think I will just yield back the rest of my time.

                            STRYKER BRIGADES

    Mr. Lewis. We will have many occasions to ask those closed-
door questions. Thank you very much. For the members of the 
Committee but also those who are participating with us, we have 
this room for about another half hour and I know members have 
additional questions. So while we have the opportunity, Chief, 
earlier we talked about Stryker, and I remember your talking 
about the fifth and sixth brigades. I was frankly--while I had 
known, I was nonetheless reminded of the value of that sixth 
brigade being with the Guard and Reserve people, that if they 
are not connected to the future that it has implications that 
are long term. So I was hesitant to even mention the fact that 
Fort Irwin used to be in my district. It is not any longer, but 
I have always wondered why we didn't have a Stryker Brigade out 
there. In the meantime I----
    General Shinseki. There will be a Stryker unit training 
there shortly, Mr. Chairman.

                          STRYKER ACQUISITION

    Mr. Lewis. I specifically wanted to ask you if you would 
elaborate for us with those brigades anticipated, the mission 
requirements that are a part of that asset and what you 
anticipate.
    General Shinseki. May I give a broader answer and then get 
to some specifics?
    Mr. Lewis. Sure.
    General Shinseki. Mr. Chairman, three years ago, if we were 
to go back and visit the discussions we had, I think the 
observation of the Army was it was an Army still Eurocentric, 
very much heavy, and focused on Europe. And the question to the 
Army was how are you looking at your responsibilities more 
broadly and what do you think, what capabilities you need to be 
able to deal in a larger strategic context?
    As a result of some of those discussions, we did take a 
look and I think found ourselves fairly heavy-forced and 
focused in Europe. We were asked to think about the Asia-
Pacific theater, a maritime theater to be sure. The tyranny of 
distance is clear, but ultimately as I indicated, when you get 
to where the problem areas are, they reside on land, and you 
have to have some capability to deal with it. A heavy army with 
70-ton tanks didn't see itself quite capable of providing 
options to the combatant commander of the Pacific.
    We were asked to think about it and we tried to resolve our 
concerns in developing an interim capability that served really 
several needs. One was to solve this gap between early-arriving 
light and later-arriving heavy forces, and we did need 
something that gave us a capability we didn't have, an interim 
force.
    We also understood that if we are going to talk about the 
future force, that initially when we asked about these 
breakthrough technologies that would be available to be used in 
the Army, the early answers were 2018. That is what we were 
asked to think about.
    Well, 2018 was so far in the future we needed a way to pull 
that focal point closer in, and we have asked for a 2008 
capability. But to do that we had to restructure our 
acquisition process. And Stryker then served the second need, 
and that was to run at our acquisition processes, sort of bang 
into things and reorganize the deck chairs into a faster, more 
capable acquisition process. Stryker was described as a 7-to-9-
year effort initially. We have fieldedit in 2\1/2\ years. I 
think we have demonstrated that both the acquisition process and 
industry can respond more quickly, giving us some confidence in the 
2008 date.
    And, equally importantly, the third reason we needed the 
Stryker Brigades was you need a laboratory to grow new 
leadership that is going to think about new organizations, new 
ways of putting together capabilities, new ways of fighting, so 
that when 2008 arrives and the technology is here, you have got 
a leadership that is ready to leverage that.
    For all those reasons, we felt that the interim effort was 
important. How many of these Stryker Brigade Combat Teams--and 
as you know, there were Interim Brigade Combat Teams initially. 
They didn't even have a name because there was no vehicle 
associated with it. There was a range of numbers. We settled on 
six, and the six were located at Fort Lewis, Washington, for 
reasons that were important to us because Fort Lewis has a 
history of mounted operations and we didn't have to put a lot 
of investments in infrastructure. It already exists: ranges, 
motor pools, roads.
    If we were going to address the requirements of the Pacific 
combatant commander, we had to give him more than just a one 
location option and we looked at placing Stryker Brigade No. 3 
in Alaska. We had a requirement to meet the needs of the 18th 
Airborne Corps, our contingency corps, and that required us to 
provide the fourth piece to the 2nd Armored Cavalry Regiment at 
Fort Polk. The fifth was to round out the Asia-Pacific focus, 
and that was decided that to get to Southeast Asia most 
rapidly, a location of a brigade in Hawaii would fit. And then 
the sixth was a more strategic investment and that was for the 
reasons cited by the Secretary, an investment of a sixth 
brigade in a National Guard unit. And the National Guard 
participated in that decision, came back to us and said that 
the best unit should be the one in Pennsylvania.
    We have been asked to relook at the fit, the organization, 
the capabilities, and the locations. We are doing that study 
now, and for all of what has been provided, the early studies 
seem to have been about right; that the capabilities to get to 
the problem areas in the Pacific that the combatant commander 
asked us to look at, put those four brigades on the Pacific Rim 
about in the right locations. But we will review that and 
provide our final studies, as the Secretary said, we are in the 
process of doing. Six is about the right number. It is an 
affordable one.

                 REDEPLOYMENT OF ARMY FORCES IN EUROPE

    Mr. Lewis. Mr. Secretary and Chief, you heard me earlier 
express no small amount of frustration relative to the peace 
option and I kind of pointed a finger at our friends in Europe; 
namely, the French and Germans. I wanted a linkage to scratch 
my head. There is a question I wanted to ask about how you view 
the recent discussions concerning redeployment of U.S. Forces 
from bases in Germany to locations in Eastern Europe.
    Secretary White. Well, Mr. Chairman, the Combatant 
Commander, General Jones, is in the process, as he has talked 
about, of conducting a strategic review to see what our 
positioning should be and our posture should be in Europe, 
looking towards our long-term security interest in not only 
that area of the world but in other parts of the world where 
you could possibly deploy from that portion of the world.
    Our business will be, when he brings that in and the 
Secretary looks at it and decisions are made about that posture 
to line up the Department behind whatever plan is decided, to 
support him and to support the Secretary of Defense. And 
consequently we are active participants in that review, and we 
will just have to wait and see how it comes out, but we are 
deeply involved in that.
    Mr. Dicks. Just on that point, is that why you didn't 
require any military construction in Europe this year?
    Secretary White. We did. We have Military Construction 
projects in Europe in 2004.
    Mr. Dicks. You do.
    Secretary White. And in 2003 as well, yes.
    Mr. Dicks. The Chairman has yielded to me. Thank you very 
much. On the Stryker----
    Mr. Lewis. How much time do you think I am yielding to you?
    Mr. Dicks. Whatever I can get.
    Mr. Lewis. I am going to get to you in a second. Chief, do 
you want to respond to that at all?
    General Shinseki. I would just add, just to reinforce the 
Secretary's comments----
    Mr. Lewis. By the way, I think I may yield over here next 
time. Excuse me.
    General Shinseki. I think in the long term what serves us 
best and how we make our decisions in the near term is to look 
for strategy that has a good description of where we want to be 
in the future. The question may start with do we think there 
will be a NATO in 10 to 15 years. I personally think so and I 
would hope so. Do we see our membership in it as important, our 
leadership in it as important? I think so. And if that is the 
case, what is NATO going to look like in the years ahead and 
how do we see ourselves being contributing members and where 
does that footprint look?
    I think that strategy is being looked at by the Combatant 
Commander and I think we ought to give him time to get to the 
best description that he can provide. And we certainly help him 
with that. But once he has made that plan, that description, 
then we will do everything we can to swing our priorities to be 
able to help him accomplish that, but I do think the long-term 
view is certainly helpful.
    Mr. Lewis. Gentlemen, from time to time, we do have 
questions about the size of our total budget that goes towards 
the military. We have fewer of those questions today than we 
have in the past, but to have you talking about the long range 
is very important to this member, for indeed we spend money 
every year not because we are interested in pursuing war but, 
rather, America is going to lead the world over the decades 
ahead.
    Go out to 2020, our objective is to have peace with the 
world, the Indias, the Chinas, the future leadership forces in 
the world. So that long-range thinking is very important to me.
    Mr. Dicks.

                 HIGH-SPEED SEALIFT SUPPORT FOR STRYKER

    Mr. Dicks. Thank you, Mr. Chairman. The Army has recently 
decided to field a fleet of 12 high-speed vessels, catamaran-
style ships to further its goal of being able to transit a 
Stryker Brigade in 96 hours; is that correct?
    Secretary White. No sir. The program is seven vessels.
    General Shinseki. That is correct. Seven vessels are in our 
program.
    Mr. Dicks. Where are you going to locate that? Do you have 
any idea? I have got a good suggestion.
    General Shinseki. I think in proximity to Stryker Brigade 
locations is probably helpful.
    Secretary White. As you know, Congressman, we tested--we 
have a leased vessel catamaran that carries 55 Strykers. We 
moved the Stryker platoon from the Irwin area----
    Mr. Lewis. The less you dwell on this, Mr. Secretary, the 
better off Mr. Dicks is going to be.
    Secretary White. Okay, never mind. We are working on it.

                      STRYKER AND M113 COMPETITION

    Mr. Dicks. And on the M113 competition, Stryker won hands 
down; is that right?
    Secretary White. Yes, in our view. We did the side by side, 
as was required, and I think you would just ride the back end 
of either of those vehicles maybe 5 minutes and you won't 
require the rest of the tests.
    Mr. Lewis. The gentleman has 30 seconds remaining.

             PATRIOT ADVANCED CAPABILITY-3 MISSILE (PAC-3)

    Mr. Dicks. PAC-3's, why did you still put them in the Army 
budget when Congress has directed you to put them in the 
Missile Defense Agency?
    Secretary White. The Missile Defense Agency is transferring 
control of PAC-3 and MEADS to the Army, and that should happen 
very shortly.
    Mr. Dicks. All right. So you are staying with your 
position?
    Secretary White. Yes, sir.
    Mr. Lewis. Mr. Nethercutt.

            CONSOLIDATION OF THE MILITARY PERSONNEL ACCOUNTS

    Mr. Nethercutt. Thank you, Mr. Chairman. One question, 
gentlemen. I understand that the Office of the Secretary of 
Defense has directed the services to consolidate all military 
personnel appropriations to the Guard, Reserve and Active 
accounts in this year's budget. I have also heard that the next 
step may be toward an effort next year to similarly roll 
together the O&M MILCON accounts. Is that your sense of the 
direction from OSD? And if so, I am wondering what is broken 
about the current process that would necessitate such a move?
    Secretary White. Congressman, I haven't heard of the second 
part of it. The first part of it, I think the consolidation of 
the manpower accounts is for flexibility, but I haven't heard 
anything about the second phase.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Frelinghuysen.

                    CHEMICAL AND BIOLOGICAL WARFARE

    Mr. Frelinghuysen. With all the talk of mobility and 
getting back to boots on the ground, the thought that the 
battlefield could be littered with biological and chemical 
agents is a most frightening prospect. I am not sure what you 
could say here in this setting, but obviously news reports 
point to alleged inadequacies in terms of training and thinks 
of this nature. I have no doubt that you have given your full 
concentration to all the possibilities and to all what I think 
you classified as unpredictables.
    Can you give us some higher level of reassurance that those 
many troops on the ground are prepared for every eventuality?
    General Shinseki. Congressman, as I have indicated earlier, 
this is the toughest part of our mission preparation. First of 
all, there are lots of unknowns, but what we do know about it 
we have taken steps to safeguard and protect and prepare our 
soldiers. As I indicated, over the past 6 years, 19 new 
chemical and biological defense systems, detectors; first of 
all, five detectors for chemical and biological agents that we 
didn't have in Desert Storm. Part of this has been a new 
protective overgarment and a new mask that replaces the one 
that we had and that every service member who deploys has four 
sets. That is a capability.
    Now, we have taken our soldiers and put them in the most 
trying training conditions, and you operate fully protected 
with your mask on for a period of time to get you used to the 
discipline and stamina that goes with operating in this 
environment. And whether it is February at Fort Stewart, 
Georgia, or August in the National Training Center on a 
training exercise, you can expect that you will be fully 
protected and you will have to operate in that condition and 
complete your battle tasks as a part of that training scenario.
    So I will tell you that we have made major efforts at 
preparation for the last year now. If you see the film footages 
of our formations that are forward in the area of 
responsibility today, a good portion of what you see are people 
operating that equipment. There are still unknowns, but our 
confidence level at being able to operate in this kind of an 
environment is significant.
    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    Mr. Visclosky.

                            FORCE STRUCTURE

    Mr. Visclosky. Mr. Chairman, thank you very much. I do 
appreciate the work you do in transformation in trying to gain 
control over obviously a very large organization and ingrained 
cultures and habits and interests in trying to make a 
fundamental change. I would associate myself with the point Mr. 
Obey had made earlier, though, as far as the absolute size, 
given the TEMPO of operation, the commitments that have been 
made, the increased mobilization of Guard units and Reserve 
units, the changed demographics of enlisted personnel as far as 
their marital status and family-in-distress deployments cause 
in that situation, that we are not going to have the 
determination of that today or in the immediate future.
    But at some point I do think we are going to have to 
examine whether we have enough people. Because in the end, as 
you both state in your testimony, each one of those individual 
Americans who have put that uniform on and decided to risk 
their lives for our interest are the most important components; 
and the question, ultimately, is you don't want to wear them 
out and their families out, too.
    I am not really asking a question, but I do think you 
raised a very fundamental and important point.
    General Shinseki. There is no disagreement here, 
Congressman. We are, you know, in agreement with you--violent 
agreement, in fact.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much, Mr. Visclosky.
    We are coming close to the end of this hearing, but I 
wanted to make a few comments in connection with all of this.
    I mentioned earlier that oft times we are criticized for 
the portion of the national budget that goes to the national 
defense. It gets close to, among discretionary dollars, to half 
of our total national budget. Those of us who have been on this 
Committee for years have constantly tried to remind people that 
one of the very few really, really important reasons for 
national government in the first place is to secure our 
democracy and our freedom. Indeed, today, people understand 
just how important our being ready and prepared and doing the 
R&D, et cetera is. We don't hear very many calls about reducing 
numbers of troops at this moment, while not so long ago that 
was almost the byline around here.
    We don't hear very many expressions of concern about 
recruitment, for example. We are breaking records regarding 
recruitment in the Army presently, and not so long ago our 
frustration was where do you find those volunteers and how do 
we pay them enough to keep them.
    It is an evidence that when America is challenged our 
people respond, and it is reflected in the services across, but 
especially in the Army.
    Mr. Secretary, I want you to know how much I appreciate 
your personal service here. You have made a very extended 
commitment beyond what most could ever ask, and you have 
carried forth this job extremely well, and I appreciate that.
    Secretary White. Thank you, sir.
    Mr. Lewis. Speaking to my friend the Chief, Eric Shinseki, 
I will never forget--just very shortly after I was first given 
the privilege of having this job 4 years ago, I went to the 
swearing in of the new Chief of the Army; and I learned in that 
process that this fellow, when he was born in Hawaii, was a 
foreign alien, World War II time. Think of what it says about 
America to have a foreign-born alien now the Chief of the U.S. 
Army.
    Think of what it means further to have that leader, after 
37 years, not just lead the Army but do it so well. Indeed, it 
is a very, very impressive reflection of our process; and we 
ought to all be grateful for the fact that our system works as 
well as it does. America leads the world because they have got 
people who can help us lead.
    So, with that, if there are no further questions, the 
Committee is adjourned. Thank you, gentlemen, very much.
    [Clerk's note.--Questions submitted by Mr. Hobson and the 
answers thereto follow:]

                   Family of Medium Tactical Vehicles

    Question. The biggest Army procurement is the acquisition of 83,170 
trucks and 10,000 trailers for a total of approximately $18 billion 
through the year 2024. Later this month--on March 26, 2003--the Army is 
to choose between two vendors who have been in a ``bake off'' to sell 
the next version of the FMTV.
    Is this competition moving on schedule?
    Answer. The Army is nearing contract award. The FMTV A1 competitive 
rebuy contract award has been delayed until April 2003 while two 
remaining certifications/notifications are provided to Congress.
    Question. Will there be a gap between the end of the current 
contract and deliveries under the new contract?
    Answer. There will be no gap between the end of the current 
contract's deliveries and deliveries under the new contract.

                        Army Corps of Engineers

    Question. It is being suggested that the Army Corps of Engineers--
particularly the civil side--does not belong in the Army.
    What was behind this proposal, and has the idea now been 
discredited?
    Answer. One of the high priorities of the Secretary of Defense has 
been to reduce or eliminate activities within the Department of Defense 
that divert resources away from the primary defense mission. As part of 
this review, options were considered that could have led to the 
transfer of the Army Corps of Engineers Civil Works program to other 
agencies. The Army has no such initiative underway, nor has the Army 
been asked to undertake such an initiative. We understand that this 
matter is no longer being considered.
    Section 109, Division D, of the fiscal year 2003 Omnibus 
Appropriations Act expressly prohibits use of any funding for this 
purpose in fiscal year 2003. The Civil Works program is resourced 
separately from other Army and Defense Department activities, so there 
is no question of diversion of military resources. Moreover, the Civil 
Works program provides a trained and ready engineering and scientific 
workforce within the Army, available to be reassigned as needed to 
defense missions such as environmental restoration of oil fields or 
rebuilding infrastructure in Kuwait, Bosnia, and Kosovo.
                              hemacoolers
    Question. For the third year in a row, fiscal year 2003 contained a 
plus-up from me for Portable Low-Power Blood Cooling and Storage 
Devices (``Hemacoolers''). You need this system now for portable, low-
energy use, blood storage in forward deployed units.
    How can I encourage the Combat Support Medical Procurement staff at 
Fort Detrick to move ahead on this?
    Answer. The U.S. Army Medical Research and Materiel Command at Fort 
Detrick is actively moving ahead with this important technology. The 
Command received $250,000 in research and development money in April 
2001 for development of a low-power blood cooling and storage device. 
That money was provided to Energy Storage Technologies, Inc., of 
Dayton, Ohio, in the form of a cooperative research and development 
agreement. Energy Storage Technologies completed development of the 
device and provided a briefing to the Army on a prototype device on 
March 4, 2003. Testing is required on the device before a full 
production contract can be awarded.

                       Rotational Force in Europe

    Question. General James Jones, Commander of United States Forces in 
Europe, has discussed the possibility of moving to a United States 
presence in Europe made up of (1) troops on short term rotation, (2) 
families left at home in the U.S., and (3) ``lily pad'' compact bases 
scattered in the New (Eastern) Europe and Africa. Camp Bondsteel would 
be a model. Such an approach would fall heavily on Heidelberg and the 
heavier United States Army. What is the Army opinion of this vision?
    Answer. The Army Staff has been directed to conduct an extensive 
review of Army strategic posture looking out over the next ten years to 
ensure that the Army is able to meet all the requirements of the 
combatant commanders and is well positioned to seamlessly transform to 
the Objective Force. Concurrently, the Secretary of Defense has 
directed that his staff, the Joint Staff, and the combatant commanders 
review future posture, overseas basing, and rotation policies. The Army 
is working in close coordination with these efforts to ensure the 
synchronization necessary to meet the Army's responsibilities for 
flexible power projection and sustained land dominance as part of the 
Joint Force. We will continue to work closely with the combatant 
commanders, the Joint Staff, and Office of the Secretary of Defense to 
develop and ensure the appropriate posture to meet both the current 
strategic requirements and the future challenges to our national 
security.
    Question. Are all military construction projects in Europe on hold 
and is it because of this? Or something else?
    Answer. The Office of the Secretary of Defense is withholding 
fiscal year 2003 military construction funding for Germany while 
General Jones conducts a review of force structure, stationing, and 
related infrastructure requirements in Europe. The Secretary of Defense 
has asked him to revalidate projects for the fiscal year 2003 and 
fiscal year 2004 military construction program within 30 to 60 days. 
This allows the Army to perform a more detailed assessment of facility 
requirements. Upon receipt of this assessment, project level execution 
plans will be developed to accommodate required changes to the current 
program.
    Question. Is there the same situation for military construction 
projects in Korea?
    Answer. Yes, the Korea combatant commander is also conducting a 
review of force structure, stationing, and related infrastructure 
requirements. We plan a similar relook at our construction program.

                  National Guard and Reserve Personnel

    Question. In a September 13, 2002, letter to Defense Secretary 
Rumsfeld, with a copy to you (Secretary White), I complained about the 
misuse of the Guard and Reserve. Part-time reservists are being turned 
into full time soldiers through extended and unpredictable active duty 
assignments. While reservists are more than willing to do their share, 
especially in a time of crisis, they signed on with the expectation 
that periods of active service would be relatively short.
    Are we using the Guard and Reserve instead of asking for the higher 
level of Active Component troops actually needed?
    Answer. When our endstrength was reduced to 480,000 several years 
ago, the Army chose to put the preponderance of some low-density 
specialties into the Reserve Component in order to maximize the Active 
Component combat power available for response to contingencies. Since 
that time, the level of contingency operations has risen, forcing us to 
draw from the Reserve Component for the soldiers with the right skill 
sets to support these deployments. We have had over 30,000 Reserve 
Component soldiers mobilized continuously since 9/11. I have testified 
that I believe the active Army is too small for its current mission 
profile. That said, there are a number of initiatives in process to 
address this issue. We are working to ensure that we optimize the mix 
of specialties in the Active and Reserve Components, as currently 
sized. We are also striving to use existing endstrength most 
efficiently through our Third Wave initiative, which aims to keep 
soldiers and Army civilians assigned to positions that are part of the 
Army's core competencies. Finally, we are using the flexibility 
Congress has provided us to mitigate the stress on our Reserve 
Components.
    Question. What is your active strength and what should it be?
    Answer. The Congressionally mandated fiscal year 2002 Active Army 
end strength was 480,000. However, nothing has changed since my last 
testimony--the Army is too small for its mission profile. The reality 
is that our operations tempo, already challenging before 9/11, has 
increased dramatically in the post 9/11 environment. Over the past 18 
months, mobilizations have maintained a steady state of approximately 
30,000 Reserve Component soldiers, effectively increasing our active 
duty strength to approximately 510,000. We recognize the necessity to 
ensure we look internally to obtain all possible efficiencies prior to 
making any determinations on potential end strength increases.
    A study is currently underway to review Army non-core 
competencies--the Third Wave--with the expectation that some personnel 
savings will be generated for use in mitigating ``force stress.'' 
Additionally, we are fully cognizant of the stress that this steady 
state mobilization is placing on our Reserve Components. Studies are 
underway to determine the correct balance of Active and Reserve forces, 
including an analysis exploring options for mitigating the current 
stress to the Reserve Component by ensuring that the correct type units 
are resourced within the Active Component.
    Question. What percent of the mission is done by the Active 
Component, the Guard, and the Reserve?
    Answer. First of all, the Guard and Reserve personnel we have 
mobilized have done an outstanding job and have been a valuable asset 
in the fight against terrorism. As for the percentage, the Active 
Component does roughly 60 percent of the mission and the Reserve 
Component does about 40 percent of the mission. As the war on terrorism 
continues, we will continue to rely heavily on the Reserve Component 
for critical specialties such as civil affairs, Special Forces, 
military police, and military intelligence.
    Question. Do the Guard and Reserve requests for equipment and 
military construction projects reflect their share of the mission?
    Answer. The Guard and Reserve continue to play an important role in 
the Army's missions and are being modernized and transformed along with 
the active forces. Equipment and military construction projects for all 
components are based on the requirements generated from The Army Plan 
and the Defense Strategy. This equipping is taking place across mission 
sets.
    In recognition of the vital role played by the Reserve Components, 
the Army plans to convert a Reserve Component brigade in Pennsylvania 
to a Stryker Brigade. This conversion will enhance our strategic 
reserve and support the war on terrorism, small-scale contingencies, 
and homeland defense missions. All associated critical equipment and 
military construction projects are funded for this conversion. 
Similarly, for the Army's Aviation Transformation Plan, the Reserve 
Components have been funded alongside their Active Component 
counterparts.
    Additionally, the Army continues to implement the Army National 
Guard Division Redesign Study (ADRS Phase I & II), a process that will 
convert six Army National Guard combat brigades to combat support and 
combat service support structure. In addition to ADRS, the Army has 
begun planning for the implementation of the Army's National Guard 
Restructure Initiative, an initiative that will convert additional 
heavy combat brigades to mobile light infantry brigades in order to 
take into account the new strategic roles and missions of our Reserve 
Components.
    Finally, there are many other force structure changes that will 
require new equipment and construction for the Reserve Components, and 
these are based upon the requirements of the Defense Strategy. These 
changes include additional biological detection companies, civil 
support teams, military police, military intelligence, engineers, and 
other similar units. Guard and Reserve forces are being equipped for 
these critical missions.

               Abrams and Bradley Modernization Programs

    Question. In order to pay for the Army of the future (the Objective 
Force), this Committee has supported the Army's termination and 
reduction of dozens of current programs over the past two years. In 
fiscal year 2004, the Army again asks us to support program 
terminations and reductions--this time a total of 48 programs impacted.
    Two of these programs are the Abrams Tank and Bradley Fighting 
Vehicle. These are the current force's most potent weapons to ensure 
both enemy defeat and soldier survivability. The Army now proposed to 
terminate Abrams and Bradley modernization after fielding of modern 
versions of each vehicle to only two divisions. This leaves the 3rd 
Armored Cavalry Regiment--the other unit in what the Army calls the 
Counterattack Corps--with Abrams and Bradley vehicles that are more 
than 10 years old.
    Please explain your rationale for terminating the M1A2SEP tank and 
Bradley A3 Fighting vehicle before fielding to the 3rd Armored Cavalry 
Regiment.
    Answer. The Army favors a pure Abrams tank fleet for III Corps; 
however, as with many other major weapons systems, it is cost 
prohibitive to procure a M1A2 SEP tank for every armored crew. This is 
especially true when considering the significant bills we are faced 
with in order to transform the Army. As a result, the Army has made 
some difficult decisions on equipping the armor corps. The end state 
for the tank fleet based on these decisions will be MlA2SEP tanks in 
the 4th Infantry Division and 1st Cavalry, and M1A1HA, M1A1AIM or M1A2 
tanks in the rest of the active force. We are currently working options 
to buy back M 1 A2SEP's and M3A3's or M1A1AIM-D+ tanks and M3A2ODS++ 
for 3rd Armored Cavalry Regiment giving them the digital architecture 
to communicate with the rest of the digitized III Corps.
    Question. Please provide your analysis of this decision that shows 
how the need to terminate these programs for affordability reasons 
outweighs the operational combat risk.
    Answer. The Army has made some difficult decisions on equipping the 
current force with the most modern and capable equipment. Although we 
have assumed some risk by not producing enough M1A2SEP tanks to equip 
the 3rd Armored Cavalry Regiment and 3rd Infantry Division, we still 
maintain both survivability and lethality overmatch with the current 
tank force. The delicatebalance required to transition from the current 
force to the Objective Force will require some acceptable risk, but 
never be to the extent of putting our troops at an unacceptable risk.
    Although every armor unit will not be equipped with the M1A2SEP 
tank, all Active Component units, less 3rd Infantry Division, will 
receive a new AIM tank providing even greater survivability, mobility, 
and increased operational readiness rates. The 3rd Infantry Division is 
scheduled to keep their newer M1A1 heavy armor tanks providing them 
with a similar level of armor protection.
    The Army is preparing a response to a Congressional report 
requirement requesting a study on the compatibility of a mixed tank 
fleet and the adequacy of such a mixed fleet to meet the heavy corps 
mission. We expect this study to be finished in July 2003.
    Question. Can this Committee be assured that if it provides the 
Army additional resources to procure the required M1A2SEP tanks and 
Bradley A3 vehicles that the Army will spend the funds for that purpose 
and that the Army will provide the balance of funding required to 
complete that procurement?
    Answer. Yes, to the extent that the Army is continually reviewing 
the delicate balance of the Army's contributions to the Joint war 
fight. Modernizing the 3rd Armored Cavalry Regiment is one of the 
Army's top priorities and every effort will be made to use all 
available assets to accomplish that goal.
    Question. Would the Army be willing to work with the contractors 
for each of these combat vehicles to find an innovative solution to 
resourcing the needed M1A2SEP tank and Bradley A3s to include zero sum 
movements of funding within each program?
    Answer. The Army shares your concerns about the long-term viability 
of United Defense LP and General Dynamics Land Systems. We have 
initiated a series of discussions with corporate representatives in an 
effort to ensure these facilities can successfully bridge the gap 
between the end of the production of legacy systems and the initial 
production of the Future Combat Systems. We will continue to support 
the Abrams fleet as the Army transitions to the Objective Force, 
maintaining minimal risk on all fronts.

                       Stryker/Mobile Gun System

    Question. Modernization of the Stryker family of vehicles is 
generally considered a success story. Stryker is going from ``factory 
to foxhole'' faster, perhaps, than any other major system.
    The Mobile Gun System (MGS) represents the vehicle in the Stryker 
family that will bring the most combat power. The fiscal year 2004 
request funds procurement of Strykers for the 2nd Armored Cavalry 
Regiment, a unit that will have more MGS vehicles than any other 
Stryker unit. Is this procurement rate adequate? If not, what would it 
take to accelerate it?
    Answer. Yes, the procurement rate is adequate. The initial low-rate 
production decision is scheduled for December 2003 with first unit 
deliveries scheduled for December 2004. First unit fieldings to 3rd 
Brigade, 2nd Infantry Division, will occur in late 2004 to support the 
MGS initial operational test and evaluation. The 2nd Cavalry Regiment 
will begin receiving MGSs in the second quarter of fiscal year 2005.
    Question. The cannons for the Motorized Gun System (MGS) are made 
at the Watervliet Arsenal. These cannons require 18 months of 
production lead-time. Does the procurement request address, adequately, 
this lead-time or is there the possibility of a delay.
    Answer. Correct, Watervliet Arsenal is the manufacturer of the MGS 
cannon, and it requires 18 months lead before its production is 
complete and it can be installed into the platform. The additional 
funds provided in the FY04 congressional marks adequately address the 
procurement of this specific subcomponent of the MGS.

                    Armored Vehicle Launched Bridge

    Question. One of the 24 programs proposed for termination is the 
Armored Vehicle Launched Bridge (AVLB) Upgrade Program, a tactical 
assault bridge. The AVLB was supposed to replace the recently 
terminated Wolverine Heavy Assault Bridge program. Is there any 
allegation that the AVLB cannot do the job?
    Answer. The Armored Vehicle Launched Bridge (AVLB) is capable of 
providing the maneuver commander assault bridging capability on the 
battlefield within limitations. The AVLB was not designed to replace 
the Wolverine. The Wolverine was developed to replace the 1960s 
technology AVLBs; however, the program was terminated in fiscal year 
2000. The AVLB continues to provide the majority of the assault 
bridging capability in the Army today. The AVLB comes on two separate 
chassis, the M48A5 and the M60A1. Both versions can carry the military 
load classification (MLC) 60 or MLC 70 ton bridges that can support, 
with restrictions, gap crossing for the M1 Abrams tank. To support the 
M1 tank crossing on the MLC 60 bridge, a high-risk gap crossing must be 
conducted and limits the maximum crossing distance to 15 meters. The 
MLC 70 bridge is capable of supporting the M1 tank crossing up to 18 
meters.
    The Army currently has 79 MLC 70 bridges in the inventory. In the 
area of capability, the AVLB cannot keep pace with the newer Abrams and 
Bradley vehicles it supports. To mitigate the termination of the 
Wolverine program, and to provide a more reliable AVLB, the AVLB 
recapitalization program was developed. The AVLB recapitalization 
program was to provide both readiness and performance enhancements to a 
select number of the AVLB fleet. The program was designed to provide 65 
AVLBs upgrades for the electronics, hydraulics, track, transmission, 
and final drive and provide MLC 70 bridge capability. The remaining 
AVLBs would have received the electrical and hydraulic upgrades and any 
modification work orders not applied to the vehicles. This program was 
terminated in December 2002 with the Army assuming risk in assault 
bridging capability to fund higher priority programs. The remaining 
fiscal year 2003 funding will continue to allow electrical and 
hydraulic upgrades for 54 systems. The 54 systems will support the 
Counterattack Corps, augmented with the 44 Wolverine Heavy Assault 
Bridges procured.
    Question. How will the Army perform its assault bridging mission in 
Iraq or in any other conflict?
    Answer. The Wolverine and both AVLB variants are supporting the 3rd 
and 4th Infantry Divisions in Iraq. Currently, the Army has 44 
Wolverines programmed, with 25 fielded to the 4th Infantry Division. 
Ultimately, the 4th Infantry Division and the 3rd Armored Cavalry 
Regiment will only have the Wolverine heavy assault bridge. The 
remainder of the Army will continue to be supported by the AVLB (with 
MLC 70 or MLC 60 bridges). These are assigned to mechanized engineer 
units at the division and corps level and to the armored cavalry 
regiments.

              Preparations for Military Operations in Iraq

    Question. One weekend ago, I had the privilege of traveling with 
Congressman Jack Murtha and Congresswoman Nancy Pelosi to Qatar and 
Kuwait. The purpose of the trip was to review the preparations for 
possible military action in Iraq. Our soldiers are all ready, 
motivated, and a great credit to the United States.
    Inevitably, the congressional delegation asked ``what do you need 
from us?'' The principal response was ``more bandwidth for 
communications.'' Despite buying commercial, there is still not enough. 
How can we help?
    Answer. Both military and commercial satellite communications would 
be used extensively in any potential operations in Iraq. Units deployed 
to the Persian Gulf have sufficient bandwidth to accomplish their 
missions, although additional satellite hardware and bandwidth would 
provide more flexibility to execute operations.
    Question. The next response was ``more SOF (Special Forces) troops 
and helicopters.'' How can we help there?
    Answer. In response to the increasing demand for Army Special 
Operations (ARSOF) support to Joint force commander campaign plans, the 
Army has validated and resourced growth in its SOF structure. Army 
support to SOF aviation, combat service support, Special Forces, civil 
affairs, Rangers, and psychological operations has been critical to the 
SOF transformation strategy. The agreement between the Army and the 
United States Special Operations Command (USSOCOM) to transfer 1,788 
manpower spaces to Major Force Program (MPF)-11 beginning in fiscal 
year 2003 is the first step in the U.S. Army Special Operations 
Command's transition toward their Objective Force. The Office of the 
Secretary of Defense's (OSD's) recent Program Decision Memorandum (PDM-
1) directed the Army to transfer an additional 677 manpower spaces in 
fiscal year 2004 to support USSOCOM and enhance ARSOF aviation and 
psychological operations. This represents a transfer of 2,465 spaces 
from the Army to USSOCOM in support of SOF transformation.
    Since the commencement of ARSOF operations in support of the global 
war on terrorism, the Army has provided over $1 billion in new 
equipment to enhance ARSOF firepower, communications, and ground and 
air mobility. PDM-1 also directs the Army to transfer 16 CH-47 aircraft 
to USSOCOM in support of SOF aviation. OSD has identified a total 
shortfall for USSOCOM of 24 MH-47 aircraft. Given the mission levels 
and existing shortfalls in the Army CH-47 fleet, the Army would request 
Congressional funding assistance directly to the USSOCOM MPF-11 funding 
line for the procurement of the eight additional MH-47G new builds to 
meet the USSOCOM MH-47 shortfall.
    The future SOF Objective Force will meet Secretary of Defense and 
combatant commander requirements with enhanced lethality, precision, 
speed, stealth, survivability, and sustainability.
    Question. Although you have done a Herculean job with this most 
difficult deployment, some of it was so fast that it lacked 
coordination. The example given is: delivery of trucks before arrival 
of drivers. What can be done to synchronize and sequence this?
    Answer. Without a specific unit example, we cannot know whether the 
deployment plan intended for the trucks to show up before the drivers. 
In many instances, equipment is scheduled to arrive first to avoid 
soldiers sitting idle waiting for their equipment. As part of routine 
procedure, ports of debarkation have the capability to move vehicles 
and equipment to staging areas. In many cases, a unit advance party 
will arrive in conjunction with the equipment and prepare for the 
arrival of the unit's main body. Specific examples of drivers scheduled 
to arrive in advance of unit equipment, but did not arrive as scheduled 
would need to be reviewed on a case-by-case basis. Considering the size 
of the deployment, it is possible that personnel and equipment 
schedules were altered, thereby causing synchronization problems. The 
Army will gather lessons learned to identify improvements as a part of 
our efforts to improve the synchronization of personnel and equipment 
arrivals.
    Question. I understand that there is a plan to arm and uniform a 
band of rag-tag Iraqi dissidents. Are you comfortable enough with this 
group to put the imprimatur of the United States of America on them? 
What legal implications does this have?
    Answer. I believe an operational question such as this is best 
answered by the Combatant Commander, United States Central Command. As 
for the legal implications I would again defer to the Combatant 
Commander and his legal staff.

    [Clerk's note.--End of questions submitted by Mr. Hobson. 
Questions submitted by Mr. Bonilla and the answers thereto 
follow:]

                     Small Unmanned Aerial Vehicles

    Question. Secretary White, as we have discussed before, I am very 
interested in the new capabilities that Unmanned Aerial Vehicles (UAVs) 
are showing on the modern battlefield. UAVs are now being recognized as 
a vital tool.
    I was pleased to see that the budget substantially increases our 
investment in UAVs. However, this increase will go primarily to larger 
UAVs. I believe that there is still tremendous need for a small UAV. I 
know the Army has been examining this issue for some time now, but the 
time has come to get a small UAV on the battlefield.
    Currently, the Congressionally funded Buster UAV, is mature enough 
to serve our ground forces. Buster weighs only ten pounds and has a 
night vision sensor. It is fully automated from take off to landing. It 
also has the ability to have way points programmed into the flight 
management system and accept inflight changes.
    What role do you see for smaller UAVs (UAVs that are carried with 
the soldier)?
    Answer. Unmanned systems will be a critical component at all levels 
of the FCS initiative. Current Army small unmanned aerial vehicle 
(SUAV) use is in the initial testing and developmental stages. SUAVs 
will provide an ``over-the-hill or building'' tactical reconnaissance 
and surveillance capability--a capability that currently does not 
exist. With this capability, the squad could have ``eye in the sky'' 
ability, as well as the ability to observe in an urban setting.
    SUAVs are envisioned as part of a family of UAVs identified as 
Class I (backpackable) and Class II (off the fender). All are hand-
launched, reusable SUAVs using existing commercial off-the-shelf 
technology. SUAV ground control stations are envisioned as small, 
handheld rugged computers ranging in size from laptop to personal 
digital assistant size capable of flight planning, flight monitoring, 
and video storage. The Army intends to pursue a common control 
interface for the SUAV ground control stations. This will ensure the 
ground control station is compatible with all SUAVs in use.
    Buster, a small, fully-automated UAV in its fourth year of 
development, is among several potential candidates that can respond to 
the request for proposal issued in response to the FCS requirements.
    Question. What is the Army doing to bring small UAVs to the 
battlefield?
    Answer. The Army currently has several advanced concept technology 
demonstrations (ACTD) ongoing with DARPA that focus on a scalable, 
lift-augmented, ducted-fan SUAVs--basically a ``flying donut'' with the 
propeller in the middle. Called the micro air vehicle and organic air 
vehicle, these ACTDs provide for a SUAV that can hover outside windows, 
perch on a building, or loiter over a target where traditional, fixed-
wing SUAVs cannot.
    The micro air vehicle program provides a vertical take-off and 
landing UAV in the Class I category and is focused to support squad and 
platoon level units. The organic air is vehicle focused on platoon and 
company level units for the Class II requirement.

    [Clerk's note.--End of questions submitted by Mr. Bonilla. 
Questions submitted by Mr. Frelinghuysen and the answers 
thereto follow:]

                     M855 ``Green Tip'' Ammunition

    Question. In a recent visit to U.S. soldiers injured in combat 
overseas, I learned of an issue of concern to U.S. Special Operations 
forces in Afghanistan. Results of testing conducted at Picatinny 
Arsenal in New Jersey show that the 5.56mm M855 62-grain green tip 
projectile ``over-penetrates'' and does not effectively incapacitate 
the enemy at close range. Please comment on this concern.
    Answer. After action reports from Afghanistan state that the M855 
5.56mm, 62-grain green tip bullet does not immediately incapacitate or 
kill an unprotected enemy at close range.
    The projectile in the M855 cartridge was designed for superior 
penetration in hard and semi-hard targets, i.e., helmets and body 
armor, and targets at medium to long ranges. Its full metal jacketed, 
steel-tipped design is not the most efficient close quarters battle 
projectile.
    The Army is investigating an improved close quarters projectile to 
be used strictly by Special Operations units in the war against 
terrorism. The Army is reviewing cartridges currently used by law 
enforcement agencies and conducting ballistic tests to determine the 
best 5.56mm close quarters projectile. In the near term, Special 
Operations Command has procured a commercial cartridge with a 77-grain 
projectile that has more mass to impart on the target and should 
improve the situation in Afghanistan.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen. Questions submitted by Mr. Lewis and the answers 
thereto follow:]

               Fiscal Year 2003 Supplemental Requirements

    Question. The global war on terrorism operations, ranging from the 
protective air cap in the homeland, to the Philippines, to Afghanistan, 
and operations in the Iraq area have placed enormous strains on your 
operating accounts. The Army reports that it has borrowed against both 
the third and fourth quarter funding for fiscal year 2003 to continue 
operations.
    Secretary White, when do you expect that the Congress will receive 
a supplemental funding request?
    Answer. We are optimistic that the President's request will be 
submitted in order for Congress to consider it before the Spring 
recess.
    Question. Will we see one request, or more than one?
    Answer. Based on current planning assumptions, we understand there 
will be one Department of Defense request.
    Question. Please describe the costs that will be covered in the 
supplemental request. Will the estimated cost of war be covered?
    Answer. We anticipate the Defense supplemental request will cover 
incremental costs for mobilized Reserve Component personnel and other 
military personnel costs, projected military operations, 
transportation, reconstitution, replenishment of munitions and 
equipment, and preparatory actions for military operations. The 
supplemental is intended to cover the cost of the war, based on current 
planning assumptions, with the exception of long-term reconstitution 
and recapitalization, which we cannot predict at this time.
    Question. Will redeployment of our forces back to their home 
stations be covered?
    Answer. Yes, the Army's request will include a component for 
returning the forces to their home stations. Total redeployment costs 
will be based on the actual return dates and cannot be estimated at 
this time. Not all redeployment costs will incur in fiscal year 2003.
    Question. Will reconstitution costs be covered?
    Answer. The Defense request will include a component for 
reconstitution. However, we cannot predict definitive and total 
reconstitution requirements at this time.
    Question. Are funds included for post-war assistance to rebuild 
Iraq?
    Answer. It is our understanding that the President's request will 
include funds for post-war assistance to Iraq.

                         Army Personnel Issues

    Question. Please explain your active duty military personnel end 
strength levels to the Committee. What was the number of personnel on 
board in October when you started fiscal year 2003? Was that number 
over the authorized end strength level for the Army?
    Answer. Fiscal year 2002 Active Army end strength, which 
approximates the starting strength for October 2002, was 486,543, which 
included 2,200 stop-loss personnel. This exceeded the authorized 
strength of 480,000 by 6,543. To meet current contingencies, end 
strength has continued to increase through fiscal year 2003. The 
projected fiscal year 2003 Active Army end strength is 508,800, 
including 20,600 stop-loss personnel. This will be 28,800 over the 
authorized strength of 480,000.
    Question. Did the increase of personnel include those under a stop-
loss action? Did it include any mobilized Reservists? If so, what were 
those numbers?
    Answer. Stop-loss has significantly contributed to the increase in 
Active Army end strength. Since the end of fiscal year 2002, the Active 
Army end strength has grown by 22,200. Stop-loss accounts for 
approximately 18,400 of this Active Army end strength growth. This 
estimate does not include mobilized Reservists
    Question. To date, what is the number of Army National Guard and 
Army Reserve soldiers currently on active duty in support of the 
mobilization?
    Answer. The total number of National Guard and Reserve soldiers on 
active duty to support the mobilization is 130,101. This includes 
68,424 Army National Guard; 59,049 Army Reserve; 1,935 Individual 
Mobilization Augmentees; and 693 Individual Ready Reserve.
    Question. What is the Army's current mobilization cap?
    Answer. The Army's current mobilization cap is 168,003.
    Question. What stop-loss action is currently in effect, and how 
many military personnel are affected by that?
    Answer. The global war on terrorism and, operations in Iraq have 
required the Army to use limited stop-loss. The estimated fiscal year 
2003 stop-loss end strength is20,600, which includes a military 
occupational specialty stop-loss of 3,800 and an operational unit stop-
loss of 16,800.
    Question. Can you estimate what your end strength level will be in 
September 2003, the end of this fiscal year, and starting fiscal year 
2004? What level of end strength is funded in the budget request for 
fiscal year 2004?
    Answer. The current fiscal year 2003 Active Army end strength 
projection is 508,800, which includes an estimated stop-loss strength 
of 20,600 to support the global war on terrorism and operations in 
Iraq. The budgeted fiscal year 2004 end strength and average manyear 
strength are both 480,000. Average strength equates to personnel cost. 
The projected fiscal year 2004 Active Army end strength is 485,600 and, 
due to the high fiscal year 2004 starting strength, the projected 
fiscal year 2004 average manyear strength is 492,200. The projected 
fiscal year 2004 Active Army strength estimates assume that stop-loss 
is lifted at the end of fiscal year 2003 and that the Army accesses 
72,500 personnel in fiscal year 2004 to maintain future force 
readiness.
    Question. Currently, what is the monthly ``burn rate'' for your 
personnel costs?
    Answer. The burn rate for active duty military personnel costs, to 
include those for soldiers mobilized in support of the global war on 
terrorism, is expected to average $3.0 billion per month, from March 
through September 2003.
    Question. When do you anticipate the military personnel accounts 
will run out of money? Are you using your third or fourth quarter funds 
now?
    Answer. The Army is using third and fourth quarter military 
personnel funding now. Without supplemental funding, the Army will run 
out of Military Personnel, Army funding in June 2003.
    Question. Are you considering implementing the authorities of the 
``Feed and Forage Act''?
    Answer. Without timely and sufficient supplemental funding, the 
Army would have to consider implementing the authorities of the ``Feed 
and Forage Act.''
    Question. What is the amount of supplemental funding you will need 
for military pay and allowances through the end of this fiscal year?
    Answer. We are currently working with the DoD Comptroller to refine 
our military pay and allowances requirements based on revised 
operational planning assumptions.

                Joint Experimentation and Transformation

    Question. In the fall of 2000, the Chief of Staff of the Army 
announced a far-reaching initiative to transform the Army's combat 
units and the systems that the Army would field to support those units. 
The effort continues along several lines including formation of the 
Stryker Brigade Combat Teams (SBCTs) and the associated variants of 
Stryker, and an aggressive effort to develop and field the Future 
Combat Systems.
    General Shinseki, please comment on the progress the Army has made 
toward transforming itself over the past three years, and on those 
initiatives you feel are most important to maintaining the momentum for 
change.
    Answer. With the unwavering support of the Administration and 
Congress, we have made great strides towards achieving our Army Vision 
of People, Readiness, and Transformation over the past three years.
    Our people--soldiers, civilians, and their families--have risen to 
the challenges posed by our vision. For three consecutive years, the 
Army--Active, Army Reserve, and Army National Guard--has achieved its 
recruiting mission with quality recruits, who exceeded the Department 
of Defense (DoD) standard of 90 percent high school graduates. We have 
the lowest officer attrition rate in 15 years. Satisfaction indicators 
such as basic pay, retirements, and job satisfaction are at a 10-year 
high. We continue to meet our retention goals in all categories and 
components as we have every year since 1998. Our soldiers are seeing 
vast improvements in housing as a result of the Residential Communities 
Initiative. By the end of fiscal year 2005, the Army will have 
privatized over 71,000 homes, equaling 82 percent of the Army family 
housing inventory in the United States.
    Our soldiers remain ready to meet the demands of an uncertain world 
and the war on terrorism. The Army has manned its warfighting units to 
100 percent. We have maintained rotations of our battalions and 
brigades through our unmatched training centers and our battle command 
training program for both the Active and Reserve Component 
headquarters. The Army has played an active role in Joint 
experimentation in such exercises as Millennium Challenge 2002. The 
Army has created the Installation Management Agency to streamline the 
control of our installations and enhance their readiness. We continue 
to enhance leadership through the transformation of the officer 
education system at every echelon from the upcoming Basic Officer's 
Leader Course for newlycommissioned officers up to the ongoing Army 
Strategic Leadership Program for general officers.
    We have structured Army Transformation along three broad and 
mutually supporting vectors. We have laid the groundwork for developing 
the Objective Force: the Army Transformation Campaign Plan with 
supporting subordinate command plans; the operational and 
organizational plan for the Objective Force unit of action; and the 
operational requirements document for the Future Combat System (FCS) of 
systems. The Army has taken the lead in DoD's transformation of the 
acquisition process, in conjunction with the Defense Advanced Research 
Projects Agency, to contract for a Lead Systems Integrator to 
accelerate the transition of FCS to the system development and 
demonstration phase following the Milestone B decision in May. In just 
over three years from concept to execution, we developed a medium 
capability--the Stryker Brigade Combat Team--to fill the operational 
gap between our heavy and light forces. Once certified following 
successful completion of the operational evaluation, our first SBCT 
will achieve its initial operating capability providing a capability to 
the combatant commanders with a responsive force that can deploy where 
access is limited.
    Our second SBCT will act as the test unit for the Stryker's initial 
operational test and evaluation this year and will achieve its 
certification in May 2004. The third SBCT will begin fielding new 
equipment this year while acting as the Army's test bed for a hybrid 
unit-manning concept. It will achieve its certification in May 2005. 
Funding for our fifth and sixth SBCTs remains on hold until we complete 
a study required by DoD that will examine possible enhancements to the 
SBCT force structure.
    While our Legacy Force is presently engaged in fighting the war on 
terrorism, we have accelerated the insertion of transformational 
technologies such as unmanned aerial vehicles and blue force tracking 
to enhance the combat power and situational awareness of our deployed 
forces. We are proud of our efforts within these three vectors of Army 
Transformation.
    Obviously the Army cannot rest on its laurels, we must continue our 
efforts to attain irreversible momentum for transforming the Army as 
part of the Joint force. On the materiel side, we must continue to fund 
the FCS and other transformational systems, such as the Warfighter 
Information Network-Tactical System, Medium Extended Air Defense 
System, the Joint Tactical Radio System, and the Army Airborne Command 
and Control System that will enable Objective Force. We must continue 
our efforts in the area of aviation modernization: to field the 
Comanche armed reconnaissance helicopter; to upgrade our Apache Longbow 
aircraft, and Chinook heavy lift aircraft in both Army and Special 
Operations variants; and to continue the development of unmanned aerial 
vehicles. We must field all six of our Stryker Brigade Combat Teams. We 
need to support our efforts to achieve Reserve Component transformation 
through actions such as the Army National Guard Restructuring 
Initiative. We must support initiatives that allow us to achieve the 
best mix of force structure within the Active and Reserve Components 
and allow us to develop a continuum of service. We must continue our 
efforts to support our soldiers, civilians, families and retirees 
through efforts such as the Residential Communities Initiative and 
barracks revitalization. In addition, we require transformed business 
practices, which achieve the best value for the taxpayer's dollars, 
conserve limited resources for investment, enhance the management of 
our personnel, installations, and contracting, and accelerate 
innovation throughout the force. With your continued support for our 
efforts, we will fully realize the Army Vision--People, Readiness, and 
Transformation.
    Question. Please explain the Army's experimentation plan, and how 
it supports both Army Transformation and Joint Forces Command's 
initiatives in the Joint arena.
    Answer. The Army developed its Transformation Concept Development 
and Experimentation Campaign Plan (AT-CDEP) to integrate and 
synchronize Army experimentation to support Objective Force 
development, integrate Army concept development and experimentation, 
and shape and support Joint concept development and experimentation. 
The AT-CDEP's four components--exploratory concept development and 
experimentation (CD&E); developmental CD&E; Service/Joint engagement; 
and annual integrating experiments--provide the respective focus areas 
for innovative and aggressive experimentation, Objective Force 
development, integrating and linking Army and Joint experimentation and 
ensuring Objective Force networked system of systems are fully 
integrated within the Army and within a Joint context. This plan and 
its processes fully support DOD's transformational pillars to 
strengthen Joint operations, experiment with new approaches to warfare, 
exploit intelligence advantages, and develop transformational 
capabilities. The Army reviews and updates the AT-CDEP annually to 
integrate, synchronize, and prioritize Army experimentation with Joint 
experimentation through ongoing collaboration and long-range planning. 
The recent decision by the Army and Joint Forces Command to co-sponsor 
the upcoming Army Transformation Wargame as a fully joint wargame 
(Unified Quest 03) is an excellent example of this collaboration and 
integration. We see this trend continuing as Army Transformation 
becomes fully embedded within Joint transformation.

                Redeployment of Army Forces From Europe

    Question. Given that the Department of Defense is studying the 
possibility of adjusting force levels in Europe, does it also make 
sense to study possibly redeploying European-based forces, now deployed 
to Southwest Asia, back to the continental United States (CONUS) 
locations after operations in Southwest Asia are complete?
    Answer. The Secretary of the Army has directed the Army Staff to 
conduct an extensive review of Army strategic posture looking out over 
the next ten years. The intent is to ensure that the Army is able to 
meet all the requirements of the combatant commanders and is well 
positioned to seamlessly transform to the Objective Force. 
Concurrently, the Secretary of Defense has directed that his staff, the 
Joint Staff, and the combatant commanders review future posture and 
overseas basing. The Army is working in coordination with these efforts 
to ensure the synchronization necessary to meet the Army's 
responsibilities for flexible power projection and sustained land 
dominance as part of the Joint Force. The Army will continue to work 
closely with the combatant commanders, the Joint Staff, and the Office 
of the Secretary of Defense to ensure we have the appropriate posture 
and force structure to meet both the current strategic requirements and 
the many future challenges to our national security.

                       Soldier Support Equipment

    Question. General Shinseki, please define by type of equipment and 
the unit requirements for soldier support equipment such as body armor, 
ballistic plates, basic communications equipment, basic navigation 
equipment, cold weather clothing and related items.
    Answer. The Army is dedicated to reducing the weight our soldiers 
have to carry. Our benchmark soldier--the Infantryman--currently 
carries a standard basic load of 77 pounds; the heaviest load soldiers 
carry on the battlefield. The Army leadership directed an objective 
reduction in that overall weight to 40 pounds. The Army's Rapid 
Fielding Initiative (RFI) best illustrates our efforts to transform and 
provide improved, reduced-weight soldier support equipment. Program 
Executive Office--Soldier (PEO-Soldier) provided much of this equipment 
to units in current operations.
    This equipment express includes advanced environmental protection, 
individual protection, lethality enhancements, leader systems and 
specific equipment for military operations in urban terrain (MOUT). The 
soldier environmental protection equipment includes a new cold weather 
cap, silk weight underwear, Coolmax T-shirts, black fleece bibs, 
Smartwool socks, and improved desert boots. Individual protective 
equipment enhancements include the Advanced Combat Helmet, sand/wind/
dust goggles, Interceptor Body Armor, and knee and elbow pads. New 
lethality enhancements include improved close combat optics, target 
acquisition scopes, machine-gun optics for the squad automatic machine 
gun, rail kits for light and medium weight machine guns, and new M4/M16 
rifle magazines. Advanced leader systems include the multi-band, inter-
squad, tactical radio; mini-global positioning system; small 
binoculars; and cutting edge laser target designators. MOUT equipment 
advances embrace new assault ladders, grappling hooks, quickie saws, 
door rams, and entry tools.
    Question. General Shinseki, please tell us what the Army is 
learning about soldier's equipment as we prosecute the global war on 
terrorism in disparate, challenging environments, like Afghanistan, and 
as we prepare for a possible conflict with Iraq. In your response 
please address such items as body armor, hydration systems, boots, 
undergarments, weapons optics and enhancements, communications gear, 
and night vision devices.
    Answer. The primary lesson learned from our soldiers who had served 
in Afghanistan was that soldiers and units required items of field 
equipment, which they had not received through normal supply 
procedures. In many cases, soldiers were buying items with their 
personal funds. These shortages represent the highest-priority, Army-
wide soldier equipment shortages. Based on these lessons learned, the 
Army senior leadership directed PEO-Soldier to initiate the RFI. The 
aforementioned items are being procured as a result of the RFI.
    Question. Are there new or contingency item fielding plans? If so, 
who is receiving this equipment and what are the timelines? Will Guard 
and Reserve soldiers get this equipment?
    Answer. Recognizing that both funding and commercial production 
rates for equipment would limit the scope of RFI, and based on Army 
guidance to focus on the ``soldier who sleeps on the ground and walks a 
patrol,'' we decided that RFI would focus strictly on the deployable 
Brigade Combat Teams (BCT). This puts the equipment into the hands of 
the infantry battalions, engineer, squads, medics, artillery forward 
observers, air defense teams, and military police that are at the very 
sharpest point of the spear.
    In fiscal year 2003, the RFI provided equipment to units in current 
operations. To institutionalize and continue the RFI, we have 
identified the requirement to resource nine BCTs in fiscal year 2004--a 
requirement which is currently unfunded. The Army is competing funds in 
the Program Objective Memorandum for RFI to continue at a rate of nine 
BCTs per year. At that rate, each BCT will be revisited approximately 
every fourth year. This accomplishes one of the significant goals of 
RFI to get newer, better, commercially available equipment into the 
hands of our troops as quickly as possible. This will allow the Army to 
field to each BCT new equipment that capitalizes on the rapid advances 
in the commercial sector. A new cutting-edge technology weapon sight, a 
small lighter hand-held GPS, and improved cold-weather gear are just a 
few examples of the types of equipment that develop and improve rapidly 
in the commercial sector. The Army's plan is to field all Active and 
some Reserve Component units in the first round of RFI.
    Question. The Committee has heard reports of deploying soldiers 
paying for soldier support equipment (boots, some clothing items, 
gloves, etc.) out oftheir own pockets. How widespread is this, and does 
the Army have a plan to address this?
    Answer. While the Army cannot track every individual expenditure, 
personnel in some units have spent their own funds to buy private 
equipment ranging from socks to commercial GPS units. Lessons learned 
following combat operations in Afghanistan in 2002 validated this fact 
prompting the Army to direct PEO-Soldier to initiate the RFI.
    PEO-Soldier assessed what items soldiers were procuring and what 
was currently not in the Army supply system. These were mainly 
commercial items, newly available on the market, which had not been 
previously considered for procurement or fielding by the Army. PEO-
Soldier conducted follow-up visits with soldiers and leaders to verify 
lessons learned and validate required items. In November 2002, PEO-
Soldier fielded 15 types of equipment units preparing to deploy in 
support of Operation Enduring Freedom. PEO-Soldier used $11 million of 
internal funds for this equipment.
    The Army organized a team to extend RFI to the remainder of the 
Army and compiled a list of equipment that would be most useful to 
soldiers in the field. After reviewing and prioritizing the list, a 
standard ``kit'' for each BCT was approved and validated. The RFI kit 
is in the process of being fielded and includes items that soldiers 
were most commonly buying for themselves.
    Question. The Committee understands that the Army and other 
services have taken steps recently to ensure that our soldiers have the 
right equipment should we face chemical or biological weapons attacks 
in Southwest Asia. Please comment on the state of readiness in this 
area and what you've done to prepare for this possibility.
    Answer. Over the past nine months, the Army has aggressively 
addressed over 60 chemical, biological, radiological, and nuclear 
(CBRN) issues and taken preparatory actions in support of combatant 
commanders. In broad terms, the Army has increased force readiness and 
combat capability in individual protective equipment, biological 
warfare defense, decontamination, collective protection, medical 
support to CBRN defense, radiological detection, chemical detection, 
and sensitive site exploitation and elimination operations.
    U.S. forces serving in Iraq and throughout the Gulf region are 
trained and ready to operate in contaminated environments. Nuclear, 
biological, and chemical contamination on the battlefield poses 
significant challenges and difficulties, but these challenges are not 
insurmountable. Our forces are trained, and they have the equipment 
they need to survive and sustain operations in such an environment.
    Question. What is the Army doing to insure that non-deployed units 
are receiving the same high levels of equipment, and not having to 
sacrifice training funds to buy individual equipment?
    Answer. Non-deployed units have continued to conduct tough, 
realistic training. The Army's OPTEMPO funding program remains intact, 
and nondeployed units are executing aggressive home station and 
combined arms training strategies. Acquisition project managers are 
funded to acquire and field modernized individual equipment, and units 
are budgeted to enable them to replenish the equipment to which they 
are authorized.

               Guard and Reserve Force Protection Mission

    Question. Mr. Secretary, please explain how the Reserve component 
forces have been or are involved in anti-terrorism/force protection 
missions this year.
    Answer. Reserve component (RC) forces have been and are still 
involved in anti-terrorism/force protection missions by supporting 
Active component forces within and outside continental United States 
locations, with security forces conducting access control and military 
police duties on Active and Reserve installations. RC forces also 
provide military intelligence support for anti-terrorism programs and 
other operations. Additionally, RC forces support the Active component 
by working in military operation centers and support federal government 
agencies in intelligence analysis and foreign language interpretations.
    Question. What is the number of Reserve forces currently mobilized 
for Operation Noble Eagle to fill those requirements?
    Answer. The Army has approximately 18,100 National Guard soldiers 
providing force protection augmentation at Army and Air Force 
installations. The Army has approximately 9,600 National Guard soldiers 
providing force protection augmentation at Army installations and 
approximately 8,500 National Guard soldiers providing force protection 
augmentation at Air Force installations.
    Question. The Committee understands that the Air Force lacks the 
required number of security forces to provide the appropriate level of 
security for their facilities worldwide. Please explain why the Army 
National Guard is supplying soldiers to support the Air Force for their 
security requirements.
    Answer. The Office of the Secretary of Defense and the Air Force 
asked the Army to provide force protection augmentation to Air Force 
installations. After analysis and further coordination with the Air 
Force, we determined the Army could support the request. The Army and 
Air Force developed a memorandum of agreement where the Army would 
provide force protection augmentation to selected Air Force 
installations for up to two years. Before the end of the first year, 
the Army and Air Force will meet to determine the level of support for 
the second year. The Army expects to complete this mission in December 
2004.
    Question. What is the number of Reserve personnel mobilized, and 
the length of time they will be providing security forces?
    Answer. The Army has approximately 18,100 National Guard soldiers 
providing force protection augmentation at Army and Air Force 
installations. The Army rotation policy requires soldiers and units 
executing missions outside the continental United States to serve for 
six months and soldiers and units executing missions within the 
continental United States to serve for 12 months. We expect the mission 
to end in December 2004.
    At this time, we cannot give a firm time when Reserve personnel 
force protection augmentation will cease. The requirement to provide 
force protection augmentation is based on threat and vulnerability 
assessments, commitment of Active Component forces at various 
installations, identification of critical infrastructure sites, and the 
force protection condition level. As we prepare for the follow-on 
rotation of forces, we review each one of these factors to determine if 
we can reduce or eliminate the augmentation.
    Question. What are the incremental personnel and O&M costs 
associated with this mission for the Army? Describe the funding 
agreement between the Army and Air Force.
    Answer. The current memorandum of agreement between the Air Force 
and Army provides for full reimbursement for the Army's force 
protection support at Air Force installations. Under this agreement, 
there are no incremental costs to the Army, as the Air Force pays all 
costs.

              Anti-Terrorism and Force Protection (AT/FP)

    Question. The fiscal year 2002 Army budget provided $345 million 
for anti-terrorism and force protection. That amount funded nearly 100 
percent of the perceived requirement. In the current fiscal year Army 
funding for anti-terrorism and force protection grew to $505 million as 
a result of congressional increases. However, the requirement for 
fiscal year 2003 is assessed at $615 million. In the fiscal year 2004 
request, the Army has sustained the increased level of AT/FP funding 
from 2003, but the estimated requirement has grown to $945 million.
    Please discuss the Army's method or management framework for 
establishing anti-terrorism/force protection requirements, and the 
progress being made in achieving goals.
    Answer. The Army is directed by Department of Defense directives 
and instructions to establish its own guidance, which is accomplished 
in Army Regulation (AR) 525-13, a regulation for all Army Major 
Commands (MACOMs) to execute their AT programs. The regulatory 
requirements and taskings provide an assessment checklist for each 
MACOM level AT program manager to assess their AT program as well as 
their subordinate units' AT programs. For several years, the Army has 
conducted Force Protection Assessment Team (FPAT) assessments of each 
of the Army MACOM AT programs by using the requirements in AR 525-13 to 
assess the MACOMs.
    The Army also manages the overall FP programs by funding MACOM 
regulatory requirements. Based on the findings of these FPAT 
assessments, the improving of the overall FP program requirements, and 
the shift to controlled-access status at all Army installations, 
funding requirements have increased in recent years. The Army 
prioritizes MACOM funding requirements based on threats and 
vulnerabilities to their installations. The Army has made significant 
progress in meeting the new AT/FP requirements for our installations. 
In fiscal year 2003 approximately $211 million will be spent on AT/FP 
military construction projects related to installation access control. 
In addition, approximately $302.4 million of Other Procurement, Army 
funds will be spent on physical security equipment controlling 
installation access.
    Question. How do you rate the Army, overall, in terms of AT/FP 
preparedness?
    Answer. The Army rating scheme is based on red, amber, and green 
scores. The Army rates itself in the area of AT/FP preparedness as 
amber. This reflects that some deficiencies still exist, but with a 
limited impact on mission accomplishment. Our annual FPAT assessment of 
MACOM AT/FP preparedness and the overall rating of their FP programs 
show steady improvement. In addition, the Army's initiative to control 
installation access has given command emphasis to the AT/FP 
preparedness, which will increasingly improve our overall rating. The 
access control initiative is being accomplished through both enhanced 
physical security improvements and deployment of security forces to 
conduct force protection within and outside the continental United 
States.

       Weapons of Mass Destruction--Civil Support Teams (WMD-CST)

    Question. The WMD-CST teams are response units that support civil 
authorities when responding to a weapons of mass destruction situation. 
The Congress currently has authorized 32 Civil Support Teams. In the 
2003 Defense Authorization Act, language was inserted requiring the 
Army to provide at least one WMD Civil Support Team to each state, and 
to report within six months on a plan for the establishment, manning, 
equipping, and training of these additional teams.
    Mr. Secretary, what is the status of that report?
    Answer. The draft report regarding section 1403 of the 2003 Defense 
Authorization Act was sent to the Assistant Secretary of Defense for 
Homeland Defense. They will forward it to Congress after their review 
and approval. We expect the report will be submitted to Congress before 
the June 2, 2003, deadline.
    Question. How long do you estimate it will take the Army to 
establish 23 additional teams for those states that do not currently 
have one?
    Answer. We estimate that it will take between 18 and 24 months to 
establish the additional 23 teams. This period includes manning, 
equipping, training, and certification of these teams.
    Question. What is the total cost for standing up those remaining 23 
teams, and what is the number of full-time National Guard personnel 
that will be required to man them?
    Answer. The total cost to stand up the remaining 23 teams is 
approximately $192.6 million in fiscal year 2005 and fiscal year 2006. 
A total of 506 Active Guard/Reserve positions are required to 
accomplish the manning piece. This personnel increase requires an end 
strength authorization increase by the same amount.
    Question. Break out, for the record, the cost per team for the 
National Guard personnel costs, their training and equipment costs.
    Answer. The total cost to stand up each team is approximately $8.5 
million in fiscal year 2005. This figure includes approximately $1.5 
million for military construction costs per team. Personnel costs to 
the Army Guard are $1.66 million and about $356,000 for the Air Guard. 
Training and equipping costs will run about $1.6 million in operation 
and maintenance for the Army Guard and about $817,000 in operations and 
maintenance for the Army. Equipping costs for the Chemical and 
Biological Defense Program items will cost approximately $2.57 million.
    Question. Are there any funds included in the budget request for 
these additional teams?
    Answer. No. There is currently no funding in the fiscal year 2004 
budget to establish additional WMD Civil Support Teams.

                        Rising Cost of Readiness

    Question. One of the recurring challenges the Army faces in 
managing operation and maintenance accounts is the rising cost of 
operating equipment, be it M-1 Tanks, Bradleys, or helicopters. Growth 
in operating costs is squeezing out desired investment in new systems. 
In a February 2003 report, the General Accounting Office found that the 
military services pay little attention to operating and support costs 
and readiness during development, when there is the greatest 
opportunity to affect those costs positively. Rather the services focus 
on technical achievement, featuring immature technologies during 
development and fielding. Then the services pay the price down the road 
when operating and support costs greatly exceed expectations. And even 
though operating and support costs make up, on average, about 72 
percent of the life cycle cost of a system, the operators and 
maintainers have little input to the development process.
    Do you agree with the assessment that little attention is paid to 
operating and support costs and readiness during weapon system 
development, when there is the greatest opportunity to affect those 
costs?
    Answer. We agree that in the past, the Army did not put enough 
emphasis on reliability, availability, and maintainability during 
development for some of its weapon systems, which resulted in increased 
operating and support costs and difficulty in maintaining readiness 
standards. However, that is not the case today. The Army has undertaken 
several initiatives to reduce weapon system operating and support costs 
while achieving higher levels of readiness.
    The Army has placed greater emphasis on operational requirement 
documents for weapon systems, as well as ensuring reliability, 
availability, and maintainability requirements are clearly stated and 
designated as key performance parameters, when appropriate, to ensure 
requirements are achieved. This increased emphasis will ensure that 
established levels of reliability, availability, and maintainability 
are designed into weapon systems and result in lower operating and 
support costs and higher readiness levels.
    The Army is participating with OSD in a program called Reduction of 
Total Ownership Costs, which focuses on reducing weapon systems 
operating and support costs. The Department of Defense established 30 
pilot programs, 10 from each service, with a goal to reduce total 
ownership costs by 20 percent by fiscal year 2005. Many of these pilot 
programs are developmental programs. While these programs are still 
ongoing, many have met the 20 percent goal, and others have made 
substantial progress in reducing total ownership costs. OSD sponsors 
quarterly pilot program forums to provide continuous assessment of the 
programs' progress and keep them on track. In addition, the Army has 
established an office to provide oversight and emphasis on weapon 
systems supportability and operating and support cost reductions. This 
office conducts assessments of weapon system programs to improve 
supportability and cost effectiveness throughout their life cycle.
    Question. What do you propose as process improvements to gain 
control of total ownership costs of our military equipment?
    Answer. The Army is working to identify and analyze the increase in 
operating and sustaining costs and is leading a multi-organizational 
operating and sustaining cost analysis work group to develop near-term 
tactical and long-term strategic plans for reducing operating and 
sustaining costs.
    Question. When the Army first developed and procured the current 
fleet of combat vehicles and aircraft nearly 20 years ago, planning 
figures for the life span of this equipment were significantly 
different from the OPTEMPO the Army experienced in the 1990s and thus 
far this decade, particularly since 9-11. What impact has this had on 
Army recapitalization plans, and on the rising costs of spare parts and 
maintenance for equipment that is aging faster than originally 
anticipated?
    Answer. High OPTEMPO along with the operation and support costs 
associated with aging equipment are the main reasons that the 
recapitalization program exists. In fiscal year 2002-2009 the Army will 
spend over $21 billion in operation and maintenance and procurement 
appropriations to address 17 weapon systems that are critical to Army 
Transformation. However, recent operations and the rising costs of 
Transformation have caused the Army to significantly reduce the 
procurement spending on its recapitalization program. As a result, less 
than 40 percent of the combined fleets of the 17 systems will be 
recapitalized. Currently, there is no synchronized sustainment strategy 
to address the remaining fleets.
    Question. How are these costs being managed over the Army Future 
Years Defense Plan (FYDP)?
    Answer. A working group was created to identify and analyze the 
increase in operation and support costs over the FYDP. An increase in 
operation and maintenance funding for the Army's depot maintenance 
program, of which recapitalization is a subsidiary, has been projected 
to increase from $1 billion in fiscal year 2003 to over 1.6 billion in 
fiscal 2009. This funding will allow the Army to meet the goal of 
funding 90 percent of its depot maintenance requirements.

            Consolidation of the Military Personnel Accounts

    Question. The fiscal year 2004 budget request recommends 
consolidating the six Guard and Reserve military personnel accounts 
with their respective active duty military personnel appropriations. 
The budget request proposes that the Reserves personnel pay accounts be 
Budget Activity 7, and the National Guard's personnel pay accounts be 
Budget Activity 8 under the active duty accounts.
    Mr. Secretary please explain the reasons the OSD Comptroller had 
for merging the pay accounts into one appropriation per Service.
    Answer. The military personnel pay accounts were merged to provide 
increased management flexibility, specifically in terms of 
reprogramming. Further, the Office of the Secretary of Defense 
anticipates the consolidation will result in an eventual net reduction 
of administrative workload and streamline execution for all components.
    Question. What level or degree of increased flexibility does the 
Army gain from this consolidation?
    Answer. Consolidating Guard and Reserve funds with Active Army 
funds reduces the number of budget activities and so increases Guard 
and Reserve flexibility.
    Question. Will the Chiefs of the Reserve Components have full 
management and control of their financial resources in order to execute 
their Title 10 responsibilities for trained and ready forces?
    Answer. Yes. Under the consolidation, the Army Reserve and the 
National Guard will both continue to exercise full management and 
control of their resources under Title 10. The consolidated 
appropriation preserves the current appropriation act language 
applicable to the Reserve and National Guard.
    Question. Having separate appropriations accounts for the Active 
and Reserve Components allows Congress to monitor how well the services 
are executing their programs. What assurance can you give the Committee 
that the Active Component will not use the Reserve budget activities to 
fund their own bills or shortfalls?
    Answer. The Army can give complete assurance that the Component 
budgets will be executed with the intent of the appropriation. Each 
Component's execution will remain visible and cannot be impacted 
without reprogramming actions, which require Office of the Secretary of 
Defense oversight and Congressional approval if greater than $10 
million.

                       Reserve Component Missions

    Question. The 2001 Quadrennial Defense Review directed a 
comprehensive review of the Reserve Components contributions to 
National Defense. One aspect of transformation, addressed in this 
Review, is the appropriate mix of Active and Reserve forces to meet 
Department of Defense's missions and responsibilities.
    Mr. Secretary, are you considering transferring some combat support 
missions that are primarily performed by Reserve forces to the active 
duty military?
    Answer. Yes. We are considering several options.
    Question. If so, explain what Reserve forces you would restructure 
and the reasons for the shift.
    Answer. The Army's Active and Reserve Component force mix is the 
result of deliberate actions to balance risks and priorities in light 
of operational requirements as well as resource constraints. The Army 
continues to adjust its force structure based on the ``1-4-2-1'' force-
sizing construct. The Army's force mix is designed to support the 
geographic combatant commander's requirements and is determined using 
the Total Army Analysis (TAA) process. To stay within constant end 
strength levels, adding capabilities to the Active force will require 
the transfer of some mission capabilities between the Active and 
Reserve force. A number of options exist to reduce risk, including the 
conversion of lower demand structure inside the active force, 
converting key capabilities held in the Reserve Component (RC) but 
needed intermittently, and changes in Reserve personnel management to 
increase access by enhancing volunteerism and diminishing involuntary 
mobilization.
    Currently, the Office of the Secretary of Defense in conjunction 
with the Joint Staff has undertaken a study to improve operational 
availability of all military forces. As part of this study, the Active 
Component/Reserve Component (AC/RC) mix is being studied in the context 
of short notice, short duration major combat operations. This study is 
incomplete and will be continued as part of Defense planning for fiscal 
year 2005 to determine any recommended force structure changes.
    Question. The ``Total Force'' concept has resulted in a large 
percentage of the combat support and combat service support units being 
located in the Reserves. Would moving capabilities from the Reserves to 
the Active Component eliminate Reserve units, or reduce the Reserve 
Components' end strength levels?
    Answer. I do not believe shifting capabilities between the Active 
and Reserve Components would impact Reserve Component end strength. As 
you are aware, much of the force found in the Reserve Components today 
is a result of decisions made to support the Total Force Policy and 
previous defense strategy. With the draw down during the 1990s, the 
Army could not maintain all of its warfighting capability in the active 
force and decided to place many highly specialized capabilities in the 
Reserve Components. The Reserve Components were configured and 
resourced to provide many specialized capabilities anticipated to be 
needed only in a protracted major theater war. Given the requirements 
of the new defense strategy and the high level of Reserve Component 
use, these force structure decisions are under review to determine the 
proper active and reserve force mix. We are exploring the impact of 
Active and Reserve Component transformation initiatives on mobilization 
and readiness before we make a final determination as to the proper AC/
RC force mix. However, among the RC transformation initiatives is an 
endeavor to eliminate unready units by bringing force structure levels 
down to better match end strength. This will dramatically increase 
readiness by focusing resources on high-demand, high-OPTEMPO forces and 
creating rotational depth in capabilities such as civil affairs, 
psychological operations, biological detection, military intelligence, 
and military police units.
    Question. Do you have an estimate of what it will cost to shift 
Reserve force capabilities to the active military?
    Answer. No, we do not have an estimate at this time.

                         Spare Parts Shortfalls

    Question. The Committee often hears from military units at their 
home bases, or when they are deployed, that the Army suffers shortages 
of key spare parts. In the budget request for fiscal year 2004, the 
Army has realigned substantial funding, over $650 million, to increase 
the spare parts inventory.
    Please discuss the spare parts issue, and the trade offs the Army 
has made in order to free up the additional funds for spare parts.
    Answer. The Army has had a long-standing problem with spares. In 
the mid 1990's, the Army systematically reduced our strategic 
inventories supporting all major weapon systems. This decision was made 
in response to DoD's attempt to right size inventories and implement 
stock funding of depot level reparables while adjusting the force 
structure after the end of the Cold War. For several years, high weapon 
system readiness rates and high supply stock-availability rates were 
maintained by redistribution of excess inventories and local repair of 
components. However, in recent years, the combination of increased 
OPTEMPO, aging weapon systems, and reduced national level stocks 
negatively impacted weapon system readiness and supply availability.
    In early 2000, the Army logistics and financial communities started 
working to develop, validate, and fund the increased requirement for 
spares. The Army continued to work the issue internally, but this 
requirement was competing with a multitude of other force structure and 
operational requirements. As the global war on terrorism started to 
unfold, the requirement continued to grow until the fiscal year 2003 
unfinanced requirement reached $1.563 billion in August 2002. Based on 
a critical readiness need to replenish depleted peacetime inventories 
of repair parts and support the global war on terrorism, the Army 
decided to take the necessary level of risk in the base operations 
support accounts in the active and Reserve Component operations and 
maintenance appropriations for both fiscal year 2003 and fiscal year 
2004. By initiating this action, the Army is able to order long lead-
time parts for inventory in anticipation of unit demands in fiscal year 
2004. Because readiness of the force is especially paramount during the 
global war on terrorism and the uncertainty of a war with Iraq, the 
Army took this measured risk with the base operations support accounts.

                       Recapitalization Programs

    Question. The Army's recapitalization program is shown to be fully 
funded for fiscal year 2004, with program growth of about $200 million.
    What is your assessment of the progress being made in the Army 
Recapitalization Program?
    Answer. The Army's Recapitalization Program continues to achieve 
success. During fiscal year 2002, the Army exceeded expectations 
achieving 102 percent of the projected systems for induction to be 
recapitalized. Through the second quarter of fiscal year 2003, we have 
already achieved 60 percent of the total fiscal year 2003 goal. Certain 
systems scheduled for recapitalization in the third and fourth quarters 
of fiscal year 2003 are ahead of the original projected quarterly goals 
and are already inducted for recapitalization. We again expect to 
achieve the goal of 100 percent of the projected systems for induction 
to be recapitalized in fiscal year 2003.
    Question. Have you added or deleted items for fiscal year 2004?
    Answer. There, have been no recapitalization system additions or 
deletions for fiscal year 2004. The 17 Army recapitalization programs 
are the AH-64D Apache; UH-60 Black Hawk; CH-47 Chinook; M1 Abrams; M2/
M3 Bradley; M270A1 Multiple Launch Rocket System; Patriot Ground 
Support Equipment; Field Artillery Ammunition Supply Vehicle; M113 
Family of Vehicles; Heavy Expanded Mobility Tactical Truck; M88 
Recovery Vehicle; Electronic Shops Shelter; High-Mobility Multipurpose 
Wheeled Vehicle; TPQ-36 Firefinder Radar; M9 Armored Combat Earthmover; 
Small Emplacement Excavator; and the Armored Vehicle Launched Bridge.
    The following variants within the 17 will receive no 
recapitalization funding starting in fiscal year 2004: M1A2 Abrams SEP 
retrofit; M2A3/M3A3 Bradley; M88A2 Recovery Vehicle; and the Armored 
Vehicle Launched Bridge.

                         Aircrew Training Hours

    Question. Please discuss Flight School XXI. Does Flight School XXI 
change the Army's flying hour requirement of 14.5 hours per crew per 
month?
    Answer. Implementation of Flight School XXI will enhance unit 
capabilities by providing better-trained aviators. Flight School XXI 
will achieve this result by assuring more aviator time in the cockpit 
of their primary rated aircraft, with less time in training-specific 
aircraft. Therefore, Flight School XXI will positively impact the 
quality of aviator training, even as it complements ongoing Army 
efforts with parts, maintenance, and deployment readiness issues to 
help assure the consistent execution of the established quantitative 
standard of 14.5 hours per crew per month.
    All of Flight School XXI is funded within the aviation training 
base and does not change the Army's requirement of 14.5 hours per crew 
per month. Additionally, with a five-week average shorter course 
length, Flight School XXI will assist in decreasing pilot shortages in 
units.
    Question. Is the 14.5 hours per crew per month requirement fully 
funded in the fiscal year 2004 budget request?
    Answer. First, let me assure you that the Army intends to meet its 
fiscal year 2004 flying hour goal of 14.5 hours per active duty crew 
per month. We continue to train to maintain readiness and remain 
committed to achieving goals established that assure readiness, like 
that of 14.5 flying hours per month.
    It is true that achievement of this aviation flight-training goal 
is sometimes impacted by factors beyond the control of the unit 
commander. Those external factors include aircraft downtime due to 
Safety of Flight maintenance issues and, to some extent, transformation 
and deployments. Our recent history with these factors has led the Army 
to budget for the fiscal year 2001 through 2002 historical average of 
13.1 hours per crew per month, with plans to internally finance up to 
14.5 hours as the impact of these factors for fiscal year 2004 emerge. 
Having said that, it is true that the Army is taking some small risk in 
the flying hour program for fiscal year 2004. However, this risk is 
prudent because it allows the Army to invest more heavily in depot 
maintenance and spare parts to reduce aircraft downtime. The better we 
do at arresting potential aviation parts and maintenance issues, the 
better we will do at consistent execution of our flight hour training 
standard. We will closely monitor execution of the flying hour program 
in fiscal year 2004 and make necessary adjustments to ensure that 
funding is not the reason for not executing the full 14.5 hour per 
month aviation training standard.
    Question. Since student pilots spend a shorter overall time in 
flight school, is there a cost savings?
    Answer. Although pilots spend less time in Flight School XXI and 
fly fewer hours there, they spend more time in simulation training and 
fly more hours in modernized ``go to war'' aircraft instead of legacy 
aircraft. Although the total number of hours in Flight School XXI 
decreases, the hours saved are offset as a result of the increased 
operating cost associated with flying modernized aircraft.

         Facilities Sustainment, Restoration, and Modernization

    Question. In the fiscal year 2004 budget request, Sustainment, 
Restoration and Modernization (SRM) of facilities is funded at 84 
percent overall, with the sustainment piece funded at 93 percent as 
mandated by OSD.
    What is the status of the Army's Barracks Upgrade Program?
    Answer. Congressional establishment of major command baselines for 
SRM funding which eliminated our centrally managed OMA-funded barracks 
upgrade program renovations in fiscal year 2002 and 2003, in addition 
to internal Department priorities in fiscal year 2004, have caused us 
to delay completion of our barracks modernization beyond 2009. The Army 
does not meet DoD's goal of eliminating inadequate permanent party 
barracks by 2007.
    Question. Please describe the Army's progress toward achieving the 
DoD goal of a 67-year recapitalization rate by 2007.
    Answer. The Army-wide recapitalization rate for fiscal year 2004 is 
144 years. Our goal is to increase recapitalization investment and meet 
the 67-year rate by 2007.
    Question. What is the impact on mission accomplishment of the 
current state of facilities?
    Answer. The overall condition rating of Army facilities is C-3, 
which impairs mission performance.
    Question. In what geographic areas are the more severe facilities 
maintenance problems?
    Answer. The geographic areas with the most severe facilities 
maintenance problems are those with extreme climatic conditions such as 
areas affected by very cold temperatures, corrosive salt, sand, and 
high humidity. Some of the worst geographic locations include 
facilities in Korea and Germany.

                  Army Installation Management Agency

    Question. The Army has taken aggressive action to transform the 
management of installations. Integral to that effort has been the 
creation of the Installation Management Agency. The new Army field 
agency, activated on October 1st of 2002, is intended to provide a 
corporate, senior level focus on installation management in support of 
the mission commanders. The new agency is designed to achieve 
efficiencies, ensure consistency and eliminate migration of funds from 
base operating accounts, such as facilities maintenance, environmental, 
and family programs.
    Secretary White, please describe your progress in transitioning 
base operations to the Installation Management Agency?
    Answer. The Installation Management Agency (IMA) has achieved 
initial operational capability and is performing its vital mission of 
managing the Army's installations. IMA is meeting the mobilization, 
deployment, redeployment, and other related support requirements in 
support of the global war on terrorism and operations in Iraq. IMA is 
partnered with Network Enterprise Technology Command and the Army 
Contracting Agency to improve efficiencies.
    Fiscal year 2003 represents a transition year for management of 
manpower and dollars as documentation and appropriations realign to the 
agency. This transition, although not complete, has already proven 
beneficial to warfighting commanders and major commands who have been 
able to focus on operations and training, with IMA fully in charge of 
running the installations and caring for soldiers and families. In 
addition, the Army Reserve integrated its headquarters engineering 
functions into the IMA headquarters, with an additional policy office 
established at the Assistant Chief of Staff for Installation 
Management. The transfer of the remaining Army Reserve headquarters 
base operations functions will be accomplished in conjunction with the 
Army Reserve restructuring initiatives. IMA will achieve full 
operational capability by the end of fiscal year 2004.
    Question. General Shinseki, why are the garrison and area support 
group commanders senior-rated by the local senior mission commander? 
How can the garrison commanders ensure Army-wide consistency in 
funding, and avoid migration of funds, if the local mission commander 
holds the keys to the garrison commander's career? Isn't this like 
having an auditor's future controlled by those he is auditing?
    Answer. Making the senior mission commander on the installation the 
garrison commander's senior rater ensures that the garrison commander's 
performance is responsive to the priorities of the installation. We 
balance that by having the IMA region director rate the garrison 
commander. Designating the IMA region director as rater provides the 
corporate point of view on the garrison commander's ability to 
implement the efficiencies and uniformed level of service required for 
all Army installations within a given region. This designation of the 
senior rater is also consistent with Army officer evaluation policy and 
consistent with rating schemes of other officers on the installation. 
Senior raters are senior-level officials with broad experience and are 
able to evaluate performance across their installations. For the Army 
to successfully execute its mission, IMA, the major commands, and the 
senior mission commanders on installations must all work as one team in 
very close partnership.

                        Army Contracting Agency

    Question. With the creation of the Army Contracting Agency, the 
Army has realigned previously decentralized contracting processes under 
one organization. The Army's goal was to eliminate redundant contracts, 
and to leverage the buying power of Army wide requirements.
    Mr. Secretary, please describe the implementation of the Army 
Contracting Agency, and the efficiencies and savings you have achieved.
    Answer. The Army Contracting Agency (ACA) was established as part 
of Army Transformation efforts. In accordance with our vision of the 
ACA, we have not yet achieved any identifiable savings in the seven 
months since the ACA stood up. The plan is to realize savings in the 
fiscal year 2004-2006 timeframe. The ACA has eight subordinate 
contracting organizations: a northern and southern regional 
headquarters aligned with the continental United States, Installation 
Management Activity regions; Information Technology, E-Commerce, and 
Commercial Contracting Center; and five contracting activities outside 
the continental United States.
    Each Army installation will retain its local directorate of 
contracting (DOC), which will continue to perform full contract support 
for locally awarded contract actions and provide advice and assistance 
for centrally awarded actions. The DOC awards local base operations 
contracts under $500,000 and places delivery/task orders against 
established contract vehicles regardless of dollar value. In addition, 
the DOC performs contract administration for locally and centrally 
awarded contracts, manages local purchase card programs, and conducts 
emergency and safety buys above $500,000.
    The ACA will generate savings through reduced cost of purchasing by 
eliminating duplicative overhead, obtaining efficiencies from 
regionalized and national contracts, and exploiting electronic commerce 
technologies. Again, the ACA expects to realize savings over a three-
year period from fiscal year 2004-2006. The target personnel savings 
will be a net reduction of about 230 spaces. Program savings will be 
achieved on a case-by-case basis. Further savings will be obtained by 
economies of scale through negotiating single requirements, Army wide 
with industry providers.

                    Basic Officer Leadership Course

    Question. The Army recently approved far-reaching changes to its 
Officer Education System that impact Basic and Advanced (Career) 
Officer courses as well as Command and General Staff College 
instruction. This course moves away from the traditional branch 
oriented officer basic in favor of a program called the Basic Officer 
Leadership Course. Under the new course, new officers would first spend 
about six weeks at a common location (Fort Benning) learning the basics 
of leadership, physical fitness, and individual weapons proficiency. 
Then the officers would move on to branch specific training at the 
branch school houses, for example tank training at Fort Knox.
    General Shinseki, please explain the rationale behind the changes 
in the Officer Education System, the anticipated positive developments 
these changes should bring, and the risks associated with these 
changes.
    Answer. As the Army transforms to the Objective Force to meet the 
challenges of the 21st Century security environment, so too must the 
Army transform its officer education system (OES) to train and educate 
the leaders who will command and control that force. Transformation of 
OES is based on a documented rationale for change, including findings 
and recommendations from the Army Training and Leader Development Panel 
(ATLDP) officer study published in February 2001.
    The ATLDP identified the current OES as not meeting the leader 
development requirements of the contemporary operational environment. 
This complex, information-centric operational environment, 
characterized by uncertainty and ambiguity, rapid tempo, and 
compression of strategic and tactical focus, requires officers to be 
self-aware, adaptive, full-spectrum leaders. To meet Army needs and 
officer expectations, a transformed OES will provide the right 
education, in the right medium, to the right leader, at the right time 
and place.
    The Army strategic objective is to develop more capable, confident 
leaders through continuous investment in personal growth and 
professional development throughout their careers. The Army intends to 
achieve this objective by improving and sustaining leader development 
through an experientially based education and training model enabled by 
increased leveraging of technology. This model will support the Army 
service culture and warrior ethos and produce leaders who can resolve 
dilemmas under stress, make decisions, and lead formations. Risks are 
associated with timely development of the advanced distance learning 
courseware and modules required to implement the model.
    Question. What are the additional funding requirements associated 
with changing the Officer Education System?
    Answer. The Army will execute three high-payoff OES initiatives: 
for lieutenants--the Basic Officer Leader Course (BOLC); for captains--
the Combined Arms Staff Course (CASC) for staff officers and the 
Combined Arms Battle Command Course (CABCC) for company commanders; and 
for majors--Intermediate Level Education (ILE).
    BOLC ensures a tough, standardized, small-unit leadership 
experience that progresses from pre-commissioning, to the initial entry 
field leadership experience, and branch technical/tactical training. 
BOLC provides a small unit leader training continuum and a common Army 
standard for small unit leadership. Additional funding requirements for 
BOLC fiscal year 2003 to fiscal year 2009 are $47.7 million.
    Captains OES synchronizes training with assigned duty positions. 
This concept also reduces personnel and family turbulence. The CASC and 
the CABCC provide assignment-oriented training for staff officers and 
company commanders, respectively. Most importantly, CASC and CABCC will 
return approximately 1,500 captains to the field and give senior 
commanders more responsibility for junior officer professional 
development. The captains OES model will generate a net savings to the 
Army of $57.8 million during the period fiscal year 2003 to fiscal year 
2009.
    The third OES transformation initiative, ILE, will provide all 
majors with the same 12-week Military Education Level 4 producing/Joint 
Professional Military Education 1 common core of operational 
instruction, and additional tailored education opportunities tied to 
the requirements of the officer's specific career field, branch, or 
functional area. Additional ILE fiscal year 2003 to fiscal year 2009 
funding requirements are $137.9 million.
    Total additional funding requirements associated with transforming 
OES for the fiscal year 2003 to fiscal year 2009 timeframe are $243.4 
million.
    Question. Will changes to the officer career courses, which rely 
heavily on distance learning, produce officers capable of meeting the 
challenges of company command and battalion and brigade staff 
assignments?
    Answer. Advanced Distributed Education (ADL) is the delivery of 
training to soldiers and units through the application of multiple 
means and technology. ADL allows students, leaders, and units 
centralized access to essential information and training. It represents 
a powerful capability in which the proper balance of course content and 
delivery technologies are provided when and where they will have the 
greatest impact on force readiness.
    The captains OES, the CASC and the CABCC, provide assignment-
oriented training for staff officers and company commanders, 
respectively. ADL is key to the captains OES model and will produce 
officers capable of meeting the challenges of company command and 
battalion and brigade staff assignments. In addition to ADL, captains 
OES capitalizes on new high-impact, multi-echelon, combined arms 
resident training methods.
    ADL will be used to facilitate learning in combined arms tactics, 
techniques, and procedures and training doctrine, history, and 
tradition. This will be followed by an immersion experience in a hands-
on, performance-oriented resident component taught by small group 
instructors under the supervision of the assistant commandants at the 
branch schools. This phase will be tailored to the officers' assigned 
duty positions.
    CABCC will also include an on-site experiential combat training 
center (CTC) component led by a branch-qualified mentor. This tactical 
exercise without troops overlaid on a unit in a CTC rotation is a 
hands-on practicum designed to reinforce the commander's personal 
responsibility to develop, execute, and evaluate training.
    Question. What impact will this shift in policy have on local 
commanders in the field who are already managing soldiers working 
longer hours and deployed more often since September 11?
    Answer. The requirement to do more with less and the demands of the 
contemporary operational environment necessitated the OES 
transformation. The BOLC model does not increase the amount of time an 
officer is in the training base. The Army benefits from the BOLC by 
gaining a corps of mature, confident, and competent officers who have a 
common bond with their combined arms peers and are ready to lead small 
units upon arrival at their first assignment.
    The current Intermediate Staff College concept affords a resident 
education for only 50 percent of the majors in a year group. The Army 
leadership decided that education should not be a promotion 
discriminator and that a smaller Army with increased demands must 
educate 100 percent of its majors. Intermediate Level Education will 
provide all majors with the same common core of operational instruction 
and additional tailored education opportunities tied to the 
requirements of the officer's specific career field, branch, or 
functional area.
    OES transformation will impact the field by timely producing an 
officer with a warrior ethos, grounded in warfighting doctrine, and who 
has the technical, tactical, and leadership competencies and skills to 
be successful in the officer's branch, assigned duties, career field, 
and functional area.
    Question. The Committee applauds the Army's efforts to provide 
Intermediate Level Education to all its officers, but can the force 
absorb a doubling of the number of majors in training at a time of 
significant operational stress? How will this be managed?
    Answer. The Army recognized that pulling an entire year group or 
cohort of majors will have an adverse impact on readiness and modified 
the concept. The ILE Intermediate Staff College concept will target 
approximately 1,950 officers from the Army competitive category each 
year. This target number is equivalent to a year group/cohort of 
majors. To alleviate the readiness impact on the field, 50 percent of 
the officers attending ILE will be in the grade of major and 50 percent 
will be drawn from the two senior year groups of branch-qualified 
captains. The Army Personnel Command will target officers for ILE 
attendance over a four-year period--the officer's last two years as a 
captain and first two years as a major.

                 Joint Logistics Warfighting Initiative

    Question. The Army has been participating in a Department of 
Defense-wide demonstration of a logistics information management 
technology insertion program. The demonstration project, which is in 
its third year, is called the Joint Logistics Warfighting Initiative. 
What is your assessment of the Joint Logistics Warfighting Initiative?
    Answer. The Joint Logistics Warfighting Initiative (JLWI) adds a 
capability to the legacy logistics systems at the operational level 
that the Army has not had in the past. This capability greatly widened 
the access to more timely supply and maintenance information through 
web-based tools. JLWI works well in base support and garrison 
operations and was used in Operation Enduring Freedom and in Iraq. 
However, without a more robust communication's architecture, JLWI and 
other web-based applications will have limited use during combat 
operations. The logistical functionality in JLWI is viewed as a 
capability that must be addressed when the Army transforms its 
logistics enterprise and converts to an enterprise resource planning 
based logistics solution.
    Question. Does the Army plan to continue and expand use of the 
Joint Logistics Warfighting Initiative?
    Answer. The Army will continue to use JLWI until the introduction 
of the enterprise resource planning software. There is no plan for the 
Army to expand JLWI beyond those units already programmed.

                 Fiscal Year 2004 Program Terminations

    Question. The fiscal year 2004 Army budget request proposes 
terminating 24 programs and restructuring an additional 24 to free up 
the financial resources needed to support the Future Combat System and 
transformation to the Objective Force. Many of the terminated and 
restructured programs are so-called Legacy Force programs such as the 
M1A2 SEP, Bradley Fighting Vehicle A3 upgrade, and related programs. 
The Army estimates that $2.3 billion becomes available in fiscal year 
2004 because of these actions, and $2.6 billion becomes available in 
fiscal year 2005.
    Please highlight the major system terminations proposed in the 
fiscal year 2004 budget request.
    Answer. The Army terminated the 24 programs listed on the following 
table in the fiscal year 2004-2009 Future Years Defense Plan.

  FISCAL YEAR 2004-2009 FUTURE YEARS DEFENSE PLAN PROGRAM TERMINATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
           Program termination                 2004          2004-2009
------------------------------------------------------------------------
Crusader................................           475.1         5,738.9
Bradley A3..............................           247.4         1,540.6
Abrams SEP..............................           138.2         1,489.2
ATACMS BAT P3I..........................           245.8         1,278.5
ATACMS Block II.........................            86.4           688.7
MLRS 270A1 Conversion...................           110.9           667.5
Tactical Exploitation System............            83.5           349.9
Wide Area Munitions.....................            50.1           321.7
Raptor..................................            29.1           289.4
25mm M919 Round.........................             0.0           268.0
D7 Tractor..............................            18.2           199.6
Stinger.................................            33.0           195.7
Improved Target Acquisition System......            28.7           172.4
Striker.................................             8.7           171.5
Lightweight Video Recon System..........            14.4           167.0
120mm E4 Tank Round.....................             0.0           128.2
Diagnostic Improvement System...........            15.4            72.0
Joint Tactical Terminal.................             9.3            25.9
Common Ground Station, P3I..............            -8.0            25.9
Floodlight Sets.........................             3.9            25.1
Guardrail...............................            14.2            23.0
M16A4 Rifle.............................             9.4            20.9
Non-lethal Capabilities Set.............             5.9            11.8
Mark-19 Grenade Launcher................             2.9             2.9
                                         -------------------------------
    Total from Program Terminations.....         1,622.5        13,874.3
------------------------------------------------------------------------

    Question. What are the associated savings estimated for fiscal year 
2004? Over the Future Years Defense Plan (FYDP)?
    Answer. The Army reallocated the $13.9 billion to its 
Transformation efforts over the FYDP period. For fiscal year 2004 $1.6 
billion was garnered from these terminations for Transformation.
    Question. The budget request proposes terminating the M1A2 SEP and 
Bradley A3 programs. In light of these proposed terminations, do you 
have concerns about maintaining the industrial base needed to produce 
the Future Combat System (FCS) beginning in fiscal year 2008?
    Answer. Army Transformation required cancellation of certain 
programs to fund a variety of transformational initiatives to achieve 
greater war fighting capability over the long term. We assessed the 
risks to the industrial base from these program cancellations and, 
where we judged necessary, we have taken steps to mitigate adverse 
impacts. We saw two major risks to the industrial base as a result of 
the decision to not modernize the Counterattack Corps. Both of these 
risks involved maintaining viable armor system production capabilities 
at two production facilities: the Lima Army Tank Plant at Lima, Ohio, 
and the United Defense combat vehicle production facility at York, 
Pennsylvania.
    The first risk involves the General Dynamics' combat vehicle 
fabrication capability at the Lima Army Tank Plant. We judged that risk 
as unacceptable since Lima initially had an insufficient workload to 
remain viable as a production facility for the fabrication of the 
Marine Corps' Advanced Amphibious Assault Vehicle and the Army's FCS 
ground vehicles. To mitigate this risk, the Army has restructured some 
programs and now has sufficient work to sustain Lima in active 
production until these new programs are brought into production.
    The second risk involved maintaining the United Defense's combat 
vehicle production facility in Pennsylvania. We recognize that this 
facility would also be a likely candidate to manufacture FCS ground 
vehicles in the future. We expect that the production facilities in 
Pennsylvania will remain viable and open through calendar year 2004 
because of a continuation of their current fiscal year 2003 Bradley 
upgrade work. With this expectation and acceptance of risk, we did not 
program fiscal year 2004 funding for Bradley upgrades to protect that 
portion of the industrial base.
    While we cannot guarantee additional work from support for fielded 
systems, foreign sales, and reprocessing vehicles from operations in 
Iraq, the Army is looking hard at workload projections after calendar 
year 2004 and identifying fiscal year 2005 options which might be 
needed to protect any United Defense combat vehicle fabrication 
capability determined essential for future production. Those options 
will consider United Defense work on development of manned FCS non-line 
of sight gun system, unmanned ground systems, foreign sales, and other 
new non-traditional business. All of the other industrial base risks 
from not funding the Counterattack Corps are judged acceptable.
    We expect fiscal year 2003 funding and other work to keep essential 
skills active through the end of calendar year 2004, given that final 
vehicle deliveries are scheduled for June 2005. The program funding for 
Bradley system sustainment and technical support will transition in 
fiscal year 2006 from procurement to the Operation and Maintenance, 
Army account. We believe United Defense's engineering staff and the 
Army's own in-house staff will be able to sustain the vehicles made by 
United Defense.
    The shortage of Bradley upgrade funding is manageable, but there 
are two key issues we must address. The first issue is how we will fund 
the required technical support to the fielded fleet. For fiscal year 
2003, the Army will have to fund the technical support from operation 
and maintenance accounts. That will present a problem for us because we 
will be addressing not only peacetime requirements but operational 
requirements associated with the global war on terrorism and operations 
in Iraq. Obviously, we will finance the highest priority operational 
requirements first and defer those which are lower priority. A second 
issue is whether key suppliers will abandon the supplier network as we 
reduce requirements. This is a continuing problem, and we will do more 
tradeoff analysis to support decisions, for example, to either 
stockpile components or find alternate suppliers.
    Question. The budget request proposes terminating production of the 
M919 depleted uranium cartridge for the Bradley Fighting Vehicle. Are 
the stocks of this round sufficient to meet requirements from now 
through the retirement of the Bradley?
    Answer. The Army has not funded the M919 program due to other 
higher-priority requirements. However, the program has received funds 
throughCongressional plus-ups in fiscal year 1999 through fiscal year 
2003. Procurement will end with the fiscal year 2003 appropriation 
unless the Congress directs additional funds into the program. The Army 
will have produced a quantity of approximately 2.14 million cartridges 
through the end of fiscal year 2004. The Army acquisition objective 
stands at 5.3 million cartridges. There is a $30 million critical 
unfunded requirement in the fiscal year 2004 budget. Stocks of the M919 
cartridge, along with stocks of its less-capable predecessor cartridge, 
the M792, are sufficient to meet the needs of the Bradley Fighting 
Vehicle through its retirement. The Bradley family of armored combat 
vehicles will be an integral part of the Army force structure until 
fiscal year 2045. During this timeframe, the M919 depleted uranium 
cartridge will provide soldiers with a lethal fighting capability that 
also enhances their survival on the battlefield.
    Question. In fiscal year 2003, the Army proposed 18 systems 
terminations. Some are being reconsidered. For example, in fiscal year 
2003 the Army terminated the Advanced Threat Infrared Countermeasures 
(ATIRCM) system, yet this program received $75 million in the fiscal 
year 2004 budget request. Please explain the apparent inconsistency.
    Answer. The ATIRCM program was not officially terminated in the 
fiscal year 2003 budget submission. With the fiscal year 2003 
submission, the Army zeroed the ATIRCM procurement but left research, 
development, test, and evaluation funding in place to examine cost-
reduction strategies within the program. The Army eliminated funding 
for procurement because of several factors including, poorly defined 
requirements, escalating costs, and to a lesser extent, because the Air 
Force and the Navy in 2000 withdrew from the Common Missile Warning 
System (CMWS). The Army transferred funding to the Special Operations 
Command for procurement of 97 ATIRCM/CMWS systems through fiscal year 
2008.
    In the fiscal year 2004 budget submission, the ATIRCM program 
contains funding for a new procurement strategy to develop an 
affordable counter-infrared program. The Army completed an aircraft 
survivability study to determine the optimal strategy to field 
survivability equipment to its conventional forces. The strategy 
proposes installing wiring harnesses for the modernized fleet (AH-64D 
Longbow, UH-60M Black Hawk, and CH-47F Improved Cargo Helicopter) and 
procuring countermeasure systems (ATIRCM, CMWS, improved countermeasure 
dispensers, and advanced infrared countermeasure munitions) in unit 
size sets. A unit size set is defined as a corps-, division-, or 
brigade-sized element. This revised procurement strategy offers an 
affordable solution to counter-infrared technology fielding and is 
funded in the fiscal year 2004 budget submission.
    Question. Are there systems on the fiscal year 2004 list over which 
the Army has reservations?
    Answer. Based on lessons learned from the war on terrorism, the 
Army reviewed ongoing operations and revalidated limited numbers for 
four systems, that had been terminated during the preparation of the 
fiscal year 2004 budget submission: Tactical Exploitation System (TES), 
M919 25mm ammunition, Stinger missile, and the Joint Tactical Terminal. 
As part of the fiscal year 2004 budget submission, the Army also 
generated a list of critical unfunded priorities. Three of the 
revalidated systems were placed on this list (TES, M919, and Stinger). 
In all cases, the unfunded priorities procure systems to meet an 
identified Army shortfall in the global war on terrorism.

                  Stryker Brigade Combat Capabilities

    Question. The Army plans to establish six Stryker Brigade Combat 
Teams (SBCTs) to be supported by approximately 300 Stryker vehicles per 
team. From fiscal year 2000 through 2003, $2.8 billion has been 
provided to purchase 1,100 vehicles. The fiscal year 2004 budget 
request includes $955 million to purchase 301 additional vehicles. The 
Office of the Secretary of Defense has recently reconsidered the extent 
of the Stryker program. Vehicles to support the first four SBCTs have 
been fully funded through the fiscal year 2004 budget request. The 
fifth and sixth brigades have been put on hold pending an Army study 
due to the Office of the Secretary of Defense in July 2003. Section 
8121 of the fiscal year 2003 Defense Appropriations Act requires the 
Department of Defense to program and budget for no less than six 
Stryker Brigades.
    Please provide your assessment of the state of the Stryker program.
    Answer. SBCTs provide an invaluable means of spearheading Army 
Transformation. The SBCT trains junior officers and noncommissioned 
officers--tomorrow's commanders and command sergeants major--in the 
tactics, techniques, and procedures that will inform employment of the 
Objective Force. The Army has resourced six SBCTs in the Future Years 
Defense Program to contribute to fulfilling the ``1-4-2-1'' defense 
construct and national security requirements. However, at this time, 
the Secretary of Defense has only authorized the procurement of the 
first four brigades. The Army will provide the Secretary of Defense 
with a plan for Stryker Brigades five and six.
    Question. Has development of all variants of the Stryker been 
completed?
    Answer. No. Development of the Mobile Gun System and the Nuclear, 
Biological, and Chemical Reconnaissance Vehicle continues. The initial 
low-rate production decision for both vehicles is scheduled for 
December 2003 with first unit deliveries scheduled for December 2004.
    Question. What is the status of the Mobile Gun System (MGS) and 
Reconnaissance variants of the Stryker? Is the development of these 
variants complete?
    Answer. Development of these variants continues with the initial 
low-rate production decision scheduled for December 2003 and first unit 
deliveries scheduled for December 2004. Reconnaissance Vehicle (RV) 
development is near completion, with 66 to be fielded by mid April 
2003. Modifications to the RV are a result of lessons learned coming 
out of testing and are designed to ensure the vehicle meets its 
requirements and is safe for soldier use.
    Question. What type of test ammunition is required to support 
completing the development of the MGS? Are the stocks of this 
ammunition sufficient to support development of the MGS?
    Answer. Qualification testing of six types of 105mm ammunition 
cartridges supports MGS development. They include the M900 armor-
piercing, fin-stabilized, discarding sabot; M456A2 high-explosive, 
anti-tank (HEAT); M393 high explosive; and training rounds for each. 
MGS development will use about 500 rounds of each during ammunition 
compatibility and safety qualification testing. The Army has 
sufficient, serviceable stocks of existing M900 sabot and M456 HEAT 
cartridges and their associated training cartridges for use with the 
MGS. The Army does, however, lack sufficient, serviceable stocks of 
high explosive and anti-personnel cartridges to support the MGS. These 
cartridges have passed their 20-year service life. In parallel and in 
conjunction with the MGS development, the Army is re-procuring a 
replacement for the M393A2 high explosive plastic and a matching 
training cartridge. In addition, the Army is developing a canister 
cartridge to meet the antipersonnel requirement.

                   Stryker/M113 Comparative Analysis

    Question. Section 113(c) of the fiscal year 2001 Defense 
Authorization Act required the Army to conduct an evaluation of Medium 
Armored Vehicles. The results of the evaluation were submitted to the 
Congress in January of 2003. The evaluation compared the capabilities 
and characteristics of the Stryker Infantry Carrier Vehicle (ICV) and 
the M113A3 Armored Personnel Carrier (APC). The Army evaluation 
concludes that the ICV provides advantages in the areas of force 
protection and survivability, support to the dismounted assault and 
close fight, and mobility. Given this conclusion, the Deputy Secretary 
of Defense approved obligation of funds appropriated for the Stryker. 
The fiscal year 2004 budget request includes $955 million for an 
additional 301 vehicles.
    What are the main differences in the survivability of the Stryker 
compared to the M113 (with and without armor kits)? Which vehicle is 
superior in this regard and why?
    Answer. The primary difference in survivability is that the Stryker 
has protection against 14.5mm threats, while the M113A3 provides 
protection from 7.62 mm threats. The M113A3 needs several hours of 
preparation if 14.5mm armor protection is required. The Army does not 
own any M113A3 14.5mm armor sets. With add-on armor kits, both vehicles 
can provide protection against rocket-propelled grenades (RPG). The 
Army will have RPG armor for the Stryker, but does not have any RPG 
armor kits for its M113A3s. Stryker does not have the additional noise 
associated with ``track slap.'' With its lower acoustic signature, 
Stryker is less likely to be detected than a M113A3. Additionally, the 
automatic fire extinguishing system in the Stryker ICV can put out a 
fire after the vehicle is hit and provides a better chance of 
preserving the lives of the crew and enabling the vehicle, if still 
mobile, to continue the mission. The lack of an onboard automatic fire 
detection and extinguishing capability places the M113A3 crew at 
greater risk than the crew of the Stryker ICV. Overall, the Stryker is 
significantly more survivable than the M113A3 and, therefore, has a 
greater capability to safely deliver soldiers to the fight than the 
M113A3.
    Question. What are the differences between these systems for ``limp 
home'' capability? Which vehicle is superior in this regard and why?
    Answer. The Stryker has superior ``limp home'' capability--also 
referred to as residual mobility. Immobilized vehicles result in the 
loss of combat power--each vehicle and its squad is one-quarter of the 
platoon's combat power. It is likely that a vehicle will remain under 
enemy fire following a mine strike or other engagement that results in 
damage. If an M113A3 loses a track, it becomes immobilized and the 
squad must defend the vehicle while the crew repairs it--requiring at 
least an hour to prepare the vehicle to ``limp home.'' However, even 
after losing one or more wheels, the Stryker can immediately ``limp 
home'' and self-evacuate to a protected position to make repairs or 
continue the operation.
    Question. What are the performance differences in supporting 
dismounted assault and close combat? Which vehicle is superior in this 
regard and why?
    Answer. The Stryker is superior in its ability to support the 
infantry squad in combat. With its superior armor and the remote weapon 
station (RWS), the Stryker commander can operate the integrated RWS 
under protection and provide accurate direct fire against targets from 
a stationary position to support dismounted infantry operations. 
Conversely, a M113A3 commander must operate his pintle-mounted weapon 
from exposed position. Moreover, RWS day and night sight pictures can 
be shown on the squad leader's display, which is visible to the entire 
squad riding in the Stryker and allows the squad a 360 degree view of 
the surrounding area before dismounting. This increases the fidelity of 
the squad's situational awareness, enhancing their survivability and 
likelihood of mission success. To replicate this capability, the M113A3 
gunner must scan the surrounding area with binoculars or a night vision 
scope while exposed, and communicate his observations to the squad 
verbally.
    Question. What are the performance differences between these 
vehicles in the areas of mobility (both on- and off-road), 
transportability, and recovery?
    Answer. The Stryker has much greater fuel economy than the M113A3 
over flat, level primary roads, and is self-deployable by highway. The 
M113A3 may require transportation support for longer intra-theater 
moves and movements to and from ports of debarkation/embarkation. The 
comparison evaluation results reflected that the Stryker is able to 
deliver an infantry squad to the fight faster when employed in the 
projected operational terrain mix. The Stryker's superior road movement 
capability enables the entire Stryker Brigade Combat Team to self 
deploy in parallel with other means of intra-theater transport, such as 
C-130 aircraft and theater support vessels, or when other transport 
means are not advantageous or available, to concentrate combat power or 
fight dispersed as required.
    The Stryker and the M113A3 are air transportable in C-130, C-5, and 
C-17 aircraft. One vehicle, a Stryker or M113A3, can be transported in 
a C-130. A C-17 can transport three vehicles of either type. The M113A3 
is smaller and lighter, enabling strategic air deployments by C-5 to 
carry two additional vehicles. The M113A3 has better capability in soft 
soil, but when it gets stuck, it requires extraction by external 
recovery assets. The Stryker's self-recovery and likevehicle-recovery 
capabilities reduce its disadvantages in terrain favorable to the 
M113A3. With pivot steering, the M113A3 does have a better turning 
radius than the Stryker.
    Question. Please summarize the Army's experience with operational 
vignettes at Fort Lewis, the National Training Center, and elsewhere 
comparing the performance of these vehicles.
    Answer. The Army is pleased with the Stryker's performance at Fort 
Lewis and the National Training Center. During the comparison 
evaluation operational vignettes, both vehicles adequately supported 
platoon missions, but the Stryker provided better overall operational 
capability. Analysis of the comparison evaluation technical data 
identified differences between the vehicles and the results of 
operational vignettes complemented those findings. Soldiers 
participating in these vignettes overwhelmingly favored the Stryker 
over the M113A3. When capabilities of both vehicles are compared, 
considering the variables of mission, enemy, terrain, troops, and time 
available, the Stryker provides a greater capability across a wider 
range of possible operating conditions.
    During Millennium Challenge 2002, the Stryker proved itself quite 
mobile in the mountainous terrain of the National Training Center. The 
opposing forces remarked that the Stryker surmounted terrain that no 
other vehicle, wheeled or tracked, had been able to climb. While both 
vehicles provide the basic capabilities to conduct required tasks and 
subtasks, mission success is impacted by how soldiers employ the 
vehicle. The Stryker provides significant advantages in the areas of 
force protection and survivability, support to the dismounted assault 
and close fight, and mobility.

                         Future Combat Systems

    Question. The Army describes the Future Combat System as its number 
one priority supporting transformation to the Objective Force. The 
fiscal year 2004 budget request includes $1.7 billion in Army research 
and development funding. This includes FCS System Design and 
Development (SDD) funding, as well as funding for Netfires and the 
Objective Force Indirect Fire system. The later two elements of FCS 
were included in the Crusader budget amendment proposed by the 
Administration for fiscal year 2003.
    What is the current status of the Future Combat System? Please 
outline for the Committee the upcoming steps in the development process 
for FCS.
    Answer. The FCS program is in the latter stages of the concept and 
technology development phase of the DoD acquisition model. The Army and 
DARPA have identified the concepts and technologies necessary to 
develop, integrate, field, and sustain FCS Increment I. The Army will 
recommend to DoD that the program transition from concept and 
technology development to system development and demonstration at the 
FCS Milestone B Defense Acquisition Board in May 2003. The next major 
milestone is at the initial production decision in 2008 leading to the 
Army's initial operating capability at the end of the decade.
    Question. The Committee understands that the Army has recently 
released 24 requests for proposal (RFPs) for various technologies that 
will comprise FCS. Please explain the primary areas of emphasis of 
these RFPs.
    Answer. The 23 sub-contract RFPs and one sub-contract released by 
the Army are primarily focused on unmanned systems; supportability; 
training; and command, control, communications, and computers, and 
intelligence surveillance, and reconnaissance (C4ISR). Fully 12 of the 
23 RFPs emphasize C4ISR, because the Army recognizes that network 
connectivity and data fusion are the most critical aspect of the FCS 
system of systems concept.
    A unique aspect of FCS versus other individual program developments 
is that a Lead Systems Integrator is horizontally integrating all of 
the RFPs. This horizontal integration is occurring across all manned, 
unmanned, unattended sensors, and munitions within the FCS. In the 
past, larger emphasis was placed on vertical integration rather than 
horizontal integration. Horizontal integration is an attempt to improve 
connectivity between systems and capitalize on potential force 
effectiveness increases from the synergistic application of combat 
power across a force.
    Question. The Committee is aware that the Milestone B decision for 
FCS is approaching in May of 2003. Explain what this decision 
represents for the development of the FCS.
    Answer. The Milestone B decision represents the Office of the 
Secretary of Defense's approval for the FCS program to transition from 
concept and technology development phase to the system development and 
demonstration phase. A decision to proceed to the systems development 
and demonstration phase allows the Army, DARPA, and the Lead Systems 
Integrator to start the systems integration and demonstration 
activities necessary to enter production. More importantly, the FCS 
Milestone B decision represents a major step in the Army's desire to 
transform and achieve Objective Force capability before the end of the 
decade.
    Question. The Committee is aware of discussions within the Army 
indicating that the FCS program is between $40 and $50 million short of 
funds to support the program through the Milestone B decision. Why? 
What work must be performed or accelerated in order to keep the program 
on schedule?
    Answer. The Army and DARPA team need to reprogram $30 million 
dollars from within the Army to support FCS modeling and simulation 
(M&S) efforts. The Army believes it must build and sustain a state-of-
the-art M&S capability to accomplish the engineering effort required 
for the FCS program. This M&S capability will increase the efficiency 
and quality of the design effort, allow the design team to prototype 
subcomponents in a three-dimensional synthetic environment, and test 
performance on a synthetic battlefield from different locations in a 
collaborative fashion. The Army sees M&S as the only way to design the 
FCS system of systems and make it work efficiently. Specifically, these 
resources will provide government licenses and services required to 
deliver, maintain, and improve the services of the FCS advanced 
collaborative environment. Included is the software and hardware 
backbone to integrate government-owned data and applications.
    Question. The Army has chosen an acquisition strategy that relies 
on a Lead Systems Integrator (LSI) to coordinate the early stages of 
the program. Why has the Army chosen this strategy? What is the primary 
contribution of the LSI to development of the FCS?
    Answer. The Army and DARPA chose an LSI to help manage and 
integrate FCS because of the magnitude and complexity of the task. The 
Army studied the acquisition approach of other large and complex 
programs, such as the National Missile Defense and International Space 
Station programs, to determine the best method of managing and 
horizontally integrating a large engineering effort. The Army concluded 
that the LSI concept provided the most efficient and lowest risk 
approach to integrate the system of systems concepts required by FCS. 
The Army believes that with a LSI, that it can integrate architectures 
and platforms, and manage the interface requirements more efficiently 
and effectively. Additionally, the Army is transforming away from 
functional mission areas and related platform development, to a more 
horizontally integrated process. To break the functional mission area 
mold, the Army chose to competitively select an LSI to provide 
horizontal systems engineering development and management across the 
FCS system of systems.
    Question. This program is the joint responsibility of the Army and 
DARPA. Please explain the respective roles and funding responsibilities 
for the Army and DARPA in development of the FCS.
    Answer. DARPA and the Army combined their talents to define 
concepts, identify technologies, and begin development of FCS using a 
memorandum of agreement (MOA). The Army and DARPA have a 55/45 cost 
share agreement, respectively, for the concept and technology 
development phase of the FCS program effort. This MOA extends through 
2005 and both parties are currently updating the MOA to define the FCS 
Increment II concept and technology demonstration phase activities. 
Generally, DARPA has focused on its forte of thinking outside of the 
box and developing novel and higher risk technologies. The Army has 
focused on leveraging and maturing DARPA work and technologies to the 
degree that they can be integrated into weapons systems.

                        Non Line of Sight Cannon

    Question. In fiscal year 2003, the Administration proposed a budget 
amendment to terminate the Crusader artillery system. This proposal 
recommended $195.5 million to continue developing an indirect fire 
support element for the Future Combat System (FCS). To this, the 
Congress added $173 million, for a total of $368.5 million. The funding 
was intended to develop a firing platform as well as weapon system 
integration. This funding was provided specifically to the program 
management staff that had been developing Crusader.
    Mr. Secretary, the Congress provided nearly $370 million to 
continue developing an indirect fire weapon for the Army including the 
development of a more deployable chassis. What has the Army 
accomplished to date with this funding?
    Answer. To date, the Army/United Defense/General Dynamics team has 
entered the preliminary design phase for the non-line of sight cannon 
(NLOS-C). The NLOS-C is a manned ground vehicle that is deployable on a 
C-130 aircraft. The NLOS-C embodies the major design drivers that will 
effect an overall design for all of the other manned ground vehicle 
variants (mortar, direct fire cannon, etc.) in the FCS. The team has 
made significant up-front system engineering effort to generate and 
allocate the performance and functional requirements to support 
component design activities. The team has performed the majority of the 
design, analysis, and development efforts necessary to conduct detailed 
individual subsystem and component design within the vehicle. The team 
has accomplished preliminary design analyses, design option 
assessments, and architecture development for the electronics, 
software, propulsion, suspension, crew station, ammunition handling, 
armament, cooling, and survivability.
    The engineering, architecture analysis, and design work apply not 
only to the NLOS-C, but to all of the other FCS manned ground vehicles. 
In addition, a best technical approach for the NLOS-C was presented to 
and accepted unanimously by the program manager, user, and Lead System 
Integrator. Overall, the funding has enabled the Army to substantially 
reduce the schedule and cost risk to the FCS manned ground vehicles and 
has provided a head start for the FCS system design and development 
phase. Finally, the FCS NLOS-C demonstrator is scheduled to begin 
testing this summer.
    Question. An area of concern in the Committee's fiscal year 2003 
deliberations was integration of a large artillery piece onto a 
relatively light chassis. What progress has been made to solve this 
problem?
    Answer. The physical and dynamic forces exerted on a firing 
platform have been analyzed using high-fidelity computer modeling 
techniques. These computer models have proven to be extremely accurate 
in the past for measuring force loads and vehicle properties. Various 
suspension and propulsion options were also analyzed to determine the 
effect of the force transfers. Results have indicated that the addition 
of stabilizers to the rear of the vehicle provide sufficient support to 
reduce the vehicle settling time and forces experienced by the crew. 
Timeline analyses have also been done and confirm that this solution 
will support the user's aggressive response requirements. A system 
demonstrator is being manufactured to confirm these analyses and will 
undergo live testing at Yuma Proving Ground this summer.
    Question. The Committee understands that the Line of Sight variant 
of the Future Combat System (FCS) and the NLOS cannon will share a 
common chassis. What engineering and design challenges confront the 
Army in developing a common chassis for these systems?
    Answer. The current development approach for all FCS manned ground 
vehicles is to share a common chassis design with common subsystems 
where practical. The various mission profiles and demands of the manned 
ground vehicle suite pose a design challenge to package required 
mission equipment within the power, weight, and volume constraints. 
Computer aided design and engineering models have confirmed the 
feasibility of this solution approach. By maximizing basic component 
commonality, the Army expects to realize significant savings in 
development, production, training, maintenance, and logistics costs. 
The challenge will be to maximize commonality without compromising the 
overall vehicle performance capabilities throughout the vehicle 
variants. The driving philosophy is to maintain commonality where it 
saves money and provides an operational benefit to the user.
    Question. Congress provided NLOS funding to the Army program 
management staff responsible for development of artillery systems. In 
fiscal year 2004, the Army budget request proposes combining this into 
the funding line for the FCS. Why?
    Answer. Realigning the FY04 program will more accurately reflect 
the true characterization of the program. FCS is a system of systems 
linked by a battle command network, rather than a collection of various 
independent platforms. Furthermore, the realigned FY04 program also 
more accurately reflects the execution of the work being accomplished. 
Since the Army is developing all variants through one system of systems 
Lead Systems Integrator, the Army expects to achieve improved 
efficiencies in the FCS program. The system of systems contractor will 
maximize commonality and also ensure supportability is engineered 
across the system of systems.
    Question. What changes in program management does the Army propose 
as a result of realigning, funding for NLOS development?
    Answer. Realigning the program funding for NLOS has not resulted in 
any substantial changes to the program management of the NLOS-C 
program. The Crusader management staff has transitioned to form the 
NLOS-C management staff to support the initial FCS program in general.

              Tactical Unmanned Aerial Vehicle Shadow 200

    Question. The Army's Tactical UAV recently underwent its 
Operational Test and Evaluation.
    Please give a summary of the operational test and evaluation 
report--was the Shadow 200, the Army's tactical UAV, found to be 
operationally suitable and operationally effective?
    Answer. The TUAV Shadow 200 system is deployed with the 4th 
Infantry Division and with the first and second Stryker Brigade Combat 
Teams. These systems have the full confidence of the senior commanders 
of those combat units. The TUAV Shadow system was one of the DoD's most 
successful acquisition programs achieving a Milestone II to III 
decision in less than three years to include a successful initial 
operational test and evaluation (IOT&E). One of the key elements in 
this success was an Army approved acquisition based on a blocking 
strategy to achieve early success with anticipated block upgrades.
    The DoD Joint Interoperability Test Center remarked that the TUAV 
Shadow was the ``model for future C4I development.'' As tested by the 
Army's Test and Evaluation Command in the Block I configuration, and 
the rapid acquisition strategy, the TUAV Shadow is effective, suitable, 
and survivable. Finally, the Army has deemed the Shadow system 
affordable, and full rate production go ahead was approved in September 
2002 with the full rate production contract being awarded in December 
2002.
    Question. What is the Army plan for continuing the TUAV program?
    Answer. The Army acquisition objective is 83 systems while the Army 
procurement objective is 41 systems based on the fiscal year 2004-2009 
Program Objective Memorandum. Thirteen systems had been procured under 
low rate initial production contracts; the full rate contract award in 
December 2002 was for nine systems with procurement for the remaining 
19 systems to take place from 2004 to 2008. Systems will eventually be 
fielded to each of the Army's divisions, Stryker Brigades, and the 
training center.
    The Future Combat Systems Lead Systems Integrator released requests 
for proposal for four classes of UAVs in February 2003 that would 
include at least two UAV capabilities possibly met by the TUAV Shadow 
200 or a growth version of that same system. In addition, the Army 
continues to work towards further improvement of the TUAV Shadow 200 
with a series of targeted upgrades including improvement of target 
location error, incorporation of a tactical common data link, and 
conversion to a heavy fuel (JP-8) engine. The TUAV Shadow will deploy 
in the Persian Gulf region as part of the 4th Infantry Division.
    Question. Has the TUAV program presented in the fiscal year 2003 
budget been restructured in the fiscal year 2004 budget request?
    Answer. The TUAV budget has not been restructured in the fiscal 
year 2004 budget request.
    Question. How many Shadow 200 systems does the Army intend to 
acquire in fiscal year 2003 and 2004?
    Answer. The Army will procure nine TUAV Shadow systems in fiscal 
year 2003 and eight systems in 2004. The maximum production capacity is 
12 systems per year.
    Question. In what ways does the TUAV not satisfy the Army's 
requirement for a longer-range, more robust UAV capability? What 
program are you pursuing to meet this requirement?
    Answer. While the Shadow 200 TUAV is an outstanding asset--easily 
deployed, and focused on the needs of the tactical maneuver commander, 
it has limitations. The TUAV has a small payload capacity, cannot carry 
multiple payloads, and has a limited range. These limitations are due 
to its smaller size. In accordance with Objective Force guidelines, the 
Army is pursuing an extended range/multi-purpose (ER/MP) UAV that is 
light, mobile, and flexible to meet projected division/corps 
requirements beyond the 50-kilometer range the Shadow 200 TUAV operates 
in.
    At the same time, the U.S. Air Force Predator and Global Hawk UAVs, 
while outstanding platforms, cannot meet the Army ER/MP UAV 
requirements due to limited assets, requirement for extensive 
logistical support, and differing Army missions. Additionally, neither 
Predator nor Global Hawk is responsive enough to provide support at 
multiple echelons at once. Given the nature of the anticipated roles of 
division and corps under Army Transformation, the requirement for an 
ER/MP UAV is critical.
    The operational requirements document for this capability is 
undergoing final adjustments in preparation for a May Army requirements 
oversight council, and we hope to have this important capability to the 
Army beginning in fiscal year 2006/2007. We do not intend to develop a 
new ER/MP UAV capability; rather, we will conduct a fly-off in fiscal 
year 2004 among current UAV platforms to determine the air vehicle the 
Army will select to meets its extended range UAV requirements. Finally, 
the ER/MP UAV must be compatible with the Shadow 200 UAV ground control 
equipment to ensure commonality of equipment, reduced training 
requirements, and overall cost savings of not having to maintain two 
separate ground control systems.

                          Aerial Common Sensor

    Question. With the cancellation of the Joint SIGINT Avionics Family 
(JSAF) program, the Army was required to restructure its Aerial Common 
Sensor program. Please summarize the new acquisition strategy for your 
Aerial Common Sensor (ACS) program.
    Answer. Due to the cancellation of the JSAF program, the Army rated 
the communications intelligence (COMINT) sub-system for ACS as a high-
risk area. Therefore, the milestone decision authority approved a 
change to the acquisition strategy allowing two contractor teams to 
proceed through the technology development phase to reduce risk. The 
exit criteria for the phase were adjusted to include the demonstration 
of a prototype COMINT sub-system in a system integration laboratory 
environment. The technology development phase began in April 2002 and 
will conclude with contractor technical demonstrations in early July 
2003.
    Upon completion of the technology development phase, the Army will 
select a single contractor team in an open competition to complete the 
system architecture, develop, test and produce the system, and develop 
the sustainment plan for the life of the system. The first ACS unit 
will be equipped in fiscal year 2009.
    Question. What are the major milestones in the decision-making 
process and what are the timeframes for these milestones?
    Answer. The next program milestone is the Milestone B decision 
planned for September 2003. The Milestone B decision will formally 
initiate the program and authorize entrance into the system development 
and demonstration phase. The system development and demonstration phase 
will begin with the award of the system development and demonstration 
contract in January 2004 and conclude in the fourth quarter of fiscal 
year 2007.
    Key events during this phase are the developmental tests of the ACS 
prototype. Developmental test #1 is scheduled in fiscal year 2006 and 
developmental test #2 is scheduled for fiscal year 2007. Developmental 
test #2 and a follow-on limited user test will provide the necessary 
system evaluation to proceed to Milestone C in the fourth quarter of 
fiscal year 2007. The Milestone C decision will authorize low-rate 
initial production of the ACS system. Initial operational test and 
evaluation will occur in fiscal year 2009 and supports the full rate 
production decision, also in fiscal year 2009.

                     UH-60 Black Hawk Fielding Plan

    Question. Among the systems proposed for restructuring in the 
fiscal year 2004 budget request is the UH-60 Black Hawk. The 
restructuring is tied to the Army Aviation Modernization Plan (AAMP) 
which proposed a reduction to the total number Black Hawks the Army 
will field. The fiscal year 2004 budget request is consistent with an 
overall decline in the number of Black Hawks as the number of aircraft 
requested drops from 12 to 10.
    How many UH-60 Black Hawk aircraft are requested in the fiscal year 
2004 budget? How does this compare to the requested and enacted levels 
of the last two years?
    Answer. The Army has requested 10 UH-60 aircraft in the fiscal year 
2004 budget. The Army requested 12 UH-60s each in fiscal years 2002 and 
2003. Congress provided seven additional UH-60s in fiscal year 2003 and 
10 additional UH-60s in fiscal year 2002.
    Question. Please explain the modified fielding plan for the UH-60 
Black Hawk as a result of the Army Aviation Modernization Plan (AAMP).
    Answer. The 2003 AAMP continues the Army's efforts to retire all 
legacy aircraft quickly, structure the Active and Reserve Components 
with like units, and field all these units with modernized aircraft. 
The plan also eliminated or reduced the size of a number of units to 
align the aviation force structure with current and future warfight 
requirements. The RAMP retires all operational UH-1s by the end of 
fiscal year 2004, reduces the number of UH-60s in the Active Component, 
cascades aircraft to the Army National Guard and the aviation training 
base, and continues Black Hawk procurement to reach the Army's total 
UH-60 requirement of 1,680 aircraft.
    Question. Does the AAMP propose a lower number of aircraft to 
support Army requirements?
    Answer. The Army has reduced its total requirement for UH-60s from 
1,956 to 1,680.
    Question. How will the number of aircraft proposed in the AAMP 
change for the Active Army versus the Guard and Reserve?
    Answer. The Army will reduce the total number of UH-60s in Active 
Component warfight units by 28 percent. The Army National Guard UH-60 
warfight requirement will be reduced by five percent. However, the 
number of UH-60s on hand in the Army National Guard will grow by 32 
percent from 2002 to 2007. The number of UH-60s in the Army Reserve 
does not change.
    Question. The Committee understands the result of the AAMP, 
together with retirement of older aircraft such as the UH-1 and OH-58, 
is that some Army aviation units will be at between 50-70 percent of 
fill. Is this correct? If so, for how long?
    Answer. At the end of 2002, the Army had fielded approximately 92 
percent of its total Black Hawk requirement (1,550 of 1,680 required), 
and the Army National Guard had 85 percent of its requirement on hand 
(587 of 687 required). As units transition to their new structure in 
2003 and 2004, there will be approximately 10 to 15 companies in the 
National Guard that will be filled at the 50 to 70 percent level for 12 
to 18 months. By the end of 2Q04, the National Guard should have 
approximately 610 of their 687 UH-60s on hand. This provides enough 
aircraft to fill all of the National Guard high-priority units at 90 to 
100 percent and the remaining units at no less that 80 percent.
    Question. Does the reduction in the total number of aircraft 
proposed in the AAMP give rise to the need for a more robust 
recapitalization plan for the Black Hawks that are currently fielded? 
If so, how is that supported in the fiscal year 2004 budget request?
    Answer. The Army is currently funding two UH-60 recapitalization 
programs. The UH-60A to A program is funded to recapitalize 20 UH-60As 
in fiscal years 2004 through 2013. The UH-60M recapitalization/upgrade 
program is funded for continued development and certification in 2004 
and initial production beginning in 2005.

                        CH-47 Chinook Helicopter

    Question. The Army plans to rebuild the aging CH-47 Chinook heavy-
lift helicopter. The program is in the second year of Low-Rate Initial 
Production (LRIP). $327.1 million is included in the fiscal year 2004 
budget for 16 aircraft. The current Army program will produce 340 
aircraft compared to a requirement of 513. Of the total planned 
production, 53 aircraft will support Special Operations requirements. 
In the fiscal year 2003 bill, the Congress added $39 million to this 
program provided that the Army restructures the CH-47 program to 
upgrade the entire fleet (465 aircraft) at a rate of not less than 36 
aircraft per year. The current Army plan, as reflected in fiscal year 
2004 budget request, does not implement this direction.
    Please explain the significance of the CH-47/MH-47E to the Army and 
the Special Operations Command in general, and to supporting the Global 
War on Terrorism in particular.
    Answer. The Army Special Operations Forces (SOF) MH-47E Chinook was 
absolutely critical in providing the vertical envelopment capability 
infiltrating Special Forces teams, Army Rangers, and Navy SOF into 
Afghanistan during the early stages of Operation Enduring Freedom. The 
aircraft was also deployed to the Philippines supporting Operation 
Enduring Freedom-Philippines. The aircraft's unique SOF peculiar one-
of-a-kind systems include its terrain following/terrain avoidance 
radar, aerial refueling capability, and over-the-horizon satellite 
communications. This equipment enabled SOF teams to be flown over 
desert and rugged mountainous terrain in excess of 20,000 feet, flying 
at times in zero visibility due to brown out and atmospheric 
conditions. During Operation Enduring Freedom, the MH-47Es aircraft 
mission equipment enabled combat aircrews of the 160th Special 
Operations Aviation Regiment to fly combat missions in excess of 12 to 
14 hours using night vision goggles. During Operation Enduring Freedom, 
the MH-47E conducted the longest rotary wing infiltration of Special 
Forces in Army history. This unique MH-47E capability saved the SOF 
ground force commander several weeks of critical time during Operation 
Enduring Freedom.
    The MH-47E also performed other highly successful missions that 
included SOF exfiltration, air assault, resupply, forward air refueling 
point operations, sling load, selected combat search and rescue, and 
medical evacuation operations for SOF deep within the battlefield. The 
MH-47E proved to be the strongest workhorse on the battlefield 
supporting Army Special Operations Forces and other U.S. forces into 
Afghanistan and Iraq. Within the Army and the Department of Defense, it 
is the only aircraft capable of flying the extremely long missions.
    Due to limited number of MH-47Es, the CH-47 provided a tremendous 
complementary capability in support of Special Operations Forces where 
the CH-47s were determined to be suitable and feasible. Like the MH-47, 
the conventional CH-47D Chinook also demonstrated its vertical lift 
capability in Afghanistan. The CH-47D provided air assault, resupply, 
sling load, and medical evacuation operations for conventional forces; 
however, the CH-47 does not offer the mission range or possess the same 
optic systems as the MH-47E. The CH-47D was able to safely operate in 
the environment because of the recent significant engine and 
communications equipment upgrades made to the aircraft.
    Question. How many of each type of these aircraft are currently 
deployed in support of the war on terrorism, and in support of 
operations in Iraq?
    Answer. The Army has 120 total CH-47D and MH-47D/E aircraft 
deployed in support of these operations.
    Question. What is the mission capable rate of the fleet of aircraft 
that is deployed?
    Answer. The CH-47D mission capable rate is 71 percent and the MH-47 
mission capable rate is 84 percent.
    Question. What is the status of the CH-47/MH-47 rebuild program?
    Answer. The CH-47/MH-47 rebuild program is on track, but is in the 
process of restructuring to accommodate the increased priority of the 
Special Operations aircraft. The low-rate initial production contract 
was signed on schedule in December 2002. The first aircraft was 
subsequently inducted into the production line in January 2003. Two 
additional aircraft have since been inducted into the program.
    The President's Budget placed increased emphasis on the early 
production of the MH-47G. Due to the pressing requirements of the 
global war on terrorism, the production of the MH-47G was accelerated. 
Most of the first three production lots will be dedicated to the 
production of the MH-47G. This will introduce some inefficiency in the 
resultant CH-47F program that will result in an increase in unit cost. 
The current estimate is that the cost increase will be less than 10 
percent. The Army Cost and Economic Analysis Center is currently 
developing a revised cost estimate.
    Question. What is the quantity of aircraft proposed in the fiscal 
year 2004 budget request?
    Answer. Sixteen CH-47Ds are programmed for remanufacture to the MH-
47G configuration.
    Question. The fiscal year 2003 bill provided $39 million above the 
budget request, and directed the Army to structure this program to 
produce not less than 36 aircraft per year, and a total of 465 aircraft 
over the life of the program. What steps has the Army taken in the 
fiscal year 2004 budget request, and over the FYDP, to structure such a 
program?
    Answer. None. Currently on OSD withhold, the $39 million would have 
provided long lead items for one production lot. The estimated cost to 
complete this program is an additional $2 billion. Due to competing 
priorities and limited resources, the Army cannot afford an increase of 
this magnitude. Additionally, the operational impact of a 36 aircraft 
per year in the remanufacturing program is considered too high. With 
the planned increase in MH-47 inventory from the current Army CH-47D 
inventory, the Army would have to stand down one CH-47 unit or resource 
below authorization 10 CH-47 units through fiscal year 2018 to execute 
a 36 aircraft per year program.
    Question. How has the shift in initial lot production from the CH-
47F to the MH-47G model impacted the CH-47F program?
    Answer. Adjusting the production schedule to comply with the 
Program Decision Memorandum will add an estimated $177 million to the 
CH-47F, of which $77 million will be realized in fiscal year 2005-2009, 
and slip the Army's CH-47F first unit equipped 21 months into fiscal 
year 2007.

                       RAH-66 Comanche Helicopter

    Question. In October 2002, the Defense Acquisition Board (DAB) 
recommended that the Army proceed with the Comanche program and 
approved production of 650 aircraft at a rate of not to exceed 60 per 
year. Of the total, the DAB approved production of 73 low-rate initial 
production (LRIP) aircraft. The quantity will be reassessed at the 
Future Combat System (FCS) Milestone B decision in May 2003. The fiscal 
year 2004 budget request includes $1.1 billion for Comanche. Test 
aircraft 3 will make its first flight in May 2005.
    In October 2002, the DAB recommended that the Army produce 650 RAH-
66 Comanche helicopters. What is the basis for the quantity recommended 
by the DAB?
    Answer. Six-hundred fifty Comanches fields a 12-helicopter squadron 
in each Objective Force unit of action and a similar unit in the 
reconnaissance, surveillance target acquisition (RSTA) squadron of the 
unit of employment. There are projected to be 30 unit of action and 10 
RSTA units for a total of 480 Comanche helicopters. Additionally, 
Special Operations will field 16 aircraft, and 154 are required for the 
training base, operational readiness float, testing, and other 
missions.
    Question. Please compare the DAB figure to the total Army 
requirement. What is the basis for the total Army requirement? Does the 
Army total assume that Comanche will serve only as an armed 
reconnaissance aircraft or as an attack aircraft as well?
    Answer. The Comanche is a multi-role armed reconnaissance and 
attack helicopter integral to the Army's future force. It addresses 
Army battlefield reconnaissance requirements as a lethal, low-
observable, reconnaissance sensor, communications, and weapons platform 
and will replace the Army's vintage combat aircraft. Comanche is 
designated as the initial system for the Army's Transformation within 
its future Objective Force and is the combat aviation element within 
the Future Combat System. The total Army requirement for Comanche is 
819 in both units of action and units of employment. This includes 652 
in Active Component reconnaissance, attack, cavalry, and special 
operating forces units; 167 for flight school, operational readiness 
float; testing; and other missions. The DAB permitted Army procurement 
to the units of action and the reconnaissance units in the units of 
employment. This equates to 650 Comanches: 496 in Active component 
units and 154 for schools, operational readiness float, testing, and 
other missions.
    Question. The DAB specifies that the Comanche should be produced to 
meet Block III capabilities. Please describe Block III capabilities. Do 
aircraft of this specification differ from the Army's plan prior to the 
DAB?
    Answer. Comanche Block III will begin fielding around 2013. Block 
III adds full sensor packages including sensor fusion and also the 
external fuel armaments system that adds the capability of extended 
ranges and external weapons. Block III focuses squarely on the armed 
reconnaissance version because this represents our greatest aviation 
battlefield deficiency. Basically, the requirements did not change 
during restructure except for the addition of tactical control data 
link that permits control of unmanned aerial vehicles.
    Question. The DAB requires use of the Cost Analysis Improvement 
Group (CAIG) cost estimates for program and budget formulation. Please 
explain how these estimates differ from the Army's estimates.
    Answer. The difference between the Army's position and OSD CAIG's 
in research, development, testing, and evaluation was only one percent 
(two percent when excluding sunk costs), and the procurement difference 
was nine percent.
    Question. Following the DAB recommendation, the Army filed a Nunn-
McCurdy waiver based on acquisition unit cost growth. Why? Is the 
waiver a result of using CAIG cost estimates or for other reasons?
    Answer. The Army cost position did include cost growth resulting in 
a program acquisition unit cost variance of 14.4 percent and 
acquisition procurement unit cost variance of 8.1 percent. The Army 
estimates did not reflect a Nunn-McCurdy breach. However, the 
incorporation of the OSD CAIG estimate, which added significant 
increases to the procurement estimate, resulted in a program 
acquisition unit cost breach of 23.2 percent and an acquisition 
procurement unit cost breach of 18.3 percent. These amounts require 
Nunn-McCurdy breach notification to Congress.
    Question. The Comanche program has again been restructured in the 
wake of the DAB recommendation. Why?
    Answer. The DAB recommendation represents the agreed upon and 
approved restructured Comanche program. To bring all development 
processes into compliance with the new program structure, we are 
revising documents such as the test and evaluation master plan and 
conducting a critical design review.

                 RAH-66 Comanche Technical Development

    Question. The Comanche has experienced numerous technical issues 
during its development including: the weight of the aircraft, the 
aircraft's vertical rate of climb (VROC), and the complexity of the 
software needed to operate the aircraft. In December of 2002, the T-802 
engine for the Comanche passed a critical design review. This engine 
provides enough power to meet the aircraft's VROC requirements. In 
January 2003, due to commercial obsolescence, the Army had to reprogram 
funds to ensure adequate stocks of computer chips for the aircraft's 
mission computer, and for other electrical components.
    The Committee is aware that the Army has adjusted requirements to 
ensure that Comanche's weight growth will not prevent production 
aircraft from meeting vertical rate of climb requirements. Please 
explain.
    Answer. The Army did not change the objective requirements for 
Comanche. However, the Army did adjust the timeframe for meeting the 
objective requirements. This adjustment resulted from restructuring the 
program to adopt an evolutionary acquisition strategy. Evolutionary 
acquisition is the desired method for achieving a usable weapon system 
in the near term rather than having a lengthy development trying to 
achieve final objective requirement at first fielding. A threshold VROC 
requirement for the Block I and II configured aircraft is lower than 
the objective in Block III. This allows the Army to quicken the initial 
fielding and, using emerging technology, achieve the final objective 
VROC.
    Question. Does the adjustment of requirements mean that the Army 
has lowered its performance requirements for the Comanche?
    Answer. No. The objective requirements for Comanche remain the same 
as before the restructure, but the adjusted strategy allows the program 
to achieve those objective requirements in an evolutionary process.
    Question. Recent Army reports indicate that the T-802 engine to be 
used in Comanche will provide acceptable weight growth ``margin'' as 
the Comanche program progresses. How much margin does this engine 
provide in light of the aircraft's current weight?
    Answer. We are certain that there is substantial growth margin in 
the T-802 engine, but we do not currently know how much. From 
recommendations made in 2002 by the independent review panel, the 
project manager has implemented a study of the engine to determine the 
amount of power that can be achieved by the engine and what the effect 
will be on the engines durability and dependability at various shaft 
horsepower outputs. Once the data from the study is obtained, the 
developers will be able to adjust the engine's power output in concert 
with required range, weight limits, and operational availability to 
optimize the overall system performance.
    Question. What if any operations and support risks are associated 
with the T-802 engine which runs ``hotter'' in order to generate more 
horsepower?
    Answer. The risk with running the engine at a higher horsepower 
output is associated with increased wear and stress on engine component 
parts. Currently, the Comanche's forecasted engine runtime time between 
overhauls is very high.
    We are certain that the engine can be operated at a higher power 
output while still maintaining an acceptable time-between-overhauls 
value. However, we will not know the specific limits of engine power 
output until the study is completed.
    Question. Does the weight of an aircraft typically grow as it 
progresses through development and production, and if so, at what rate? 
Does the Comanche program's experience match the Army's more general 
experience? Explain.
    Answer. Yes, historically, attack type helicopter weight grows an 
average of 10 percent during development. The Comanche helicopter 
weight has grown 17.5 percent. Comanche's weight growth is not 
surprising considering the new requirements that it has had to satisfy 
as compared to legacy aircraft, such as radar cross section reduction, 
advanced infrared suppression, NBC protection, internal weapons bay, 
improved agility, sideward and rearward flight capability, and improved 
reliability and maintainability. Still, we believe that during the 
evolutionary development, we will be successful in keeping the aircraft 
within the needed maximum weight range.
    Question. The Army has recently reprogrammed funds to provide for 
costs related to the mission computer modules and electrical 
components. Please explain why this reprogramming of funds was 
necessary.
    Answer. In traditional acquisition processes of the past, we 
usually only had to deal with advanced procurement of long-lead items 
for production about a year to 18 months before a production decision. 
However, in today's rapid technological growth environment, commercial 
electronic components are changing at such a rapid pace that a specific 
design is only up to date for one or two years, or less. These 
technology advances are accompanied by proprietary form-factor changes 
also. For many weapons systems developments, the designer finds that 
the components of his system, while still fully capable, become 
unavailable in the market place. If sufficient numbers of the no longer 
commercially produced parts are not acquired before they are 
unavailable, the designer will be forced into a premature and unplanned 
redesign effort. The Army requested a reprogramming of research, 
development, testing and evaluation (RDTE) funds to procurement funds 
in order to stockpile sufficient obsolete electronic parts to carry the 
program through low-rate initial production.
    Question. Are measures included in the fiscal year 2004 budget to 
further hedge against computer and electrical component obsolescence 
for Comanche?
    Answer. Yes, now that we have established a procurement funding 
line, the Army will reprogram some of the Comanche RDTE in fiscal year 
2004 to continue to stabilize the current design with the existing 
components. At the end of the low-rate initial production, Boeing-
Sikorsky will update the electronic design to the newest technologies 
of that time just before full-rate production.

              AH-64 Apache Longbow Service Life Extension

    Question. The Acquisition Decision Memorandum (ADM) for the 
Comanche indicated that the AH-64 Apache will continue to meet the 
Army's heavy attack requirements. Accordingly, the ADM directed the 
Army to submit a plan to OSD by November 2002 to extend the service 
life of the Apache.
    Please describe the plan for Apache Service Life Extension that the 
Army submitted pursuant to the Comanche Acquisition Decision 
Memorandum.
    Answer. The Army's plan for the Apache Longbow will lower 
operations and support costs while taking advantage of technologies to 
ensure Apache Longbow relevance and interoperability with the Objective 
Force. The operations and support improvements include a new composite 
rotor blade, a common engine in all Longbow aircraft, airframe life 
extension, and other life extension improvements.
    The technology improvements address specific combatant commander 
warfighting needs and fix platform deficiencies pertaining to Objective 
Force interoperability affecting the 284 Block I aircraft. Improvements 
include a littoral capability, upgrading the digital capability of all 
Block I aircraft to meet the requirements of the Objective Force, 
enhancing the targeting capability, air transportability capability, 
and integrating unmanned aerial vehicle Level IV control.
    The digitization improvements require the aircraft to return to a 
remanufacturing facility. This major improvement requires the 
installation of a new data bus and system's architecture in Longbow 
lots 1-6 (284 aircraft) and enables digital communications with Object 
Force platforms. The proposed plan will take advantage of returning to 
a remanufacturing facility to combine currently funded initiatives such 
as the Joint Tactical Radio System, Modernized Target and Acquisition 
Designation Sight, and Aircraft Survivability Equipment installation 
efforts to limit the impacts of these major improvements on our Apache 
unit readiness.
    Question. What is the extent of the plan? Does it call for more 
extensive depot-level maintenance? A rebuild program? Please explain.
    Answer. The plan includes a combination of a rebuild program and 
field retrofit. Block I Longbows from lots 1-6 must return to the 
remanufacturing facility for the necessary digitization improvements. 
The remaining 217 Longbows from lots 7-10 would receive retrofits in 
the field. Several of these improvements are software upgrades. Also, 
items such as the new composite rotor blade would be fielded through 
the Army Working Capital Fund as spares to maximize utilization of 
rotor blades currently fielded.
    Question. How is this plan reflected in the fiscal year 2004 budget 
request? If not, why?
    Answer. This plan is not reflected in the fiscal year 2004 budget 
submission because the Longbow Apache Multi-Year II contract runs 
through fiscal yar 2007 and the Comanche Acquisition Decision 
Memorandum was subsequent to the 2004 budget submission. Funding for 
this plan will be reviewed for the fiscal year 2005 budget submission.

                           FMTV Recompetition

    Question. The decision on recompetition of the Family of Medium 
Tactical Vehicles (FMTV) contract is scheduled for March of 2003. The 
budget request for fiscal year 2004 is $309.8 million, down from $662.9 
million in fiscal year 2003.
    The Committee understands that a decision on the FMTV recompetition 
is scheduled for March 2003. Is the Army still on schedule to make its 
selection?
    Answer. The FMTV A1 competitive rebuy contract award has been 
delayed for up to 30 days, until April 2003, while two remaining 
certifications/notifications are provided to Congress.
    Question. Funding for the FMTV program declines substantially, by 
over $350 million, from fiscal year 2003 to the 2004 request. Why?
    Answer. Fiscal year 2003 funded the last year of the current FMTV 
production contract, as well as the first year of the FMTV A1 
competitive rebuy production contract.
    Question. In the Fiscal Year 2003 Defense Appropriations Act, the 
Congress provided new multi-year procurement authority to support FMTV 
recompetition. What are the Army's plans for awarding a multi-year 
contract for this program in fiscal year 2003?
    Answer. The Army is nearing contract award. The FMTV A1 competitive 
rebuy contract award has been delayed until April 2003 while two 
remaining certifications/notifications are provided to Congress.
    Question. What is the Army's total requirement for the FMTV? What 
is the outstanding requirement projected as of the end of fiscal year 
2003?
    Answer. The Army's total requirement for the FMTV is 83,170 trucks 
and 10,000 trailers. As of the end of the current production contract, 
the Army will have procured 21,876 trucks and 2,214 trailers, or 26.3 
percent and 22.1 percent, respectively, of its total requirement.
    Question. When do you anticipate that the Army will have fully met 
its FMTV requirements?
    Answer. FMTV would meet its total requirement with procurement in 
fiscal year 2022, subject to funding levels.
    Question. Does the advent of the Stryker Brigades, and ultimately 
the Objective Force, alter the Army's requirement for trucks? If so, 
please explain.
    Answer. There has been an increase in the Army's requirement for 
trucks as a result of the Stryker Brigades. However, the total truck 
requirement is expected to decrease as a result of the transformation 
to the Objective Force. We expect to achieve this reduction through 
vehicle technologies that combine medium and heavy tactical vehicles 
into a single family of trucks.

                   Joint Tactical Radio System (JTRS)

    Question. The Joint Tactical Radio System (JTRS) program is a 
family of software programmable, reconfigurable digital radios that 
will support networked voice, data and video transmissions. The program 
is managed through a Joint Program Office led by the Army. Nearly $600 
million is currently programmed within the Army for JTRS of which 
$134.7 million is requested in the fiscal year 2004 budget. Among the 
challenges for the system are developing the software which is 
fundamental to the system's operation and interoperability with other 
radios, and ensuring equal emphasis on this program from all of the 
Services each of which has responsibilities in the development of this 
system through the Joint Program Office.
    What is the current schedule for this program? Do you anticipate 
that the Army will meet the established development and fielding 
timeline?
    Answer. The Army is currently following an aggressive schedule to 
develop and field the JTRS Cluster 1 radio. After a successful Army 
System Acquisition Review Council in May 2002 and Defense Acquisition 
Board in June 2002, a cost-plus award fee contract was awarded to the 
Boeing Company in June 2002. The current top-level acquisition schedule 
plans for an early operational test beginning in the fourth quarter of 
fiscal year 2004, a development/operational/limited user test beginning 
in the third quarter of fiscal year 2005, and a multi-service 
operational test and evaluation beginning in the fourth quarter of 
fiscal year 2006.
    These test events provide a basis for decision reviews, which 
consist of an overarching integrating product team in the second 
quarter of fiscal year 2005, a Milestone C decision in the second 
quarter of fiscal year 2006, and a full-rate production decision in the 
second quarter of fiscal year 2007. The first unit equipped is the 
second quarter of fiscal year 2007.
    Since contract award approximately nine months ago, the program has 
successfully completed an integrated baseline review, a system design 
review, and is closing out remaining actions associated with the 
hardware preliminary design reviews. Also upcoming are a software 
preliminary design review and a critical design review. The contractor 
has indicated that they would like an additional 90 days to get to the 
early operational assessment. After the critical design review, a 
decision will be made on any movement of the schedule, when sufficient 
data will be available. Overall, the Army expects to meet the 
established development and fielding timeline established in the 
acquisition program baseline, given the currently funded levels.
    Question. The JTRS program is managed through a Joint Program 
Office for which the Army serves as the lead. Please explain how 
management responsibilities and funding are divided between the various 
services.
    Answer. The JTRS Waveform Program is responsible for funding the 
evolution of the software communications architecture, development of 
the cryptographic algorithms, and the waveform software application 
used by the Service JTRS radios. The JTRS Waveform Program provides the 
capstone acquisition strategy, security verification, and JTRS 
certification to ensure the cost-effective procurement of interoperable 
radios for all the Services. Each grouping of radio procurements is 
defined as a Cluster program. Each Cluster program is responsible for 
developing, testing, and producing their Cluster radio sets. Each 
Service funds their procurement of radios through the Cluster program 
that meets their communications requirement.
    Question. In your view, are your peers in the other Services 
providing equal emphasis on this program to ensure it will meet 
established development milestones?
    Answer. Yes, the all Services are providing equal emphasis on JTRS. 
Each Service will meet their communications requirement through a 
grouping of radio procurements or Clusters. Currently, Clusters 1, 2, 
3, and 4 have been identified, and the Clusters are successfully 
executing to established development milestones.
    Question. Please explain the significance of the JTRS program to 
Army communications overall and to fielding the Future Combat System 
(FCS) in particular.
    Answer. The Army Transformation Campaign Plan envisions a seamless 
communications architecture that enables interoperability across 
Services, platforms, and echelons of command. While numerous radio sets 
currently support the Army, JTRS provides a family of interoperable 
radio sets, capable of loading multiple waveforms, to support Joint 
operations. JTRS enables the Army to support Joint operations by 
providing the capability to transmit, receive, bridge, and gateway 
between similar and diverse waveforms and network protocols used within 
the radio frequency spectrum and across Service boundaries.
    The FCS network communications architecture provides network-
centric communications connectivity to the unit of action. The JTRS is 
a critical enabler of the FCS command, control, communications, 
computers, intelligence, surveillance, and reconnaissance capabilities. 
Every entity within FCS utilizes a software programmable radio and an 
associated networking waveform capable of interoperating within the FCS 
heterogeneous network. Large ground vehicles will incorporate JTRS 
Cluster 1 and utilize the wideband networking waveform for FCS network 
interconnectivity. Small air/ground sensors and soldiers utilize the 
JTRS small form factor radio along with the embedded networking 
waveform for FCS network interconnectivity.
    Question. What radios will JTRS eventually replace?
    Answer. JTRS will combine the functionality of numerous single 
function radios among the services into a single, Joint-interoperable 
family of radios. JTRS will operate with many legacy waveforms 
currently used by military and civilian agencies and incorporate new 
waveforms as they are developed. The components of the JTRS family of 
radio sets will be scaleable in terms of form, fit, and cost to meet 
specific user operational needs.
    Question. What is included in the fiscal year 2004 budget request 
for this program? For the out years?
    Answer. The fiscal year 2004 budget request for the JTRS Joint 
Program Office is $134.7 million. This will fund continued maintenance, 
evolution, and configuration control of the software communications 
architecture; continued funding of JTRS waveform contracts; continued 
development of software cryptographic algorithms and other security-
related activity; continued technology insertion activities; continued 
test and certification activities to insure interoperability of all 
JTRS systems; management and transition of the Joint Task Force 
Warfighter New Equipment Training (WARNET) program; and technical and 
non-technical program support. Out year funding is similarly 
structured.
    The JTRS Cluster 1 program is funded in accordance with Department 
of Defense acquisition guidance. This guidance directs that DoD shall 
strive to provide realistic cost estimates. As such, the Defense 
Acquisition Board decision recognized the aggressive JTRS Cluster 1 
schedule and associated cost risk and directed the program to be funded 
to reflect Joint Cost Position and Cost Analysis Improvement Group 
recommendations. Cluster 1 funding in fiscal year 2005 and out includes 
requirements for the continuation of contractual development efforts, 
testing, and management and program office support and technical 
support requirements.
    Question. What progress is planned with the fiscal year 2004 
funding?
    Answer. The 21 JTRS waveforms included in the Cluster 1 contract 
will be ready for early operational assessment in the fourth quarter of 
fiscal year 2004 with limited functionality. The Single Channel Ground 
and Airborne Radio System, Enhance System Improvement Program waveform 
development will be completed, as will the development of a number of 
other waveforms. Potentially, development of other JTRS operational 
requirements document threshold waveforms will be started, depending on 
funding availability. Additionally, the first cryptographic algorithms 
will be delivered. Software communications architecture evolution and 
configuration control will continue, significant test and certification 
activity will occur, and technology insertion opportunities will be 
identified and pursued.
    The Joint Staff coordination process is nearing completion for the 
Joint Task Force WARNET program. This process will further define 
requirements for transitioning the program, with results being 
implemented by, the Joint Program Office in fiscal year 2004. In fiscal 
year 2004, the JTRS Cluster 1 program will continue design, 
development, and support of the ground and airborne sets and design of 
ground vehicular installation kits for platforms required for testing. 
An early operational test is planned for the fourth quarter of fiscal 
year 2004, with, ramp-up for conduct and coordination of the test 
beginning in fiscal year 2003. The prime contractor and major 
subcontractors are expected to complete the build of pre-engineering 
development models, and the contractor expects to begin testing JTRS 
Cluster 1 prototypes in April 2004. The contractor will also start to 
ramp-up for the fabrication and build of the engineering development 
models.

                          Training Ammunition

    Question. Describe the process used to develop budget estimates for 
training ammunition.
    Answer. Ammunition requirements for weapons training are based on 
proponent-developed Department of the Army (DA)-approved training 
strategies. Once a strategy is approved it is added into DA Pamphlet 
350-38 and resourcing for it incorporated into the Program Objective 
Memorandum (POM). To get the POM requirement, the Army Training Support 
Center maintains a database containing all of the Army's weapons 
training strategies and ammunition requirements for each strategy, by 
ammunition type and year: Currently, the Army's major commands input 
their weapons densities and unit category into the database. The merger 
of these sources of data--strategy requirements, weapons densities, and 
unit category--provides the annual Army training ammunition 
requirements.
    The Army is currently transitioning to a new database that will 
accommodate the changed format of the revised fiscal year 2005 Army 
weapons training strategy. The revised strategy eliminated category 
clarifications and is instead organized by a more detailed unit type. 
The new data base still requires the Army to input strategy 
requirements, but ``feeds'' from other Army data bases will provide 
weapons densities by unit identification code, modified table of 
organization and equipment, and installation. After the Army major 
commands verify this data, a training ammunition requirements report is 
generated and serves as the basis for DA-approved training ammunition 
requirements. Additionally, several Army major commands submit non-
approved training requirements for consideration. Training related to 
contingency operations is an example of these non-approved 
requirements.
    Once the baseline Army training ammunition requirements are 
developed, a number of DA and Army Materiel Command staff agencies meet 
to discuss issues such as execution rates, supply availability, and 
anticipated production for each type of ammunition. Decisions about 
what to program and in what quantities emerge from these meetings.
    Question. The Committee understands that the fiscal year 2004 
budget request provides ammunition sufficient to meet a ``C-2'' level 
of training readiness. Why?
    Answer. Army training ammunition is funded at the C-2 level in 
FY04. The Army desires to fund training ammunition at the C-1 level, 
but the reality is that training ammunition competes for funding with 
other Army priorities. While there is moderate risk in funding training 
ammunition at the C-2 level, the FY04 budget reflects the best balance 
between available funds and Army priorities.
    Question. Given deployments for the global war on terrorism and 
potentially in Iraq, is the Army executing its live-fire training 
program at a ``C-2'' level or higher? Please explain.
    Answer. For fiscal year 2004, the Army is funded at the C-2 level 
for training ammunition. At present, however, the Army is executing its 
live-fire training program at the C-1 level, and for some types of 
munitions, above the C-1 level. First, as Reserve Component (RC) units 
prepare to deploy, whether for U.S. or overseas missions, they are 
required to train to Active Component standards. For most, this entails 
individual weapons qualification. However, some RC units must also 
perform collective training as well as individual qualification. 
Second, prior to the start of any operations in Iraq; units in the area 
of operations conduct a more intense level of training than that 
prescribed by the Army's peacetime weapons training strategy. Not only 
do they train to more rigorous levels, but they also conduct 
familiarization training with a few items not normally trained in 
peacetime. The intent behind such training is to ensure soldiers 
understand how the munitions will perform before they actually use them 
for the first time in combat. Third, the number of contingency 
operations involving Army soldiers has grown in recent years. In 
addition to supporting training for operations in Iraq, Afghanistan, 
and the United States, we also are supporting training for soldiers for 
operations in Guantanamo Bay, Kosovo, and Bosnia. Training ammunition 
support for these unprogrammed requirements currently is being sourced 
from other, lower-priority units' training ammunition, or from other 
available stocks.
    Question. What opportunities are provided for live-fire training 
with modernized or preferred munitions in this budget request?
    Answer. In most cases, the modernized or preferred round cannot be 
fired on existing ranges because of environmental or safety danger zone 
restrictions.
    Additionally, preferred and modernized rounds tend to be expensive. 
Nonetheless, the Army has programmed a variety of training-unique 
variants of these rounds and has incorporated them into its current 
weapons training strategies. Examples include the 120mm tank training 
round, 25mm training round, 30mm training round, and the 120mm mortar 
full-range training round.
    Question. The Committee understands that the Army's policy for 
live-fire training with modernized or preferred munitions such as 
shoulder-launched missiles is one missile per nine-man squad per year. 
All other training is conducted with ``sub-caliber'' devices. Why does 
the Army limit training on such systems? Has such training expanded in 
the wake of recent U.S. deployments?
    Answer. The Army limits live-fire training with modernized or 
preferred munitions for a number of reasons, including safety, 
environmental constraints, and the high cost of many of the munitions 
involved. The use of training aids, devices, simulators, and 
simulations helps hold down the cost of live-fire training while still 
training soldiers to standard. However, in addition to training to more 
rigorous levels during training in Afghanistan and Kuwait, units also 
trained with a few items for which Army training strategies have no 
live-fire requirement. Javelin missiles were an example of such an 
item. The intent behind training with these and other items not 
normally used in live-fire training was to ensure soldiers understood 
how the munitions would perform before they actually used them for the 
first time in combat.

                         War Reserve Ammunition

    Question. The Army has a backlog of approximately $1 billion in war 
reserves of ammunition. The fiscal year 2004 budget request includes 
$1.3 billion for procurement of ammunition of which $139 million is for 
war reserve stocks. The overall funding level for ammunition in the 
fiscal year 2004 request is $56.9 million greater than 2003.
    Please describe the state of the war reserve of ammunition. What 
are the total stockage requirements by major types of ammunitions 
(small arms, tank ammo, mortars, etc.)? What are the present fill 
levels for these categories?
    Answer. Significant shortages of key preferred munitions exist 
throughout the Army inventory. Underfunded programs, production 
stoppages, and other obstacles continue to exacerbate already short 
munitions lines. Additionally, the global war on terrorism, unresourced 
mobilization, and surge training have further reduced stocks maintained 
in stateside depots which are used to source ammunition basic loads and 
sustainment stocks.
    The following table lists the total requirements and percentage 
fill for conventional ammunition war reserve stockage requirements and 
percentage fill. The categories do not include missile items.

   CONVENTIONAL AMMUNITION WAR RESERVE STOCKAGE REQUIREMENTS AND FILL
                               PERCENTAGE
------------------------------------------------------------------------
             Main categories               Requirements    Percent fill
------------------------------------------------------------------------
Tank....................................         241,325              83
SBCT Main Gun Systems...................          19,536             100
Mortars.................................       1,251,284              60
Artillery...............................      23,277,361              71
Rockets.................................         261,610              17
Anti-Tank Rockets.......................         163,647              54
Demolition..............................      26,220,710              77
Small Arms..............................     826,743,769              69
Medium Caliber..........................      24,400,701              79
Illumination/Pyrotechnics...............       2,675,167             100
Mine/Countermine........................         935,208              53
Non-Lethal..............................       5,319,077              19
------------------------------------------------------------------------

    Question. How much of the $1.3 billion included for ammunition in 
the fiscal year 2004 budget request goes toward filling war reserve 
requirements?
    Answer. The Army Procurement of Ammunition appropriation for fiscal 
year 2004 includes $129 million for ammunition which goes toward 
filling war reserve requirements.
    Question. Have war reserve requirements changed as a result of the 
global war on terrorism and other potential deployments?
    Answer. War reserve requirements have not been affected. Munitions 
required to fight terrorism and arm units for potential deployments are 
included in the Army's requirements to defend the homeland, fight two 
overlapping wars, and conduct small-scale contingencies.
    Question. Do you anticipate that a supplemental funding request for 
fiscal year 2003 will include a component for ammunition war reserves? 
If so what is the Army's estimate?
    Answer. Yes, the Army's request will include a component for 
ammunition war reserves. The Army's estimated cost to replenish war 
reserve ammunition is currently being refined based upon revised 
planning assumptions. Once completed, the Army's requirement will be 
contained within the overall Department of Defense supplemental 
request.

                          Land Warrior Program

    Question. $94.8 million is included in Other Procurement, Army in 
fiscal year 2004 to provide for the initial procurement of the Land 
Warrior system. Land Warrior provides dismounted forces with common 
digital situational data and links to other weapons such as tanks and 
artillery. The Army plans to procure an additional 4,800 sets through a 
low-rate initial production contract in fiscal years 2005-2006.
    The fiscal year 2004 budget request includes $94.8 million for 
procurement of about 2,000 Land Warrior sets. What is the basis for the 
initial procurement quantity of these items?
    Answer. Land Warrior initial capability, or Block I operational 
requirement document (ORD) compliant, systems were slated for 
production in fiscal year 2004. The 1,875 Land Warrior initial 
capability systems were intended only for the 75th Ranger Regiment. The 
remaining 100 systems were to be used by the Army Training and Doctrine 
Command schools. Although full functionality of the Land Warrior 
initial capability system was achieved during developmental testing, 
overall results and low demonstrated reliability in an early functional 
assessment indicated that this system would not likely be reliable 
enough to enter operational testing as originally planned. As a result, 
the program is now concentrating on the Land Warrior-Stryker 
Interoperable/Block II system and will not produce any units in fiscal 
year 2004. The Army is working to re-designate the fiscal year 2004 
Land Warrior procurement dollars to support additional research, 
development, testing, and evaluation and procurement of items under the 
Rapid Fielding Initiative.
    Question. What capability will the initial Land Warrior sets 
provide?
    Answer. The Land Warrior initial capability system was originally 
designed to meet the Block I ORD requirements such as increased command 
and control through situational awareness and understanding, enhanced 
soldier survivability with improved body armor, increased mobility with 
use of global positioning system, and other enhancements in soldier 
equipment. Key requirements for the Block I system were to provide 
increased functionality without increasing the soldier's current load 
and provide a 12-hour power requirement to power the Land Warrior 
system in any operational environment. Program focus has shifted to 
design, development, and fielding of the Land Warrior Stryker-
Interoperable system. Land Warrior Stryker-Interoperable is scheduled 
for full production in fiscal year 2006 with the first unit equipped in 
fiscal year 2006. The Land Warrior Stryker-Interoperable system will 
meet all Block I and II ORD requirements.
    Question. What is the fielding plan for Land Warrior?
    Answer. The Land Warrior Stryker-Interoperable system will be 
fielded to the 75th Ranger Regiment and six Stryker Brigade Combat 
Teams starting in fiscal year 2006 and ending in fiscal year 2008. The 
Army then plans to begin fielding an upgraded version of Land Warrior 
to the Special Forces Groups and the Objective Force units of action 
beginning in fiscal year 2009.
    Question. Weight has always been a technical problem for the Land 
Warrior system. Initial versions of the hardware weighed as much as 92 
pounds. Describe the units that the Army proposes to buy in fiscal year 
2004 and how the Army has addressed weight issues for this system.
    Answer. The Land Warrior ORD reflects a 40-pound objective and 50-
pound threshold weight requirement for the advanced capability/Block 
III system. The Land Warrior program is chartered with integrating 
currently fielded and proposed government-furnished and contractor-
designed equipment into a system that provides overmatch capability to 
the infantryman and those who fight with infantrymen. The Army looks at 
reducing the soldier's load by pursuing technologies that can produce 
high-payoff weight savings, advanced battery technologies, the XM8 
advanced combat rifle, and science and technology programs such as the 
Objective Force Warrior advanced technology demonstration and 
lightweight Squad Automatic Weapon.
    Question. The Army budget request indicates that the Land Warrior 
sets planned for procurement in 2004 represent a mix of commercial and 
military specific items. Please indicate which components are 
commercial and which are military specific.
    Answer. The Land Warrior program intends to take advantage of 
state-of-the-art commercially developed items such as local area 
network technology and antennae, audio headset, and microphone that 
meet specific Land Warrior requirements. Other commercial products that 
meet or exceed Land Warrior objective requirements will be integrated 
as pre-planned product improvements.These components will be integrated 
into military items such as the Modular Lightweight Load-carrying 
Equipment, Advanced Combat Helmet, Integrated Body Armor, and uniform 
enhancements to provide the soldier with an optimum fighting system 
tailored to his specific mission requirements.
    Question. Has the mix of commercial and military specific 
components changed over the course of the Land Warrior system's 
development?
    Answer. Yes. As commercially developed technologies mature, we 
continue to add improvements to the Land Warrior system design to 
improve functionality and reduce weight. We will continue to explore 
areas in order to meet the weight and power objectives of the ORD in a 
spiral development of the Objective Force Warrior to continue to 
provide emerging technologies, particularly in the area of power 
management. As we integrate commercial and military specific 
components, we have two main concerns relating to security issues and 
environmental concerns. Security concerns include soldiers operating in 
various networks while being protected from radio frequency jamming or 
interception from the enemy. Commercially developed hardware must also 
be ruggedized to be able to withstand the rigor of a battlefield 
environment and still be able to operate in austere environments 
without mission-affecting failures.
    Question. Please describe the relationship between Land Warrior and 
the Objective Force Warrior system that is presently in research and 
development.
    Answer. Objective Force Warrior is a science and technology 
advanced technology demonstration program that will demonstrate the 
technologies and prototype design of an integrated soldier system of 
systems at Technology Readiness Level 6 providing a revolutionary 
increase in the operational effectiveness of soldiers and small teams, 
with a 50-pound fighting load and 24-hour sustained operations without 
resupply. The demonstration will include squad level (with platoon 
headquarters and lateral squad leaders) iterative limited objective 
experiments and capstone demonstration with 20 to 25 prototype systems 
during fiscal year 2006. The Objective Force Warrior advanced 
technology demonstration will transition the technology and system 
design to Program Executive Office (PEO)-Soldier for the acquisition 
and fielding of the Land Warrior advanced capability (Block III) that 
will support the Objective Force unit of action.
    Question. When does the Army plan to begin the transition to 
fielding Objective Force Warrior?
    Answer. The Objective Force Warrior advanced technology 
demonstration will conclude in fiscal year 2006 with the transition of 
a soldier system of systems to PEO-Soldier for system development and 
demonstration of Land Warrior-advanced capability. The transition 
strategy also includes early insertion of mature component technologies 
to the initial versions of Land Warrior. PEO-Soldier is involved with 
the planning and conduct of the Objective Force Warrior advanced 
technology demonstration, particularly program oversight and the 
capstone demonstration. The Objective Force Warrior advanced technology 
demonstration contractual mechanism includes an option to move directly 
into system development and design.

                          Venture Capital Fund

    Question. In the fiscal year 2002 Department of Defense 
Appropriations Act, the Congress provided $25 million for the Army to 
establish a Venture Capital Fund to identify and develop novel 
commercial sector technologies for military application. In the fiscal 
year 2003 DoD Appropriations Act, Section 8105 provided the Army with 
the authority to transfer up to $20 million in unobligated research and 
development balances to continue this fund for fiscal years 2003-2005.
    What measures has the Army taken to establish and operate the 
Venture Capital Fund over the past two years?
    Answer. In September 2002, the Army issued a Broad Agency 
Announcement to solicit proposals to manage the venture capital 
initiative provided for by the Section 8150 of the 2002 Department of 
Defense Appropriations Act. The Army received 20 proposals in response 
to the BAA and has selected a winning proposal. The Army is required by 
the 2002 Department of Defense Appropriations Act to use an ``Other 
Transaction'' (OT) as the basis of the agreement between itself and the 
entity managing the venture capital initiative. The OT is currently 
being negotiated between the Army and winning company. The negotiations 
are expected to be completed and the OT signed by the end of April 
2003.
    Question. How much of the funding provided in the FY 2002 
Appropriations bill has been obligated to date?
    Answer. At this time, none of the $25 million provided by Section 
8150 of the fiscal year 2002 Department of Defense Appropriations Act 
has been obligated for the Venture Capital Investment Corporation. The 
Army will obligate the entire $25 million at execution of the OT 
agreement between the Army and the not-for-profit corporation that will 
manage the venture capital. The Army expects this will occur at the end 
of April 2003.
    Question. What technologies has the Army focused on with the 
funding provided through the Venture Capital fund?
    Answer. The Army is using the opportunity of the venture capital 
initiative to focus on technology associated with power and energy for 
the soldier. Technologies of interest include, but are not limited to, 
devices, systems and software that generate, store, control, and manage 
the power and energy required by the individual soldier for 
communications, computing, sensing, weapons functioning, mobility, and 
comfort. Parameters of interest for these technologies include low 
weight and volume, safety, reliability, cost effectiveness, longevity, 
reduced system power requirements, and minimal logistics impact.
    Question. Please describe the measures the Army uses to conduct 
oversight and management of the Fund's activities.
    Answer. The Army plans on requiring periodic reporting by the not-
for-profit corporation that will manage its venture capital initiative. 
Additionally, the OT agreement will include incentive structures to 
encourage the attainment of Army goals for the initiative. Finally, the 
Army also anticipates that the not-for-profit corporation that will 
manage the venture fund will notify the Army through the Army 
agreements officer when it plans on taking significant investment 
actions.
    Question. Would you recommend establishing permanent authority for 
the Venture Capital Fund?
    Answer. While this initiative is still early in its development, it 
does appear to hold considerable promise. The initial response to the 
Broad Agency Announcement, as well as the Central Intelligence Agency's 
success with In-Q-Tel, is encouraging. Section 8105 of the fiscal year 
2003 Department of Defense Appropriations Act allows funding the Army 
venture capital initiative for an additional three years. This 
provision will provide the Army the flexibility and authority it needs 
in the near term to maximize the opportunities for making its venture 
capital initiative a success and for determining whether to recommend 
that Congress provide permanent authority for the initiative.

                         Patriot PAC-3 Missile

    Question. The fiscal year 2004 budget request proposes $561.6 
million to procure 108 Patriot PAC-3 missiles. Including the 
acceleration of this program funded in the fiscal year 2003 Omnibus 
Appropriations Act, $592.2 million is available for this program in 
fiscal year 2003. The Omnibus added $104 million to the program and 
increased the procurement quantity to 100 missiles. The fiscal year 
2004 budget also proposes transferring funding and management of this 
program from the Missile Defense Agency to the Army.
    Please explain results of the Patriot PAC-3 acceleration funded in 
the fiscal year 2003 Omnibus Appropriations Act.
    Answer. Fiscal year 2003 acceleration funding provided for an 
accelerated delivery schedule for low-rate initial production (LRIP)-2 
and LRIP-3 missiles. LRIP-2 (40 missiles) will be delivered three 
months ahead of the contracted schedule and LRIP-3 (72 missiles), 10 
months ahead of schedule. Fiscal year 2003 acceleration funding also 
provided for the procurement of 12 additional missiles in fiscal year 
2003 bringing the fiscal year 2003 contract total to 100.
    Question. Does the quantity proposed in the fiscal year 2004 budget 
rely on the acceleration funded in the fiscal year 2003 Omnibus 
Appropriations Act?
    Answer. No, the fiscal year 2004 schedule is based on the 
accelerated program but the quantity is independent.
    Question. What quantity of Patriot PAC-3 missiles is proposed in 
fiscal year 2004? Through the Future Years Defense Program (FYDP).
    Answer. A total buy of 108 PAC-3 missiles is proposed in fiscal 
year 2004, and the fiscal year 2004 President's budget presents a total 
buy through the FYDP of 1,159.
    Question. Please explain how accelerating the Patriot PAC-3 program 
fits into the Administration's plan to deploy a national missile 
defense system in 2004-2005?
    Answer. Patriot is the only fielded system capable of defeating 
tactical ballistic missiles. Patriot is an element of the Ballistic 
Missile Defense System.
    Question. Over the past two years, the Department of Defense 
proposed funding both research and development for the Patriot PAC-3 
system as well as procurement within the Army. In both instances, the 
Congress transferred both management and funding to the Missile Defense 
Agency. The fiscal year 2004 budget again proposes funding Patriot PAC-
3 in the Army. Why? What criteria were used to determine whether the 
Army or Missile Defense Agency should fund and manage this program?
    Answer. Subsection 224(b) of title 10, United States Code, requires 
the establishment of criteria for the transfer of responsibility for a 
ballistic missile defense program from the Director, Missile Defense 
Agency (MDA) to the Secretary of a military department. On December 30, 
2002, the Under Secretary of Defense (Acquisition, Technology and 
Logistics) established the following criteria to carry out production 
plans: technical maturity; availability of facilities for production; 
and funds programmed in the Future Years Defense Program.
    In accordance with subsection 224(c), the Under Secretary of 
Defense (Acquisition, Technology and Logistics) certified that PAC-3 
met the established criteria and notified Congress of his intent to 
transfer the PAC-3 program to the Army, including the responsibility 
for research, development, test, and evaluation related to Army 
requirements. Additionally, the Under Secretary of Defense 
(Acquisition, Technology and Logistics) informed Congress that, in 
conjunction with the transfer of responsibility for PAC-3 program, the 
Medium Extended Air Defense System would be realigned from the Missile 
Defense Agency to the Army.

                    Chemical Agents Demilitarization

    Question. In fiscal year 2003, the Army received nearly $1.49 
billion for Chemical Agents and Munitions Destruction. This amount 
included funding to assemble equipment for the plants used to destroy 
chemical agents and munitions. The fiscal year 2004 request totals 
$1.65 billion, and includes $119.8 million for military construction 
that the Administration proposes transferring from the Military 
Construction budget request to the Department of Defense request.
    Please explain the reasoning behind the transfer of funds from 
Military Construction to the Chemical Agents and Munitions Destruction 
account.
    Answer. Section 141(b) of the fiscal year 2003 National Defense 
Authorization Act requires, beginning in fiscal year 2004, the Under 
Secretary of Defense (Comptroller) shall submit an annual certification 
to Congress that the budget request for the chemical agents and 
munitions destruction program has been submitted in accordance with the 
requirements of Section 1412 of the National Defense Authorization Act 
of 1986. The 1986 Authorization Act requires that chemical 
demilitarization funds be set forth in the budget in a separate account 
and not included in the budget accounts for any military department. In 
order to comply with the fiscal year 2003 Authorization Act language, 
funding for the chemical demilitarization program, including 
construction, is consolidated into a single account. The Army will 
maintain executive agent responsibility for this program.
    Question. How does the transfer of this funding help the 
effectiveness of the program?
    Answer. The inclusion of construction funding in the single 
Chemical Agents and Munitions Destruction, Army account is not expected 
to change the effectiveness of the program.

    [Clerk's note.-- End of questions submitted by Mr. Lewis. 
The Fiscal Year 2004 Army Posture Statement, as referred to on 
page 4 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 20, 2003.

                     FISCAL YEAR 2004 NAVY POSTURE

                               WITNESSES

HON. HANSFORD T. JOHNSON, ACTING SECRETARY OF THE NAVY
ADMIRAL VERNON CLARK, CHIEF OF NAVAL OPERATIONS, UNITED STATES NAVY
GENERAL MICHAEL W. HAGEE, COMMANDANT OF THE MARINE CORPS, UNITED STATES 
    MARINE CORPS

                              Introduction

    Mr. Lewis. The Committee will come to order.
    This morning, it is my privilege to welcome the Honorable 
H.T. Johnson, Acting Secretary of the Navy, and Admiral Vernon 
Clark, Chief of Naval Operations, as well as General Michael 
Hagee, the Commandant of the Marine Corps.
    Chief, and Commandant, and Mr. Secretary, welcome. We will 
probably all keep our statements reasonably brief this morning 
and spend what time we can in exchange; but I want you to know 
that if we are brief, it is not out of any lack of respect for 
either our statements or yours, but rather because of the very 
important work you are about this moment. All of us know that 
the ships at sea are at the point of this effort in the Middle 
East. And indeed as our men and women are beginning to go into 
action, it is a critical time for the country, I think for the 
world as well.
    It is important for me to say to you, but also to say to 
those who are listening, that some people are talking about 
transforming the military around this town. The Navy clearly 
gets it, they are way out on that point as well, making 
changes, a new direction for both the Navy and the Marine Corps 
that I think bodes very well for our country's future.
    I have said before that these budgets are sizeable. They 
are not nearly as sizeable as some of us would prefer, but 
nonetheless sizeable. And we spend this money on behalf of 
peace, and our effort in the Middle East at this moment is a 
reflection of the President's commitment, the Commander in 
Chief's commitment to carry forward the war on terrorism and to 
eliminate those who would use that negative force to have their 
way in the world. It is very important for all of us to know as 
well that even though this battle has begun--and we hope that 
this one will end reasonably swiftly--that is only the 
beginning.
    And so the discussion of the fiscal 2004 Budget for the 
Navy sets a plane that is a reflection of not just today's 
requirement, but the requirement for many years ahead. The 
challenge is very real. We are taking it seriously. I know that 
you are taking it seriously, too.
    Before I call on you, Mr. Secretary, let me call on my 
colleague Jack Murtha.
    Mr. Murtha. In light of what the Chairman said, I have no 
further comments. I am looking forward to getting you guys out 
of here.
    Mr. Lewis. Mr. Secretary, I have shown this to you, but I 
might let the audience know that already the Navy is sending 
pictures by way of e-mail which you can print out. This picture 
is of a Tomahawk missile that was fired last night off the USS 
DONALD COOK. It is the reflection of the will as well as the 
capability of the United States Navy and American forces.

              Recognition of Greg Walters, Committee Staff

    Welcome, gentlemen. Now, I wonder if I could, before you 
start, I see a friend of mine has walked into the room. So 
before we start, I want to welcome a gentleman who has left our 
staff to go out in the private world. We don't have the 
capability to fund our fine staff at levels that we should when 
they have young children, especially in this marketplace. I am 
afraid those who would communicate with us about military 
matters have needs as well, perhaps as great a need as we have.
    This young man has worked with our Committee for 18 years, 
has been on the Subcommittee for most of those years, most 
recently he was responsible for Navy programs. But he is well 
noted in the community as one of the real experts in 
acquisition and, to say the least, has helped us begin to raise 
questions about the challenges we have relative to acquisition 
over time.
    So with that, let me let him know that we are proud of his 
service and look forward to continuing a relationship. We want 
to thank you, Greg Walters. Stand up, will you, Greg? We thank 
you, Greg. And while we will miss you, we wish you and Sarah 
and Evan the best of all that is available in the months and 
years ahead.
    So, Mr. Secretary, that is a very appropriate way to begin.

                 Summary Statement of Secretary Johnson

    Secretary Johnson. Thank you, sir. Mr. Chairman, 
Congressman Murtha, I will follow your lead and have very brief 
comments. It is an honor to appear before you.
    Today, in the Persian Gulf and around the world, our Nation 
is well served by the most professional and capable naval force 
in the world. I hope that each of you, and Greg, will take 
great pride in preparing this force for doing what they are 
asked to do now. Over the last few years you have certainly 
prepared our Marines, Sailors, and all the Armed Forces for the 
job that lies ahead. Our Marines, Sailors, along with Army, Air 
Force, and Coast Guard partners, are on station around the 
world defending our country, working on the war, global war on 
terrorism, as well as just representing our country around the 
world, as you well know.
    Today, 73 percent of our ships are at sea, which is a very 
high percent, and Admiral Clark will talk about that; 66 
percent of our Marines' operating forces are forwarddeployed. 
In fact, if you looked very carefully, you would find the percent is 
probably even a little higher. They are on the front line, and they are 
well prepared to do our Nation's desires.
    People are our most precious resource. We can provide the 
best equipment, but if we don't have the people capable of 
operating that, we aren't very successful. Our recruiting and 
retention have been at all-time highs, and we are very proud of 
our sailors and Marines as they go forward.

                    FISCAL YEAR 2004 BUDGET REQUEST

    In this year's budget we have tried to look forward. We 
made some very difficult decisions, particularly on retiring 
some ships. But we are building new ships. We have dedicated 
$11.4 billion to construct ships, to convert some of the old 
SSBNs to SSGNs, two more, and also to do our cruiser 
conversion.
    We continue to look at aircraft also, buying 100 new 
aircraft. As you mentioned, Mr. Chairman, we would like to buy 
more, but we want to make sure that what we have are well 
maintained and manned by capable sailors and Marines.
    We are also taking a new approach to how we build ships and 
how we build everything in our Department and I think across 
the Department of Defense. Our next-generation aircraft carrier 
will use new techniques; it will be an electric ship, if you 
will. We are also looking at the DD(X) as a centerpiece as we 
move forward. And, as many of you know, we are working on the 
Littoral Combat Ship. In all of these we are looking at the 
hull, if you will--we call it the sea frame--and then we are 
looking at putting equipment on board the sea frame, and then 
finally putting electronics at the last minute, to get 
electronics that is up to date. We continue to move forward on 
the Joint Strike Fighter, upgrading the Hawkeye. And realizing 
the EA-6B Prowler is our most difficult aircraft to maintain 
and are planned by EA-18G to replace that.
    As you well know, the cost of operations and the support of 
the Global War on Terrorism are not part of our fiscal year 
2004 budget. We have not yet sent over a supplemental. We will 
be working on that very closely with you as we go forward.
    On behalf of all the sailors and Marines around the world, 
I would like to thank this Committee for equipping them and 
making them ready.
    I would also like to say as a personal comment, that you 
have very strong leaders over the Navy and Marine Corps. 
Admiral Clark and General Hagee are dynamic leaders that our 
Marines and sailors follow around the world. We thank you, sir, 
and I look forward to answering your questions.
    Mr. Lewis. Thank you, Mr. Secretary.
    [The biographical sketch and statement of Secretary Johnson 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lewis. Chief.

                   Summary Statement of Admiral Clark

    Admiral Clark. Thank you, Mr. Secretary, and Congressman 
Murtha, and members of the Committee. And I just want to start 
by saying what a privilege it is for me to be here this 
morning, appearing alongside my number one joint partner, 
General Hagee, as part of the Navy/Marine Corps team.
    And Mr. Chairman, you can imagine that I suffer a little 
bit from preoccupation with other things today, but it is a 
privilege for me to be here and represent the men and women of 
the United States Navy.

                         SHIPS FORWARD DEPLOYED

    Secretary Johnson talked about how much my Navy was 
underway. He did not mention this number: 55 percent of my Navy 
is forward deployed, engaged in this forward deployment in the 
global war against terrorism.
    I would like to talk about taking the sovereignty of the 
United States of America to the far corners of the Earth, and 
that is what they are doing today. Mr. Chairman, when I wrote 
my notes, I said they have to be over there to be ready when 
and if the President orders us to action. Of course, this 
morning we know that it is; they have to be ready as he orders 
them to action. And we got to see that last night.
    We oftentimes talk about the gray ships. We don't talk 
about some of the other part of the structure. Over 130 ships 
are also underway, some leased, some owned, supporting the land 
forces alone. I just want to say--and I will keep my comments 
as brief as possible--that I have never seen this Navy this 
ready since I have been part of it, and that is since 1968. I 
believe that it is that way because we are realizing the return 
on investment made by the Congress representing the citizens of 
the United States of America. And I believe that the action 
going on right now is proof positive that the judgments made 
were absolutely the right judgments.
    I want to thank the Congress for the steps taken to help 
motivate our people to serve. And I won't go into each of them. 
Let us just say that we know there are a lot of pieces to this 
calculus, but we are realizing, as the Secretary said, the 
greatest retention that we have ever realized in our history. 
It is because of a lot of things, including the fact that they 
are reading the signals from the citizens of the United States 
of America, and that signal is that they appreciate what our 
young men and women are doing. They are making it possible for 
us to have the kind of ready force that we are seeing in action 
right now.
    There are a lot of programs that make it possible. I have 
outlined that in my written testimony, and I won't go into it 
here.

                               READINESS

    For the last 2\1/2\ years, I have been coming up here. This 
is the third budget that we have talked about, and I have 
talked about the importance of readiness. And I believe that 
the gains that we have realized in three years speak for 
themselves here. Now, we are up here to talk about the fiscal 
year 2004 budget, and a key to our action and our discussion 
today is about sustaining those gains, making it possible for 
us to continue to represent the Nation around the globe, but 
also to move forward and continue to transform our Navy and our 
number one partner, the Marine Corps.
    We create a Navy that gives the President of the United 
States options--when I talk to our people, I tell them that is 
what we are about. That is why we are out there--and to give 
joint force commanders the kind of combat capability that they 
need.
    And our vision for future readiness--in previous years, I 
have talked about current readiness and the battle for people, 
and the number three priority was future readiness. Our vision 
for how to proceed in creating the future is Sea Power 21. And 
again, that is all itemized and documented in my written 
statement, and I won't go into detail here except to say it is 
about Sea Strike, projecting offense. It is about Sea Shield, 
projecting defense; something that we haven't been able to do 
that we need to be able to do in the future. And it is about 
Sea Basing, the ability to protect American sovereignty from 
the sea, the operational independence that comes from operating 
from the largest maneuver space in the planet, the world's 
oceans.

                          INVESTMENT STRATEGY

    So this year's investment strategy continues the commitment 
to readiness, it continues the commitment to people and the 
battle for people, while it focuses more sharply than any 
budget that I have been associated with on building for the 
future.
    The DD(X), Littoral Combat Ship, conceived from the 
beginning, from its birth, to be manned, to be equipped with 
unmanned vehicles under the sea, on the sea, in the air, to 
take the fight to the enemy and dominate the battlespace in the 
near land arenas where I am convinced our future enemy is going 
to come after us.
    The E and F-18G, brand-new program, CVN-21. I am so excited 
about our ability to leap ahead and the potential in the 
platform. Virginia class submarines. Missile defense. The 
President has announced the intention that we are going to 
field the sea-based--interim sea-based capability next year and 
we are going to do that. When I talk to our folks today, I talk 
to them about this.
    And you talked about the size of budgets, and my call to 
them is, look, we have got to learn how to be more effective. 
And as we are more effective, we will also be more efficient.
    As the Congress and those who support us work to make sure 
that we have the resources that we need, we have to do our 
part, too. And we are doing a number of things to try to make 
ourselves more effective and efficient. And I will mention just 
one this morning, a manning experiment called Optimum Manning, 
to see if there are ways that we can introduce technology and 
make it better. Last night, the USS MILIUS, one of those two 
ships that are involved in that manning experiment, with 23 
percent less people on it than all of the rest of the DDGs, was 
part of the group of six that launched the initial TLAM strikes 
into Iraq.
    Another is Sea Swap. I won't talk about it, except we are 
doing experiments to become more effective and more efficient. 
So we are doing our part to create the resources to build the 
21st century Navy. I would just say that in this submission, we 
were able to redirect almost $2 billion directly to procurement 
accounts for that purpose. And over the FYDP, the number is 
much larger, and our goal is to continue that process as we 
build for the future.

                                SUMMARY

    And so, Mr. Chairman, in short, the Navy is on the line. 
Your Navy is ready. It is forward deployed, it is on scene, it 
is in the fight. We are focusing on the future while making 
sure that we are prepared for today. The young men and women of 
your Nation's Navy are serving right now with distinction. And 
I will tell you that one of the proudest moments of my career 
is having the chance to represent them in front of this 
Congress and tell you and speak to the people of America about 
what they are doing on the point. And so I thank you for the 
opportunity to be here today, and I look forward to your 
questions, sir.
    Mr. Lewis. Thank you very much, Admiral Clark.
    [The statement of Admiral Clark follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lewis. General Hagee.

                   Summary Statement of General Hagee

    General Hagee. Good morning, Mr. Chairman, Congressman 
Murtha, distinguished members of this Committee. It is really 
an honor for me to be before you today to represent your Marine 
Corps. I would like to thank each of you for your strong 
support for the issues and programs that are of such vital 
interest to the readiness of our Armed Forces.
    I would particularly like to thank you for your immediate 
assistance in the fiscal year 2003 omnibus appropriations bill. 
I recently returned from a visit to the Central Command theater 
of operations, and I can report to you that your Marines are 
ready, they are well trained, they are well equipped, thanks to 
you, and their morale is unbelievably high.

                        MARINE CORPS DEPLOYMENTS

    Along with our sister services, the Navy/Marine Corps team 
continues to play a key role in the Global War on Terrorism and 
the establishment of stability and security in many of the 
world's troubled spots. Marines, both active and Reserve, are 
operating side by side with Soldiers, Sailors, Airmen, NGOs, 
diplomats, and many others in diverse locations around the 
globe, from Afghanistan to the Arabian Gulf, the Horn of 
Africa, Turkey, Georgian Republic, Colombia, Guantanamo Bay, 
and the Philippines.
    Today Marines are flying from Bagram Air Base in 
Afghanistan, from Navy carriers at sea, and from bases along 
the Arabian Gulf littoral. As the Secretary mentioned, 
currently 66 percent of the Marine Corps operating forces are 
forward deployed, most of them in Kuwait, and almost 90 percent 
of our operating forces are either forward deployed, forward 
based, or forward stationed.
    Marine Corps operations throughout the past year have 
highlighted diversity and utility of our expeditionary forces. 
Although we have had one of our busiest years in terms of 
operational deployments, participation and realistic worldwide 
exercises remain critical to supporting theater security 
cooperation plans and ensuring we maintain a ready and capable 
force.
    Along with the Navy, we are moving out with new 
organizational concepts mentioned by the Chief of Naval 
Operations. These include Tactical Air Integration, Carrier and 
Expeditionary Strike Groups, Joint Network Sea Basing that the 
CNO mentioned. These concepts will make us more responsive, 
flexible, and effective in the future.

                    FISCAL YEAR 2004 BUDGET REQUEST

    The fiscal year 2004 budget continues our efforts to 
modernize and transform the force. Support that you and 
Congress have provided over the last two years has helped us 
make real progress in our modernization, transformation, 
personnel, and readiness accounts. And as the CNO mentioned, 
without your support over the last few years, we could not be 
doing what we are doing today.
    While Marines and their families have benefitted from 
increased appropriations for targeted pay raises and improved 
family houses and barracks, this Committee's support for 
important procurement programs has ensured that our Marines are 
better equipped and better prepared to survive any danger.
    With regard to transformation and modernization, I am happy 
to report that our top Marine Corps ground programs are 
adequately funded over the FYDP. Among these are the Advanced 
Amphibious Assault Vehicle, the High Mobility Artillery Rocket 
System, and the Joint Lightweight 155 Howitzer.
    On the aviation side, we are on track for funding for the 
V-22, the Joint Strike Fighter, and the four-bladed Cobra, and 
Huey upgrades.

                 READINESS AND CONTINGENCY REQUIREMENTS

    Finally, we continue to make needed progress in readiness. 
Having recently come from the operating forces, I can tell you 
there is a marked positive improvement in the way we are 
funding for readiness now compared with just a few years ago. 
Much of that improvement can be directly attributed to the 
support that you and the rest of the Congress have provided 
over the last few years.
    My main concern today, as mentioned by the Secretary of the 
Navy, with regard to funding is due to unplanned demands of 
current operations. We are using our third and fourth quarter 
funding to finance the Global War on Terrorism and for 
operations in Iraq. Clearly, our current contingency 
requirements are significant and exceed the appropriations 
provided to date. We ask for your continued support and will 
provide all required supporting details once the Commander in 
Chief has submitted his supplemental request.
    That concern notwithstanding, your Marines are currently 
doing what they have been trained to do and equipped to do. 
They are forward deployed and ready to support the Nation 
through whatever challenges lie ahead. We know who we are and 
we must be prepared to defend this great country. We will 
remain your only sea-based, rotational, truly expeditionary 
combined arms force ready to answer the call anytime, anywhere, 
as part of an Integrated Joint Force.
    On behalf of all your Marines and families, sir, we thank 
this Committee, and I look forward to your questions.
    [The biographical sketch and statement of General Hagee 
follows:]
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    VIRGINIA CLASS SUBMARINE ISSUES

    Mr. Lewis. That was a hoorah you heard back there.
    Gentlemen, we all want you to know we are very proud of the 
work that you are about. I find that we often spend a lot of 
time in this Committee, a lot more time than one might think, 
talking about air power. And I am sure that among my colleagues 
there will be some discussion of that today as well as some 
discussion about the supplemental.
    We are going to be having a vote shortly after the hour, 
and it is going to involve two or three votes, so we are going 
to try to get your business done rather quickly. Members are 
going to be submitting questions for the record in an unusual 
volume rather than discussing these things here.
    You have work to do that is serious work, but in the 
meantime, receiving information regarding the fiscal year 2004 
budget is fundamental to our ability to help you as well.
    I would like to spend just initially some moments 
discussing ships at sea. Clearly one of the most significant 
capabilities we have in terms of providing American presence 
around the world involve those ships. One of the elements of 
all of that that has always fascinated me is what we can do as 
we extend that power to have our enemy or potential enemy 
wonder whether or not we are there. And so that which is under 
the sea is really very, very basic to that which you described, 
Chief, and Mr. Secretary. I am concerned and the Committee is 
concerned about ongoing difficulties with the cost of providing 
submarine power. The Virginia class is a reflection of the 
heart of our concern. So I wonder if you would spend a few 
moments discussing that with the Committee, and then we will go 
forward.
    Admiral Clark. Absolutely, Mr. Chairman. I have the same 
concerns you do. I do believe that we have taken measures in 
this budget that have the potential to help this process along 
greatly. One of the things in the fiscal year 2004 budget is an 
investment to get to economic order quantity numbers that make 
it more effective and efficient to build any--it doesn't matter 
if it is a submarine or anything else. When your building rate 
is down, you pay excessive overhead and it runs the cost up.
    And when you look at the submarine program in particular, 
you see a number of areas. The contract is written in a way 
that when there are wage agreements that would be passed back, 
those are added to the contract and so forth. And those are 
issues, and those are the sources of some of the increase. But 
the right thing for us to do is to get to a multiyear that 
allows the contractor to go to suppliers and do long-term 
acquisition of components so that the supplier can operate at a 
more effective base, and for us to get to multiple submarines a 
year to get on the right place on the production curve so that 
we are making better use of the fixed cost in the shipyard. 
That is provided for in this budget with a $400 million 
investment in economic order quantity issues and measures. And 
then the attempt to get to, with the approval of the Congress, 
a multiyear that would allow us to make progress on that front.

                MULTIYEAR PROCUREMENT AUTHORITY REQUEST

    Mr. Lewis. Chief, I think you know of the Committee's 
reservations about multiyear contracting. The obvious 
difficulties we have with tankers on the air side, the lease 
program that is of significant ongoing controversy is a 
reflection of our desire to get assets out there as quickly as 
possible but, at the same time, maintain some control over the 
budget. So at the heart of your suggestion--I know the priority 
you give to multiyear for submarines--but clearly can't be the 
only answer that is in line for getting us where we need to be.
    And so I just underline my ongoing question by asking it 
this way: Why a multiyear? How can we justify considering a 
multiyear when we haven't seen the first ship yet?
    Admiral Clark. Well, I believe that we have been having 
this discussion for a couple of years. And you know my belief, 
that one of the things that we need to do is figure out how to 
become the best partners that we can become with industry. 
Clearly there are issues on the side of the contractor who has 
to produce effectively and efficiently. The responsibility for 
oversight in that rests with the acquisition executive. It is 
not a uniformed military role. But I obviously am greatly 
interested in it. But all the projections make it clear that if 
we can get to a multiyear, the kind of results that we have had 
in other programs reinforce the validity of the assumptions 
that lead us to the belief that we are going to save at least 
$100 million a submarine if we do that. When we analyze the 
cost data and we look at the fact we are in a small market, it 
is the only market producing these kind of submarines. And we 
have suppliers that are specialty suppliers, and when they are 
operating on the margin and the inability to plan over the long 
term to properly size their employee base and their production 
baseline, it runs the cost up.
    Now the analysis shows us--and I have looked at this 
analysis and examined it--that the multiyear approach is a good 
and smart thing to do, and it is good and it is the rule that I 
put out, Mr. Chairman, it needs to be good for the sailors and 
it needs to be good for the taxpayers. And I believe that this 
is.

                  CONTROLLING COST THROUGH MANAGEMENT

    Mr. Lewis. I remember in the old days when I was spending 
some time examining contracts that involved the field of 
highway construction, that the biggest challenge we had in 
those days was a minor little thing called change orders. In 
multiyears, Mr. Secretary, you spoke about building the frame 
and then you provide some supplies or other material. Then you 
put in the most modern of the electronics. Those are called 
change orders. And man, I can tell you, if I were in the 
private sector, I would love to have you guys lined up with 
every ship you have got for 10 years, and then send you the 
change orders at our cost and not your cost.
    Yesterday the Secretary of the Air Force opened a bag of 
worms that I thought was most fascinating that applies to all 
of our branches. The Secretary talked about the fact that with 
the F-16, we had people purchasing the F-16 in the marketplace, 
other countries, and they were able to produce a product that 
was significantly different and better than the one that our 
people are fielding as a result of stability in the purchasing 
marketplace, and they talked about how quickly it could be 
done, et cetera. Frankly, it came down to a question of 
management. If we rely just upon multiyear procurements as the 
way we can improve efficiency here, somewhere down the line we 
are going to find a clip out there.
    I am very concerned that we do more than just talk about 
multiyear procurement. We aren't going to spend a lot of time 
rehashing this again today, but there is more than just 
multiyear to this problem of making sure that our procurement 
procedures,the management of this process, is run in a way that 
improves our efficiency. I have dwelt on that a bit.
    Mr. Murtha.

                   SUPPLEMENTAL FUNDING REQUIREMENTS

    Mr. Murtha. Only a couple things. We need to know about the 
supplemental; when you need it, and when you run out of money, 
Mr. Secretary.
    Secretary Johnson. The short answer is the summertime. And 
some of that is in early June and some in late July. The 
Marines are probably spending at the highest rate because, as 
the Commandant talked, 90 percent are forward based, deployed, 
and so forth.
    Mr. Murtha. I wonder if we could borrow some from USAA. I 
see they got $13 billion in your former job there; maybe they 
can lend us some money.
    Secretary Johnson. Yes, sir.

                       ROTOR BLADES FOR THE CH-46

    Mr. Murtha. The other thing is, I just want to mention to 
the Commandant, don't forget the CH-46 blades, because we are 
only carrying half of what you need to carry in those CH-46s 
and don't have them all out there. And it is such an old 
airplane. I know they are expensive, but we need to spend some 
money on those blades.
    General Hagee. Sir, we couldn't agree with you more. And we 
are looking at that very hard. In fact, as the Navy is 
decommissioning some of its CH-46 Deltas, we are collecting 
those blades. That is a concern of mine, too, sir.
    Mr. Lewis. Thank you very much, Mr. Murtha.
    Mr. Frelinghuysen.

                   INTEGRATION OF SPECIAL OPERATIONS

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, good morning, and thank you for your service. As 
we speak, the Special Ops people are doing a pretty dangerous 
work. And we salute their courage, and we know that they will 
perform admirably.
    I have some questions relative to the Special Operations 
and how the Navy is integrating its Special Operations. The 
Marines, obviously you work side by side with the Army's 
equivalent and other Special Ops, to what extent that 
integration is working.
    Secretary Johnson. Our SEALs are very much a part of the 
Special Operations and are very integral to everything they do. 
And Admiral Clark might say something. The Marines have been 
working side by side, as you talk, not quite as integrative, 
but yet very, very supportive, and working many things that 
Special Ops would normally be doing. We are doing the work in 
Georgia, some training commitment that the Special Ops signed 
up to do, and the Marines said we can do that for you and allow 
you to do other things.
    Mr. Frelinghuysen. I asked the question because obviously 
each service has budget allocations. This involves advanced 
training, special equipment, the whole issue of inoperability. 
We like to think on this dais that the services are working 
close together. Can you reassure us that is occurring?
    Admiral Clark. I can assure you that the Special Forces 
across the whole element, Congressman, it is working. As the 
Secretary said, we have different layers. We categorize our 
SEALs in different categories. But I have a group of them that 
are assigned full time to this Special Operations Command, and 
they are working day in and day out and assigned to the same 
units with the Army folks and the Air Force Special Operations 
Forces. Then I have Special Operations Forces that are embarked 
in my own platforms and they work hand in glove with the Marine 
Corps in our operations at sea and with our own forces. And so 
there is great integration and jointness in our Special 
Operations structure.
    Mr. Frelinghuysen. So there is jointness between--
obviously, there is jointness between the Navy and the Marines, 
but is there jointness with the Army?
    Admiral Clark. Yes, sir.
    Mr. Frelinghuysen. There is.
    Admiral Clark. Without confirming or denying what Special 
Forces might be doing or not at all.
    Mr. Frelinghuysen. Whatever they are doing is remarkable.
    Admiral Clark. I assure you--they are integrated.
    Mr. Frelinghuysen. It is dangerous, and we salute them.
    Admiral Clark. Thank you.

                            ANTIMINE WARFARE

    Mr. Frelinghuysen. Relative to floating, tethered, and 
buried mines, the whole issue of the challenge of what we do to 
eliminate the possibility of our ships being blown up, what are 
we doing in terms of technology to promote more antimine 
warfare?
    Admiral Clark. The biggest thing, Congressman, is this. We 
made a commitment a few years ago to develop organic capability 
so that we would not have to have one-of-a-kind kind of mission 
ships doing mining warfare. And they were small and slow and 
hard sometimes to get to the point of action. We home-ported 
some, moved some minesweepers that we owned into the Indian 
Ocean area sometime back, and we have augmented those forces 
for this contingency.
    And then the next thing is that our fiscal year 2004 budget 
brings forward the Littoral Combat Ship. And it is this Chief's 
belief that our future enemies are going to come after us with 
asymmetric means, and mine warfare is one of them. And as this 
new ship, designed to dominate the battlespace in the near land 
area, one of the three principal missions of this ship is going 
to be mine warfare. And as I said in my opening statement, 
designed from the keel up, from thebeginning, to operate with 
unmanned vehicles. So what is happening? Unmanned, underwater search-
and-destroy vehicles, and unmanned aviation assets, and all optimized 
for this particular warfare area. That is where LCS is going now, one 
of the three principal warfare missions to accomplish in the near land 
area.
    Mr. Frelinghuysen. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    I was going to kid my next friend who is--but this is not a 
day for kidding--one of the more knowledgeable members of the 
Committee. He too is going to have us keep you here only a 
brief time, Mr. Dicks.

                              V-22 UPDATE

    Mr. Dicks. Thank you, Mr. Chairman. And we want to 
compliment both you and the Secretary for your leadership and 
the good work that is being done by the sailors and Marines out 
there at the point of the spear.
    Chairman, I had a chance to be out there and see the forces 
in the field, and I was very impressed with their readiness and 
their willingness to do this job, and we all should be proud of 
them.
    Just a couple quick questions. For the Commandant, give us 
an update on the V-22. This has been a troubled program, but a 
program that we have stayed with because we know of its 
importance to the Marine Corps. Can you give us where we are?
    General Hagee. Yes, sir, I can. As you know, this is not a 
time-driven program, this is an event-driven program, and we 
are doing very well on the testing. Right now we are about 80 
to 85 complete on the high rate of descent testing. And 
everything that we have experienced in the air was predicted by 
the model. So, we feel very good about our models. And in fact, 
we have confirmed that tilt rotor aircraft can come out of this 
phenomena faster than a normal helicopter, because all you do 
is you push forward and you fly out of it.
    We are about 80 percent complete with the low speed 
maneuverability testing, and that also is going very well. As I 
am sure you know, sir, we landed a couple of tilt rotor 
aircraft on board amphibs back in January. Proved no problem 
whatsoever. So from our part, sir, the testing is going very 
well, and we are very confident in the aircraft.

                 FUNDING REQUIREMENTS FOR SSGN PROGRAM

    Mr. Dicks. Good. Admiral Clark, on the SSGN program, our 
Committee staff has been concerned about whether we have enough 
funding in the program. As I understand it, it is around $4 
billion for the entire program. How do you feel about it? I 
know you just had this giant shadow exercise. How is this thing 
going?
    Admiral Clark. Well, the program is progressing smartly. 
There is additional funding in the fiscal year 2004 submit to 
move forward with two additional conversions. This is one of 
those conversions that ties back to the question on SOF and 
also deals with the very things that we are facing, as we 
speak, in operations in the Indian Ocean and the Arabian Gulf 
and the eastern Mediterranean. This submarine is going to--this 
conversion and transformation is going to give us extraordinary 
capability with 150-plus TLAMs. But the real benefit here is 
the volume of this platform and the ability to exploit future 
underwater vehicles and forces. And I am convinced that the SOF 
part of this is--you know, 10 years from now, we are going to 
be looking back at this, talking about how glad we are that we 
made this move that allowed us to exploit the independence of 
the sea and to bring the kind of capability with Special Forces 
that enables us to deal with the kind of things that we are 
going to face in the global war on terrorism. This budget has 
the funding in it to progress down the line to the conversion 
to convert forward submarines.

                 NAVY PARTICIPATION IN MISSILE DEFENSE

    Mr. Dicks. Let me ask one final thing. On the question 
about the Navy being involved in missile defense, I think this 
is a good idea, especially with this Korean situation 
unfolding. It would be incredibly good if we had a capability 
to deal with a Korean ballistic missile, you know, from a naval 
ship. Obviously, one in the vicinity could make a big 
difference, especially since we don't have the land-based 
missile--defense missile in place yet, and there is some 
question about how good it is going to be once it is in place.
    Can you give us an update on where we are on this and what 
your strategy is?
    Admiral Clark. Absolutely. And I thank you for asking the 
question. In my written testimony, I talk about this, 
Congressman Dicks, at some length. And I talk also in the new 
vision for the future, Sea Shield is our ability to project 
defense over the horizon. You know, over the course of history, 
you look back 30-plus years, when I came in the Navy, we 
primarily defended ourselves. And then over time we have 
stretched our combat reach. We are talking now about dramatic 
revolutionary kinds of changes in our ability to project 
defense, not just for our forces but for the coalition and for 
the other members of the joint structure. So I am convinced 
that this is one of the most important capabilities that we are 
looking at in this early part of the 21st century.
    We have had an incredibly successful year in testing--not 
in wishing--in testing, with six successes out of six tests 
that the results are accelerating us down this ramp.
    Now, the guidance that I have out to our Navy is we are 
going to field this capability by September of fiscal year 
2004. Obviously, we are not going to do it without the support 
of the Congress. But here is what I did. This is under the 
purview and the development of the Missile Defense Agency. They 
were going to build a test ship. It was going to cost a 
billion-plus. I went forward and said, this is so important I 
will give you the Lake Erie right now. You can have it full 
time, make it your test ship. The successes of this we have, 
does this fit your plan? The Director of the Missile Defense 
Agency was elated with this approach; saves the Nation a 
billion bucks plus, a billion-and-a-half really, and moves us 
down toward the development of this capability.
    So that is where we are going. They are going to develop 
the missiles to fulfill the interim capability at the end of 
fiscal year 2004.
    Mr. Dicks. What missile are you going to use? Is it a 
standard missile?
    Admiral Clark. Yes. It is part of the standard family. And 
this budget also includes some of those. These are right now 
missiles that are being hand-built, because they are 
prototypes, and we will have to move to a production line 
capability. But we can put enough missiles out by the end of 
fiscal year 2004 to start this interim capability.
    Mr. Dicks. Will it have a boost phase capability?
    Admiral Clark. Yes, it is my belief that it will.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much, Mr. Dicks.
    Mr. Dicks. In the spirit of cooperation.
    Mr. Lewis. Everybody is in this together this morning, and 
I am pleased with that.
    Mr. Nethercutt.

                        PLAN FOR PENGUIN MISSILE

    Mr. Nethercutt. Thank you, Mr. Chairman. Gentlemen, 
welcome. Thanks for being here and thanks for your great 
service.
    I want to talk to you about the decommissioning of the 
Penguin missile. My understanding is there is a decision to 
decommission this missile, a stand-off missile, by April 1. The 
cost savings, I am informed, are about $500,000 in 
consideration of putting Hellfires on these helicopters for 
launch, and we spent, I am informed, about $200 million dollars 
on the Penguin.
    A couple weeks ago I sent a letter asking--or sought 
information about the decommissioning decision and why. And 
given the fact that we are looking at a stand-off capability 
for helicopters with the Penguin--I think the range is about 25 
miles--and a big payload versus the Hellfire, which is about 
4\1/2\ miles and a smaller payload, why is this happening? Has 
it been fully thought through? And finally, I would just ask if 
you would have a chance to come brief me on it, or the 
Subcommittee, and give us a sense of why, and hold off on this 
decision on April 1 until at least we are satisfied that this 
is the right thing.
    Secretary Johnson. We are making some very difficult 
decisions. I will let the Admiral talk about some very specific 
ones. But we are going back and looking at all of our weapons 
systems and see which ones, particular legacy ones, that we can 
move forward without it. Once we take a weapons system out of 
the inventory, the cost recovery is phenomenal.
    Admiral Clark. I will have to get the exact details for 
you, Congressman, but I will tell you this. And I talked about 
this last year in some detail. In order for me to get the 
resources to move to the future, I was going to go after some 
programs, and so that we could invest our resources in a Navy 
that created the 21st century Navy.
    He mentioned some tough choices. We have this program, this 
submit recommends the termination of over 50 programs. It also 
recommends the decommissioning of a number of ships. And some 
people, you know, reasonable people will have a discussion 
about whether that is the right thing to do. We fundamentally 
made the decision that we were not going to pursue programs 
that delivered us redundant capability and that we would reach 
for the best capability that we could get.
    I can't tell you the time line on Penguin. I don't know the 
dollars, I don't have them here. I am sorry, I don't have all 
of those 50 programs here. But we will come up and brief you. 
We absolutely want to convince the Congress that we are 
thinking about the threat correctly and that we are making the 
right kind of judgments and decisions.
    When we talk about the ships that I am addressing, one of 
them was the class leader that I commanded. So when we talk 
about decommissioning, this gets real personal for me. But I 
absolutely believe that it is the right thing to do. And so I 
would like to take the details of that question for the record, 
and we will absolutely have people come up and brief you on the 
specifics.
    Mr. Nethercutt. I would be grateful.
    [Clerk's note.--The Department did not provide a response 
for the record, but did provide a briefing to Congressman 
Nethercutt.]

                 VIRGINIA CLASS SUBMARINE--COST ISSUES

    Mr. Nethercutt. And just a question for the record, my last 
question would be, what is the status of the Virginia class 
submarine, where I understand it is facing some significant 
cost growth problems?
    Mr. Lewis. We have asked that.
    Mr. Nethercutt. Okay. Sir, I will look forward to your 
answer. Thank you.

                  JOINT STRIKE FIGHTER--PROGRAM ISSUES

    Mr. Lewis. Gentlemen, we have the addition of one more 
member, and the bells are about to go off. I promised you, we 
are going to let you free to do much more important work, to do 
here shortly.
    As Mr. Moran gets his collection together, let me just ask 
you, if you would, to discuss with us that which has been in 
the news a lot lately. The Joint Strike Fighter and the weight 
question which could impact that asset's capabilities, and in 
terms of flight patterns, you and I have talked about this a 
bit. Would you respond to that subject area?
    Admiral Clark. Well, you know, we are in development, and 
so development decisions and trade-offs will be made. I don't 
know the specifics of the--I have seen articles in the paper. 
That information hasn't come up the chain to me yet. But let me 
say this about Joint Strike Fighter. Privately, I have talked 
to you about what I learned in Afghanistan: thousand-mile 
sorties, five times to the tanker. And my new favorite word is 
not just ``credible'' combat power, but ``persistent'' combat 
power. That airplane would have gone all the way in and come 
all the way out without ever going to the tanker.
    The missions that I am going to be flying in this 
operation, I can go all the way in and come all the way out 
without ever going to the tanker. I want that kind of combat 
reach. This is a significant advance in warfighting capability. 
To me, that is what it is about.
    We are in a research and development program. You are going 
to have issues come up in that process. We have committed in 
the fiscal year 2004 budget to this program and the Navy line 
shows that we want this airplane.
    Mr. Lewis. And, frankly, that is exactly what I was looking 
for. Your commitment to Sea Power 21 and the LCS, extending the 
power of the Navy is a very important piece of that as well. 
And I think it is important that you know that we want to see 
you continue on that horizon that leads to the kind of change 
that will allow us to continue to lead the world.
    I must say another thing before I turn to Mr. Moran. I am 
very, very appreciative of straightforward answers that say, 
look, friends, we are in this together, we only got so much 
money, this program ain't going to work, and therefore we have 
made a decision. For right or wrong, we have made adecision we 
are not going to spend money in that direction.
    That is a lot better than hedging around the edges, 
especially when Members' districts are involved. I know you. 
You have both the good sense and the guts to sit down with 
somebody eyeball to eyeball. If we had a lot more of that 
around here, we wouldn't be, piece by piece, extending programs 
that should have been terminated a long time ago.
    The bells have rung, so we are getting on the edge of the 
time we spend here. Mr. Moran, we are attempting to----
    Admiral Clark. May I have 10 more seconds?
    Mr. Lewis. Of course.
    Admiral Clark. I want combat reach. I want the availability 
that comes with it, plus 90 percent. That will make me so much 
more combat capable. That will affect the investment for the 
whole Nation. That is the way to do this and do it right.
    General Hagee. Sir, Mr. Chairman.
    Mr. Lewis. Sure.
    General Hagee. I would like to associate myself with the 
Chief of Naval Operations' remarks, especially on the Joint 
Strike Fighter and the need that we have for the STOVL version 
of that aircraft.
    Mr. Lewis. Thank you, gentlemen, very much.

                       NAVY/MARINE CORPS INTRANET

    Mr. Moran. Thank you, Mr. Chairman.
    The Admiral, the Secretary, and the General have addressed 
the front-burner issues in their statement and responses. Let 
me ask one issue that I don't think has been covered. Are we 
back on track with the Navy/Marine Corps Intranet? We had a lot 
of trouble last year with it. Are we all set there, and 
particularly in terms of the network security that we were 
concerned about and computer operations?
     Secretary Johnson. Sir, we are on track on all the 
technical things. There are great cultural things that we 
continue to work. Every time we roll it out, we have the same 
problems. But the Navy and Marine Corps are totally committed 
and our people are, and the transformation in our thinking that 
this brings about is phenomenal.
    Mr. Moran. Well, that is terrific. I just hate to see 
people with two computers on their desk because they just don't 
want to give up on their--you know, they are used to using 
their old computer, and it is almost like a security blanket. 
And I understand we still have an awful lot of that.
     Secretary Johnson. We have to get rid of those second 
computers you talk about, then. The legacy systems have to be 
replaced, then. There is strong commitment from the top and at 
all levels, but it is difficult, as you all know, to give up 
something you have used a long time.
    Mr. Moran. But you say we are on track.
    Admiral Clark. The reason there are two computers there is 
because we weren't a modern organization, so we had almost 
100,000 different applications that we used across the Navy. We 
are going to seven. That is where we are going. And so until we 
can make that integration work, we are going to have a little 
bit of this in transition. But this is the right thing, and we 
are headed there.
    Mr. Moran. That is consolidation from 100,000 to seven? I 
think that is----
    Admiral Clark. That is where we are going.
    Mr. Moran. I am not going to take up any more of your time. 
Thank you for your service.
    Mr. Lewis. Thank you, Mr. Moran.
    Mr. Murtha.
    Mr. Murtha. Let me say two things. One, I was impressed 
that General Johnson moved from 423 combat missions to teaching 
aeronautics at the Academy. I mean, that is versatility. I will 
tell you that. And I want to say to General Hagee, if General 
Jones were here, we would have never finished in time.
    General Hagee. I am not going there, sir.

                             EA-6B AIRCRAFT

    Mr. Dicks. Just one quick question. Tell us about what you 
are trying to do with EA-6B.
    Admiral Clark. This budget moves EA-6B forward three years. 
Now, this is another one of these smart business things. The 
EA-6, last night couldn't have done the operation without it. 
We have flown the thing hard. The cost of it is has gone up 
like this because it is old. We had to do something smart to 
get rid of airplanes costing us a fortune to fly it but that we 
can't win in combat without it. The G, the Growler, that will 
use the common air frame, is going to be a smart buy. It is 
going to keep us at a level----
    Mr. Dicks. F-18?
    Admiral Clark. F-18, now, the EA-18G. And it is in this 
budget. The first one will roll off the line in fiscal year 
2006, which is quickly, and we will be deploying them in fiscal 
year 2009.
    Mr. Dicks. And you have got some fixes in here to keep the 
ones that we have got going?
    Admiral Clark. Yes, sir. ICAP-3 and the things to keep the 
air frames going, it is in the program.
    Mr. Dicks. Thank you.

                       SPECIAL OPERATIONS FORCES

    Mr. Lewis. Gentlemen, as we close down this hearing, Mr. 
Frelinghuysen talked about Special Ops a bit with General 
Hagee. The Special Ops forces of America for me have always 
been the Marine Corps. They have been doing that job for a 
long, long time. I must add to that, though, some of us took a 
brief trip to Alaska not so long ago, watched these kids jump 
in the water; we called them SEALs. And I scratched my head and 
I said, thank goodness they didn't have that when I was a kid, 
because I would have wanted to do that.
    The men and women who make up our forces are the heart of 
what makes this successful, and you are out there proving it 
today, and God bless them all. Thank you very much for being 
here. The Committee is adjourned.
    [Clerk's note.--Questions submitted by Mr. Hobson and the 
answers thereto follow:]

                    Air Force Institute of Technology

     Question. Mr. Secretary, I would like to congratulate your 
predecessor and the Secretary of the Air Force for concluding the 4 
December 2002 Memorandum of Agreement that forms an educational 
alliance between the Air Force and the Navy. This MOA is an excellent 
first step in implementing ``jointness'' for military education and I 
strongly support it. This educational alliance will maintain the Air 
Force Institute of Technology (AFIT) and the Naval Postgraduate School 
(NPS) as ``world class'' higher educational institutions; complementing 
each other; and ensuring high quality, relevant responsive graduate 
education aligned to defense needs. Thank you.
     How critical are the educational programs of AFIT and NPS for 
meeting the needs of the Navy?
     Answer. Naval Postgraduate School (NPS) programs are specifically 
designed to meet Navy and Department of Defense needs. NPS provides 
relevant and unique advanced education and research programs essential 
to increasing the combat effectiveness of U.S. and Allied armed forces 
and enhancing the security of the United States. While the programs at 
the Air Force Institute of Technology are designed to meet Air Force 
needs, in some areas the military focus also aligns with Navy needs.
     Question. The MOA commits the two services to filling all seats at 
AFIT and NPS before sending students to civilian schools. How is Navy 
implementing that commitment?
    Answer. The Navy uses the Naval Postgraduate School (NPS) as its 
primary source of graduate education. The Air Force Institute of 
Technology (AFIT) will be used as a secondary source when it has space 
available within programs meeting Navy requirements. Civilian 
institutions will be used when NPS and AFIT do not offer programs 
meeting necessary education requirements. NPS will coordinate 
implementation of the MOA with AFIT.
     Question. The MOA requires the creation of a joint AFIT/NPS 
admissions and quota control process to provide for enrollment of 
students from all services and from the Coast Guard. What steps is the 
Navy instituting to carry out that requirement?
     Answer. While the Navy and Air Force have separate admissions and 
quota control processes, the Memorandum of Agreement requirement is 
being addressed in ongoing discussions between the Naval Postgraduate 
School and the Air Force Institute of Technology.
     Question. The MOA requires the Air Force and Navy to review 
current AFIT and NPS policies and to establish common policies that 
represent best practices at both schools. What mechanisms has the Navy 
put in place to accomplish this requirement, and how will you involve 
the faculty and leadership of the two schools in conducting the 
necessary review?
    Answer. The Naval Postgraduate School and the Air Force Institute 
of Technology are collaborating on the establishment of common 
policies.
    Question. The MOA requires the Assistant Secretaries of Financial 
Management for the two services to program the resources needed to 
launch the alliance and ensure its success. What specific initiatives 
will be funded in order to launch the alliance and make it successful, 
over and above those funds needed to sustain the excellence of the 
ongoing operations of the two schools?
    Answer. The Navy continues to research funding requirements to 
launch the alliance and ensure its success.
    Question. The MOA requires the Assistant Secretaries of Financial 
Management for the two services to program the resources needed to 
launch the alliance and ensure its success. Is there a dichotomy in 
that the Navy charges tuition which it keeps to lower operating 
expenses where the Air Force does not?
    Answer. United States Code Title 10 7045(b) authorizes Navy to 
charge other services the costs of instructing their officers at the 
Naval Postgraduate School (NPS). This enables NPS to expand course 
offerings and instructional staff to accommodate other service 
students. Air Force has no such authority for the Air Force Institute 
of Technology, which is limited to accepting other service students on 
a space-available basis.
    Question. Oversight of the education alliance is to be carried out 
by the respective Air Force Board of Visitors and the Navy Board of 
Advisors. The MOA directs that each school's governing body will 
interact with each other. What steps has the Air Force taken to 
interact with the Navy Board of Visitors?
    Answer. Air Force Institute of Technology (AFIT) and Air University 
representatives attended the meeting of the Naval Postgraduate School 
(NPS) Board of Advisors (BOA) on January 29, 2003. NPS BOA 
representatives attended the meeting of the AFIT Board of Visitors on 
March 17, 2003.
    Question. What do you think about a Joint Board of Visitors?
    Answer. Collaboration between the Naval Postgraduate School and the 
Air Force Institute of Technology is essential to the success of the 
alliance. As the collaboration evolves, the merits of a Joint Board of 
Visitors can be evaluated.

                                  Iraq

    Question. Two weekends ago, I had the privilege of traveling with 
Congressman Jack Murtha and Congresswoman Nancy Pelosi to Qatar and 
Kuwait. The purpose of the trip was to review the preparations for 
possible military action in Iraq. Our kids are all ready, motivated, 
and a great credit to the United States.
    Inevitably, the congressional delegation asked ``what do you need 
from us?'' The principal responses were Army and Marine oriented since 
we were seeing troops on the ground. (More bandwidth, special 
operations troops, and special operations helicopters). However, as the 
Navy is a full partner in this endeavor, we ask you now ``what does the 
Navy need from us?''
    Answer. The Navy needs the continued support of Congress to fund 
the programs that will keep the Navy ready to respond to worldwide 
contingencies. The resources contained in the fiscal year 2004 budget 
go far in helping both the Navy and the Marine Corps maintain 
heightened readiness in these uncertain times, provide further 
investment in transformational programs, and take care of our Sailors, 
Marines and their families. The road to attaining our shipbuilding and 
aircraft procurement program goals remains exceptionally challenging. 
We received all the funding we asked for our initial requirements in 
the supplemental. If additional funding became available for efforts 
other than Global War on Terrorism, the Department has provided a memo 
containing our unfunded Naval programs for which funding could be 
applied, signed by the CNO and the Commandant on February 27, 2003.

                       Rotational Force in Europe

    Question. General James Jones, Commander of United States Forces in 
Europe (EUCOM), has discussed the possibility of moving to a United 
States presence in Europe made up of (1) troops on short term 
rotations, (2) families left at home in the U.S., and (3) ``lily pad'' 
compact bases scattered in the New (Eastern) Europe and Africa. Camp 
Bondsteel would be a model. What is the Navy opinion of this vision?
    Answer. It is Navy's position, and that of the working group at 
EUCOM, that Naval forces are already built within this framework. We 
are organized to deploy future carrier strike groups and expeditionary 
strike groups on a short-term rotational basis, away from their 
families, just as we have always done. The no-families policy applies 
primarily to combat forces and not to support forces in theater.
    The ``lily pad'' term is no longer used in EUCOM's emerging basing 
models for joint main operating bases (Joint MOBs), joint forward 
operating bases (Joint FOBs), and joint forward operating locations 
(Joint FOLs). Naval bases in the U.S. European Command function as 
Joint MOBs and FOBs. The current structure also provides a strategic 
bridge for forces flowing through the Suez to points east.
    Question. Are all military construction projects in Europe on hold 
and is it because of this? Or something else?
    Answer. No. A single Navy project has been placed on hold pending 
completion of a review of overseas basing requirements in portions of 
Europe. That project is a fiscal year 2003, $14.8 million Combined 
Dining Facility at Naval Air Station Keflavik, Iceland.
    Question. Is there the same situation for military construction 
projects in Korea?
    Answer: No. Navy does not have any military construction projects 
on hold in Korea.

                      Joint Strike Fighter Program

    Question. Recent press reports have suggested that the Joint Strike 
Fighter could be up to 20 percent overweight, threatening the Short 
Take-Off Vertical Landing (STOVL) version of the plane. How much of a 
problem is this and how is it being addressed?
    Answer. The government parametric estimate for the Joint Strike 
Fighter (JSF) air system weight currently is above the targets the 
government/contractor team established for this period in the program. 
The JSF team is aggressively working weight reduction initiatives. 
Weight reduction, along with closure and maturation of design issues, 
is addressed daily through a combination of the normal teaming 
processes and insight from numerous external experts from all Services 
as Preliminary Design Review (PDR) activities progress. The government 
and prime contractors fully recognize the need to reduce the design 
airplane weight through a proper systems engineering process that best 
accommodates performance requirements, schedule, cost, and acceptable 
risk. A Blue Ribbon Action Team (BRAT) has been established to 
reconcile weight projection methodologies and identify detail design 
impacts by late June. PDR remains open pending the final BRAT results. 
No delay to the overall schedule is currently projected.

    [Clerk's note.--End of questions submitted by Mr. Hobson. 
Questions submitted by Mr. Cunningham and the answers thereto 
follow:]

                         Ship Depot Maintenance

    Question. The President's budget request for operations and 
maintenance depot level ship maintenance contains approximately $3.5 
billion for this activity. That number is similar to the 2003 request. 
However, on closer analysis, $400 million for organic depot maintenance 
was funded in a separate account and $268 million is scheduled for 
unallocated overhead. The actual dollars going to repair similar ships 
is nearly $700 million less. Why?
    Answer. Intermediate ship maintenance funding of approximately $400 
million will be consolidated with ship depot maintenance funding 
beginning in fiscal year 2004 as a result of Navy's regional 
maintenance initiative. This total fiscal year 2004 ship maintenance 
budget supports 96.2% of our notional operations and maintenance ship 
maintenance requirements. This percentage is slightly higher than the 
95.5% funded in the fiscal year 2003 President's Budget. We were able 
to reduce ship maintenance funding in fiscal year 2004 while budgeting 
to fund a higher percentage of the requirement for several reasons. The 
cyclic nature of ship maintenance contributed to a lower requirement in 
fiscal year 2004; the requirement was reduced as we accelerated the 
retirement of our oldest, most maintenance-intensive ships; and 
finally, the reduced requirement directly reflects the benefits 
provided in the fiscal year 2002 Supplemental Appropriations.
    The budgeted fiscal year 2004 unallocated overhead amount is $268 
million, rather than $368 million. This funding is associated with the 
overhead that supports non-Pacific Fleet ship work at the two mission 
funded Naval shipyards. In the fiscal year 2003 President's Budget, the 
portion that funded overhead for Atlantic Fleet ship work to be 
performed at Puget Sound Naval Shipyard was also included in the ship 
depot maintenance budget line.

                     Surface Ship Depot Maintenance

    Question. Surface ship funding appears to be significantly 
understated. The Phased Maintenance Availability (PMA) category which 
funds AOEs and amphibious ships is budgeted at 13 hulls for 
approximately $185 million. This compares with an average of 25 hulls 
and approximately $370 million in previous years. Using OPNAV planning 
tools, 21 hulls were scheduled for PMAs at a cost of approximately $365 
million using a 91 percent funding level. Why is there such a 
significant reduction on a class of ships which are not scheduled for 
decommissioning in FY2004?
    Answer. The Chief of Naval Operations' availability-planning tool 
is continuously updated as operations, port work loading 
considerations, and ship material condition assessments dictate 
modifications to the ship maintenance plan. The number of Phased 
Maintenance Availabilities (PMAs) budgeted supports the maintenance 
required at the time of budget development due to the cyclic nature of 
ship maintenance.

    [Clerk's note.--End of questions submitted by Mr. 
Cunningham. Questions submitted by Mr. Visclosky and the 
answers thereto follow:]

               Man Overboard Identification (MOBI) System

    Question. Congratulations on successfully completing the fleet 
evaluation of the ORCA Man Overboard Identification (MOBI) system. I 
understand that 100 percent of the reporting ships in the evaluation 
recommended that the Navy move forward with full fleet installation of 
this lifesaving system, and that the Navy has made that decision.
    When does the Navy intend to begin the installations fleet-wide? 
How long will it take to outfit the entire fleet?
    Answer. We intend to begin installations in December 2003. After 
completion of the successful fleet evaluation, we incorporated several 
design changes based on recommendations submitted by the evaluation 
ships. We are now developing the installation details as part of the 
Ship Alteration process and preparing the required Integrated Logistic 
Support documentation, which includes technical manuals, supply 
support, and planned maintenance requirements. We plan to complete 
outfitting the entire fleet within three years; however, this will 
depend on availability of all required funds and ability to schedule 
ship installations as planned.
    Question. Since you have made the decision to install this system 
fleet-wide, when do you plan to include this program in the Navy 
Budget?
    Answer. Funding for this program has been submitted for 
consideration as part of our fiscal year 2005 program and budget 
deliberations. Commander, U.S. Fleet Forces Command has agreed to 
budget for maintenance requirements after initial installation.
    Question. I understand that your installation plan calls for those 
Sailors with deck operations, those you have determined to be ``at 
risk'', are the Sailors who will be provided a MOBI transmitter. Does 
it ever happen that any Sailor or Marines who are not defined as ``at 
risk'' fall from the ship?
    Answer. Our plan is to install a Man Overboard Identification 
(MOBI) transmitter in every MK-1 FloatCoat and inherently buoyant life 
preserver because anyone working topside is at risk of falling 
overboard and should be wearing a life preserver. There have been 
cases, however, where Sailors and Marines who are not defined as ``at 
risk'' have also fallen overboard. As MOBI product improvements are 
made, we hope to provide a unit in the future that could be used with 
the normal shipboard uniform.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Mr. Lewis and the answers 
thereto follow:]

              Joint Strike Fighter Performance Attributes

    Question. The fiscal year 2004 budget request for the Joint Strike 
Fighter (JSF) is $4.4 billion. This is the tactical aircraft of the 
future for the Navy, Marine Corps and Air Force. In addition, foreign 
partners intend to purchase a large number of the aircraft.
    In general terms, what are the attributes of this aircraft that you 
believe make it worth this large investment--what does it bring to the 
fight that is significantly different than aircraft of today?
    Answer. The sea based Joint Strike Fighter (JSF) will complement 
the F/A-18E/F and will provide the Navy and Marine Corps a first day of 
the war, long range, self-escort, survivable, stealthy strike fighter 
that is capable of operating and winning against surface-to-air and 
air-to-air threats in 2010 and beyond. The JSF will bring a robust, 
fully integrated onboard sensor and precision navigation suite and 
precision munitions that will enable true battle space dominance, as 
both a sensor and a strike platform. In addition, with F/A-18 like 
performance qualities and stealthy characteristics, the JSF too will be 
able to fight and win in both the beyond, and within-visual-range air-
to-air arenas.
    Question. What is the current estimate of the date for Initial 
Operational Capability?
    Answer. The Joint Strike Fighter Marine Corps Short Take Off 
Vertical Landing version is currently projected to reach Initial 
Operational Capability (IOC) in calendar year 2010. The Navy carrier 
version is scheduled to reach IOC in calendar year 2012.

                  Joint Strike Fighter Cost Estimates

    Question. Understanding that numbers will change over time, what is 
the total current estimate for development of the JSF--previous years 
through 2003 and then 2004 to completion?
    Answer. As reflected in the December 2002 Selected Acquisition 
Report, the Joint Strike Fighter current total development estimate is 
$37.3 billion comprised as follows: $9.8 billion, fiscal years 1994-
2003, and $27.5 billion, fiscal years 2004-completion.
    Question. What is the current estimate of the total number of JSF 
that will be acquired?
    Answer. The Department of the Navy's current Joint Strike Fighter 
procurement objective is 680 aircraft.
    Question. Taking into account the research and development and 
procurement funds, what is the current estimate of the average cost per 
aircraft?
    Answer. The December 2002 Selected Acquisition Report reflects a 
Program Acquisition Unit Cost (PAUC) of $65.7 million.
    Question. What drives changes to this average cost per aircraft--
change in the total buy, increased research and development?
    Answer. The December 2002 Selected Acquisition Report (SAR) 
reflects Joint Strike Fighter (JSF) Program Acquisition Unit Cost 
(PAUC) increase of $3.8 million ($BY02) from the December 2001 SAR. 
This change was driven by reduction of Department of Navy planned 
procurement quantity from 1089 to 680 aircraft in accordance with the 
Navy/Marine Corps Tactical Aviation Integration Plan; increased 
Research, Development, Test and Evaluation (RDT&E) for added scope to 
accommodate JSF international partners, and a revised estimate for 
General Electric F136 development completion.

         Joint Strike Fighter Software Development and Testing

    Question. The Air Force has had a most difficult time in developing 
and testing the software for the F-22. Have you applied the software 
development and testing ``lessons learned'' from the F-22 to the JSF 
program and if so, what are you doing to ensure the same problems do 
not affect this aircraft?
    Answer. The Joint Strike Fighter (JSF) program has benefited 
greatly from the F/A-22 development and test activity and has worked in 
concert with the F/A-22 to ensure technical, programmatic, and test 
execution lessons learned are being shared between the two programs. 
JSF and F/A-22 share the same prime contractor and many of the same 
avionics suppliers (radar communications/navigation, electronic 
warfare, etc.). The sharing of lessons learned with F/A-22 and other 
relevant aircraft programs (e.g. F/A-18 E/F, F-16, Eurofighter, etc.) 
along with the substantial risk reduction activities completed during 
the JSF Concept Development Phase, positions the JSF program to 
leverage those activities and reduce the risk of its avionics 
development program. Some of the specific lessons learned implemented 
in JSF planning include the following: preplanning a multi-block 
avionics program during the development phase to deliver integrated 
operational capability in smaller and more testable avionics blocks; 
using an open architecture approach to minimize the cost, time, and 
regression testing required to modify specific hardware and software 
elements during System Development and Demonstration (SDD)/production; 
and implementing a technology refresh program during SDD to capitalize 
on the ever increasing capabilities of processing power while reducing 
the costs to replace diminishing manufacturing sources during 
development and production by targeting technology enhancements to 
improve the affordability, producibility, or reliability of specific 
products.
    Question. What is the next major milestone in the JSF development 
and testing program and when will that occur?
    Answer. The next major milestone will be the Pratt and Whitney 
propulsion Critical Design Review in May 2003, leading to Pratt and 
Whitney's first System Development and Demonstration engine operating 
in the test cell in September 2003.

          Joint Strike Fighter Interchangeable Engine Program

    Question. For the past nine years, Congress has expressed its 
strong support for the Interchangeable Engine Program for the JSF in an 
attempt to ensure that two engines--the Pratt-Whitney and the General 
Electric engines--are available for a competition at the earliest 
practical time.
    The Committee understands that a recent OMB directed inflation 
adjustment of $38 million was not spread across the entire JSF program, 
and was instead levied against the General Electric engine portion of 
the program which could potentially delay the program by two years. Is 
this accurate?
    Answer. None of the fiscal year 2003 inflation adjustment of $38 
million was applied to the General Electric F136 program. Inflation 
reductions allocated to planned General Electric F136 effort in fiscal 
year 2004 and out will likely result in an approximate two-year delay 
to the General Electric F136 engine schedule.
    Question. What is the rationale for (1) the reduction and (2) for 
the decision to apply the reduction to only one piece of the program?
    Answer: The Office of Management and Budget issued revised 
inflation indices in January 2003, which resulted in reductions to 
planned Joint Strike Fighter (JSF) funding in fiscal year 2003 and out. 
This required the JSF Program Office to reevaluate funding allocations 
within the program. To hold schedule to first flight, production start 
and fielding, and meet the Services' Initial Operational Capability 
dates, funding was first applied to the Lockheed Martin Air System and 
the Pratt-Whitney propulsion contracts. The remainder of the funding 
was then allocated to the General Electric F136 engine contract and the 
Government support portions of the program. Reduction of planned 
General Electric funding in fiscal year 2004 and out, with consequent 
schedule delay, was a difficult decision essential to keeping this very 
critical JSF development effort on schedule.
    Question. Do you believe the application of this reduction will 
cause a delay in a potential engine competition?
    Answer: The Joint Strike Fighter (JSF) Program office is analyzing 
ways to limit the impacts of the General Electric F136 funding 
reductions in fiscal year 2004 and out, but the production engine 
competition likely will be delayed. The Department will reevaluate 
General Electric F136 funding and schedule as part of the fiscal year 
2005 budget development process.
    Question. In fiscal year 2003, the appropriations conferences 
agreed to a $30 million increase for the interchangeable engine 
problem. To what extent does this OMB directed reduction eliminate that 
increase?
    Answer. None. The inflation reduction was not applied to fiscal 
year 2003 General Electric F136 planned effort.

             Joint Strike Fighter Design Issues of Concern

    Question. A recent news article indicates that JSF's prime 
contractor, Lockheed Martin, discovered in February that the JSF could 
be up to 20 percent overweight. Specifically, how does this 
``discovery'' affect the program?
    Answer. The government parametric estimate for the Joint Strike 
Fighter (JSF) Air System weight currently is above the targets the 
government/contractor team established for this period in the program. 
The JSF team is aggressively working weight reduction initiatives. 
Weight reduction, along with closure and maturation of design issues, 
is addressed daily through a combination of the normal teaming 
processes and insight from numerous external experts from all Services 
as Preliminary Design Review (PDR) activities progress. The government 
and prime contractors fully recognize the need to reduce the design 
airplane weight through a proper systems engineering process that best 
accommodates performance requirements, schedule, cost, and acceptable 
risk. A Blue Ribbon Action Team (BRAT) has been established to 
reconcile weight projection methodologies and identify detail design 
impacts by late June 2003. PDR remains open pending the final BRAT 
results. No delay to the overall schedule is currently projected.
    Question. While it is not unusual for aircraft development programs 
to have issues with weight, there is a concern that something in the 
realm of an additional 20 percent, could threaten schedules and 
budgets. Are you concerned about this potential?
    Answer. Department leadership is closely monitoring weight status 
and progress toward addressing related issues. We will have more 
insight into this issue when the Blue Ribbon Action Team reports out in 
June 2003.
    Question. Mr. Secretary, to the extent that fixing this problem 
causes the JSF schedule to slip, what back up plan exists for the Navy 
and Marine Corps?
    Answer. A slip in the Joint Strike Fighter (JSF) schedule would 
incur a requirement for the Department of the Navy to fund additional 
Center Barrel Replacements for both Navy and Marine Corps F/A-18C/D 
aircraft. Extending the service life of the F/A-18C/D fleet will 
provide short-term relief in bridging TacAir force structure 
requirements. The F/A-18E/F production line will remain open through 
calendar year 2013 (last procurement 2011, deliver 2013), allowing the 
procurement of additional F/A-18E/F's as an option to bridge force 
structure gaps in the event of JSF schedule slip. The recently 
completed AV-8B re-manufacture program provides the USMC some 
flexibility in their tactical aviation requirements if there are delays 
in the JSF delivery schedule.
    Question. The news article mentions this is potentially a problem 
with the design of the aircraft. Is this a design problem and if so, 
what are the options for getting it corrected?
    Answer. The Blue Ribbon Action Team is currently assessing the 
weight issue relative to design. Details regarding this issue will be 
better understood when the assessment completes in June 2003.

              Joint Strike Fighter Technological Challenge

    Question. Have you considered, and does it make sense, to maybe 
move the other variants of the JSF forward to help replace aging 
aircraft sooner and move the STOVL variant to a later point in the 
schedule to provide additional time for development?
    Answer. At this point, 18 months into execution of the System 
Development and Demonstration contracts, there is still no delay in the 
Short Takeoff and Vertical Landing (STOVL) variant development. 
Therefore, reordering of the variants at this time is not practical or 
affordable. It would require a major program re-structure with 
attendant significant schedule delays and cost increases.

                             V-22 Aircraft

    Question. The Director, Operational Test and Evaluation fiscal year 
2002 Annual Report indicates that the milestone III decision on the V-
22 scheduled for November 2000 was delayed due to an independent 
evaluation conducted by DOT&E. The milestone III decision was then 
delayed indefinitely after a December 2000 crash.
    The aircraft returned to flight in May 2002, and the number of 
aircraft engaged in flight-testing increased to three by December 2002. 
The fiscal year 2004 budget request contains $1.3 billion for nine Low 
Rate Initial Production (LRIP) aircraft. Of this amount, $872.2 million 
is for procurement, including $39.1 million for advance procurement, 
and $441.1 million is for research and development.
    Update the Committee on the progress of the V-22 program. What is 
the status of flight-testing for the V-22?
    Answer. The V-22 Program is currently mandated to continue 
production at the minimum sustaining rate until the Secretary of 
Defense certifies this aircraft meets the requirements outlined in 
Section 123 of the FY 2002 National Defense Authorization Act. The 
program continues to ensure a methodical and event driven test flight 
program to validate all engineering and software changes. Program 
reviews have been comprehensive; the organizational, technical and 
programmatic issues are well addressed. The plan represents a rational 
approach to flight testing.
    The V-22 has flown over 350 flight hours (as of April 2003) since 
its return to flight May 29, 2002.
          <bullet> 3 Engineering and Manufacturing Development (EMD) 
        aircraft have returned to flight.
          <bullet> 3 Low Rate Initial Production (LRIP) aircraft have 
        been modified and delivered early or on time.
          <bullet> Aircraft 9 Benefield Anechoic Facility phase III 
        testing accomplished 40 percent more test points than planned, 
        resulting in flight test savings.
          <bullet> Aircraft 7 is progressing well through multi-mode 
        radar testing to include flat rolling and isolated peak terrain 
        following.
          <bullet> Simultaneous deployments to USS IWO JIMA (shipboard 
        suitability) and Ft Bragg, NC (parachute loads testing).
    Since its return to flight, the V-22 program has had no hydraulic 
failures or software anomalies attributed to earlier mishaps.
    Question. The DOT&E fiscal year 2002 Annual Report states that the 
first order of business for V-22 testing is successful completion of 
high rate of descent (HROD) tests. Has the V-22 successfully completed 
this aspect of flight-testing?
    Answer. The High Rate of Descent (HROD) flight test program is 
producing significant results to include:
          <bullet> Recognition and definition of the flight boundary 
        for Vortex Ring State (VRS) onset.
          <bullet> Confirmation of the recovery technique.
          <bullet> Warning system design ready for in-flight 
        evaluation.
          <bullet> Recognition and demonstration of V-22's superior VRS 
        safety margin.
    Phase I of HROD flight testing is scheduled to be completed May 
2003 to support operational evaluation (OPEVAL).
    Question. What are the key issues that need to be resolved, and the 
capabilities proven, before you place Marines in the back of a V-22 on 
a regular basis?
    Answer. The V-22 program office has established a comprehensive and 
rigorous ``event driven'' flight test program. When all developmental 
and operational test requirements are complete, in accordance with all 
prescribed directives, Marines will be placed in the back on a regular 
basis.
    Question. Will the V-22's suitability for shipboard operations be 
adequately tested in the next phase of the program?
    Answer. The V-22 successfully met shipboard suitability 
requirements in the initial operational evaluation (OPEVAL) after a 
final evaluation of the Blade Fold Wing Stow system. The self-taxi 
capability enhanced the shipboard operational use of the aircraft. The 
recent correction of hydraulic and software items, which includes the 
redesign of the nacelle, and the shipboard suitability development 
testing underway will support a successful OPEVAL.

                        A-12 Aircraft Settlement

    Question. After an original ruling against the government for 
wrongful termination of the A-12 stealth attack fighter development 
program in 1991, an appellate court found the program contractors 
liable for up to $2 billion in costs incurred by the government due to 
non-performance on the A-12 development contract.
    There have been sporadic attempts by the Department of the Navy to 
reach some sort of in-kind settlement whereby the contractors would 
provide up to $2 billion worth of goods and cost savings initiatives to 
the Defense Department. The Justice Department has objected to this 
approach and insists on an actual payment of $2 billion to the 
Treasury. Absent a settlement the contractors plan to appeal the ruling 
to the Supreme Court.
    What is the status of attempts to settle the A-12 suit? What set of 
goods and services are being offered by the contractor in its attempt 
to settle the suit? What is the present position of the Justice 
Department and OMB with regard to actually attempting to collect $2 
billion in cash as per the appellate court ruling?
    Answer. The Department of Defense and the Department of Justice 
have been engaged in settlement discussions with the companies on a 
number of occasions over the past several years. We are maintaining a 
dialogue with the contractors and, although all parties are still 
reviewing the recent decision of the Court of Appeals for the Federal 
Circuit, we continue to exchange positions and proposals. The parties 
have discussed different ways of constructing a settlement, including a 
variety of products and services, as well as cash. The difficulty is in 
reaching a complete settlement that everyone agrees is reasonable and 
equitable under the circumstances. The Department of Justice is 
participating actively in these efforts with DoD. There is no present 
collection effort.

                Navy and Marine Corps TACAIR Integration

    Question. The Navy and Marine Corps have recently announced the 
integration of their respective tactical air (TACAIR) forces. While 
most observers have focused on the impact this integration will have on 
overall aircraft purchases, it is more than that--it is a major shift 
in Naval Aviation philosophy.
    Please provide a brief description of the elements of TACAIR 
Integration and the major elements of difference from the previous 
tactical air forces.
    Answer. The TACAIR Integration plan changes from the fiscal year 
2003 program of record: total procurement objective, numbers of active 
and reserve squadrons, Primary Aircraft Authorized (PAA) in tactical 
squadrons and the organizational assignment of squadrons.
          --Total Department of the Navy (DoN) procurement objective: 
        reduced from 548 F/A-18E/F and 1,089 JSF, totaling 1,637 
        strike-fighter aircraft to 460 F/A-18E/F and 680 JSF, totaling 
        1,140 strike-fighter.
          --Numbers of active squadrons: decommission 3 active USN F/A-
        18 squadrons, 1 Reserve USN & 1 Reserve USMC F/A-18 squadron. 
        Total DoN strike-fighter squadrons reduced from 64 to 59. 
        Note--2 active USN squadrons decommission outside FYDP.
          --PAA reduction: 12 USN F/A-18C squadrons will reduce PAA 
        from 12 to 10 beginning in fiscal year 2004. USMC F/A-18 
        squadrons will reduce PAA from 12 to 10 as they integrate into 
        Carrier Air Wings (4 in fiscal year 2004, 4 more during the 
        FYDP). Exceptions are those USN F/A-18 squadrons identified for 
        transition to F/A-18E/F or squadrons identified for integration 
        into the USMC's Unit Deployment Plan (UDP) rotation.
          --Organizational assignment: 6 additional USMC F/A-18 
        squadrons integrated into Carrier Air Wings, 3 USN F/A-18 
        squadrons integrate into USMC's UDP rotation.
    Note: Final 2 USMC squadrons integrate into Carrier Air Wings 
outside FYDP.
    Question. In what specific ways has this change affected the way 
the Navy and Marine Corps train and work together?
    Answer. Navy and Marine Corps TACAIR units have a long history of 
integrated operations and training. TACAIR integration will increase 
the degree of integration by bringing an additional six USMC squadrons 
into the Carrier Air Wing structure and three USN squadrons into the 
Unit Deployment Plan rotation. Upon assignment, integrated squadrons' 
operational command chain will change to the Carrier Air Wing or Marine 
Air Group and the individual squadrons inter-deployment training cycle 
will be conducted in accordance with the respective operational 
requirements. Additionally, a USMC O-6 has already been selected for 
ultimate assignment to command a Carrier Air Wing.
    Question. This integration will also allow the Department of the 
Navy to reduce the number of primary authorized aircraft by 47 during 
fiscal year 2004. What is the long-term impact of TACAIR Integration on 
authorized aircraft?
    Answer. TACAIR Integration will reduce the number of primary 
aircraft authorized (PAA) by 56 (vice 47) in fiscal year 2004. Twelve 
USN squadrons and four USMC squadrons <greek-e> 2 aircraft + two 
reserve squadron decommissions <greek-e> 12 aircraft = total of 56 
aircraft.
    Long-term impact of the plan on authorized aircraft is a reduction 
of 128 PAA. Thirty-four squadrons reduce PAA and five squadrons are 
decommissioned. The improvement in capability and reliability of 
tomorrow's strike-fighters enables the PAA reduction while retaining 
significant increases in overall capability. However, the most 
significant portion of the reduction in total procurement comes from 
reduction in procurement overhead rather than PAA. Overhead rates were 
recalculated by matching procurement attrition rates with historical 
rates and capturing efficiencies of improved reliability, 
maintainability and capability rates of new strike-fighters, basing 
efficiencies, training requirement reduction and improvements in 
simulator-based training.

                         AV-8B Harrier Jump-Jet

    Question. Earlier this year the Marine Corps' AV-8B attack jet 
program was the subject of an investigative report by the Los Angeles 
Times. The four part series of articles detailed the Harrier's history 
as one of the most accident-prone airplanes in the naval aviation 
fleet.
    The report alleged that recurrent failures of the engine, wing 
flaps, and ejection system coupled with a lack of spare parts and 
adequate flying time have lead to fatalities that could have been 
avoided.
    What is the Department of the Navy's official response to the 
issues raised by the LA Times article?
    Answer. The problems discussed in the recent LA Time's articles 
list four primary material problems causing AV-8B mishaps: Flaps 
Controller, Engine, Ejection System, and Nose Wheel Steering.
          --The Flaps Controller was replaced with a new Digital Flaps 
        Controller in the fourth quarter of fiscal year 2001. Since 
        installation, there have been no flap related mishaps.
          --The engine program underwent an extensive Engine Life 
        Management Plan (ELMP) with increased funding to further test 
        the F402 Engine. Since ELMP was instituted in 2000, there have 
        been no engine related mishaps.
          --The Ejection System in the AV-8B is currently being 
        upgraded to address all ejection related mishaps including: 4 
        line release, Electronic Airspeed/Altitude Sensor, upgraded 
        Helmet and Visor and Parachute Over Inflation Controller 
        (estimated completion is fiscal year 2005). Since the upgrades 
        have begun, there have been no ejection related deaths.
          --The Nose Wheel Steering (NWS) system was redesigned and is 
        being incorporated into all fleet aircraft (estimated 
        completion is fiscal year 2005). Since the redesign of the NWS 
        system there have been no NWS related mishaps.
    Following the AV-8B groundings in calendar year 2000, all Harrier 
aviation related trends are positive. Mission Readiness, Safety, Pilot 
Flight Time, and Fleet deployments have all increased. Pilot morale is 
high, as is their confidence in the aircraft. The aircraft has been 
performing superbly as indicated by its success while participating in 
OPERATION IRAQI FREEDOM and OPERATION ENDURING FREEDOM, and other 
deployments around the world.
    Question. What has been the current safety record of the AV-8B in 
terms of significant mishaps per flight hour and how does this metric 
compare to other aircraft in the Navy/Marine Corps fleet?
    Answer. The ten-year average mishap rate for the AV-8B is 9.73 
mishaps per 100,000 flight hours compared to 6.44 for the F-14 and 2.80 
for the F-18. Since the engine life management plan was implemented in 
2000, the yearly mishap rate for the AV-8B has continued to decrease 
below its ten-year average.
    2003 Mishap rate per 100,000 flight hours for:

AV-8B.............................................................  4.86
F-14..............................................................*12.11
F-18.............................................................. *5.95
EA-6B.............................................................  4.90
S-3...............................................................  4.42

*Does not include Operation IRAQI FREEDOM combat losses.

    Question. Is the AV-8B program adequately financed in the current 
Future Years Defense Program to ensure that its mishap rates are no 
higher than the average for the rest of the fleet?
    Answer. The AV-8B program is adequately funded. The single issue to 
address is the engine life management plan. This issue has been 
included on the Navy's fiscal year 2004 Unfunded Program List (priority 
number 20) and it is also moving forward as part of the fiscal year 
2005 President's Budget development process. If this funding were to be 
made available, it would continue the Accelerated Simulated Mission 
Test (ASMET) series of tests to improve engine readiness, availability, 
and safety. The three-year trend of the AV-8B is clearly comparable to 
other tactical aircraft (TACAIR) legacy platforms such as the F-14, F/
A-18 and EA-6B, and is sustainable even under the more demanding 
circumstance of single engine flight in a Short Takeoff and Vertical 
Landing environment. The relatively small number of aircraft and flight 
hours of the AV-8B when compared to F/A-18 may, in the future, result 
in some larger variations as compared to the TACAIR mean. That is the 
statistical reality of comparing different population sizes, and should 
be viewed more broadly over several years.

                 Unmanned Combat Aerial Vehicle (UCAV)

    Question. General Jumper, the Air Force Chief of Staff, was 
recently quoted as saying that the investment in unmanned strike 
aircraft is worth the cost only if it can deliver significant 
additional warfighting capability. That, in general, pursuing this 
technology for the sole purpose of getting a man out the cockpit is not 
worth the cost--the investment pays off if the aircraft can deliver 
significant additional capability.
    Given that the Services often argue that the single greatest 
advantage the United States has over its adversaries, is the talent of 
our men and women in uniform, General Jumper's comments cannot be 
discounted.
    Admiral Clark and General Hagee, what are you views on this 
subject?
    Navy answer. As with any system, the cost effectiveness of Unmanned 
Aerial Vehicles (UAVs) should be determined by comparison of capability 
delivered versus cost. Taking humans out of the cockpit is not an end 
unto itself, but it does allow UAVs to offer increased endurance, more 
effective signature control, and the potential for reduced costs. In 
addition, inherent risk to aircrew results in significant limitation of 
employment options in some missions--taking the human out of the 
cockpit in these situations greatly expands available alternatives in 
the application of force. The Navy concurs that the single greatest 
advantage that the United States has over its adversaries is the talent 
of our men and women in uniform. However, in some cases the best place 
for those men and women to contribute those talents is outside of a 
cockpit.
    Marine Corps answer. Should the Marine Corps choose to initiate an 
acquisition strategy for an unmanned combat aerial vehicle sometime in 
the future, the missions and capabilities of this technology would 
serve as a force multiplier vice replacing aviators.
    Question. What role will the Unmanned Combat Aerial Vehicle have in 
the Navy and Marine Corps of the future and how is that reflected in 
your SEAPOWER 21 and Marine Corps Strategy 21 documents?
    Navy answer. The Unmanned Combat Aerial Vehicle (UCAV) will play a 
critical role in providing persistent, penetrating surveillance and 
reconnaissance capability, and in addressing time critical targets 
through the combination of lethality and persistence. The UCAV is 
envisioned to contribute to all aspects of Sea Power 21--the strategy 
specifically states that the Sea Services will ``use unmanned 
platforms: air, land, sea, and undersea for combat and 
reconnaissance.''
    Marine Corps answer. The UCAV is not specifically mentioned in 
SeaPower 21 or Marine Corps Strategy 21. However, UCAV would be used 
primarily as a Suppression of Enemy Air Defense (SEAD) asset in an 
environment populated with numerous and highly capable surface to air 
missiles. A UCAV would also be used as a deep strike asset well beyond 
friendly lines.
    Question. The fiscal year 2004 request for Unmanned Combat Aerial 
Vehicles (UCAVs) is $275 million. Of this amount, how much is for the 
Navy's variant of the UCAV?
    Answer. A total of $123 million (including $5 million for the Joint 
Program Office) was requested in fiscal year 2004 for the Navy's 
Unmanned Combat Aerial Vehicles (UCAV) demonstration effort. In 
addition, DARPA is expected to contribute $13 million to the Navy's 
UCAV demonstration effort in fiscal year 2004.
    Question. How much is included in the Navy's 2004 request for the 
Joint Program Office?
    Answer. $5 million is requested for the Navy's share of Joint 
Program Office efforts.
    Question. What is the current estimate of the production unit cost 
of the Navy UCAV?
    Answer. The Navy Unmanned Combat Air Vehicle effort is 
insufficiently mature to justify a production unit cost estimate. 
Further demonstration of technical feasibility and final validated 
requirements are required before an analytically based cost estimate 
can be provided.

                        Tactical UAV Fire Scout

    Question. In fiscal year 2003, the Navy announced that it would 
complete the Engineering, Manufacturing, and Demonstration (EMD) phase 
of its Tactical UAV--Vertical Take Off and Landing system called Fire 
Scout. The Navy's proposal was to conduct concept of operations work 
with the five systems purchased with the EMD contract, but to not move 
forward into production because the system could not meet the stated 
requirement. This action essentially terminated the Fire Scout UAV 
program and Congress provided additional funds for needed upgrades to 
existing Pioneer Tactical UAV in order to meet near term requirements 
for the Navy and Marine Corps.
    The fiscal 2004 budget request appears to reverse the 2003 decision 
by including $4 million to continue development of the Fire Scout. In 
addition, the Navy's Unfunded Requirements list includes another $35 
million for Fire Scout. This does not sound like a terminated program.
    What is the story on Fire Scout?
    Answer. In 2002, the Navy restructured the Vertical Takeoff and 
Landing Tactical Unmanned Aerial Vehicle (VTUAV) program to end with 
the completion of Engineering and Manufacturing Development (E&MD) and 
one Low Rate Initial Production (LRIP) system.
    In January 2003, the Navy identified VTUAV as a candidate system 
for deployment aboard the Littoral Combat Ship (LCS) Flight 0. 
According to our mission analysis, adopting existing, and near-term 
available surface warfare, mine warfare, and anti-submarine warfare 
sensors and weapons to the VTUAV and employing them from LCS Flight 0 
would increase LCS combat capability, reduce reliance on manned 
helicopters, and push the sensor and (eventually) weapons envelope 
outward. Navy requested $4 million in fiscal year 2004 to complete 
shipboard developmental testing associated with the current VTUAV 
program. An additional $35 million was identified on the Chief of Naval 
Operation's (CNO) Unfunded Programs List to develop LCS mission-unique 
capabilities. This effort would include additional VTUAV research and 
development to facilitate the integration of a VTUAV with the emerging 
Littoral Combat Ship (LCS) requirement.
    Despite the 2002 restructuring of the VTUAV program, the Marine 
Corps does not feel Fire Scout meets their Expeditionary Maneuver 
Warfare requirements for range, transportation to and use from 
primitive sites, and survivability as laid out in Ship-to-Objective 
Maneuver (STOM) operations.
    Question. Just 12 months ago you were arguing that the system did 
not meet the requirement, what has changed?
    Answer. The original VTUAV program was developed in support of 
Marine Corps requirements. In the past 12 months, the Navy initiated 
the Littoral Combat Ship (LCS) program to fill a gap in surface 
warfare, mine warfare and anti-submarine warfare. LCS will rely heavily 
on unmanned systems to provide combat capability in these areas. The 
current VTUAV program supports LCS surface warfare and intelligence, 
surveillance and reconnaissance missions. Adaptation of additional 
sensor and weapons will address the LCS Flight 0 requirements in all 
three focused Mission areas.
    The Marine Corps understands the need for a VTUAV on the LCS, but, 
even with planned improvements, the Fire Scout falls short of meeting 
Marine Corps requirements for performance, deployability, reliability, 
survivability, cost, and schedule.
    Question. Considering the other options available for you with 
respect to other Tactical UAVs available with other manufacturers, why 
are you pursuing a system that does not provide the endurance and the 
speed you state you need?
    Answer. An improved Fire Scout with upgraded speed, range 
endurance, survivability, payload capability and weaponization will 
meet all the endurance and speed requirements for the LCS core missions 
of mine warfare, surface warfare and antisubmarine warfare with an 
initial operating capability (IOC) of fiscal year 2007. No other 
Tactical UAV is in development to meet all of the Navy's requirements 
by fiscal year 2007.
    Since the improved Fire Scout does not meet Marine Corps mission 
requirements, the Marines are considering an alignment with the Coast 
Guard's Deep Water UAV program, Eagle Eye. In accordance with the 
Deputy Secretary of Defense's guidance to explore additional production 
of previously developed programs or to join in cooperative development 
programs with other governmental agencies, the Marines believe teaming 
with the Coast Guard is in the best interest of the service since Eagle 
Eye VUAV capabilities will surpass even the improved Fire Scout 
capabilities. A Marine Corps demonstration system can be delivered in 
fiscal year 2005 with a program IOC of early fiscal year 2008.
    Question. Will you consider a re-competition of the contract?
    Answer. Fire Scout was selected in a full and open competition. The 
Fire Scout meets the current VTUAV Operational Requirements Document 
(ORD). If a significant change in requirements necessitates a new ORD, 
the acquisition strategy will be revised to best balance resources to 
meet the warfighters' needs.
    Question. How much will it cost the Navy to ``grow'' the Fire Scout 
into a system that meets the requirement--or are you prepared to revise 
the requirement? If the requirement is revised will you re-compete the 
contract?
    Answer. The Navy does not expect to see significant changes to the 
requirements in order to meet Littoral Combat Ship mission focus areas; 
therefore, Navy does not intend to recompete the contract at this time. 
The Navy does envision an estimated $147 million would be required for 
development and fielding. This includes the non-recurring engineering 
and four LRIP systems. A new acquisition strategy for a VTUAV would be 
developed if a new Operational Requirements Document with significant 
new requirements becomes necessary.
    Question. Please provide a detailed explanation for the $4 million 
requested in the fiscal year 2004 request as well as the $35 million 
identified on the unfunded requirements list.
    Answer. The $4 million requested in fiscal year 2004 funding is for 
shipboard testing associated with the completion of the current 
Vertical Takeoff and Landing Tactical UAV (VTUAV) Engineering and 
Manufacturing Development program. The $35 million identified on CNO's 
Unfunded Programs List would be used to conduct additional VTUAV 
research and development to facilitate the integration of a VTUAV with 
the emerging Littoral Combat Ship (LCS) requirement.

                    Broad Area Maritime Surveillance

    Question. Beginning in fiscal year 2002, Congress has supported the 
Navy's concept of using high altitude UAV's to conduct a majority of 
its maritime surveillance mission. The original objective was to use 
UAVs in conjunction with manned surveillance and reconnaissance 
aircraft to accomplish the surveillance and anti-submarine warfare 
missions.
    What is the status of the Navy's BAMS program?
    Answer. The Broad Area Maritime Surveillance (BAMS) Unmanned Aerial 
Vehicle (UAV) Program is proceeding to a Milestone B in the third 
quarter of fiscal year 2004. Requirements (Concepts of Operation, 
Operational Requirements Document, Analysis of Alternatives, and 
Command, Control, Communications, Computers, and Intelligence Support 
Plan) and acquisition documentation (acquisition strategy report, Test 
and Evaluation Master Plan, manpower estimate report, etc.) are in 
preparation to support the milestone.
    Question. The Navy requested, and Congress provided, funds for the 
acquisition of two Global Hawk UAVs so that it could test and 
demonstrate maritime surveillance sensors. When will these UAVs deliver 
to the Navy and when will the test program be complete?
    Answer. The two Global Hawk UAVs will deliver in the 2nd and 4th 
quarters of fiscal year 2005 respectively. The Navy intends to obtain 
maximum value from the Global Hawks through an extended test and 
experimentation program. The Global Hawks will be used for persistent 
Intelligence, Surveillance, and Reconnaissance (ISR) doctrine 
development and continuous refinement of concept of operations, and 
tactics, training, and procedures generation. The Global Hawks will 
continue as enduring test beds for UAV maritime sensors development. 
There is presently no defined completion date for the program.
    Question. Is it the intent of the Navy to use the Global Hawk UAV 
as the platform for its BAMS Program or do you anticipate a competition 
for an alternate platform.
    Answer. An Analysis of Alternatives is underway and is considering 
a number of platforms for Broad Area Maritime Surveillance Unmanned 
Aerial Vehicle. Concurrently, acquisition strategy options are being 
formulated. The results of these two efforts will assist the Navy in 
determining the most cost effective acquisition strategy to meet the 
warfighting requirement.

                              Pioneer UAV

    Question. General Hagee, there was great confusion last year as to 
the Marine Corps' requirement for a tactical UAV. The budget request 
included funds to upgrade the existing Pioneer UAV for connectivity and 
maintainability issues. However, last minute differing viewpoints on 
the Marine Corps' UAV needs lead the Committee to question the 
necessity of upgrading the Pioneer in favor of an alternative UAV.
    What is the Marine Corps requirement for a tactical UAV?
    Answer. The Marine Corps has a requirement for an organic UAV 
system that is interoperable with Joint C4I systems, is capable of 
operating from ships or seabases, and will seamlessly transition to 
operations ashore. This future UAV system should have the capability.to 
support expeditionary maneuver warfare, and therefore, must be 
deployable by organic USMC aviation assets. The UAV system should be 
organized to provide scalable support to Marine Expeditionary Units, 
Marine Expeditionary Brigades, and Marine Expeditionary Forces. Most 
importantly, the UAV system must be responsive to the needs of a Marine 
Air Ground Task Force (MAGTF) commander by providing, through the use 
of modular payloads, reconnaissance, target designation, 
communications/data relay, and signals intelligence (SIGINT) 
capabilities. Without compromise, the UAV should be able to launch from 
an amphibious ship or seabase, provide persistent support to a MAGTF 
commander during movement to the objective, as well as during actions 
on the objective, and have the capability to return to the ship, 
seabase or a pre-designated site ashore. The future UAV system must be 
very reliable with low Mean Time Between Failures (MTBF) and low 
Maintenance Man Hours Per Flight Hour (MMPFH). The UAV must be 
maintainable in austere environments while requiring minimal manpower 
for servicing.
    Question. Does the fiscal year 2004 budget request support your 
needs?
    Answer. The 2004 budget provides an upgrade to the Pioneer UAV 
system. The system was fielded in 1988 and the upgraded Pioneer is 
intended to provide UAV capability to the Marine Corps until a common 
tactical vertical UAV (VUAV) is fielded in approximately FY 2009.
    Question. What is the program of record that the Marine Corps 
supports--the Pioneer as upgraded or some other UAV?
    Answer. The Marine Corps supports--the Pioneer upgrade as a stopgap 
system until FY 2009. The budget priorities for the Pioneer system 
provide safety, sustainment, and minor capabilities enhancements.
    Question. With the submission of its fiscal year 2004 Budget, the 
Navy has proposed retiring DD-963 class destroyers, and earlier 
versions of the Aegis Class Cruisers. These actions would take the 
Navy's ship force structure below 300 ships in total, and below 116 
surface ships.
    Admiral Clark, what is the requirement for the total fleet size 
given the present national security strategy and threat environment?
    Answer. In order to meet the key goals outlined by the Quadrennial 
Defense Review (QDR) and National Security Strategy (NSS), and to 
transform in a way that assures continued operational effectiveness in 
a changed security environment, the Navy-Marine Corps team has embraced 
Sea Power 21. Sea Power 21 is implemented via a Global Concept of 
Operations (CONOPs) that widely distributes the firepower of the fleet 
to bolster both homeland and theater security, improve crisis response 
reaction time, and position us to win decisively in war. In the past, 
strategies focused on regional challenges. Today, we must think more 
globally to be ready to defend the vital interests of the United States 
against a broad range of potential challenges. Specifically, we need to 
increase the probability that we will be in the right place at the 
right time to deter and respond rapidly to terrorism and other 
transnational threats. The Global CONOPs will more broadly distribute 
combat power by creating additional independent strike groups (from 19 
today to 37 in the future) capable of responding across the spectrum of 
conflict simultaneously around the world.
    While many features of the Global CONOPs can be executed with 
today's forces, a fleet of approximately 375 battle force ships will be 
required in the future to fully implement the concept and execute the 
defense strategy. Independently, or as part of a Joint Task Force, this 
dispersed, netted, and operationally agile fleet will deliver the 
tailored mission capabilities needed to sustain homeland defense, 
provide security in four theaters, swiftly defeat two aggressors at the 
same time, and deliver decisive victory in one of those conflicts.
    Question. Admiral Clark, what is the basis for the Navy's proposal 
to retire ships with remaining useful service life?
    Answer. Accelerating the retirement of the SPRUANCE Class 
destroyers, the baseline one TICONDEROGA Class cruisers, and selected 
OLIVER HAZARD PERRY Class frigates was a difficult decision--but the 
right decision--and one based on the capabilities needed for both 
today's and tomorrow's threat environment. These ships are 
significantly less capable in the near-land threat environments we'll 
see in the future. They require more maintenance, modernization and 
additional manning to operate because they lack many of the optimal 
manning technologies of our newer platforms. Most importantly, they 
provide either redundant or significantly less effective strike and air 
defense capabilities than our other platforms. In every case, 
continuing to operate these ships for the few years remaining in their 
service lives adds little to our aggregate warfighting posture. Our 
ability to move forward with critical recapitalization and 
transformation efforts is improved from an affordability standpoint 
with savings from the higher ship and shore infrastructure costs 
associated with the unique life cycle requirements of the less capable 
DD 963's and baseline one cruisers. Current Navy warfighting analysis 
of likely combat scenarios over the next ten years indicates that the 
warfare missions for surface combatants are not well met by these less 
capable ships and accelerating their retirement adds little or no risk 
in the near-term, but helps significantly in facilitating our 
transition to the numbers, type and mix of ships we will require to 
execute the range of missions we anticipate in the 21St Century. In the 
long term, we need the next generation destroyer, DD(X), the next 
generation cruiser, CG(X) and the Littoral Combat Ship to address these 
missions.
    Question. Do you believe that simply counting hulls is a useful 
metric when determining the effectiveness of today's fleet? What are 
some other ways of measuring the offensive and defensive capabilities 
of the fleet?
    Answer. The global nature of the war on terror demands a global 
Navy that can muster at the far corners of the earth to deny sanctuary 
to the enemies of our country. If we are to be there when the nation 
calls upon us, then numbers do matter.
    That said, it is the offensive and defensive capabilities that 
count if we are to use the maneuver area of the sea to our nation's 
advantage. We can--and do--measure those capabilities in terms of 
weapon range, sensor fidelity, data processing speed, and other 
measures of effectiveness. The best metric then is the synergy between 
these capabilities and the right number of platforms to truly measure 
the combat power of today's--and tomorrow's--Navy.
    Question. What are the risks associated with a reduced fleet size--
can this risk be mitigated with a better mix of effective platforms?
    Answer. The global nature of the war on terror demands a global 
Navy that can muster at the far corners of the earth to deny sanctuary 
to the enemies of our country. If we are to be there when the nation 
calls upon us, then numbers do matter. So in the simplest terms, 
reduced fleet size incurs some risk in the Navy's ability to be where 
it's needed, when it's needed.
    That said, our analysis indicates that our proposed near-term 
inactivations and our remaining war fighting capability provide an 
acceptable level of risk without compromising our ability to accomplish 
our mission. The reason for this is three-fold.
    First, because we've made important gains in the current readiness 
of our legacy force these last few years; it produced the more 
responsive force we've seen on deployment this year.
    Second, because the types of combatants scheduled for 
decommissioning--SPRUANCE Class (DD 963) Destroyers, Baseline 1 
TICONDEROGA Class (CG 47) Cruisers (non-Vertical Launch System (VLS) 
capable), and older OLIVER HAZARD PERRY Class (FFG 7) Frigates--are not 
well suited to take on the threats projected to develop over the next 
10 years, especially in the areas of missile defense and warfare in 
littoral waters.
    Third, because we are investing the savings garnered from these 
decommissionings to invest in precisely the new ship capabilities 
needed to deal with these future threats. The next generation destroyer 
(DD(X)) and the Littoral Combat Ship (LCS) are funded within the FYDP 
and represent substantial future capability. DD(X) will provide Naval 
Surface Fire Support (NSFS) in support of expeditionary missions, 
acoustic stealth and advanced ASW capability, and large TLAM capacity. 
LCS will enable operations in nearland areas and provide capabilities, 
at lower cost, to defeat area-denial and anti-access efforts.
    On balance, the risks associated with the temporary reduction in 
fleet size are mitigated by our investment in the future.
    Question. Do you anticipate any other countries Navy becoming a 
peer competitor to the United States Navy in the next 20 years?
    Answer. No, we do not anticipate the naval capability of another 
country becoming a peer competitor to the United States Navy in the 
next 20 years. Countries developing combat capabilities are not 
expected to possess the breadth and depth of the U.S. Navy's. The 
possibility does exist, however, that countries will develop asymmetric 
capabilities challenging U.S supremacy in a specified location or 
mission area for a limited period. The American way of war has changed 
. . . we now fight as a joint force, often as part of a larger 
coalition. A capability to fight from a sea base is critical in this 
era of denial of basing ashore, reduced host nation support and anti-
access strategies. Land-based cruise missiles and theater ballistic 
missiles are proliferating and further drive the requirement to provide 
a mobile, sea based shield for allied and joint forces operating 
ashore. The capabilities and concepts we are developing will provide us 
the ability to operate and fight from the sea, dictate the place and 
pace of combat, and win the nation's wars.
    Question. What are some of the driving factors, other than sinking 
the opposing force's Navy, that are used in determining the size and 
composition of the U.S. Navy fleet?
    Answer. Force planning and capability,requirements, risk-based 
judgments, and fiscal realities determine the size and composition of 
the U.S. Navy fleet in a given budget year. Current defense planning 
has determined the force planning and capability requirements as:
          <bullet> Defend the United States.
          <bullet> Deter forward in critical areas.
          <bullet> Swiftly defeat aggression in overlapping major 
        conflicts, decisively defeating the adversary in one of these.
          <bullet> Conduct a limited number of small-scale 
        contingencies.
    The Navy's approach to fulfilling this guidance is a product of 
robust campaign, capability and risk analyses; and as a result, the 
Global Concept of Operations (Global CONOPs) was developed. This 
transformational architecture distributes our combat striking power 
throughout a dispersed, networked fleet to support our joint war 
fighting operations. Its implementation will enable Sea Power 21 
capabilities and will take us from the current 19 strike capable groups 
to 37 strike capable groups, built upon a force of approximately 375 
ships.
    While our POM04 and PR05 investment fully supports Sea Power 21 and 
Global CONOPs transformation, the Navy currently possesses neither all 
the capabilities nor the required mix of ships to achieve the desired 
Global CONOPs end state within the FYDP. Fiscal realities will 
determine when this size and composition is achieved.

                       Littoral Combat Ship (LCS)

    Question. The Navy is currently experimenting with several small, 
high-speed vessels to determine what role they may have in a future 
littoral combat environment. Last year the defense appropriations 
conferees provided $30 million above the budget to formally start the 
Littoral Combat Ship (LCS) program.
    Describe the present concept of operations and program acquisition 
strategy for the LCS program.
    Answer. The following is a synopsis of the Littoral Concept of 
Operations (CONOPS) developed by the Naval War Development Command and 
approved by the Chief of Naval Operations. The Littoral Combat Ship 
(LCS) CONOPS in its entirety can be provided as requested.
    LCS will contribute to Sea Shield through its unique capability to 
respond quickly, operate in the littoral environment, and conduct 
focused missions with a variety of networked off-board systems. LCS 
will assure access for the Joint Force through, anti-submarine warfare 
(ASW), mine countermeasures (MCM) and surface warfare missions as well 
as through surveillance and reconnaissance. LCS also will directly 
support Sea Strike operations by enabling forced entry for Joint power 
projection forces. This includes support to Marine Corps, Army, and 
Special Operations Forces. LCS will be an enabler of Sea Basing by 
providing force protection to Joint assets and by acting as a swift and 
flexible logistics element for joint mobility and sustainment.
    Littoral Combat Ships, with the appropriate network and off-board 
systems, will be able to operate as part of a littoral operations 
force, or as deployers with multi-mission fleet forces (Carrier Strike 
Groups/Expeditionary Strike Groups (CSGs/ESGs)) in a wide variety of 
tasks. These tasks include: ASW, MCM, counter small boats, lengthening 
and broadening surveillance horizons, conducting operational deception, 
probing/testing enemy intentions and plans, hindering/complicating 
enemy attack preparations, deploying, monitoring and protecting sensors 
and weapons grids, performing Special Operations Forces (SOF) insertion 
and extraction, providing force protection, conducting scouting/manned 
reconnaissance, marker operations, combat search and rescue, and 
tactical sustainment and mobility for Joint Forces.
    In terms of hull design, LCS will achieve a potent balance of 
mission capacity, maneuverability, stealth, and survivability. With a 
draft of 20 feet or less, an innovative hull form and propulsion system 
will enable LCS to operate at economical loiter speeds and to conduct 
high speed sprints between 40 and 50 knots. LCS hull design and 
propulsion systems will provide the maneuverability necessary to 
transit in advance of other forces, ensure survivability and self-
defense, and quickly reposition in response to operational 
requirements. Proven signature management technologies designed to 
minimize infrared, acoustic, and magnetic emissions and limit its radar 
cross-section will also be employed.
    LCS is currently initiating pre-Milestone A/Defense Acquisition 
Executive (DAE) approval acquisition activities, including analysis of 
requirements, exploration of technologies and new system concepts, 
program planning, and development of an acquisition strategy. The LCS 
Request for Proposals (RFP), released on February 28, 2003, solicits 
Preliminary Designs for LCS Flight 0, Phase I with options for Phase 
II--Final Design and Detail Design and Construction. The award of up to 
three Flight 0 Preliminary Design contracts for LCS is expected in the 
July 2003 timeframe. LCS Flight 0 construction is scheduled to commence 
in fiscal year 2005.
    Question. How does LCS ``fit in'' with your ``family of ships'' 
concept?
    Answer. Development of our next generation cruiser, CG(X), our 
next-generation multi-mission destroyer, DD(X), and the Littoral Combat 
Ship, LCS, are each critical to the future Navy. Each future surface 
combatant is optimized to perform a key function: CG(X) to create and 
maintain air superiority over the Joint force at sea and on land; DD(X) 
for delivery of precision strike and volume fires to support assured 
access and maneuver warfare; and LCS to operate closer to shore to deny 
the enemy the use of asymmetric threats in an anti-access strategy 
using mines, submarines, and swarming small combatants. As such, CG(X), 
DD(X), and LCS will provide complementary capabilities that are fully 
netted to the Joint force.
    Question. If the LCS is to presumably work very close to enemy 
shores with small crew contingents, what self-defense capabilities will 
it have?
    Answer. The Littoral Combat Ship (LCS) will incorporate a total 
ship approach to survivability that addresses susceptibility, 
vulnerability, and recoverability, with crew survival as a primary 
objective. The principal means to minimize susceptibility include 
speed, agility, signature management and a core self-defense weapon 
suite. The LCS core weapon/sensor systems will provide the capability 
to detect, identify, track and protect itself against threats including 
anti-ship cruise missiles (ASCMs), aircraft, surface craft, mines and 
torpedoes. Additionally, LCS will complement speed, signature 
management, hard kill and soft kill systems with networked capabilities 
to improve situational awareness and disrupt the threat's detect-to-
engage sequence in the littoral environment. The following are some of 
the projected defense capabilities for specific threat areas:
    Mine Warfare (MIW).--In all mission configurations the LCS shall 
have core systems that provide the capability to conduct precise 
navigation to avoid previously identified minefields, and enable the 
employment of off-board or onboard sensors to perform mine avoidance 
along the LCS' intended track.
    Anti-Surface Warfare (ASUW).--In all mission configurations the LCS 
shall have core systems that provide the capability to conduct multi-
sensor search, detection, classification, localization and tracking of 
surface contacts in its assigned area of responsibility. The LCS will 
also have the core capability to protect itself against small boat 
attacks, including the use of speed and maneuverability, and have the 
core capability to conduct warning and disabling fire.
    Anti-Submarine Warfare (ASW).--In all mission configurations the 
LCS shall have core systems that provide the capability to detect 
threat torpedoes at sufficient range to permit initiation of effective 
countermeasure and/or maneuver action to defeat the threat.
    Question. Previously, the Navy has justified the submarine 
requirement based on the need to operate close to shore. With the 
introduction of the LCS, what is the role of the submarine in littoral 
combat?
    Answer. Submarines remain critical contributors to U.S. undersea 
preeminence including waters in the littoral environment. Their 
technical and operational capabilities pose significant obstacles to 
potential adversaries who would seek to use the oceans to attack our 
interests.
    Submarines provide the United States an asymmetric advantage by 
projecting power from under the sea, sustaining U.S. Forces in distant 
anti-access and area denial environments, and in denying enemies 
sanctuary by providing persistent intelligence, surveillance, tracking, 
and rapid engagement.
    The submarine's characteristics make it uniquely capable of 
conducting clandestine missions in the littoral environment including:
          <bullet> Independent operations even when faced with a 
        hostile enemy.
          <bullet> Extensive unreplenished operations.
          <bullet> Undersea warfare battlespace dominance.
          <bullet> Surface warfare against large surface ships or 
        combatants.
          <bullet> Clandestine electronic, acoustic and visual 
        Intelligence, Surveillance and Reconnaissance (ISR).
          <bullet> Strike with surprise from within an adversary's 
        defense umbrella.
          <bullet> Clandestine SOF support.
    Question. Do you think that the LCS would benefit from more 
experimentation to determine its role before commencing a new 
development program?
    Answer. Lessons learned from Navy experimentation with small high-
speed ships and innovative hull forms such as the High Speed Vessel 
(HSV-Xl), TRITON, and SLICE are invaluable in helping to formulate the 
Littoral Combat Ship (LCS) role. We continue to rely on these vessels 
to inform us in areas such as modularity, common launch and recovery 
systems, and off-board vehicle operations. Vessels such as Hybrid Deep 
Vee Demonstrator (HDV(D)-100), Hybrid Small Waterplane Area Craft 
(HYSWAC), and X-CRAFT, will provide hydrodynamic information for 
potential LCS candidates. Other efforts include studies/analysis by the 
Naval War College, Naval Warfare Development Center, and industry. 
Together, experimentation and analysis have laid a solid foundation for 
the LCS sea frame and mission module CONOPs.
    Question. What are the initial cost estimates, per unit, of the 
LCS?
    Answer. The LCS Flight 0 Preliminary Design Request For Proposals 
issued on February 28, 2003, states that the Cost as an Independent 
Variable target for the LCS and the installed core mission systems is 
$220 million fiscal year 2005 dollars threshold and $150 million fiscal 
year 2005 dollars objective. This includes: detail design; basic ship 
construction costs; procurement, installation, and integration of the 
core systems; outfitting and post delivery costs; and testing. The 
mission packages are estimated to cost $30 million to $100 million each 
fiscal year 2005 dollars depending on the warfare mission that the 
module is supporting.

                        CVN-21 Aircraft Carrier

    Question. The CVN-21 is the new transformational aircraft carrier 
for the Navy. It is, in fact, a merger of the CVNX-1 and CVNX-2 
capabilities that were presented last year.
    Please provide a brief description of the capabilities you envision 
for this new carrier.
    Answer. The CVN 21 Class aircraft carriers will expand the 
capabilities of the NIMITZ Class in the following areas:
          <bullet> An increase in sortie generation rate from 140 fixed 
        wing sorties/day to 160/day sustained for 30 days. To achieve 
        this sortie rate, new technology and improved design concepts 
        are being pursued to CVN 21 that will feature:
                  <bullet> Enhanced/reconfigured flight deck:
                          <bullet> Four electromagnetic catapults 
                        (EMALS).
                          <bullet> Re-designed flight deck arrangement 
                        for ``pit stop'' servicing.
                          <bullet> Three aircraft elevators for 
                        enhanced aircraft movement and servicing.
                          <bullet> Smaller/lighter island design.
                          <bullet> Advanced Arresting Gear (AAG).
                  <bullet> Two hangar bays vice three (reduced weight, 
                more parking area).
                  <bullet> Improved weapons handling/aircraft servicing 
                efficiencies:
                          <bullet> Weapons elevator technology 
                        improvements.
                          <bullet> Dedicated weapons sponson for 
                        handling and servicing ordnance outside the 
                        hull.
                          <bullet> Improved weapons flow from magazine 
                        to flight deck.
                          <bullet> Upper stage elevator optimized for 
                        weapons throughput to aircraft.
    Additionally, CVN 21 will have:
    Enhanced Self-Defense:
          <bullet> Multi-Function Radar and Volume Surveillance Radar,
          <bullet> Dynamic armor system;
          <bullet> Anti-torpedo torpedo; and
          <bullet> Enhanced ship self defense system using ESSM.
    New Nuclear Propulsion Plant:
          <bullet> All electric auxiliary systems;
          <bullet> Zonal electrical distribution system;
          <bullet> 300% increase in electrical generation capacity over 
        NIMITZ; and
          <bullet> Maximum use of reconfigurable spaces with standard 
        distribution panels.
    Survivability Improvements:
          <bullet>  5, underbottom/enhanced magazine protection;
          <bullet> Ship righting moment improvements; and
          <bullet> Enhanced underwater protection.
    Engineering Improvements:
          <bullet> Enhanced service life allowance (5%-7.5%) at 
        delivery allows for predicted growth throughout the life of the 
        ship; and
          <bullet> Computer design model using CATIA improves 
        affordability of ship design changes and alterations.
    Question. In fiscal year 2003, Congress provided an additional $160 
million for acceleration of the CVNX-1 carrier.
    Is it your intention to use these additional funds instead for CVN-
21?
    Answer. Yes, these funds will be used for efforts originally 
planned for CVNX, now designated CVN 21.
    Question. How, specifically, do you intend to use the $160 million 
in additional funds?
    Answer. In fiscal year 2003, Congress appropriated $160 million 
over the President's request to accelerate existing CVNX-1 design 
efforts (propulsion/electric plant, HM&E, & Total Ship Integration 
efforts). This funding was required for the program definition, design 
maturity, and workforce maturity needed to support advanced 
construction efforts. The additional funds provide a level-loaded 
workforce in the peak design years, completion of the requirements 
definition needed to support award of a detailed design and advanced 
construction contract in fiscal year 2004, and supports advanced 
construction efforts in fiscal years 2004-2006 by reducing both 
schedule and cost risk. Efforts are as follows:
    Program definition
          <bullet> Complete ship specifications.
          <bullet> Refine detailed ship build strategy and shipyard 
        facilities plan.
          <bullet> Develop detailed construction schedule.
          <bullet> Refine detailed ship design schedule based on 
        construction schedule.
    Design maturity
          <bullet> Complete 2nd revision of propulsion plant diagrams.
          <bullet> Complete system diagrams for affected hull, 
        mechanical, and electrical systems.
          <bullet> Accelerate reactor compartment arrangement 
        development.
                  <bullet> Supports future construction schedule.
                  <bullet> Supports more efficient implementation of 
                design tools.
                  <bullet> Supports more efficient design and 
                construction plan.
          <bullet> Accelerate other propulsion plant and ship 
        arrangement development to reduce cost and schedule risk and 
        support flexibility in construction planning.
    Workforce maturity
          <bullet> Accelerating effort allows design force to ramp to 
        peak design manning by end of 2003.
          <bullet> Initiates 3-5 years of level-loaded design force in 
        fiscal years 2004-2008 (vice large inefficient spike).
          <bullet> Allows use of experienced designers and engineers 
        made available from other projects at Northrup Grumman Newport 
        News and Electric Boat (CVN 77, VIRGINIA Class, and SSGN).
    Question. The current funding profile for the CVN-21 is a request 
for split funding of construction between fiscal years 2007 and 2008. 
Who knows what the budgets will look like 5 years from now, but we 
would like to know the rationale for split funding of this ship 
construction program.
    Is there any issue, other than affordability, that drives you to 
such a proposal?
    Answer. Affordability is the only driver for the split funding 
proposal.
    Question. It is our understanding that such a proposal would 
increase the cost of the lead ship. Is that accurate?
    Answer. The split funding proposal has no impact on the cost of the 
lead ship.
    Question. What is the current estimate of the additional costs 
incurred in the program due to split funding of construction?
    Answer. As stated above, there are no additional costs incurred by 
split funding ship construction.
    Question. What and when is the next Milestone for this program?
    Answer. The CVN 21 program is currently projecting a 3rd Quarter 
Fiscal Year 2004 Milestone B Defense Acquisition Board decision by the 
Under Secretary of Defense for Acquisition Technology and Logistics. 
The purpose of the Milestone B decision is to approve the program's 
entry into the System Development and Demonstration Phase.
    Question. What business-reengineering processes did you use for the 
design of the ship? For example, you have rearranged weapons movement.
    Answer. A three-step process was used to evaluate technologies and 
design concepts to be pulled forward from CVNX-2 and to recommend 
changes to improve capability beyond the CVNX-1 baseline. In the first 
step, six subject matter expert (SME) teams and three cross-functional 
teams were formed. SME teams examined discreet areas, while cross-
functional teams examined areas impacting the entire ship. The team 
structure is listed below:
          <bullet> Weapons Movement SME Team;
          <bullet> Flight Deck SME Team;
          <bullet> Hangar Bay/Aircraft Intermediate Maintenance 
        Department SME Team;
          <bullet> Integrated Island SME Team;
          <bullet> Survivability SME Team;
          <bullet> Material Movement SME Team;
          <bullet> Sortie Generation Cross Functional Team;
          <bullet> Weight & Stability Cross Functional Team; and
          <bullet> Manpower Reduction Cross Functional Team.
    The teams performed an assessment of each technology or design 
feature within their area of responsibility to evaluate affordability, 
schedule risk, contribution to warfighting capability, and impact on 
ship's manpower, weight, stability, and support systems. In addition, 
the cross functional teams summarized the combined impacts on weight 
and stability, manpower, and sortie generation rate resulting from the 
total package of technologies/design concepts that were recommended. 
These evaluations were uniformly conducted and documented according to 
guidance prepared by the program office. Over 100 participants 
representing 12 different organizations, including industry, the 
science and technology community, fleet representatives, and other Navy 
organizations participated in this effort.
    In the second step of the process, team recommendations were 
considered by the Concept Ship Executive Panel (CSEP). The CSEP was 
chaired by the Program Manager and included representatives from the 
Navy staff (N785--Head, Aircraft Carrier Programs), the Naval Sea 
Systems Command, the Naval Air Systems Command, the Office of Naval 
Research, and the Fleet. The CSEP considered the team proposals and, 
taking into account total ship impact, risk, and the cost/benefit 
analyses, recommended the CVN-21 concept ship for consideration by the 
Program Executive Office (PEO) for Carriers. PEO Carriers concurrence 
with the concept ship constituted the third step in the process.
    Following PEO Carriers concurrence, the program office tasked 
Northrop Grumman Newport News (NGNN) with transforming the concept ship 
into a preliminary ship design. During this on-going process, NGNN, 
with appropriate participation by the Government, is refining and 
iterating the original concepts into workable designs that can be 
effectively integrated into the ship and meet operational requirements.
    Question. Was this based on the results of a process reengineering 
study?
    Answer. No. Processes currently in place for CVNX-1 are being 
utilized for CVN-21.

                        CVN-77 Aircraft Carrier

    Question. The CVN-77, also known as the George H.W. BUSH, is to be 
the final ship of the CVN-68 NIMITZ Class aircraft carriers. The fiscal 
year 2004 budget request includes approximately $1.2 billion in 
procurement funds and $311 million in Research, Development, Test and 
Evaluation funds for the CVN-77.
    In fiscal year 2003, this Committee raised concerns about the 
Navy's decision to use legacy technology; especially the multi-function 
radar and volume search radar, rather than advancing technology for the 
CVN-77 as planned.
    The Congress eventually provided an additional $90 million above 
the budget request in 2003 to advance ``potentially transformation 
technologies'' for the CVN-77. What are your plans for the expenditure 
of these funds?
    Answer. As noted in the CVN-77 fiscal year 2003 Report to Congress 
dated February 15, 2003, the Navy held meetings with industry and 
government participating acquisition managers to investigate the 
following potential technology candidates:
          <bullet> Full Service Integrated Networks--Wireless ICAN 
        applications;
          <bullet> Integrated Advanced Strike And Mission Planning 
        Capabilities--SESS Information Operations Center (SIOC) 
        Integration;
          <bullet> Full Service Integrated Networks--Radio Room 
        Automation;
          <bullet> Common Flexible Island--Mast Clamp Current Probe;
          <bullet> Common Flexible Island--Composite Mast;
          <bullet> Multi-Modal Display Workstation & Integrated 
        Advanced Strike And Mission Planning Capabilities--CV-TSC 
        Technologies;
          <bullet> Integrated Advanced Strike And Mission Planning 
        Capabilities--Naval Strike Warfare Planning Center (NSWPC) 
        Ready Room Technologies; and
          <bullet> Integrated Advanced Strike And Mission Planning 
        Capabilities--Joint Fires Network (JFN) and Naval Strike 
        Warfare Planning Center (NSWPC) Integration.
    The Navy has further evaluated the specified technologies based on 
refined cost estimates, execution plans, risk plans, and a more 
detailed assessment of ship construction schedule impact. The following 
technologies are being pursued for implementation on CVN-77:
          <bullet> Full Service Integrated Networks--Radio Room 
        Automation;
          <bullet> Common Flexible Island--Mast Clamp Current Probe;
          <bullet> Common Flexible Island--Composite Mast;
          <bullet> Multi-Modal Display Workstation & Integrated 
        Advanced Strike And Mission Planning Capabilities--CV-TSC 
        Technologies;
          <bullet> Integrated Advanced Strike And Mission Planning 
        Capabilities--NSWPC Ready Room Technologies; and
          <bullet> Integrated Advanced Strike And Mission Planning 
        Capabilities--JFN and NSWPC Integration.
    Question. Will these be technologies that could be transitioned to 
the CVN-21?
    Answer. Any transformational technologies incorporated into CVN-77 
will be included in the CVN-21 concept.

                        DD(X) Destroyer Program

    Question. The Navy is continuing its development of the DD(X), the 
transformational destroyer program.
    Please provide a brief description of the capabilities you envision 
for this new destroyer.
    Answer. DD(X) is the centerpiece of a family of ships that will 
deliver a broad range of core capabilities to the Fleet. DD(X) will 
provide a baseline for spiral technology and engineering development to 
support a range of future surface ships including the Littoral Combat 
Ship (LCS) and the next generation cruiser, CG (X) .
    DD(X) is a multi-mission surface combatant tailored to be the 
primary family of ships provider for volume fires and precision strike. 
Armed with an array of land-attack weapons including the Long Range 
Land Attack Projectile fired from the Advanced Gun System (AGS) and 
Tactical Tomahawk, DD(X) will provide persistent, distributed, long-
range, precision attack needed in support of Marine Corps' future 
expeditionary operations in the littorals and for our joint forces 
operating deep inland. DD(X) is a critical enabler for the Navy's Sea 
Strike vision, which includes the Marine Corps' Expeditionary Maneuver 
Warfare, Ship-to-Objective Maneuver, and Operational Maneuver From the 
Sea concepts.
    DD(X) will take advantage of advanced stealth technologies to be 
less detectable and less vulnerable to enemy attacks than the ships it 
will replace. A tumblehome hull form combined with an integrated 
deckhouse and apertures will significantly reduce radar cross-section 
and infrared signatures. An enhanced soft kill capability, including 
the latest in countermeasure technology, such as NULKA and TORCH 
enhanced by precise infrared and radar detection capabilities, will 
improve survivability in any combat environment. DD(X)'s active and 
passive sensors and countermeasures will force foes to close to much 
closer ranges allowing the robust combat systems more time to engage 
and kill targets.
    An open architecture, distributed combat system will support a 
``plug and play'' environment in which to operate AGS, an Advanced 
Vertical Launching System (VLS) and a Multi-Function Radar/Volume 
Search Radar (MFR/VSR) suite. With counter-fire target acquisition 
capability, MFR/VSR will significantly enhance the survivability of 
maneuver forces and indirect fire assets operating ashore. In addition 
to anti-air weapons, such as the Evolved Sea Sparrow Missile and 
Standard Missile, the Advanced VLS will house land attack missiles and 
will have the capability to carry and launch missiles to support a 
Ballistic Missile Defense mission. With a fully netted command, 
control, communications, computers, and intelligence (C4I) capability 
including Cooperative Engagement Capability, the remote launch of DD(X) 
missiles by another unit will be possible.
    DD (X) will have an Integrated Undersea Warfare (IUSW) Suite. This 
bifocal sonar system, coupled with an embarked air detachment will make 
DD(X) the most capable blue water USW platform afloat. Augmented by an 
integrated organic mine-avoidance system, DD(X) will be able to operate 
in any battlespace. Advanced hull materials coupled with rafting of 
main engineering components and the latest in hull treatments will 
ensure DD(X) is the quietest and most magnetically stealthy combatant 
afloat.
    Other significant DD(X) features include an Integrated Power System 
to allow rapid reconfiguration of power, reduced acoustic noise and a 
spiral to rail gun and the potential for directed-energy weapons aboard 
CG(X).
    Question. What are the major technological issues that must be 
resolved with respect to the development of the DD(X) and do you 
believe you have a plan to successfully address these issues?
    Answer. The major technological challenge with respect the 
development of the DD(X) is the concurrent design, build test of the 
ten Engineering Development Models (EDMs) listed below:
          <bullet> Advanced Gun System.
          <bullet> Integrated Power System.
          <bullet> Dual Band Radar.
          <bullet> Total Ship Computing Environment.
          <bullet> Peripheral Vertical Launching System.
          <bullet> Integrated Deckhouse & Apertures.
          <bullet> Autonomic Fire Suppression System.
          <bullet> Infrared Mockups.
          <bullet> Hull Form Scale Model.
          <bullet> Integrated Undersea Warfare System.
    There is a plan in place that includes extensive land at-sea 
testing of the EDMs as part of a comprehensive risk mitigation approach 
to be performed within the scope of the DD(X) design agent contract 
(fiscal years 2002-2005). Using the spiral development approach, the 
test plan will allow the DD(X) program to manage risk through test 
demonstrations that provide continuous feedback to the DD(X) system 
design.
    Question. What are the major design issues that must be resolved 
with respect to the development of the DD(X) and do you believe you 
have a plan to successfully address these issues?
    Answer. The major design challenge is associated with integration 
activities. Signatures, human system integration, electromagnetic 
interference and compatibility, damage control automation, and Cost As 
an Independent Variable (CAIV) are examples of interrelated design 
attributes. The plan being executed is the development of the ship 
design through a total ship system design process, with iterative 
baselines established for critical analysis. The process yields a 
design at pre-established decision points that is balanced to maximize 
achieving a total ship performance within the CAIV goal. The resulting 
design can be further iterated through trade studies to analyze a 
requirements change or to optimize priority performance in a given 
mission area. The discipline of the process and flexibility allowed by 
the process tools are key to the successful design cycle process.
    The composition of the Design Agent Team is another key to the 
successful design process. The Team contains both shipbuilders 
(Northrop Grumman Ship Systems, Pascagoula, MS, and Bath Iron Works, 
Bath, ME), and a National Team that includes Raytheon, Lockheed Martin, 
Boeing, United Defense Limited Partnership, and Northrop Grumman 
Information Technology.
    Question. The Navy is proposing a spiral development approach to 
the DD(X), which in itself is rather ``transformational.'' Is this a 
spiral development plan that meets the criteria established by 
Secretary Aldridge? One of the challenges of managing a spiral 
development program is having a solid test and evaluation plan that 
allows sufficient testing at the end of each spiral based on a approved 
set of criteria. Do you have a test and evaluation plan?
    Answer. The DD(X) spiral development approach was approved by 
Secretary Aldridge when the DD21 Program was restructured to DD(X) in 
November 2001.
    The DD(X) Test and Evaluation Master Plan is under development and 
being engineered to specifically address evaluation of the DD(X) Flight 
I baseline. There is an extensive series of lower level engineering 
systems tests that are pre-cursors to land and at-sea tests planned to 
demonstrate ship system performance. These risk mitigation activities 
will precede equipment production and ship construction. This includes 
testing of the Dual Band Radar, Integrated Power System and Total Ship 
Computing Environment on the EX-RADFORD.
    Question. One controversial aspect of the DD(X) is the funding of 
the first ship through the RDT&E appropriation in fiscal year 2005, 
rather than the traditional approach of funding the lead ship of any 
class in the Shipbuilding and Conversion appropriation.
    What is the rationale for this funding proposal?
    Answer. The rationale for funding the first DD(X) Class ship with 
RDT&E funding is that it allows the program to more easily address the 
inherent technical and integration challenges of a lead ship through 
the use of annual funding while maximizing technology benefits in the 
shortest time period. In addition, the use of RDT&E funding minimizes 
prior year shipbuilding bills, which has been a Navy and Congressional 
concern in recent years.
    Question. Considering this is a spiral development approach, it is 
possible that the design and weapons capabilities will not be solid by 
fiscal year 2006 when you anticipate procurement of the second ship.
    Will you have sufficient information on the design and capabilities 
to go forward with procurement just one year after initiating the R&D 
ship?
    Answer. The design and capabilities of the first Flight will be 
solid before construction begins on the first ship. The second ship is 
planned to succeed the first ship by one year. The engineering data 
package that supports the first ship construction is the same 
engineering data package that supports the construction of the second 
ship. Both shipbuilders will be involved in the ship design and will 
utilize the same 3-D CAD/CAM system to minimize design issues and the 
transfer of manufacturing data.

                        DDG-51 Destroyer Program

    Question. During discussions last year, the Navy stated its intent 
to procure one, and the last, DDG-51 in fiscal year 2006. The fiscal 
year 2004 budget request now shows no DDG-51 acquisition in fiscal year 
2006.
    Please tell us why this additional DDG-51 vessel is not going to be 
procured in fiscal year 2006.
    Answer. In order to transform to meet future threats, the Navy must 
move toward DD(X) as soon as feasible. By concluding the procurement of 
DDG-51 Class ships in fiscal year 2005 and reallocating funding to 
DD(X), Navy was able to add a DD (X) in fiscal year 2006 and fiscal 
year 2007 in its fiscal year 2004 budget request, two more than the 
fiscal year 2003 request.
    Question. Since the follow-on to the DDG-51 is the DD(X), do you 
anticipate that should the DD(X) schedule slip, you would seek an 
additional DDG-51 in the 2006 budget?
    Answer. The DD(X) program is on schedule to begin procurement in 
fiscal year 2005, no slippage is anticipated. Navy is committed to 
maintaining a robust shipbuilding program. Recapitalization 
requirements and industrial base health will be taken into 
consideration in the formulation of future shipbuilding program budgets 
as necessary.
    Question. Without this additional one ship in 2006, what is the 
anticipated impact on shipyard workload?
    Answer. Loss of the fiscal year 2006 DDG-51 Class ship has an 
adverse impact on the Surface Combatant industrial base workload. 
Surface combatant procurements have averaged three ships per year since 
the mid-1990s. The fiscal year 2004 President's Budget shipbuilding 
plan sustains surface combatant production at a minimum of one ship per 
year during the transition from the DDG-51 Class to the DD(X) class. 
However, this will result in a surface combatant production gap in 
fiscal year 2006 or fiscal year 2007 at both General Dynamics Bath Iron 
Works and Northrop Grumman Ship Systems (NGSS). Specific shipyard 
impacts will vary, depending on workload projections at each yard. A 
critical variable is award of the DD(X) lead-ship production contract 
in fiscal year 2005, and ramp up of continuous, follow ship DD(X) 
production in fiscal year 2006 and out. Regardless, additional work 
will be needed to sustain each yard during the fiscal year 2006-07 
transition period.
    NGSS has ongoing, concurrent production for LPD 17 Class ships, LHD 
8, and startup of the LHA(R) shipbuilding program during the DDG-DD(X) 
transition period. NGSS will also be initiating production for the 
Coast Guard Deepwater Program during this same time frame. The lack of 
the fiscal year 2006 DDG will have an adverse impact at this shipyard, 
potentially increasing costs due to higher overhead rates, production 
inefficiencies, and cost increases to sustain critical second tier 
vendors.
    Bath Iron Works (BIW) has no other concurrent shipbuilding work 
beyond their existing DDG-51 production workload during the planned 
transition from DDG to DD(X) production. Should BIW not be awarded the 
lead DD(X) production contract, the lack of the fiscal year 2006 DDG 
will make the transition to DD(X) follow-on construction more costly to 
the Navy.
    As a part of the DDG-LPD workload swap, the first three of four 
ships were ``swapped'' as a part of the award process for the fiscal 
year 2002 DDG multiyear procurement. This was in accordance with the 
LPD/DDG workload realignment Memorandum of Understanding (MOU) signed 
in June 2002. Per the MOU, BIW is entitled to the equivalent workload 
of one DDG at some future date, pending award of LPD-28 to NGSS. Loss 
of the fiscal year 2006 DDG may transition this workload swap agreement 
to the DD(X) program and could affect the Navy's future production 
planning for DD(X).

            Virginia Class Submarine--Multiyear Procurement

    Question. The fiscal year 2004 budget request includes 
approximately $2.6 billion for the VIRGINIA Class submarine program. Of 
this amount, $2.5 billion is for procurement and $106 million is for 
R&D. The budget request also includes a request for a 7-ship multi-year 
procurement for fiscal years 2004 through 2008.
    Does this program meet all the criteria for a multi-year 
procurement decision?
    Answer. The VIRGINIA Program meets all United States Code Title 10 
conditions for multi-year procurement (MYP).
    a. Substantial savings: $805 million for seven ships ($115 million 
per ship).
    b. Stability of Requirement: VIRGINIA Class is necessary to achieve 
and maintain required SSN force level, ensure continuous US undersea 
superiority, and provide a highly capable and flexible SSN for the 
future. The Program is planned for 30 ships.
    c. Stability of Funding: The Navy gives VIRGINIA Class program high 
priority, and the Department is committed to fund this MYP throughout 
the contract period.
    d. Stability of Configuration/Design: VIRGINIA design is 
essentially complete; design changes are the lowest in submarine 
construction history; major key events have been met; and early 
testing, including evaluation by Commander, Operational Test and 
Evaluation Force (COMOPTEVFOR) during OT-IIB, provides high confidence 
that the ship and systems will perform as required.
    e. Realistic cost estimates: VIRGINIA cost estimates are realistic 
as they are based on actual returns from the first four ships. The 
first ship is 82% complete.
    f. National Security need: VIRGINIA Class', role in national 
security is documented in Quadrennial Defense Review and Joint Chiefs 
of Staff studies.
    Question. With a June 2004 delivery date for the first boat, it is 
not likely that even one of the submarines will be operational before 
Congress will have to make a determination on proceeding with this 
multi-year procurement request. If this multi-year procurement is 
approved, will the Congress be setting a precedent for committing to a 
multi-year acquisition program prior to fielding the first system?
    Answer. Authorization for multi-year procurement of VIRGINIA Class 
submarines would be earlier than in the Navy's other multi-year 
procurement shipbuilding program, DDG-51. However, the VIRGINIA Class 
design is 100 percent complete and construction of the lead submarine 
is more than 82 percent complete. We have enough information to 
effectively price and evaluate a multi-year contract.
    A multi-year procurement is the most cost effective way to buy 
those submarines. Additionally, it creates industrial base stability, 
ensuring that efficiencies and saving are optimized.
    Question. What are the estimated cost savings of this multi-year 
procurement proposal?
    Answer. The estimated savings are $805 million for seven submarines 
(at least $115 million per ship) procured in fiscal years 2004-2008. 
The savings assume continued shipbuilder teaming and use of Economic 
Ordering Quantity funds for material purchases.
    Question. What would be the impact on your fiscal year 2004 request 
if Congress does not approve the proposal?
    Answer. The below table provides the funding changes to the fiscal 
year 2004 budget request:

----------------------------------------------------------------------------------------------------------------
                      FY                           FY04          FY05          FY06         FY07         FY08
----------------------------------------------------------------------------------------------------------------
Quantity PB-04 Request (Multiyear)...........            1             1             1            2            2
Restore Multi-year Savings...................         (115)         (115)        (115)        (230)        (230)
Reallocate FY04 EOQ..........................          390           (65)         (65)        (130)        (130)
Reallocate FY05 EOQ..........................  ............          390          (78)        (156)        (156)
Reallocate FY06 EOQ..........................  ............  ............          195         (97)         (97)
                                              ------------------------------------------------------------------
    Net Change...............................          275           210          (63)        (613)        (613)
----------------------------------------------------------------------------------------------------------------
Numbers in parenthesis () represent shortfalls to budget.

    Question. Since the plan is a total of 30 submarines of this class, 
what is the logic of a 7-ship multi-year request?
    Answer. Navy's minimum requirement for SSN force structure is 55 
submarines. In order to sustain this level, it is essential to increase 
VIRGINIA SSN build rate to two submarines per year as soon as possible. 
Due to advance procurement requirements for long lead-time material, 
the earliest opportunity to increase the build rate to two SSNs/year is 
FY2007. While a multi-year procurement of five SSNs (i.e., one per 
year) would still reap savings over annual procurements, SSN force 
levels could not be maintained at 55 over the long-term. Additionally, 
while a multi-year contract for five SSNs with options to buy two more 
would also result in significant savings over annual procurements, the 
shipbuilder could not procure Economic Order Quantity (EOQ) materials 
for the option ships, reducing the savings possible for these SSNs.

                Virginia Class Submarine--Cost Overruns

    Question. Recent press articles as well as statements from senior 
DoD officials, point to a serious problem with VIRGINIA Class submarine 
cost overruns.
    What is the current estimate of the total program cost growth and 
what is the genesis for these overruns?
    Answer. The VIRGINIA Class 30-ship program cost estimate is 
$64,747.5 million (Base Year FY95 Dollars) or $81,792.2 million (Then 
Year Dollars). This reflects a Procurement Acquisition Unit Cost 
increase from $1739.4 million to $2158.3 million (Base Year FY95 
Dollars) or 24% since the last Acquisition Program Baseline (APB) in 
December 2000. The major changes reflected in the revised cost baseline 
include:
          <bullet> Labor and material costs have risen because of 
        higher than expected inflation. DoD inflation projections were 
        in the 1-2% range, whereas actual experience is in the 4.0-4.5% 
        range.
          <bullet> Pensions and health care costs are increasing 
        contractor overhead costs. This pattern is consistent with what 
        is being experienced in the economy in general.
          <bullet> The continued low rate of submarine production has 
        led to a shrinking vendor base and higher material costs. 
        Vendors are requiring a premium for highly specialized 
        equipment with no other military or commercial applications.
          <bullet> Changes to cost estimates based on cost returns from 
        the first four ships under construction, which indicated that 
        actual labor hour and material costs are slightly higher than 
        originally estimated.
    There are two components of cost growth. First, there is real 
growth in material, labor, overhead, and worker benefits that has 
occurred since the December 2000 baseline (19%). This component is 
reduced by 7% for multi-year savings for a net cost growth of 12%. 
Second, there is another component of growth due to different 
escalation and de-escalation calculations in the 2000 baseline (12%). 
This component arises because, in the 2000 baseline, the cost of ships 
outside the Future Years Defense Program (FYDP) were escalated and de-
escalated at OSD-approved indices whereas, in the 2002 APB update, 
these ships were escalated based on best available labor and material 
escalation information and de-escalated at OSD-approved indices thus 
artificially inflating program cost growth. The two components are real 
bills that DoD must pay. However, it is misleading to characterize the 
total 24% as new cost growth over the last two years of the program.
    The new estimate reflects DoD's current policy to accurately price 
programs using realistic cost data and realistic inflation assumptions. 
The four VIRGINIA Class submarines now under contract are progressing 
according to schedules established eight years ago, and the lead ship 
is expected to be delivered to the Navy a month early.
    Question. Given the history of cost overruns in the Navy 
shipbuilding program, why should this Committee believe that all the 
cost growth has been identified--can you be certain we will not be 
surprised with yet another cost growth in this program?
    Answer. The VIRGINIA Class Program Office and Navy acquisition 
officials are aggressively challenging any cost increases while 
pursuing strategies to achieve the lowest possible future costs. 
Shortfall areas associated with designing a new class of submarine will 
not affect future contracts since this effort is essentially complete. 
The Navy is structuring the follow-on construction contract (for the 
next five to seven submarines) as a fixed-price incentive contract to 
incentivize construction savings. Additionally, the Navy has requested 
authority to transition to a multi-year contract with economic order 
quantity (EOQ) provisions in fiscal year 2004, which will reduce costs 
through greater shipyard efficiency and authority to purchase material 
in larger quantities. Finally, the fiscal year 2004 President's Budget 
request plans to increase the submarine build rate in fiscal year 2007 
and beyond to preserve the submarine force structure necessary for 
continuing U.S. undersea dominance. The increased build rate will 
contribute significantly toward reducing per-unit costs by reducing 
overhead costs.
    Question. Recent press articles as well as statements from senior 
DoD officials, point to a serious problem with VIRGINIA Class submarine 
cost overruns.
    What are the Navy's options for controlling cost of this program? 
One option the Navy may be pursuing is to buy more submarines and 
therefore reduce the cost per vessel; another option is to reduce the 
total buy, thereby reducing the total cost of the program. What would 
be the impact on the Navy's force structure if it built fewer VIRGINIA 
Class submarines?
    Answer. Current SSN force level is 54. The 2001 Quadrennial Defense 
Review (QDR) sets the moderate risk level SSN force level at 55. The 
1999 Chairman, Joint Chiefs of Staff (CJCS) Study reached the 
conclusion that fewer than 55 attack submarines in 2015 and fewer than 
62 in 2025 would leave Combatant Commanders with insufficient 
capability to respond to urgent crucial demand without gapping other 
requirements of high national interest. Additional Navy studies since 
1999 have identified the minimum warfighting requirement of SSNs as 55.
    Current SSN force level is inadequate to meet current Combatant 
Commander demands. For calendar year 2003, Combatant Commanders have 
requested between 14 and 15 deployed SSNs for National and Combatant 
Commander ISR, Tomahawk strike, Carrier Battle Group support, and 
Special Operations Force-equipped SSN missions. Considering 
sustainability and training requirements, the Navy is able to sustain 
10 SSNs deployed with the current force level.
    If the VIRGINIA build rate were to remain at 1 per year, 
(considered the minimum rate to maintain supplier and industrial base) 
and the Program of Record plan to refuel five LOS ANGELES Class SSNs is 
maintained, SSN force level would reach 55 in 2008, but decrease to 54 
by 2015, 46 by 2017, and 36 by 2025. The rapid decrease is due to the 
retirement of the LOS ANGELES Class SSNs as they reach the end of hull 
life.
    Question. Have you explored the option of terminating this program 
after construction of submarines currently under contract and pursuing 
other submarine construction options?
    Answer. Termination of the VIRGINIA Class program after the current 
contract and investigation of other submarine construction options has 
not been pursued. There are no ``off the-shelf '' submarine designs 
that would satisfy U.S. submarine mission requirements that could be 
built at a lower cost than the VIRGINIA Class. The VIRGINIA Class 
submarine was designed to meet the security requirements of the post-
Cold War era while minimizing submarine procurement and life-cycle 
costs. With a focus on the littoral battlespace, VIRGINIA Class is 
designed for flexibility in responding to changing missions and 
threats. Its modular design, which allows for affordable insertion of 
new technologies, ensures it will continue to be the right submarine 
well into the 21st century.
    Question. What would be the cost of the program termination after 
construction of SSN 777, which is scheduled for a December 2007 
delivery?
    Answer. There have been no estimates made of the cost to terminate 
the VIRGINIA Class program. In 1994, following the termination of the 
SEAWOLF program, RAND published ``The U.S. Submarine Production Base: 
An Analysis of Cost, Schedule, and Risk for Selected Force 
Structures''. The 1994 RAND report estimated the indirect costs of 
stopping and later restarting submarine production at nearly $3B 
(FY1992 dollars). This figure included shutdown, cumulative 
maintenance, shipyard restart and vendor restart costs.
    Question. What is the total life cycle cost of a VIRGINIA Class 
submarine and how does that compare to other classes of submarines in 
the Fleet?
    Answer. For the 30-ship VIRGINIA Class, using fiscal year 1995 
(base year) dollars, Total Acquisition Cost of $64,747.5 million (per 
APB Change 3, 4/02/03) plus Operating and Support Cost of $31,343.0 
million (per Selected Acquisition Report, 12/31/02) yields Total Life 
Cycle Cost = $96,090 million. Total life cycle cost for one VIRGINIA 
Class submarine is $3,203 million.
    Because of the significant differences in submarine class sizes, 
direct comparisons of life cycle costs are tenuous. For example, the 62 
LOS ANGELES Class SSNs have lower support costs per ship because 
support costs are spread over twice as many submarines as the VIRGINIA 
Class. Additionally, the VIRGINIA Class estimate accounts for the 
addition of significant new systems and capabilities (such as Vertical 
Missile Launch, Advanced SEAL Delivery Vehicle and Dry Deck Shelter, 
Under-Ice Capability, and Special Hull Treatment) that are not 
accounted for in the LOS ANGELES estimate. Given these significant 
differences, the best available estimates of average annual operating 
and support costs (per ship, in fiscal year 1995 base, year dollars) 
for the VIRGINIA Class and the LOS ANGELES class are $35 million and 
$26 million, respectively.

                Ballistic Missile Defense System Weapons

    Question. One element of the Midcourse Defense Segment of the 
Ballistic Missile Defense system (BMDS) is the AEGIS BMD program. This 
system is intended to defend against exo-atmospheric short-range 
ballistic missiles (SRBMs) and Intermediate Range Ballistic Missiles 
(IRBMs) in the terminal and midcourse phases. The system uses the AEGIS 
Weapons System with the Navy Standard Missile serving as the 
interceptor.
    Please explain the program or agreement between the Missile Defense 
Agency and the Navy under which you provide access to the ship(s) that 
MDA needs to support the AEGIS BMD program.
    Answer. The Navy is in process of assigning USS LAKE ERIE (CG-70) 
to the Missile Defense Agency (MDA) as a dedicated ballistic missile 
defense testing platform. This action allows the MDA testing program to 
avoid the delay and expense that would be involved in modifying an 
older Aegis-equipped cruiser to accomplish the testing mission and it 
demonstrates Navy's firm commitment to missile defense as a core 
mission. OSD concurred and directed this action. OSD also directed MDA 
to procure Standard Missile-3 missiles and Ballistic Missile Defense 
(BMD) upgrade ship sets to facilitate an early deployment of Navy 
missile defense capability. A Memorandum of Understanding is currently 
in staffing which will stipulate the LAKE ERIE cost sharing 
arrangement, administrative actions, and other operational details 
between Navy and the MDA. We expect the actual ship assignment to occur 
this summer.
    Question. The Committee understands that one AEGIS cruiser is under 
the control of the Missile Defense Agency for purposes of the Ballistic 
Missile Defense System test bed. Please explain what ``control'' means 
in this case.
    Answer. MDA control means that the ship's schedule and operations 
will be dedicated to MDA sponsored ballistic missile defense testing. A 
Memorandum of Understanding is currently in staffing with MDA and will 
stipulate the LAKE ERIE cost sharing arrangement, administrative 
actions, and other operational details between Navy and the MDA.
    Question If an AEGIS class ship serves in the AEGIS BMD program, is 
the ship also available for other surface combatant missions? Please 
explain why or why not.
    Answer. Aegis-equipped ships are multi-purpose platforms and are 
capable of multi-tasking. The extent to which multi-mission tasking 
would be possible will depend upon the specific geographical position 
and combat system set-up required by the specific mission. We 
anticipate that the multi-purpose employment of an Aegis-equipped ship 
will remain unchanged by this new mission.
    Question. The Committee understands the Navy is considering 
deployment of a stand-alone strike group of missile defense ships as 
early as next year. Please explain the Navy's plans and how they fit 
into the Missile Defense Agency AEGIS BMD program.
    Answer. The concept of a Missile Defense Strike Group is consistent 
with the President's December 2002 decision to field an initial 
operating capability for sea-based Missile Defense not later than 2005, 
and with Navy's SEA POWER 21 vision for the future. However, the 
planning for deployment of such a group remains at an embryonic stage. 
Commander, Fleet Forces Command has been tasked to undertake this 
conceptual work and will report the results to me this summer. The 
requested information will be provided as soon as it becomes available.
    Question. Does the Missile Defense Agency budget request for fiscal 
year 2004 fully fund the AEGIS BMD program? Has the Navy requested 
funds in the fiscal year 2004 budget to supplement the MDA request? If 
so what requirements are funded in the Navy budget request.
    Answer. It is the Navy's understanding that the Missile Defense 
Agency has fully funded the Block 04 Initial Defensive Operations 
Capability of the Aegis BMD program element. As this program is 
currently technology-paced, Navy does not request funds to supplement 
the MDA request. Such action should occur, if required, in MDA's area 
of responsibility.
    Question. The Committee understands there are technical issues 
concerning attitude control on the SM-3 missile. Please explain the 
technical challenges you face, and whether you believe this will affect 
the Missile Defense Agency's ability to deploy the AEGIS BMD system.
    Answer. The issues involving the Solid Divert and Attitude Control 
System (SDACS) in the SM-3 missile are related to manufacturing and 
production, rather than hit-to-kill technology. The current SDACS 
design utilizes rhenium, an exotic material designed to tolerate the 
high heat flux involved in operating a rocket motor in space. This 
material has proved difficult to weld and fabricate into the intricate 
tubes, ports and passages featured in the current SDACS design. The 
Navy is pursuing an alternative, more tolerant design featuring a 
monolithic casting. This alternative SDACS is easier to manufacture, 
has been successful in ground testing and will be flight-tested in FM-
5, slated to occur this summer. While technical risk certainly is 
extant in the monolithic SDACS design, the current engineering 
assessment is favorable.

             Impact of Operating Tempo on Depot Maintenance

    Question. Mr. Secretary, scheduling ship depot maintenance is an 
art form in the best of times, and it must be a real challenge given 
the current operating tempo. How has the ongoing deployment surge and 
combat operating tempo impacted your ability to make ships available 
for the scheduled maintenance periods in this current fiscal year?
    Answer. Based on the Fiscal Year 2004 President's Budget request, 
there are 86 Chief of Naval Operations scheduled ship availabilities 
funded for execution in fiscal year 2003. Nine availabilities have been 
rescheduled to support operations, but they have not been canceled. 
Based on operational assumptions as of March 20, 2003, 11 more 
availabilities are expected to change from the original scheduled 
dates. All but one are expected to execute prior to the end of the 
fiscal year, but some may be reduced in scope.
    Question. The high operating tempo has also increased the need for 
maintenance as ships and airplanes are experiencing greater than 
anticipated use when these assets are returned to their homeports, do 
you expect you will be able to adjust the depot maintenance schedule to 
accomplish the necessary work?
    Answer. Based on the operational schedule as of March 20, 2003, we 
expect to be able to adjust the ship depot maintenance schedules to 
accomplish the necessary work. However, we are projecting that one 
availability scheduled for fiscal year 2003 will need to be performed 
in fiscal year 2004 to support the current operational schedule. We 
will continue to adjust our maintenance plan as the return dates of the 
deployed ships are finalized.
    Aviation depot maintenance is schedule and usage driven. We may 
find additional maintenance on particular airframes and engines is 
required once we induct each plane. The induction schedule has been 
modified and is executable if we receive supplemental funding soon 
(mid-May 2003).
    Question. Will the Navy need supplemental funding in order to 
accomplish increased depot level ship maintenance requirements in the 
current fiscal year? If the ships can be made available and the money 
is there, is the shipyard capacity adequate?
    Answer. Yes, we will need supplemental funding to accomplish 
increased depot-level ship maintenance requirements in fiscal year 2003 
and for the depot-level maintenance that will be required on the ships 
participating in Operation IRAQI FREEDOM that are going into a 
maintenance period in fiscal year 2004. If the ships are available and 
the supplemental funding is provided, we expect the public and private 
shipyards to be able to perform the required work.
    Question. Given the current pace of operations, do you now expect a 
surge in depot work requirements for 2004? Please discuss how you will 
balance deployment requirements and maintenance facility capacity. Will 
additional funding be needed in fiscal year 2004 for this surge?
    Answer. We do expect additional ship depot work requirements for 
fiscal year 2004 as a result of Operation IRAQI FREEDOM (OIF). Based on 
projected operational requirements as of March 20, 2003, we anticipate 
that we will have the capacity at the public and private maintenance 
facilities to perform the work that will be required in fiscal year 
2004.
    Our request for the fiscal year 2003 supplemental included funding 
to perform depot level maintenance on OIF ships. If the fiscal year 
2003 supplemental is adequate and allows for funding to be obligated in 
fiscal year 2004, additional fiscal year 2004 funding is not projected 
at this time. If fiscal year 2003 supplemental funding cannot be used 
in fiscal year 2004 or other higher priority fiscal year 2003 OIF 
issues take precedent, additional funding will be required in fiscal 
year 2004 to cover the increased fiscal year 2004 ship maintenance 
requirement.
    We expect a ``bow wave'' of depot inductions of those aircraft that 
were deployed in support of OIF and couldn't meet their originally 
scheduled inductions. These inductions will be accomplished when the 
aircraft return to the continental United States (CONUS). Additional 
funding should not be needed if supplemental funding is received soon 
(mid-May 2003).

                         Ship Depot Maintenance

    Question. The fiscal year 2004 ship depot maintenance request 
consolidates funding for ship intermediate maintenance into the depot 
maintenance line, and overall funding declines by approximately $300 
million and scheduled availabilities decline from 95 in 2003 to 87 in 
2004 while funding for surface ship depot maintenance declines from 95% 
to 91.6%. In addition, fiscal year 2004 depot operations funding 
declines another $300 million from 2003 levels. Admiral Clark, please 
provide your assessment of the health of the ship depot maintenance 
program.
    Answer. The fiscal year 2004 budgeted amounts reflect the 
acceleration of the retirement of our oldest, most maintenance-
intensive ships and the benefits provided through the fiscal year 2002 
supplemental appropriations. The fiscal year 2004 percent funding is 
consistent with that budgeted for fiscal year 2003 in the fiscal year 
2003 President's budget. Because ships' decommissioning dates were 
advanced from those planned in the fiscal year 2003 budget, maintenance 
funding budgeted for those ships was available to apply to other 
unfunded fiscal year 2003 requirements. This resulted in a higher 
percent funding for the fiscal year 2003 surface ships' maintenance.
    The decrease in the ship depot operations support budget line is 
primarily driven by the $236 million reduction in funding for Naval Sea 
Systems Command ship alteration program and funding for the Supervisor 
of Shipbuilding and Repair. This funding is a parallel reflection of 
the lower ship maintenance account.
    Question. Why have scheduled availabilities been cut?
    Answer. The actual number of scheduled availabilities varies on an 
annual basis based on force structure, operational requirements, and 
the ship class maintenance plan. We were able to reduce the ship 
maintenance funding in fiscal year 2004 while budgeting to fund a 
higher percentage of the requirement for several reasons. The cyclic 
nature of ship maintenance contributed to a lower requirement in fiscal 
year 2004; the requirement was reduced as we accelerated the retirement 
of our oldest, most maintenance-intensive ships; and finally, the 
reduced requirement directly reflects the benefits provided in the 
fiscal year 2002 supplemental appropriations.
    Question. How can the ship depot maintenance program absorb a cut 
of $600 million?
    Answer. The fiscal year 2004 ship maintenance budget supports 96.2% 
of our notional operations and maintenance ship maintenance 
requirements. In fact, this percentage is slightly higher than the 
95.5% funded in the fiscal year 2003 President's budget. We were able 
to reduce ship maintenance funding in fiscal year 2004 while budgeting 
to fund a higher percentage of the requirement for several reasons. The 
cyclic nature of ship maintenance contributed to a lower requirement in 
fiscal year 2004; the requirement was reduced as we accelerated the 
retirement of our oldest, most maintenance-intensive ships; and 
finally, the reduced requirement directly reflects the benefits 
provided in the fiscal year 2002 supplemental appropriations.
    Question. Ship depot maintenance at Puget Sound Naval Shipyard has 
been transferred from the working capital fund and the proposal is that 
it be mission funded. To those of us who are unfamiliar with the 
intricacies of the working capital fund, what does this proposal mean? 
What are the factors that resulted in this decision?
    Answer. Mission funding increases the Fleet's flexibility to 
respond to execution year priorities.
    The primary factors for the shift to mission funding are:
    Responsive to Fleet Needs: Maintenance required to prepare a ship 
for early deployment can be executed by adjusting work priorities. 
Under Navy Working Capital Fund additional funding for emergent work 
must be made available in the execution year.
    Efficient use of Resources: Under Navy Working Capital Fund all 
work must have specific customer funding. At times temporary low depot 
workload has resulted in workers being idle despite ships being 
available that require work. Under mission funding the underutilized 
workforce can be assigned to any required ship maintenance work.
    Facilitates Integration and Consolidation of Maintenance 
Infrastructure within a Region: In some regions, Navy Working Capital 
Funded shipyards and mission funded intermediate maintenance facilities 
exist in close proximity to each other. This difference in funding 
systems inhibits sharing of resources between activities and the 
potential for ``singling up'' infrastructure. Moving the shipyards to 
mission funding facilitates this integration and consolidation.
    Positive Execution Year Financial Controls: Mission funding 
provides direct and positive control of funds during the execution 
year. Under Navy Working Capital Funding execution year costs can vary 
from the planned costs and result in adjustments to the cost of work 
(rates charges) two years in the future.

              Chemical Biological Incident Response Force

    Question. The Marine Corps established the Chemical Biological 
Incident Response Force to provide rapid response to mitigate the 
effects of terrorism including chemical and biological incidents. CBIRF 
units include a total of 373 personnel of which 32 are from the Navy, 1 
from the Army and the balance from the Marine Corps. Elements of the 
CBIRF were deployed in response to the Anthrax contamination discovered 
on Capitol Hill in late 2001.
    An operational requirements document (ORD) has been approved within 
the past year to upgrade CBIRF equipment through the Family of Incident 
Response Systems (FIRS) program.
    Please explain the composition of CBIRF units in terms of both 
manpower and equipment.
    Answer. The present Manpower Table of Organization (T/O) of CBIRF 
is:

Marine Officers                                                       22
Navy Officers.....................................................     7
Army Officers.....................................................     1
Marine Enlisted...................................................   318
Navy Enlisted.....................................................    25
    Total.........................................................   373

    A T/O increase of 98 personnel has been approved to take place 
during FY-04. It will add 4 Marine Officers, 4 Navy Officers, 84 Marine 
Enlisted and 6 Navy Enlisted to the current T/O. Total strength will 
then equal: 471.
    The total dollar value of CBIRF equipment is $22 million. Of this, 
$3 million is purely military equipment used for overseas deployment. 
The balance, $19 million, is response equipment which is roughly 90% 
Commercial-Off-the-Shelf equipment that allows the CBIRF to operate 
autonomously or to operate with other domestic first responders.
    Question. How many CBIRF units are there in the Marine Corps?
    Answer. One. However, the single battalion can provide a full 
response unit to two separate, simultaneous events. The first response 
unit of 125 Marines and Sailors is on one hour alert. It can deploy via 
trucks within one hour of notification. It can be ready for air 
deployment via military commercial aircraft within four hours of 
notification. The second unit will require about 4 hours to move out of 
Indian Head via truck and about 8 hours to be prepared for air 
embarkation.
    Question. How are the CBIRF units incorporated into Marine 
Expeditionary Units (MEUs)? Does each MEU have CBIRF capabilities?
    Answer: The Enhanced MEU NBC (E-NBC) Capability Set is a tailored 
set of over 40 pieces of equipment. This capability set was developed 
based on lessons learned and on CBIRF equipment successes. It provides 
the MEU commander a limited capability to address Weapons of Mass 
Destruction (WMD) and enhances his capability to detect and identify 
Toxic Industrial Chemicals/Toxic Industrial Materials (TICS/TIMs).
    CBIRF elements are not incorporated in the MEUs. CBIRF can provide 
support directly to the MEU if directed. CBIRF, in conjunction with 
Marine Corps Systems Command (MARCORSYSCOM), provides a training 
package on Consequence Management to each MEU prior to its deployment. 
MARCORSYSCOM provides contract personnel to conduct the technical 
training for the equipment that is included in the E-NBC Capability 
Set. CBIRF personnel focus on the tactical employment of these assets.
    In addition, CBIRF provides all the medical training for the MEU 
personnel involved in the NBC mission.
    Question. What are the lessons learned from recent deployments of 
CBIRF? Have these lessons learned been promulgated to other Services?
    Answer. CBIRF has conducted both operational and training 
deployments. The key operational deployments have been in support of 
restoration of the US Capitol office spaces and in support of National 
Special Security Events (NSSEs).
    The key lessons are the requirement for a well balanced, task 
organized, flexible force that can respond to very wide range of 
mission taskings from the incident commander, who is in almost all 
cases, a civilian. While on Capitol Hill, CBIRF conducted biological 
sampling operations, moved 12 tons of contaminated mail and completely 
cleaned out a Senate office. Bio Sampling was a mission CBIRF had 
trained for, although on nowhere near the scale it was executed. The 
other two missions had never been anticipated or trained for. The key 
to success was a balanced force that had the logistics, command and 
control, technical expertise and thorough familiarity with Personal 
Protective Equipment (PPE) and Incident Command System. CBIRF was able 
to meet all civilian PPE and safety requirements dictated by the 
incident commander.
    Subsequent operations have been preposition operations in support 
of security for special events. These have validated CBIRF's basic 
operational concepts but highlighted the need for large numbers of 
personnel trained to enter a contaminated area and then extract 
contaminated victims. In particular, the full response training at the 
Capitol prior to the 2003 State of the Union Address was invaluable in 
demonstrating the mission enhancements gained from pre-positioned 
equipment and personnel.
    We have shared our lessons learned with all those military and 
first responders who attend the EOD and law enforcement seminars we 
conduct quarterly. In addition, we train monthly with local fire and 
EMS organizations and work with the community specific command and 
control structures to insure what we have learned is passed on.
    Finally, we host a monthly Technology Review Board specifically to 
examine lessons learned and seek new technology to assist with the 
mission. Standing members of this board included the National Guard CST 
Equipment/Training Officer, US Coast Guard Strike Team Representatives, 
and local and state first responder agencies.
    Question. The Committee understands that the Marine Corps is 
engaged in an effort to upgrade the equipment used by CBIRF units. 
Please explain the operational requirements for this program.
    Answer. The initial requirements for CBIRF can be found in its 
Operational Requirements Document (ORD) of 1996. Since its inception, 
CBIRF's missions have expanded as the unit matured and new and 
differing threats have emerged. CBIRF, has a new Mission Statement 
signed by the Commandant of the Marine Corps in January 2002. A 
Universal Needs Statement (UNS) was approved in January 2003. The basis 
of the UNS was developed in the CBIRF Research, Development, and 
Acquisition Plan (Approved in November 2002) that provided a detailed 
analysis of the CBIRF mission areas and capabilities that the unit 
needs to be mission effective. The approved UNS identified seven 
mission areas for CBIRF: Reconnaissance, Decontamination, Force 
Protection, Medical, Urban Search and Rescue, C4I, and General Support. 
Informally, force protection has been split into personal protective 
equipment and anti-terrorism force protection. In general, FIRS pursues 
an evolutionary approach, upgrading capabilities with the best 
available technology as threats and missions change or previous systems 
reach the end of their service life.
    Question. What investments are proposed in the fiscal year 2004 
budget request for the Family of Incident Response Systems (FIRS) to 
enhance CBIRF capabilities? Over the Future Years Defense Program 
(FYDP) ?
    Answer. CBIRF has received approval of a force structure increase 
of 98 Marines and Sailors. These personnel will allow CBIRF to increase 
the operational capabilities and endurance of their two Incident 
Response Forces (IRF). A complete set of GOTS and COTS individual 
equipment will be needed for the additional CBIRF members.
    Response time is critical to the effectiveness of CBIRF to react to 
a terrorist incident. To improve deployability, additional investment 
will be applied to procuring additional equipment to have equipment 
staged for force deployment by ground or air. Over the FYDP, a complete 
third set of CBIRF response equipment will be procured to be used for 
operational training. This will allow the two deployable equipment sets 
to be kept at 100 percent operational readiness status. Additionally, 
the airdeployable set will be packaged for transport by military or 
commercial aircraft. This will significantly reduce response time and 
enhance operational readiness. This course of action is based on an 
analysis conducted when CBIRF was brought under the 4th Marine 
Expeditionary Brigade--Anti-Terrorism (4th MEB-AT).
    Deployability and safety will be enhanced with the FY04 procurement 
of specially configured buses that will allow the IRFs to deploy in 
contiguous sub-elements and allow mission planning and briefings to be 
conducted moving to an incident site. Presently, the IRFs are 
transported in box vans, 15 passenger vans, and standard school buses 
that do not have sufficient space for individual response equipment.
    Starting in FY 2004 and continuing over the FYDP, the creation of a 
limited stockpile of scarce consumables and long lead-time items will 
increase CBIRF's operational depth and enhance mission reconstitution 
capabilities. Previous limited resourcing has not sufficiently provided 
equipment depth required for resupply and operational reconstitution. 
The commercial market for some items, such as mask filters and OSHA 
Level A suits, is being overwhelmed by governmental agencies at the 
Federal, state, and local levels. Based on lessons learned from CBIRF's 
response to the anthrax attacks and Operation Nobel Eagle, FIRS will 
move away from the ``just-in-time'' commercial supply paradigm for 
select items to one of ``on-hand-supply'' for operational depth. This 
requires investment in additional equipment.
    Commercial investments in R&D are creating new and improved 
capabilities that enhance the performance of existing technologies. An 
example, the Chem Pro 100 is completing Foreign Comparative Testing 
(FCT). Depending on the outcome of that test, this COTS detector could 
improve CBIRF's reconnaissance mission capability enhancing the 
detection of TICs/TIMs.
    New and improved versions of the CBIRF's existing equipment makes 
CBIRF COTS equipment obsolete. Recapitalization investment must be 
available to take advantage of these technological breakthroughs. For 
example, the improved MultiRAE detector provides additional capability 
and remote sensing. Investment would be used to procure this technology 
thereby improving CBIRFs remote sensing capability. The FIRS program 
office must be in a position to take advantage of rapidly emerging 
technological improvements to recapitalize CBIRF equipment that has 
been in their inventory since 1997.
    The FIRS program office is an active participant with the Technical 
Support Working Group (TSWG) and has resourced a number of efforts that 
are coming into maturity. As these efforts mature, the FIRS program 
office will procure them for CBIRF. In FY 2004, the Chemical Resistant 
Drinking Tube and an improved heat stress calculator should be 
available for procurement.
    Question. What technologies are being pursued to support the FIRS 
program in the Marine Corps Research and Development funding lines?
    Answer. Technologies pursued in the FIRS program line support the 
eight commodity areas defined for Marine Corps Weapons of Mass 
Destruction (WMD) Incident Response Forces: Reconnaissance, 
Decontamination, Medical, Anti-Terrorism Force Protection, Personnel 
Protective Equipment (PPE), Search and Rescue, C4I, and General 
Support. Each project is relatively small, no more than moderate risk, 
and widely coordinated with the Services, Federal Agencies, and 
applicable DoD programs. The Marine Corps has historically resourced 
the CBIRF, now FIRS, RDT&E funding line at a modest level, about $1 
million per year. In fiscal year 2004, FIRS is budgeted to receive $1.9 
million. With such a limited budget, the FIRS program maintains a high 
activity level through teaming and cost sharing.
    In the area of Search and Rescue, FIRS supports the demonstration 
and evaluation of COTS and emerging (TRL 6 or higher) technologies for 
victim location and extraction from a multi-hazard environment, e.g., 
collapsed structure and chemical contamination. These include infrared, 
ultra-violet, acoustic, electromagnetic sensors for assessing 
structural hazards and locating casualties. Additionally, FIRS 
participates with the joint program office, government labs and 
universities for the demonstration and evaluation of robotic systems 
applied to search and rescue.
    In the area of PPE, FIRS participates with the TSWG, Soldier 
Biological Chemical Command (SBCCOM), and NIOSH for the development and 
testing of drinking tubes for commercial positive pressure respirators 
(Self-Contained Breathing Apparatus (SCBA) and Powered Air Purifying 
Respirators (PAPRs)). Additionally, FIRS participates with NAVAIR and 
TSWG in the assessment of respiratory and heat stress loads experienced 
when conducting consequence management related tasks and mission 
profiles and the development of a heat stress calculator for use with 
OSHA Level A and Level B protective postures. Finally, FIRS is 
investigating the effects of breathing high flow rates (up to 115 LPM) 
and toxic industrial chemicals on GOTS and COTS filters in association 
with NIOSH, TSWG, SBCCOM and the commodity area manager (CAM) for 
Individual Protective Equipment. As a side note, CBIRF has served as a 
test unit for both Joint Lightweight Integrated Suite Technology 
(JSLIST) Block 1 Glove and the Joint Service General Purpose Mask 
(JSGPM).
    In the Medical commodity area, FIRS is supporting the initiatives 
of International Task Force 45 (ITF 45) which is chaired by CBIRF. FIRS 
supports the development of a Mass Casualty Ventilation System for use 
with civilian casualties in contaminated environments. Furthermore, 
FIRS supports the collaborative development of a mass casualty training 
protocol with Defense Research and Development Canada and TSWG.
    In the area of General Support, FIRS is supporting the assessment 
of several mobility systems to improve the safety and speed of CBIRF's 
deployment to an incident site and CBIRF's mobility around the hot zone 
of an incident. This includes modified commercial vehicles, all-terrain 
vehicles, and personal transporters. The intent is to increase the 
endurance of the unit by reducing the physical exertion required to 
maintain a high casualty extraction sortie rate.
    In the reconnaissance commodity area, FIRS leverages the DoD 
sponsored Small Business Innovative Research (SBIR) program to pursue 
non immunoassay based biological detection and class based 
identification, individually worn sensors, an improved field analysis 
capability. Current FIRS sponsored SBIR topics include: Individual Bio 
Sensor/Sampler, Multi-TIC Colorimetric Badge, Disposable Chemical 
Detector, Extending the Life of Bio Sensors with Dendrimers, 
Microorganism Imprinted Polymers, Field Chemical Analytical Tool, 
Multi-Mission Chemical Sensor, and MEMS-based Microcantilever Chemical 
Sensor. Although funding for phase I and phase II SBIRs are centrally 
funded and approved by the OSD sponsored SBIR program, FIRS supports 
the program management, technical oversight and transition of the 
programs. FIRS participates in the U.S. Army Chem Bio Defense Tech Base 
program in the topic of Fluorescently Labeled Virus Probes for non-
immunoassay based bacteria detection. FIRS supports the testing of 
lightweight, low cost, COTS and emerging chemiresistive and 
chemicapacitive polymer-based chemical sensors. FIRS supports the 
development of an automated M256 detector kit reader in cooperation 
with SBCCOM. FIRS R&D supports the development of rapid analytical 
methods for field use of Gas Chromatograph/Mass Spectrometer systems.
    In the decontamination area, FIRS supports improvements and seeks 
enhanced capabilities in mass casualty decontamination systems. These 
improvements will increase throughput of civilian ambulatory and non 
ambulatory casualties through the demonstration of COTS and emerging 
systems such as tents, water heating, collection and recycling systems. 
This effort in particular differs significantly from the efforts 
underway in more traditional operating forces. These improvements focus 
on decontamination in an urban environment for civilian casualties with 
a significantly wider age and health range then traditional military 
decontamination systems and procedures are designed.

               Advance Amphibious Assault Vehicle (AAAV)

    Question. The fiscal year 2004 budget request includes $97.9 
million for Procurement, Marine Corps to complete funding for nine 
System Development and Demonstration (SDD) prototypes of the AAAV. The 
fiscal year 2002 Annual Report of the Director, Operational Test and 
Evaluation indicates that amphibious operations testing has been 
repeatedly postponed because of poor performance in Developmental 
Testing relating to ocean operations, and transiting to surf zones. 
Also, operating sequentially on water and on land has not been 
demonstrated. Once fielded, the AAAV will replace AAV7A1.
    General, please describe the status of the AAAV program. The 
Committee understands that the Marine Corps is presently completing 
System Development and Demonstration (SDD) prototype vehicles that will 
be provided to the Director, Operational Test and Evaluation for 
testing.
    Answer. The AAAV is currently in the Systems Development and 
Demonstration (SDD) acquisition phase (formerly called EMD). The Prime 
Contractor is General Dynamics Amphibious Systems in Woodbridge, 
Virginia. Testing of the three first generation program definition and 
risk reduction (PDRR) prototypes is ongoing. Integration and assembly 
of second generation SDD prototype vehicles began in fiscal year 2002 
and is ongoing. An operational assessment with four prototype vehicles 
is scheduled for early fiscal year 2005 to support the Milestone (MS) 
C, Low Rate Initial Production (LRIP) decision planned for September 
2005. The AAAV program is on schedule and within budget.
    Question. What are the results of AAAV testing so far?
    Answer. Extensive testing of first-generation, program definition 
and risk reduction (PDRR) prototypes continues. Accomplishments to date 
include the following:
    The AAAV PDRR prototypes have performed approximately 4,900 miles 
of land mobility testing (equivalent to nine vehicle years) and 2,270 
hours of water testing including the conduct of operations with the 
amphibious ship USS Anchorage (LSD 36) to execute static and underway 
launches and recoveries from the ship and successful maneuvering within 
the well deck. Firepower testing of PDRR prototypes demonstrated that 
the prototype design met the ORD requirement for accuracy during 
Firepower Developmental Testing. Numerous design changes have been 
incorporated into the second-generation, SDD prototypes to improve the 
AAAV design in the areas of vehicle performance and troop comfort. 
Testing of the SDD prototypes will commence in fiscal year 2003. The 
program is currently on track for demonstrating all land and water 
mobility Key Performance Parameters (KPPs).
    Question. Please comment on the DOT&E 2002 report which indicates 
that the amphibious phase of early operational testing has been 
postponed due to performance of vehicle.
    Answer. After careful consideration, and study of other program 
testing profiles, it was determined that the conduct of an amphibious 
Early Operational Assessment (EOA) on first-generation prototype 
vehicles this early in the program was, not as valuable as performing 
additional developmental testing on the program definition and risk 
reduction assets with second-generation SDD components. Additional 
developmental testing will enable the program to achieve early test 
lessons learned information as it continues to mature the SDD 
components. An operational assessment is planned for fiscal year 2004 
with the more mature, second-generation SDD prototypes. The testing is 
planned to coincide with the completion of the first draft of the 
tactics, techniques, and procedures that are being developed for high 
speed open ocean transport of Marines using AAAVs.
    Question. What specifically will be accomplished with fiscal year 
2004 funding?
    Answer. The fiscal year 2004 funding for the AAAV includes the 
following for PMC and RDT&E:
          <bullet> PMC funding is budgeted for Special Tools (ST) and 
        Special Tools Equipment (STE) in the amount of $97.9 million. 
        The funding will be used to procure from General Dynamics Land 
        Systems (GDLS) and major subcontractors required materials, 
        services, personnel and facilities to design, fabricate, 
        manufacture or procure, and install and proof ST/STE that is 
        unique and specific to the AAAV program. ST/STE will be used to 
        manufacture production AAAVs during Low Rate Initial Production 
        and Full Rate Production phases of the AAAV acquisition 
        program.
          <bullet> RDT&E in the amount of $240.7 million will be used 
        for the following: continued design development, manufacturing 
        planning, and producibility design enhancements of the AAAV(P) 
        and AAAV(C) designs; the AAAV survivability program; 
        fabrication and delivery of SDD prototypes; testing of PDRR and 
        SDD prototypes; development of AAAV training devices and 
        simulators; development of AAAV training courseware; and 
        completion of Ballistic Vulnerability Testing of program 
        definition and risk reduction prototypes.
    Question. What is the fielding plan for the AAAV? How many of these 
vehicles does the Marine Corps plan to acquire and how long will it 
take to replace the AAV7A1?
    Answer. The delivery schedule for AAAV is depicted below with a 
total of 1,013 vehicles. Full operational capability (FOC) is scheduled 
for FY 18.

FY05..............................................................     1
FY06..............................................................     0
FY07..............................................................     9
FY08..............................................................    19
FY09..............................................................    28
FY10..............................................................    75
FY11..............................................................   105
FY12..............................................................   120
FY13..............................................................   120
FY14..............................................................   120
FY15..............................................................   120
FY16..............................................................   120
FY17..............................................................   115
FY18..............................................................    61

                       Lightweight 155MM Howitzer

    Question. The Lightweight 155mm Howitzer (XM 777) is the Marine 
Corps' and the Army's next generation 155mm towed howitzer. It will 
replace the M198 towed artillery piece. The XM 777 weighs about 10,000 
lbs. compared to 16,000 for M198; two can fit into a C-130 aircraft. 
The Marine Corps serves as the DOD lead for developing the gun, and the 
Army leads development of the digital fire control system. The Marine 
Corps budget request includes $111.5 million in fiscal year 2004 to 
procure 60 guns. The decision to approve full rate production is 
scheduled for beginning of fiscal year 2005. The program total includes 
$784.4 million to produce a total of 377 guns.
    General, please describe for the Committee the state of development 
of the Lightweight 155mm Howitzer.
    Answer. The Lightweight 155mm Howitzer (LW155) had a successful 
Milestone C decision last November by the Assistant Secretary of the 
Navy (Research, Development and Acquisition). This decision authorized 
the award of a two-year multi-year contract for the low-rate initial 
production (LRIP) phase. During this LRIP phase the Marine Corps is 
ordering a total of 94 howitzers--34 in FY 2003 and 60 in FY 2004 with 
deliveries commencing about a year after placement of orders. The prime 
contractor is preparing for production and placing orders with their 
suppliers. More than 70 percent of the weapon will be produced in the 
US with final integration and assembly occurring in Hattiesburg, MS. 
The weapon is performing well in the ongoing reliability growth and 
corrosion testing, and we have taken extraordinary steps to integrate 
the testing and production of the basic weapon with the Army funded 
digital fire control effort. After this two-year LRIP phase, we expect 
the Marine Corps and the Army to jointly procure M777A1 howitzers (guns 
with integrated digital fire control). Support for the program is 
strong within both Services and we are nearing completion of an 
agreement which will continue cooperation through production with the 
United Kingdom and Italy.
    Question. One of the main management problems in this program has 
been establishing production facilities in the US to produce 
``production representative guns'' for testing. Have these problems 
been resolved? Please explain.
    Answer. Yes, those issues have been resolved. We have produced two 
pilot production howitzers using the US production facilities. This 
pilot production effort has confirmed the supply chains capability to 
produce the LW155 and extensive testing of these guns has been very 
successful. More than 70 percent of the work content for production 
guns will be accomplished within the US with final integration and 
assembly to occur at Hattiesburg, MS. Low-rate initial production 
howitzers are currently being produced. These fully ``production 
representative'' howitzers will be used for the final operational test 
next summer.
    Question. How is testing proceeding? The Committee understands that 
the weapon has had problems, notably with titanium components used to 
reduce weight. Comment on these problems, and the steps the Marine 
Corps has taken to solve them.
    Answer. Testing has been progressing very well. The fact that the 
program achieved a successful Milestone C is evidence that the design 
is sound and the weapon meets requirements. Prior issues with cracks, 
generally around weld locations in some components (spades, trails, 
travel locks) have been resolved by strengthening those areas and in 
many cases eliminating the welds altogether by using castings. The 
program conducted a rigorous operational assessment (OA) over a 6-8 
week period using both soldiers and Marines and was assessed by 
independent evaluators from both Services. During that OA over 5000 
rounds were fired and the weapon was towed over 1000 miles with no 
evidence of structural failures. Additional structural improvements 
have been incorporated onto the pilot production guns as have more than 
40 castings. These castings have increased the strength of the weapon 
even further by significantly reducing the number of welds. Strength of 
design testing on pilot production weapons was very successful.
    Question. The Committee is aware that the Engineering Manufacturing 
and Design guns used for testing did not incorporate improvements, and 
were not production representative. Have production representative guns 
that incorporate design improvements yet been produced to complete 
testing?
    Answer. Yes. The two pilot production guns that incorporate design 
improvements were built by the actual production team. The first pilot 
production weapon has passed strength of design and accuracy testing 
and is currently undergoing rigorous reliability growth testing at Yuma 
Proving Ground. The second pilot production weapon is being used to 
support the development and integration of the pre-planned product 
improvement digital fire control (known as Towed Artillery Digitization 
or TAD). Low-rate initial production of the howitzer is well under way 
and the initial deliveries in early FY04 will be used for first article 
testing, production qualification testing, and a joint operational test 
to support the full-rate production decision.
    Question. What is the fielding plan for the Lightweight 155mm 
Howitzer in terms of both the number of guns and funding over the 
Future Years Defense Program?
    Answer. The Marine Corps has a requirement for 380 systems and will 
achieve an initial operational capability (IOC) in FY05 and a full 
operational capability (FOC) in FY08. The Marine Corps program is 
funded for 377 systems. The Army has a requirement for 368 systems with 
an IOC in FY06. Currently 227 for the Marine Corps are funded in the 
FYDP.

                                                 BUDGET PROFILE
                                                 ($ in millions)
----------------------------------------------------------------------------------------------------------------
                                        FY03       FY04       FY05       FY06       FY07       FY08       FY09
----------------------------------------------------------------------------------------------------------------
USMC Bud Req.......................       62.0      111.5      175.5      177.1       73.6          0          0
Army Bud Req.......................         --        5.0       51.1      100.7      135.8       59.0        3.6
USMC Quantity......................         34         60        110        120         53          0          0
Army Quantity......................         --         --         27         54         86         37         23
----------------------------------------------------------------------------------------------------------------

    Question. The Marine Corps plans to begin fielding the XM 777 in 
fiscal year 2005, at least one year before the Army completes the 
digital fire control system. Why did the Marine Corps chose to 
incorporate digital fire control as an upgrade to the Lightweight 155mm 
Howitzer rather than including it as part of the initial capability?
    Answer. The Marine Corps already had an urgent need to replace its 
existing, heavy and aging M198 155mm towed howitzers with the 
Lightweight 155mm Howitzer. It is anticipated that the extensive use of 
the M198 in Iraq will further diminish its remaining life making 
replacement with the LW155 even more time critical to avoid significant 
rebuild costs for the M198. The urgent operational requirement to 
deliver a new, more capable artillery system to the fleet as soon as 
possible, even without digital fire control, supersedes any benefits 
from delaying the initial fielding. The weapon has a much longer lead-
time than the digital fire control, and the initial Marine Corps 
weapons will include all of the interfaces necessary to integrate the 
digital fire control at a later date. As a result, when the digital 
fire control becomes available early in FY 2006, retrofit of the 
howitzers already fielded will be rapidly and easily accomplished.
    Question. Is the engineering and design, and mounting hardware 
complete to accommodate the digital fire control system when it becomes 
available?
    Answer. Yes. The engineering and design of the mounting hardware is 
complete and it is currently undergoing tests. The pilot production 
gun, undergoing strenuous reliability growth testing at Yuma Proving 
Ground, has all of the digital fire control hardware on the weapon as 
it is being tested. To date the hardware and its mounting is performing 
superbly.
    Question. Does emplacement time improve on the Lightweight 155mm 
Howitzer with the digital fire control system compared to the initial 
capability which relies on iron sights and traditional methods of 
emplacement?
    Answer. Traditional methods of emplacement require that the battery 
position be prepared with survey. This takes up to 20 minutes before 
the guns arrive in position. Using traditional methods, howitzers must 
be oriented for direction sequentially, which can take another 10-15 
minutes. Finally, it can take 2-3 minutes (included in the overall 10-
15 minutes' time) to emplace each individual LW155 using traditional 
methods (vice 6-7 minutes for the M198). With digital fire control 
there is no requirement for initial survey. Most important, all 
howitzers use their onboard capability to orient simultaneously. This 
allows a battery of six digitally equipped LW155s to emplace in 2-3 
minutes, versus 10-15 minutes without digital fire control. This 
reduced time to be ready to fire can be critically important to troops 
in need of life-saving fire support.

                    Internally Transportable Vehicle

    Question. The Internally Transportable Vehicle (ITV) program was a 
Marine Corps led joint program with the U.S. Special Operations Command 
to field a family of light ground combat vehicles. The vehicle was 
intended to be internally transportable in heavy lift helicopters as 
well as the MV-22 and CV-22.
    Because the vehicle, which was a non-developmental item, was not 
tactically employable, the Marine Corps cancelled the program. Despite 
a valid operational requirements document (ORD), the Marine Corps does 
not have a current program, to replace the aging IFAV attack vehicle.
    What is the status of the Internally Transportable Vehicle program? 
Has the program been terminated?
    Answer. The ITV program is still a valid, active program and is 
currently engaged in Milestone A activities, Concept and Technology 
Development.
    Past ITV candidates pushed the dimensional envelope of V-22 to meet 
the requirements for HMMWV-like ground mobility. Although these ITVs 
fit inside V-22, the fit was too tight and the vehicles were too heavy 
for rapid ingress/egress in combat scenarios. The program was not 
cancelled at that point, but no production contract was awarded. The 
Marine Corps began reviewing and modifying the ITV requirement based on 
the lessons learned from the failed efforts.
    The bottom line with the ITV requirement is that trade-offs are 
required between vehicle size and weight. Smaller, lighter vehicles 
allow for rapid deployability inside a V-22, but deliver less ground 
capability. Larger, more robust vehicles allow for greater payloads/
heavy guns but cannot be internally transported within the V-22.
    Question. Does the Marine Corps have an operational requirements 
document (ORD) to support procurement of the ITV or a similar vehicle?
    Answer. The ITV program is based upon a Joint Operational 
Requirements Document (JORD) written by the Marine Corps Combat 
Development Command (MCCDC). Change 1 to the ITV JORD was signed in 
April of 2000, and Change 2 is expected to be signed in July 2003. The 
ITV requirements seek a mobility platform that is deployable inside the 
V-22 and carries heavy machine guns and a three man crew. The ITV will 
support a variety of missions to include airfield and port seizure, 
Tactical Rescue of Aircraft or Personnel (TRAP), non-combatant 
evacuation operations (NEO), limited objective attacks, and 
reconnaissance and surveillance missions.
    Question. What system(s) will the Marine Corps use in place of the 
cancelled ITV?
    Answer. The Marine Corps has not cancelled the ITV program and will 
continue to pursue a vehicle that is deployable inside the V-22.
    Question. Is the replacement vehicle for the ITV a nondevelopmental 
item?
    Answer. The ITV is currently pursuing a non-developmental 
acquisition strategy. The IFAV pursued a Commercial-Off-The-Shelf 
acquisition strategy.
    Question. Is the alternative to the ITV domestically produced?
    Answer. The ITV requirement is still being revised. No vehicles are 
formally being considered for the program at this time.
    The IFAV was sold to the Marine Corps by Advanced Vehicle Systems 
of Washington, D.C. via the GSA schedule. Fifty-five percent of the 
IFAV is manufactured in Austria and 45 percent is manufactured and 
assembled in America.
    Question. How much funding is included for the ITV replacement in 
the fiscal year 2004 budget request in Procurement? In Research and 
Development?
    Answer. The ITV program has no funding in FY 2004 in Procurement or 
Research and Development lines. The IFAV program has no funding in FY 
2004 in Procurement or Research and Development lines.

                         Modular Weapon System

    Question. The Marine Corps describes the Modular Weapons System 
(MWS) as its highest priority long-term modernization program. The MWS 
will replace the 1980's era M16A2 rifle. This program includes weapon 
modifications such as rails for integration of various optics and laser 
aiming devices. The acquisition objective for this program is just over 
65,000 rifles, of which 1,500 have been thus far fielded.
    What is the fielding plan for the Modular Weapon System?
    Answer. Fielding to 1st and 2nd Marine Divisions will begin this 
month (April 03). Fielding to 3rd and 4th Marine Divisions will begin 
in June 03. Quantity will be 1,500 per month for 12 months. The future 
fielding plan is still under consideration.
    Question. Compared to the Marine Corps' active component strength 
of 175,000 personnel, the plan is to acquire about 65,000 MWS rifles. 
What is the basis for the acquisition objective for this program?
    Answer. The MWS gives the warfighter the ability to mount a wide 
variety of mission-essential accessories to the weapon platform. The 
only Marines that need to be able to mount accessories (or even have 
accessories to mount) are Marines in the Ground Combat Element (GCE) 
and a very few select supporting establishments. Because units outside 
the GCE have neither the accessories to mount nor the need to mount 
accessories, it was decided to procure the MWS only for the GCE at this 
time.
    Question. What is the cost of the Modular Weapon System in the 
fiscal year 2004 budget request? Over the Future Years Defense Program?
    Answer. The price per unit of the M16A4 is below. The M4 carbine is 
undergoing final reliability and endurance testing and is expected to 
be fielded to select units in FY 2004. Projected per unit cost is 
$1000-$1100.

FY03.............................................................$839.19
FY04..............................................................846.06
FY05..............................................................872.94
FY06..............................................................889.70
FY07..............................................................906.15

    FY 2004 MWS FYDP profile ($M*):

FY03..............................................................  23.9
FY04..............................................................  13.7
FY05..............................................................  10.1
FY06..............................................................  10.0
FY07..............................................................   0.1
FY08-09...........................................................     0

* Includes first destination transportation costs.
---------------------------------------------------------------------------

                     Marine Corps Depot Maintenance

    Question. Marine Corps fiscal year 2003 funding for force 
operations depot maintenance is $141 million which addresses 90 percent 
of the stated requirement. The fiscal year 2004 funding declines to 
$122 million, covering only 67% of the requirement.
    General Hagee, why has the Marine Corps reduced depot maintenance 
funding for fiscal year 2004?
    Answer. FY04 depot maintenance funding is not inconsistent with 
prior years. The Marine Corps must balance the competing priorities of 
equipment maintenance, equipment modernization, and infrastructure 
upgrades within a fiscally constrained environment.
    Question. What will be the impact on the work force at the depots?
    Answer. Reduced workload may result in the loss of skilled 
personnel through termination of temporary and term appointments and 
through early retirement incentives. Replacing personnel with 
specialized skills may require significant ramp-up time. However, due 
to external factors (e.g. additional workload and funding that will 
flow to the depots from reconstitution requirements associated with the 
Global War on Terrorism), we believe the probability of the budgeted 
reduction of the personnel to be fairly low. If there were no 
additional funds provided in FY 04, numerous options are available and 
will be pursued prior to instituting any adverse personnel actions.
    Question. How will this reduced funding level impact readiness?
    Answer. While there is no apparent impact to immediate readiness, 
there is risk that equipment readiness in the future will decline if we 
continue to delay repairs. Additionally, by not rotating equipment 
through depot level maintenance, there is also a risk that future 
repairs will cost more.

                       Training Area Encroachment

    Question. In June 2002, GAO reported that DoD lacks a comprehensive 
plan to manage encroachment on training ranges. The GAO reported that 
the Defense Department's own data demonstrate that the military is 
ready to fight and that DoD has not documented to what extent, and at 
what cost, environmental laws affect the military's ability to train.
    To what extent has the Navy separately, or as part of a DoD effort, 
attempted to document the effect of encroachment on the Navy's ability 
to train and at what costs?
    Answer. The Department of the Navy's Federally Funded Research and 
Development Center, the Center for Naval Analyses (CNA), performed 
three studies to help us quantify encroachment impacts.
    In the first study CNA looked at encroachment impacts at the unit 
level. They found that, Navy-wide, SORTS scores (Status of Readiness 
and Training--the standard readiness measuring system used throughout 
DoD) aren't able to capture the effects of the occasional degradation 
in training due to encroachments. Simply put, in light of the myriad of 
parameters and training events that go into Fleet SORTS scores, the 
occasional encroachment on a training event simply doesn't show up. 
However, when CNA looked at individual units training on installations 
with environmental restrictions, they found training readiness scores 
were significantly degraded in particular mission areas.
    Following this look at unit-level impacts, CNA looked at effects of 
encroachment on battle group level exercises that train to the 
operational level of war. Specifically, they looked at the impacts of 
encroachment on the major Fleet exercises known as Fleet Exercise 
(FLEETEX) and Joint Task Force Exercise (JTFEX). They found that 
encroachment on these exercises is not immediately apparent upon 
observing an exercise because the workaround for a specific restriction 
is built into the exercise during the planning process. By following a 
Fleet exercise from its early development stages through actual 
execution, they found several events altered or eliminated during the 
planning cycle as a result of environmental restrictions. CNA also 
found examples where weapons employment during the training exercise 
was inconsistent with employment in wartime due to airspace 
restrictions along the U.S. east coast.
    In the third study, CNA in conjunction with the Office of the 
Deputy Undersecretary of Defense (Readiness), approached the study of 
encroachment from the installation (range) perspective. They focused on 
a particular training range and developed a methodology to characterize 
the physical assets; for example, airspace and groundspace the range 
needs in order to fulfill its training mission; how to objectively 
assess the degree to which these assets are restricted; the reasons for 
these restrictions; and their ultimate impact on the training of combat 
forces. We feel this is an important step in addressing the overall 
issue of range management, of which encroachment is one component. The 
methodology helps us characterize encroachment in a general 
perspective, and shows how we can look at it in the context of other 
types of restrictions and focus our efforts accordingly.
    The Commanding General, Marine Corps Base Camp Pendleton, 
California sponsored a two phased study at a cost of $200,000 to 
establish quantitative data that examined encroachment impacts on the 
capability of the installation to support Marine Air Ground Task Force 
operational readiness requirements. The first phase was completed in 
January 2002, and the second phase is complete with the results 
pending.
    Question. To what extent does the fiscal year 2004 budget request 
provide funds to pay for the costs associated with encroachment?
    Answer. The Department of the Navy budgets the appropriate funding 
required to comply with existing environmental laws applicable to 
installations, ships, and aircraft. The Navy does not specifically 
budget for the cost of encroachment.

      Consideration of Operating Costs During Acquisition Process

    Question. One of the recurring challenges the Navy and Marine Corps 
face in managing the Operation and Maintenance accounts is the rising 
cost of operating equipment.
    In February 2003, the General Accounting Office reported that the 
military services pay little attention to a system's operating and 
support costs during development when there is the greatest opportunity 
to positively affect these costs. Instead, the Services focus on 
technical achievements, featuring immature technologies during 
development and fielding and then pay the price down the road when 
operating and support costs greatly exceed expectations.
    Even though operating and support costs make up, on average, about 
72 percent of the life cycle of a system, the operators and maintainers 
have little input to the acquisition process.
    Mr. Secretary, do you believe the GAO's report is an accurate 
assessment, and if it is, what do you propose as process improvement to 
gain control of total ownership costs of Navy equipment?
    Answer. The Department of the Navy recognizes operating and support 
is normally the largest cost driver in the total life cycle of a system 
and that 60-70 percent of those costs are determined by decisions made 
early in the acquisition process. Therefore, to optimize those costs, 
the most effective methodology is to address operating and support 
costs early in the acquisition process, ideally during development. 
These efforts are then followed by subsequent technology and process 
improvements during the life cycle of the system. The following are 
concrete examples of the Department of the Navy's continual effort to 
reduce operating and support costs:
          <bullet> Joint Strike Fighter (JSF) Program projects a 40 
        percent reduction in operating and support costs across the 
        projected program life cycle, compared with replacement 
        aircraft ownership costs.
          <bullet> CVN-21 is developing a new nuclear power plant, new 
        integrated warfighting system, and all electric auxiliaries, 
        which are predicted to reduce manning by some 500 to 800 
        billets.
          <bullet> The future surface combatant, DD(X), is the first 
        ship designed from the keel up to embrace total ship automation 
        and reduced maintenance. This allows these ships to have 
        predicted manning at less than one-third that of current 
        destroyers.
          <bullet> F/A-18 E/F, for a number of years has executed 
        innovative performace based logistics contracts, which have 
        reduced total ownership costs.
          <bullet> The Smart Ship Program is implementing numerous cost 
        saving initiatives on existing platforms that will have a 
        dramatic effect on manning (largest operation and support cost 
        driver for ships). The initiative in the area of food service, 
        distributed engineering, ship control, navigation and damage 
        control systems are allowing billets to be removed from ship 
        manning documents today and will continue into the future.
          <bullet> Reducing operating and support costs through 
        disinvestments, such as the early removal of Phoenix missiles 
        from the ordnance inventory. New weapons systems coming to the 
        fleet, such as the F-18 E/F, are much more versatile and can 
        perform multiple missions that previously required multiple 
        platforms. The Navy is driving toward fewer and more capable 
        multi-mission weapons systems that minimize operator interface 
        and maintenance requirements, thus increasing warfighting 
        capability while driving down operating costs.
    In addition to the examples cited above, the Department of the Navy 
has embraced the priniciples of Total Life Cycle System Management 
(TLCSM). TLSCM advocates increased involvement from product developers, 
maintainers and operators early in the acquisition cycle in order to 
improve reliability and maintainability. This interaction will 
ultimately reduce total operating costs. The Department of the Navy has 
recently established a Deputy Assistant Secretary of the Navy for 
Logistics with a primary mission to address TLCSM.
    Question. In what ways, specifically, is the Navy pursuing the 
reduction in total cost of ownership in ``Sea Enterprise'' a supporting 
operational initiative of SEAPOWER 21 designed to increase efficiencies 
with the Navy?
    Answer. The fundamental challenge facing the Navy is finding 
resources to meet recapitalization requirements for Sea Power 21. Sea 
Enterprise is the resource enabler of Sea Power 21. Sea Enterprise 
seeks to improve organizational alignment, streamline processes, refine 
requirements and create incentives for positive changes. Legacy systems 
and platforms no longer integral to mission accomplishment will be 
retired and Navy business processes will become more efficient to 
achieve enhanced effectiveness in the most cost-effective manner. With 
the assistance or industry advisors, Sea Enterprise improves the Navy's 
business practices as well as adds mechanisms to redirect savings from 
efficiencies to new platforms and systems.
    Recognizing the opportunity presented by the early identification 
of means to lower operating costs in the acquisition process, the Navy 
has been focused on reducing total ownership costs for the past several 
years at all echelons. At the corporate level, Navy has established a 
Sea Enterprise Board of Directors (BOD), chaired by the Vice Chief of 
Naval Operations (VCNO) and the Assistant Secretary of the Navy for 
Research, Development and Acquisition (ASN (RD&A)). The BOD has 
specifically chosen ownership cost reductions as one of its top focus 
areas to aggressively pursue. There are multiple approaches to 
ownership cost reduction that Navy is pursuing, to include:
          <bullet> Investmenst in newer, more reliable commercial 
        technology to replace cost-inefficient components.
          <bullet> Policy preference for ``performance based'' 
        logistics contracts, whose total-life cycle focus is on 
        reducing operating and support costs.
          <bullet> Policy that business case analyses, targeting impact 
        of total life-cycle affordability to own and operate must 
        preface major weapon program decisions.
          <bullet> Independent reviews of weapon system developments 
        for the express purpose of determining progress towards 
        logistics effectiveness and life cycle affordability.
          <bullet> Retirement of older and inherently more costly to 
        support weapons systems.
          <bullet> Investment in information technology advancements 
        (such as Enterprise Resource Planning) that promote cost 
        visibility.
    The role for Sea Enterprise is to ensure savings are optimized 
across the enterprise, information is shared across programs, and 
barriers to implementation are addressed at appropriate levels. Sea 
Enterprise formalizes a governance process to ensure execution of 
targeted efficiency initiatives.
    Question. The Navy has established a ``Fleet Requirements'' 
organization in Norfolk. In what ways does that organization focus on 
reducing the cost of operating and maintaining the Fleet rather than 
new, unproven technologies?
    Answer. The Department of the Navy recognizes operating and support 
is normally the largest cost driver in the total life cycle of a system 
and that 60-70% of those costs are determined by decisions made early 
in the acquisition process. Therefore, to optimize those costs, the 
most effective methodology is to address operating and support costs 
early in the acquisition process, ideally during development. These 
efforts are then followed by subsequent technology and process 
improvements during the life cycle of the system. For Fleet 
requirements, the Commander, U.S. Fleet Forces Command (CFFC) reviews 
the requirements, coordinates all FLEET responses and then sends one 
consolidated voice or position from the user to the OPNAV sponsor.

                   Antiterrorism and Force Protection

    Question. Over the past three years, Congress has provided the Navy 
over $5 billion for Antiterrorism and Force Protection (AT/FP) 
initiatives. The Committee's staff recently concluded a classified 
report of the Navy's efforts to mitigate the terrorist threats against 
the United States naval vessels and raised some concerns about the 
Navy's efforts. The review indicates that:
          <bullet> Efforts to develop effective programs to combat 
        terrorism have been largely ad hoc, reactive and tied to major 
        terrorist events;
          <bullet> There is no mission needs statement or requirements 
        document for either ashore or afloat requirements and therefore 
        no understanding of how the Navy wants to proceed with its 
        program; and,
          <bullet> There is a perceived lack of guidance from the Navy 
        leadership on the establishment of anti-terrorist capabilities.
    Admiral Clark, what do you think about these general concerns 
raised by the staff's review?
    Answer. The House Appropriations Committee's Surveys and 
Investigative (S&I) staff inquiry into the Navy's Antiterrorism and 
Force Protection (AT/FP) efforts was very thorough and it noted several 
of the critical issues on which the Navy is making progress. 
Antiterrorism/Force Protection continues to be one of our top 
priorities. The AT/FP budget has been used to develop a deliberate 
program to improve AT/FP afloat and ashore. As our program moves 
forward, recent advances include the validation of a comprehensive AT/
FP Mission Needs Statement, complemented by the ongoing development of 
the Force Protection Mission Capabilities Package, an analytical tool 
which identifies future (afloat) AT/FP requirements and the resources 
that will be needed to acquire them. Effective October 1, 2003, I am 
aligning all major shore claimants under a single Echelon II command 
(Commander, Naval Installations), which will ensure that requirements 
are properly defined, and resources are programmed to support AT/FP 
efforts at our installations. My staff is coordinating a capabilities 
assessment process that incorporates both afloat and ashore 
requirements. The Navy will continue to use its Systems Commands 
(SYSCOMS) for development and acquisition of technology to support 
fleets in their AT/FP programs. However, better integration between the 
SYSCOMS is being coordinated thru the Systems Acquisition Lead Teams 
(SALT) process. The SALT process was established over seven months ago 
to ensure uniform Navy-wide program management for AT/FP issues. Navy 
AT/FP continues to move in the right direction, making visible progress 
in a number of key areas, and ensuring effective use of Congressional 
funding.
    Question. Mr. Secretary, how would you rate the Navy and Marine 
Corps, overall, in terms of AT/FP preparedness?
    Answer. The importance of maintaining a strong Antiterrorism/Force 
Protection (AT/FP) posture has been stressed at every level within the 
Navy. AT/FP and physical security awareness throughout the Service is 
high. We have put into place a training and education program that 
provides quality AT/FP training for our operators at the deck plates, 
as well as for the officers who lead them. Additionally, our Integrated 
Vulnerability Assessment program has been proven to effectively measure 
the overall successes of our program efforts, and conversely, to 
identify and prioritize our weaknesses, then facilitates corrective 
measures. Where needed, we have fielded an array of commercially 
available technologies to enhance the security of our waterfronts and 
flight lines around the world. Other focus areas include: Critical 
Infrastructure Protection, emergency preparedness, consequence 
management and participation in various Joint Service programs for 
installation protection and emergency response. The Navy Shore 
establishment is focused on Installation Protection (IP) in accordance 
with Joint programs/policy and participates in the Joint Staff 
Installation Pilot Program (JSIPP). Our Systems Commands (SYSCOMS) are 
coordinating, integrating and implementing Joint policy regarding shore 
facilities design, construction, modification and operations, as well 
as emergency response programs. Through the Systems Acquisition Lead 
Teams (SALT) process our SYSCOMS also facilitate integration of 
existing AT/FP programs related to CBRNE issues for base operations, 
security, medical, fire fighting, industrial safety and others. Given 
all of these efforts combined, I consider the Navy's level of 
preparedness to deter, defend, mitigate and respond to today's 
terrorist threat to be solid.
    The Marine Corps is well prepared to execute its Antiterrorism/
Force Protection (AT/FP) responsibilities. The nature of the threat 
requires a robust and continuously evolving AT/FP program. Personnel 
and resources for AT/FP continue to be a priority in our combat 
development process. For fiscal year 2003, the Marine Corps has either 
developed or sustained the following:
        <bullet> United States Marine Corps organized, trained and 
        equipped units capable of incident response, deterring, 
        detecting, and defending against asymmetric threats against 
        U.S. territories, populations and critical infrastructure.
        <bullet> The 4th Marine Expeditionary Brigade (MEB) 
        Antiterrorism (AT) to support commanders with rapidly 
        deployable, specially trained, and sustainable forces for 
        combating terrorism.
        <bullet> A Chemical and Biological Incident Response Force 
        (CBIRF) capable of deploying in response to chemical, 
        biological, radiological, nuclear or high-yield explosive 
        incidences.
        <bullet> Rapidly deployable quick response forces to support 
        United States Northern Command.
        <bullet> Marine Emergency Preparedness Liaison officers 
        organized by Federal Emergency Management Agency region.
        <bullet> Enhanced First Responder training on Marine Corps 
        installations as well as enhanced coordination with community-
        wide local authorities.
        <bullet> Developed and implemented Electronic Security Systems 
        (ESS) to include biometrics, access control, video surveillance 
        and assessment.
    Question. Admiral Clark, have you published guidance on the minimum 
anti-terrorism capabilities that should be present at the region, base 
and ship class level?
    Answer. The series of instructions and publications published by 
the Department of Defense and the Navy (by the Secretary and myself) 
delineate Antiterrorism/Force Protection (AT/FP) program standards, and 
individual protective measures that ships, installations, and regions 
must be able to perform at escalating threat levels and Force 
Protection Conditions.
    Additionally, I have published policy that includes tools and 
prioritized AT/FP requirements for the various categories of ships and 
aviation assets. Published staffing standards identify minimum 
capabilities and manpower needed to meet physical security and AT/FP 
requirements at our installations, including waterside, both at home 
and abroad.
    AT/FP capabilities are developed and reviewed by my staff annually 
through a Mission Capabilities Assessment process designed to define 
future capabilities, and the resources needed to acquire them.
    Question. Do you have an overall program plan for the development 
and acquisition of technology and staff for antiterrorism and force 
protection?
    Answer. The overall plan for AT/FP technology acquisition is based 
on the need to take a systematic approach to AT/FP technology that will 
ensure the interoperability of individual AT/FP technology subsystems. 
Furthermore, we must ensure that this plan will allow force protection 
officers to tailor AT/FP solutions to the unique requirements of their 
own local command.
    The Navy's AT/FP technology requirements for afloat units are 
developed through a series of programmatic analytical tools. The 
Combating Terrorism and Force Protection Mission Capability Packages 
determine the warfighting capabilities required to effectively counter 
the asymmetric threat. The AT/FP investment strategy uses these 
required capabilities to lay the foundation for an ``afloat technology 
roadmap''. We're also leveraging existing shipboard systems to 
establish an afloat AT/FP ``program of programs'' that are designed to 
deter, detect, classify, identify, deny, disable, and neutralize the 
asymmetric threat. The AT/FP viability of these programs is reviewed on 
a continuous basis within our Afloat AT/FP Working Group.
    In October 2003 the Commander Naval Installations (CNI) will be 
established as the single echelon II command responsible for all shore 
installation programs. CNI will be responsible for AT/FP programs, and 
will work closely with Commander, U.S. Fleet Forces Command (CFFC) and 
Regional Commanders to ensure program requirements are properly 
defined. CNI will collaborate with CNO N46 (Ashore Readiness Division) 
to program required resources to meet AT/FP program needs. 
Implementation of AT/FP programs will be the responsibility of Regional 
Commanders, with support from selected Systems Commands. The Naval 
Facilities Engineering Command (NAVFAC) will centrally procure and 
install all physical security equipment beginning in fiscal year 2004. 
NAVFAC will also provide technical guidance to CNI and Regional 
Commanders for Emergency Management Planning, Chemical/Biological/
Radiological/Nuclear/high-yield Explosive (CBRNE) programs, and 
Critical Infrastructure Protection programs.
    The Navy's Staffing Standards are published in a Navy instruction 
and provide guidelines as to the personnel requirements for various 
positions and requirements. The Navy validates these requirements, and 
manpower needs and staffing requirements are adjusted based on this 
metric and the needs of the Navy.
    Question. Have you identified a central authority within the Navy 
for anti-terrorism programs, to include responsibility for program 
management, technical evaluation, acquisition and fielding to ensure 
that each fleet doesn't create it's own program?
    Answer. The problem of alignment within AT/FP is one of my greatest 
concerns and one that is being addressed. To better align the program, 
I have assigned the Commander, U.S. Fleet Forces Command as the 
executive agent for CONUS AT/FP. Additionally, they are responsible for 
identifying all AT/FP requirements for the Navy. These requirements are 
documented and then forwarded to the Navy Staff for consolidation, 
validation, and procurement.
    We have been working closely with our Systems Commands to determine 
the most effective way to manage the procurement of technology and 
other equipment to ensure program continuity. One of the difficulties 
in establishing a single central authority for AT/FP acquisition 
program management is that AT/FP technologies cut across the mission 
areas of multiple Navy acquisition communities. To place this office 
within only one of those organizations would hinder our ability to tap 
into the needed subject matter expertise at the excluded organizations. 
We are therefore exploring new organizational structures that will 
identify the AT/FP roles and responsibilities of each acquisition 
community while ensuring that the necessary cross-organizational 
collaboration occurs.
    Question. Mr. Secretary, in fiscal year 2003 this Committee 
provided the additional funding to address anti-terrorism/force 
protection issues; the fiscal year 2004 request does not sustain this 
increase.
    Do the lower amounts requested in fiscal year 2004 indicate that 
you have made sufficient progress in the AT/FP area so that the higher 
fiscal year 2003 funding level is no longer necessary or is this an 
affordability issue?
    Answer. This is mostly an issue relating to the maturing of the 
Navy AT/FP program. Post-COLE and 9-11-01 supplemental funding has been 
used to meet valid requirements and was used effectively. However, the 
sheer volume of requirements generated after September 11th complicated 
the development of a firm program.
    We believe there are sufficient funds in the fiscal year 2004 
request to meet our needs. Our approach for fiscal year 2004 and out is 
to first conduct a bottom-up review of the baseline program, adjusting 
the program as necessary so that the right priorities receive funding. 
In some cases, this means that program elements previously funded may 
be used as offsets to fund new, higher priority requirements identified 
by Combatant Commands and Navy Component Commanders. The lower amount 
requested in fiscal year 2004 reflects this approach and our belief 
that the Navy AT/FP Program is approaching a steady state condition.

              Product Quality Deficiency Reporting Systems

    Question. Secretary, it is our understanding that the Navy's Air 
Systems Command--NAVAIR--is setting up its own Product Quality 
Deficiency Reporting (PQDR) system.
    The Navy's Sea Systems Command--NAVSEA--already has a PQDR in place 
that is connected to the Defense Logistics Agency (DLA) and other 
services.
    According to some DoD officials, NAVAIR is basically recreating the 
NAVSEA system at a cost of $3 to $5 million a year, with an additional 
$1 to $2 million a year to operate the system and connect it to other 
Navy systems. These officials also say that NAVAIR could use the NAVSEA 
system and not incur the expense and effort of creating another 
database that then has to be connected to the NAVSEA system (GAO-01-
923)
    What is the justification for a separate NAVAIR Product Quality 
Deficiency Reporting (PQDR) reporting system?
    Answer. NAVAIR is not developing a separate NAVAIR Product Quality 
Deficiency Reporting (PQDR) reporting system but rather creating a 
single entry point for the warfighter for all discrepancy reports that 
will seamlessly integrate with the NAVSEA PQDR database where 
appropriate.
    The Naval Aviation Maintenance Discrepancy Reporting Program 
(NAMDRP) website should not be considered a stand-alone NAVAIR PQDR 
system. Rather it is a one-stop input point for all Naval Aviation 
discrepancy report submission and tracking of which Product Quality 
Deficiency Report (PQDR) is only one of ten reports. The NAMDRP web 
application is tasked with providing a single data entry point for all 
Naval Aviation discrepancy reports required by OPNAVINST 4790.2H 
consisting of:
          <bullet> Engineering Investigations (EI).
          <bullet> Hazardous Material Reports (HMR).
          <bullet> Conventional Ordnance Deficiency Reports (CODR).
          <bullet> Explosive Mishap Reports (EMR).
          <bullet> Product Quality Deficiency Reports (PQDR).
          <bullet> Technical Publication Deficiency Reports (TPDR).
          <bullet> Aircraft Discrepancy Reports (ADR).
          <bullet> Aircraft Baseline Discrepancy Reports (ABDR).
          <bullet> Supply Discrepancy Reports (SDR).
          <bullet> Transportation Discrepancy Reports (TDR).
    The goal of the NAMDRP application is to accommodate the needs of 
the warfighter by providing a consistent and easy to use web 
application to simplify entry and tracking of all Naval Aviation 
discrepancy reports. Of these reports EI, HMR, CODR and EMR reports are 
currently in production with a warfighter user base of over 6500 users. 
PQDR, TPDR and ADR are currently in development for incorporation to 
the website with ABDR, SDR and TDR soon to follow.
    Question. Do you believe it is an accurate assessment to state that 
NAVAIR could use the NAVSEA system?
    Answer. The Naval Aviation Maintenance Discrepancy Reporting 
Program (NAMDRP) website is not a redundant NAVAIR version of the 
NAVSEA Product Quality Deficiency Reporting (PQDR) system. On the 
contrary, it is integrally linked to the NAVSEA PQDR system. Naval 
aviation PQDRs will enter through the NAMDRP system and then pass to 
the NAVSEA PQDR database. NAVAIR is currently and will continue to use 
the NAVSEA system as the central repository for all Navy PQDRs.
    The process to seamlessly integrate and electronically pass Naval 
aviation PQDR data to the NAVSEA system is currently under development 
with the NAVSEA team. The decision to use a NAMDRP website front-end 
rather than the NAVSEA website was based on the desire to minimize the 
number of input websites used by the warfighter and to keep the 
submission of aviation discrepancy reports consistent for all the 
report types.
    Question. What is the total amount included in the fiscal year 2004 
request and subsequent budget requests to establish and operate the 
NAVAIR system? (Please provide data by year, by appropriation account, 
and by line item.)
    Answer. The following chart shows the budget request for the PQDR 
portion of the Naval Aviation Maintenance Discrepancy Reporting Program 
(NAMDRP) website. (Dollars are in thousands)

Appropriation: O&M, N (BA-4)
    FY04..........................................................  $343
    FY05..........................................................   298
    FY06..........................................................   261
    FY07..........................................................   261
    FY08..........................................................   261

    The above figures include the following types of program costs:
          <bullet> Website hardware, software and associated IT 
        maintenance.
          <bullet> Labor costs to develop and maintain website 
        functionality.
          <bullet> Travel, training and materials to support Fleet 
        users.
          <bullet> Fleet Help Desk support, user enrollment and metrics 
        preparation.
          <bullet> Clearinghouse support for NAVAIR users (metrics, 
        training, clear/expedite process logjams).
    The NAVAIR investment in developing and maintaining a NAMDRP input 
mechanism for Naval Aviation PQDRs is a small fraction of the total 
NAMDRP budget request. The NAMDRP website's function is to give fleet 
personnel a one-stop input point for all Naval Aviation discrepancy 
report submission and tracking. The Product Quality Deficiency Report 
(PQDR) is only one of ten possible discrepancy submissions that may be 
submitted via the NAMDRP.

                       Navy Personnel Reductions

    Question. The Navy's active duty end strength of 373,800 requested 
in the fiscal year 2004 budget request is 1,900 personnel below the 
fiscal year 2003 authorized level of 375,700 personnel. The Navy 
Reserve end strength for fiscal year 2004 is 85,900 personnel, a 
decrease of approximately 2,000 Reservists.
    Mr. Secretary, the Navy is the only Service downsizing personnel in 
fiscal year 2004. Please explain the reasons for the reductions in 
military personnel. Are these cutbacks in end strength driven by force 
structure reductions, i.e., the decommissioning of ships?
    Answer. Navy's end strength numbers are determined and continually 
refined during a process that takes into account the current and future 
manning requirements of our ships, aircraft and associated supporting 
functional areas. Navy end strength is based on requirements that are 
largely force structure based. As older, more manpower intensive 
platforms are taken off line and replaced by more efficient ships and 
aircraft the requisite end strength decreases in concert.
    The decrease in fiscal year 2004 end strength is the result of the 
net changes (commissionings/decommissionings) in the Navy's force 
structure.
    Question. With the Navy playing such a large role in the Global War 
on Terrorism, why would you be reducing end strength and force 
structure rather than increasing it?
    Answer. Current end strength authorization, with the flexibility 
you have granted to +3%, is sufficient to meet all commitments. Given 
our current and near term strength profile, we have seen no impact on 
deploying battlegroups in fiscal year 2003 and do not anticipate any 
impact on fiscal year 2004 deployments.
    In conjunction with the execution of our overall investment 
strategy, we continue to conduct extensive reviews focused on balancing 
current and future force operational requirements and capabilities, 
while operating within established fiscal constraints. In proposing the 
budget submission for fiscal year 2004, we determined that reducing the 
number of less capable, manpower intensive platforms would free 
valuable resources essential to future plans for enhancing 
transformational capabilities. The manpower associated with these force 
structure changes results in a smaller requirement.
    Additionally, Navy has various efforts underway that are helping 
improve manpower efficiency and reduce future manpower requirements. 
Task Force Excel is exploring innovative techniques to improve how we 
train our Sailors. Sea Swap and Optimal Manning projects are finding 
ways to keep our Battle Forces at sea longer while also exploring 
potential areas to restructure crew manning. FORCENET is aimed at 
improving manpower efficiency by integrating warriors, sensors, 
networks, command and control, platforms and weapons into a networked 
distributed combat system. Sea Enterprise maintains core capabilities; 
optimizes investments; and applies selected business reforms to our 
organizations and processes. Sea Warrior is the enhanced assessment, 
assignment, training and education of personnel. We believe these 
initiatives, when completed, will yield increased capabilities, while 
permitting us to man our forces in the most efficient and economical 
manner possible.
    Question. Does the Navy still have ``gaps'' in billets at sea? If 
so, why would you reduce personnel if you still have requirements to 
fill?
    Answer. While isolated unit shortfalls exist, as of February 2003, 
Fleet manning stood at 99.0% or a shortage of 1,784 personnel. At this 
same point shore manning was 96.1%. We expect that personnel in 
training pipelines (who do not count as shore manning) will flow to the 
Fleet over the course of the rest of fiscal year 2003 and reduce this 
shortage to near zero by the end of the year. Based on historical 
trends and projections, we expect fiscal year 2004 to remain at these 
high levels in the 97-99% band.

            Consolidation of the Military Personnel Accounts

    Question. The fiscal year 2004 budget request recommends 
consolidating the six Guard and Reserve military personnel accounts 
with their respective active duty military personnel appropriations. 
The budget requested that the Reserves' personnel pay accounts be 
Budget Activity 7, and the National Guard's personnel pay accounts be 
Budget Activity 8 under the active duty accounts.
    Mr. Secretary please explain the rationale for merging the pay 
accounts into one appropriation per Service.
    Answer. Departmental budget guidance directed consolidation of 
active and reserve appropriations into the fiscal year 2004 President's 
Budget submission. Reserve Personnel Navy (RPN)/Military Personnel Navy 
(MPN) and Reserve Personnel Marine Corps (RPMC)/Military Personnel 
Marine Corps (MPMC) mergers are the first step in providing DoD greater 
financial flexibility in fighting the Global War on Terrorism (GWOT) 
and future conflicts. Benefits include:
          <bullet> Expedited funding transfer between Active and 
        Reserve accounts to meet operational requirements;
          <bullet> Greater flexibility during contingency operations; 
        and
          <bullet> Improved ability to manage changing end strength/
        costs.
    Given the degree of utilization of mobilized reserves in the GWOT 
and enhanced integration with Active forces under the total force 
concept, this consolidation would provide the necessary flexibility for 
the Department to more efficiently manage its overall resources to meet 
emerging and rapidly evolving military requirements.
    Question. What level or degree of increased flexibility does the 
Navy gain from this consolidation?
    Answer. Within Congressionally approved reprogramming thresholds, 
funds may be moved between Active and Reserve accounts without prior 
approval for formal reprogramming action, as is currently required. 
This will be particularly beneficial in view of the increased 
flexibility to transfer Reserve Personnel (RP) dollars during periods 
of mobilization when Reservists are paid from Active Military Personnel 
(MP) account. Flexibility will be limited, however, by the $10 million 
realignment threshold between budget activities.
    Question. Will the Chief of the Navy Reserve and Marine Corps 
Reserve have full management and control of his financial resources in 
order to execute their title 10 responsibilities for trained and ready 
forces?
    Answer. Yes. This consolidation, while offering greater flexibility 
and responsiveness in the fiscal process, does not, in any way, inhibit 
the abilities of the Chiefs of Naval and Marine Corps Reserve from 
managing financial resources to execute their respective 
responsibilities under Title 10 United States Code. Funds will continue 
to be allocated to them in the same manner as today, but with a 
different nomenclature and set of rules governing their use.
    Question. Having separate appropriations accounts for the Active 
and Reserve components allows Congress to monitor how well the services 
are executing their programs. What assurance can you give the Committee 
that the active components will not use the Reserve budget activities 
to fund their own bills or shortfalls?
    Answer. Under current law, the Services have limited authority to 
move funds between budget activities. No more than $10 million may be 
realigned into Active or Reserve budget activities without prior 
congressional approval. Additionally, historic Military Personnel (MP) 
shortfalls of $100 million, or more, cannot be accommodated from the 
Reserve Personnel (RP) account.
    RP funding will be a separate budget activity (BA) within the MP 
account. Any request to transfer funds between Reserve and Active BAs 
within the MP account will be fully vetted through the existing 
resource allocation decision-making process. As is currently the case, 
fund managers will be responsible for ensuring that resourcing 
specifically programmed and budgeted for reserve requirements is 
maintained.

                            Personnel Issues

    Question. Please explain your active duty military personnel end 
strengths levels to the Committee. What was the number of personnel on 
board in October when you started fiscal year 2003? Was that number 
over the authorized end strength level for the Navy and the Marine 
Corps?
    Answer. Navy's active duty end strength was 383,108 at the 
beginning of fiscal year 2003. This exceeded our fiscal year 2002 
authorized end strength of 376,000, but was within the 2 percent 
flexibility provided for in the National Defense Authorization Act 
(NDAA).
    At the beginning of fiscal year 2003, the Marine Corps' active duty 
end strength was 173,733. While this is 1,133, or 0.6 percent, over the 
fiscal year 2002 authorized end strength of 172,600, it was within the 
2 percent flexibility authorized in the NDAA.
    Question. Did that increase of personnel include those under a 
stop/loss action? Did it include any mobilized Reservists? If so, what 
were those numbers?
    Answer. Navy's end strength on September 30, 2002 included 301 
Sailors who were transitioning as Navy stood down from the post-9/11 
stop loss but does not include mobilized Reservists.
    For the Marine Corps, the beginning fiscal year 2003 end strength 
of 173,733 included 306 Marines on stop loss (298 enlisted and 8 
officers). No mobilized Marines are included in that number since Title 
10, United States Code, excludes from active end strength computations 
those mobilizations accomplished under Presidential Reserve call-up.
    Question. To date, what is the number of Navy Reserve soldiers 
currently on active duty in support of the mobilization?
    Answer. As of March 19, 2003, 9,979 Naval Reserve members are on 
active duty in support of the mobilization. As of April 22, 2003, 
21,118 Reserve Marines are on active duty in support of the 
mobilization.
    Question. What is the Navy's current mobilization cap? The Marine 
Corps?
    Answer. Based on March 2003 OSD guidance, Navy's current 
mobilization cap is 33,000 and the Marine Corps' is 40,786.
    Question. What stop/loss action is currently in effect, and how 
many military personnel does that affect?
    Answer. Navy Hospital Corpsmen in paygrades E-1 through E-6 with 
Navy Enlisted Classification Code (NEC) of 8404 (Field Medical Service 
Technician) are the only Sailors currently under stop/loss. This policy 
affects 2,616 Sailors who have an EAOS prior to December 2003 and, of 
that number, we could expect about 960 to have plans to leave the 
service.
    The Marine Corps implemented stop loss for all Marines (Active and 
Reserve Components) on January 15, 2003. As of April 22, 2003, there 
were 3,010 Active Component Marines (64 officers and 2,946 enlisted) 
and 4,993 Reserve Component Marines (79 officers and 4,914 enlisted) on 
stop loss. Of the 4,993 Reserve Component Marines on stop loss, 411 are 
mobilized consisting of 273 from the Selected Reserve and 138 from the 
Individual Ready Reserve.
    Question. Can you estimate what your end strength level will be in 
September 2003, the end of this fiscal year, and starting fiscal year 
2004? What level of end strength is funded in the budget request for 
fiscal year 2004?
    Answer. We anticipate Navy end strength to be at the +2 percent 
National Defense Authorization Act (NDAA) flexibility of 383,214. End 
strength of 373,800 is funded in Navy's fiscal year 2004 budget 
request.
    For the Marine Corps Active Component end strength, assuming 
operation IRAQI FREEDOM and the War on Terrorism requirements do not 
change appreciably from current projections, and our forces flow 
expeditiously back from theater, our current worst case estimate is 
approximately 180,250, or 3 percent above the fiscal year 2003 end 
strength authorization of 175,000. For fiscal year 2004, an end 
strength level of 175,053 is included in the fiscal year 2004 budget 
request.
    Question. Currently, what is the monthly ``burn rate'' for your 
Navy and Marine Corps personnel costs?
    Answer. The total monthly ``burn rate'' for Navy personnel costs is 
approximately $1.98 billion. The ``burn rate'' associated with the 
Global War on Terrorism is $340 million, per month, through March 2003.
    For the Marine Corps, in March 2003, the total monthly ``burn 
rate'' for the Active Component personnel costs was approximately $838 
million, of which, approximately $220 million was for Operation IRAQI 
FREEDOM and the War on Terrorism.
    Question. When do you anticipate the military personnel accounts 
will run out of money? Are you using your third or fourth quarter funds 
now?
    Answer. Yes, future quarter funds are being used. Without 
additional funds, MPN would run out of funds in August 2003.
    Under the current apportionment, the Marine Corps will run out of 
MILPERS money on 15 June 2003 unless supplemental funding is received 
or additional funds are brought forward from the fourth quarter. The 
Marine Corps had to bring forward third and forth quarter funding to 
close out the second quarter and will require supplemental funding or 
additional fourth quarter funds brought forward to close the third 
quarter.
    Question. Are you considering implementing the authorities of the 
``Feed and Forage Act''?
    Answer. No, we are not considering invoking the authorities of the 
Feed and Forage Act.
    Question. What is the amount of supplemental funds needed for 
military pay and allowances through the end of this fiscal year for the 
Navy and Marine Corps?
    Answer. The amount of supplemental funding needed in fiscal year 
2003 for military pay and allowances is $1,620 million.
    The Marine Corps received $1,200 million in supplemental funding 
for military pay and allowances. An additional $193.7 million is 
required to fund increased Family Separation Allowance (FSA) and 
Imminent Danger Pay (IDP) rate increases and the Hazardous Duty Pay--
Location (HDP-L) determination for Iraq, Kuwait and Israel.

                         Naval Reserve Missions

    Question: Is the Navy heavily utilizing its Reserve Component like 
the other services are doing for the Global War on Terrorism, or is the 
Navy Reserve underutilized?
    Answer: The Naval Reserve is not being underutilized. The Naval 
Reserve mobilized over 12,000 personnel for Operation IRAQI FREEDOM, 
Operation ENDURING FREEDOM and the Global War on Terrorism (GWOT). This 
represents 14% of the Navy's Selected Reserve force and a little less 
than 3% of the Total Navy Force. In addition, as of the end of April 
2003, the Navy has mobilized a total of 19,786, or 23% of the force, 
and demobilized over 7,700 Naval Reservists since September 11, 2001 in 
support of the Global War on Terrorism. We are committed to supporting 
the President's prosecution of the GWOT and will appropriately rotate 
mobilized Reservists onto active duty to enhance the Navy's forward 
presence and ability to respond globally as the President requires.
    One Naval Reserve Tactical Aviation squadron was mobilized and two 
detachments of the Naval Reserve Special Warfare helicopter squadrons 
were mobilized. Additionally, 11 of 14 Inshore Boat Units and 6 of 22 
Mobile Inshore Undersea Warfare Units were mobilized.
    Substantial quantities of Naval Reserve medical personnel, Cargo 
Handling Units and Fleet Logistic Support aviation personnel, as well 
as more than 1,800 Naval Construction Battalion augmentation personnel 
were mobilized to fill surge requirements during the war. These numbers 
represent a balanced answer to the increase in wartime requirements for 
Navy.
    Question. Can the Navy Reserve be doing more to relieve the active 
Navy's Perstempo/Optempo during this Global War on Terrorism? If so, 
how?
    Answer. The risks associated with periods of surge will often 
require additional manpower and equipment from the Naval Reserve to 
sustain Navy commitments, and the Navy is using, and will continue to 
use, the Naval Reserve very effectively to relieve the Perstempo/
Optempo strain associated with the Global War on Terrorism.
    Commissioned units such as the Reserve Carrier Airwing, Maritime 
Patrol Squadrons, Coastal Mine Hunters (MHCs), and Fleet Hospitals 
provide needed support in peacetime as well as during crisis. 
Similarly, individual augmentees reinforce and sustain active forces 
through augmentation to Combatant Commanders' staffs, Intelligence and 
Cryptologic support, and Naval Control and Protection of Shipping 
operations. The peacetime and warfighting relief these units and 
personnel provide allows the Active Component the trade-space necessary 
to more fully use its forces to conduct deployed operations.
    Question. Is the Navy Reserve involved in the Homeland Security 
mission? If so, in what respect?
    Answer. Immediately after September 11, 2001, some of the first 
Naval Reserve units called into service were Naval Coastal Warfare 
units that were called upon to support the Coast Guard in the Homeland 
Security mission. This fleet protection mission is currently 100% 
resident in the Naval Reserve, though Navy has begun to migrate some of 
this capability to the Active Component in order to meet extensive 
overseas commitments. The Naval Reserve units will continue to be 
included in Coast Guard operational plans and will support the Coast 
Guard's Homeland Security--Maritime mission as needed.
    Question. Naval Coastal Warfare capability resides in the Naval 
Reserve. Is the Navy Reserve assisting the Coast Guard in protecting 
our ports, harbors, and coastal waters for Homeland Security? If not, 
why not?
    Answer. The National Strategy for Homeland Security assigns the 
Coast Guard as the Lead Federal Agency for Maritime Homeland Security 
(MHLS). Coast Guard is ideally suited for this role because of their 
unique blend of civil and military responsibilities, including law 
enforcement.
    Naval Coastal Warfare units have the capabilities to support the 
Coast Guard in their Maritime Homeland Security mission provided the 
circumstances warrant their involvement. Naval Coastal Warfare 
capability is included in several Coast Guard operational planning 
documents, and the capabilities are well known to the Coast Guard 
planners.
    Question. The Committee understands that the Navy is involved in an 
initiative to redesign the Navy Reserve. What changes do you intend to 
make in the Navy Reserve as a result of the effort?
    Answer. In light of the Global War on Terrorism and our vision for 
the future--Sea Power 21, we are looking at ways to build a future 
Naval Reserve that is seamlessly blended into Sea Power 21, and is 
fully integrated with and operationally relevant to the active Naval 
forces. We currently are at the working group stage in the redesign 
effort. The working groups have been given guidance to propose methods 
of transformation for the Naval Reserve so that it is fully integrated 
with the active force. The redesign implementation plan will be 
evolutionary in nature and will be pursued with Congressional 
concurrence. The targeted areas for improvement include: creating a 
single personnel system, improving active duty ownership of Reservists, 
developing active duty education on Reserve capabilities, consolidating 
Active and Reserve equipment where feasible, and simplifying funding 
processes and validating requirements. No decisions have been made at 
this time. The Naval Reserve continues to meet its mission of support 
to the Fleet.

    [Clerk's note.--End of questions submitted by Mr. Lewis.]
                                         Wednesday, March 19, 2003.

                   FISCAL YEAR 2004 AIR FORCE POSTURE

                               WITNESSES

HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE
GENERAL JOHN P. JUMPER, CHIEF OF STAFF, UNITED STATES AIR FORCE

                              Introduction

    Mr. Lewis. The Committee will come to order.
    The Committee is pleased to welcome the Honorable James G. 
Roche, Secretary of the Air Force and General John P. Jumper, 
Chief of Staff of the Air Force. Let me begin by saying, Mr. 
Secretary and General Jumper, that this is a very, very 
sensitive time for all of us who are responsible for playing a 
role one way or another in our Nation's defense.
    As we find ourselves on the verge of war, many a thought 
comes to mind, many a frustration; many a prayer as well. There 
is little doubt that at the lead point of anything that we are 
doing will be the forces that you represent. And I am here to 
say that I couldn't be more proud of the preparedness that has 
gone into putting you in the position that you are in.
    No small part of some of the change of recent decades is a 
reflection of work between the Air Force and this Committee, 
and we are, to say the least, indebted to your leadership that 
has been so responsive to the kind of change that takes us over 
the horizon. Indeed, there is not any doubt that whether we are 
talking about a minor little additive to our capability over 
time, an arena known as the Unmanned Aerial Vehicle, or we are 
talking about smart weapons or we are talking about your 
officers sitting by laptops communicating with each other and 
with us, it is a phenomenal world that we are living in. 
Because America is so good, we do remain I think as the hope 
for peace long term in the world.
    I wanted to share with you the thought that there is many a 
person who presumes that sometime out there, as the world 
continues to change and to shrink, that there is absolutely no 
way that one day we will find ourselves in direct confrontation 
with huge-population countries like China or like India. I just 
do not believe that is the case at all. Or if we continue 
emphasizing research and development and the training and 
attracting of the very, very best that the country has to 
offer, we will continue to be so far ahead, that those leaders 
will look to find their way in the world without confrontation.
    So the ``must be's'' that we are talking about today in 
your budget and the budgets of your colleagues are monies that 
involve our search for peace. And so as we contemplate war at 
this very moment, it is because we are all about eliminating 
tyrants who would use terrorism as their first asset to gain 
their purpose.
    General Jumper, your predecessor let us know very clearly 
that air superiority is not good enough. It is air dominance 
that is a requirement, and we do have that kind of capability, 
but there is more to a war than air alone. We all know that.
    Indeed, if we are going to be good in your arena, we have 
to care for the people who make up your force, make sure that 
they can live on the pay they receive and have adequate 
housing, as well as the training and retraining, along with the 
assets that make them so good.
    It is a privilege for me to have this responsibility at 
this special time in our history. You both know that your 
entire testimony will be included in the record.
    Before going to you, however, let me call first upon my 
colleague from Pennsylvania, Jack Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. Well, I know you folks are busy, and I am not 
going to say much because I know you want to get back to work. 
So we are over here to do everything we can to help you, and we 
know you have got some problems. And we know as important as 
air is, the guys on the ground have to really do the work. But, 
you are the big part of getting it ready to go into the ground. 
So we look forward to seeing some victorious results.
    General Jumper. Thank you, sir.
    Secretary Roche. Thank you.
    Mr. Lewis. I have no idea how Chairman Young attends all of 
the meetings that he does, but he pays very special attention 
to our Subcommittee and he was with us in the Intelligence 
Committee room this morning for most of the time that we were 
there. So, Mr. Chairman, if you have any comments I would be 
happy to call on you as well.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. Basically I 
welcome the Secretary and the Chief here to this Subcommittee, 
which is a very supportive Subcommittee, and I think both of 
you know--I want to say for the record and for the members of 
the Committee, Mr. Chairman, that I talk to a lot of people in 
uniform, infantrymen, marines, airborne. And you talk to them, 
you know, ``What do you really need when you get in? Are you 
scared and what kind of a tool do you need?'' And without 
question they will say, ``I want to make sure that anything 
that is in the air above me belongs to the United States.'' And 
that is where these folks have done such a tremendous job.
    They have some other heavy hitting on their plate these 
days, which I am not going to go into at this point, but I want 
to just make a comment for the record that I made so many, many 
times before when we get into the issue of advancing the state 
of the art in airplanes, fighters, bombers, or whatever it is, 
that on occasion I have been told, Why do you have to invest a 
lot of new money in a lot of new fighter airplanes, because the 
F-15 is one of the best airplanes in the world? And my response 
is, my son wants to be a fighter pilot when he gets a little 
older, and I don't want him going into combat in one of the 
best planes in the world, I want him to be there in the best 
airplane in the world.
    And so I come here ready to support the requirements of 
this Air Force and its personnel, and I know that this 
subcommittee feels the same. And I just look forward to their 
testimony.

                    AIR FORCE ACADEMY INVESTIGATION

    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Secretary, and General, before we turn to you 
specifically, I wanted to raise another subject that has been 
in the media a lot of late that relates to our academies. I 
think you may know that I had the privilege of serving for a 
while on the advisory board to the Air Force Academy, and it 
was a privilege to have that opportunity. The men and women who 
made up the forces, I saw them as students, are magnificent 
indeed, and the mix of talent is incredible. It is true of all 
of our academies. But a bit of controversy, not a small bit, 
has arisen here of late, that I know that both of you are 
personally involved in, evaluating and attempting to get to the 
bottom of it and make recommendations to us.
    This hearing is not going to be dominated by that subject 
if this Chair has his way, for you are about that work this 
moment, and all of us are feeling the pain that is a part of 
it. In the meantime we are dealing with the fiscal year 2004 
budget, and I would like to have us spend most of our time on 
that. I mean, the members have their own free will, but in the 
meantime, I wanted you to know that at least that is my feeling 
about this subject, for now. It will not be the end of it, but 
for now.
    Mr. Secretary.

                  Summary Statement of Secretary Roche

    Secretary Roche. Thank you very much, Mr. Chairman, and 
Congressman Murtha and Chairman Young, members of the 
Committee, it is my great honor to join General John Jumper 
today to represent the 700,000 Active, Guard, Reserve and 
civilian airmen who are engaged in defending our Nation, 
serving our interests around the globe. We are very proud of 
their achievements this past year, from combat operations in 
homeland defense, to their daily efforts to guarantee the 
readiness, health, security and morale of our force.
    In our travels around the Air Force, we have been impressed 
and humbled by their creativity, commitment, and 
professionalism. And as we appear before you today, we have 
more than 40,000 airmen serving at some 50 expeditionary bases 
in over 35 countries, plus another 60,000 airmen permanently 
assigned overseas.
    We are fighting the war on terrorism and defending our 
Nation's interests. Mr. Chairman, if the President decides to 
order our forces to combat in Iraq, they are ready.
    Secondly, Mr. Chairman, I told you last year how proud I 
was to have the opportunity to serve alongside an officer whom 
I deeply respected: General John Jumper. I wish to tell you 
that my respect continues. He holds me in my job when there are 
days when I feel like not doing it. He is the reason I come to 
work, along with the other airmen, and I commend him to you as 
a simply spectacular military officer and an unbelievably great 
American.

                             TRANSFORMATION

    Sir, as we prepare for the future, we fully support the 
Department's continuing efforts to balance near-term readiness 
and operational requirements and the long-term transformation 
of our Armed Forces. Our challenge is to fight the global war 
on terrorism while simultaneously transforming. We must do 
both. And while we face near-term budget pressures, we 
nevertheless must invest for the future; otherwise we may be 
forced to pay more later in dollars, perhaps even in lives.
    Of utmost importance to us is our continuing focus on 
warfighting and delivering a full spectrum of air and space 
capabilities to the combatant commanders. Through the efforts 
of this committee, your colleagues in the Congress and the 
Department, I am proud to report that we are currently meeting 
these objectives.

                         OPERATION NOBLE EAGLE

    There has been some good news, Mr. Chairman, that we would 
like to share with you. The year 2003 provides us with a number 
of examples. For instance, we continued our expanded homeland 
defense mission, providing 25,000 fighter, tanker, and airborne 
early warning sorties, something that was brand new to us in 
2001--in September of 2001. This was made possible only through 
the mobilization of 30,000 airmen from the Air Force Reserve 
and National Guard--Air National Guard. They conducted over 75 
percent of all the Noble Eagle missions.
    Today we continue this effort with more than 200 military 
aircraft dedicated to providing combat air patrols or on-call 
support to high-risk areas, cities, and key facilities across 
the United States. I commend these Reserves and Guardsmen to 
you, Mr. Chairman.

                       OPERATION ENDURING FREEDOM

    In Operation Enduring Freedom, we made joint operations in 
a landlocked Nation possible. We flew more than 40,000 sorties 
just in 2002 alone. Plus, you know, all the sorties we flew in 
2001, over 70 percent of coalition air operations. And of our 
8,000 refueling missions, 55 percent were to Navy and Marine 
Corps aircraft.
    In Afghanistan our Special Operations teams developed new 
ways to bring air and space power to bear in a variety of 
engagements. Our combat controllers integrated new technologies 
and precision weapons to do close air support from 39,000 feet 
using the B-1 and B-52 bombers and at lower altitudes for our 
Air Force, Navy and Marine Corps fighter bombers. And now we 
are developing better processes to target and engage time-
critical and moving targets.

                           B-1 CONSOLIDATION

    Continuous improvements in readiness and technology made 
these successes possible. With the support of your Committee, 
the Congress, Secretary Rumsfeld, we successfully consolidated 
our B-1 bomber fleet and improved overall fleet readiness. Its 
mission capability rate increased 10 percent from last year. It 
is now over 71 percent, the highest in its history.

                              SPARE PARTS

    The increased spares funding that this Committee and this 
Congress has supported have paid off dramatically; 16 of 20 
weapons systems improved mission-capable rates last year. The 
C-5B achieved its highest mission-capable rate since 1994, and 
it is now at 73 percent.
    The B-2 improved over 33 percent, the A-10 was up eight 
percent, and our F-15s were up over five percent. Some of our 
oldest F-15s are suffering from age and from structural 
problems, and they are difficult, but the young men and women 
who do the maintenance on them are extraordinary. They are 
doing sometimes depot-level maintenance in the squadron level, 
and they are keeping these planes together in a beautiful way.

                         MISSION CAPABLE RATES

    These are the best mission-capable rates we have 
experienced in five years and the best annual increases we have 
achieved since the mid-1980s. Clearly there are challenges. 
While we are making great progress in adapting the Air Force, 
we face challenges to our continuing air dominance. The 
increasing proliferation of advanced surface-to-air missile 
systems threatens our ability to gain and maintain air 
superiority in potential conflicts. Manned portable surface-to-
air missiles have proliferated extensively. Tactical ballistic 
missiles and cruise missile technology is spreading.

                         RUSSIAN SU-37 AIRCRAFT

    An advanced fighter has already been produced, 
specifically, the Russian SU-37, that is superior to our best 
fighters. But our air-to-air world is increasingly dominated by 
how shall we deal with the cruise missile threats.
    We are now facing the undeniable reality that other nations 
are investing in advanced American military technologies and 
fielding the best our aerospace industry has to offer in their 
air forces. While the investment of our good friends and allies 
is of great value to our alliance industrial base, superior 
capabilities are now or will shortly be present in American-
produced airplanes that don't fly the American flag.
    And by the way, Mr. Chairman, on the side, I have been 
researching what happened in the late 1930s, and at one point a 
similar thing happened where American industry was supporting 
foreign airplanes with much greater technology than they were 
providing to either the Department of the Navy or the 
Department of War.

                             AGING AIRCRAFT

    Now, while other nations are modernizing, we continue to 
employ aging systems that are becoming more difficult to 
operate and more expensive to maintain. The average age of our 
operational air force is over 22 years per aircraft. And even 
with planned aircraft procurements, the total fleet average age 
is expected to increase to 27 years by the year 2020.
    We sometimes jokingly put forward a histogram of our age of 
aircraft and note which ones were in service that are flying 
today that went into service before I was commissioned into the 
United States Navy, and I would hate to tell you how many 
planes that are in service today were in service before my 
colleague and dear friend John Jumper was commissioned as a 
second lieutenant in the United States Air Force. We have some 
old aircraft, sir.

                             MODERNIZATION

    Our proposed 2004 budget addresses a number of our 
challenges and supports the Department's priorities. It 
accelerates our modernization and joint capabilities and 
maintains the gains of readiness and people programs we 
achieved last year. Most important, it gets money into our 
procurement program and funds essential capabilities our 
warfighters need. I strongly request that you support stability 
in our major programs.

                        PERSONNEL AND READINESS

    Our number one investment priority remains our people. The 
budget fully supports our authorized total force in strength, 
funds our education to force development initiatives, puts us 
on track to eliminate inadequate housing, and reduces out-of-
pocket housing expenses on schedule with the Secretary's 
objectives. We appreciate your continued support of pay raises 
for our uniformed and civilian airmen.
    Our readiness budget increases by six percent. It funds an 
expanded $6 billion flying hour program and sustains the 
positive trends we have achieved in our readiness rates. Our 
proposal increases our infrastructure investment above the 2003 
requested level and keeps us on track to meet the Department's 
goal of a 67-year recapitalization rate by 2008.

                             F/A-22 PROGRAM

    Finally, I am proud to report our proposed budget increases 
investment in new technologies by five percent over last year. 
Next year we will fund 22 F/A-22s if the budget is approved, 
continuing our move to a sustained production rate. We are 
attempting to get stability in this program so as to replicate 
what occurred with the C-17 where we can bring costs down and 
increase reliability.
    Mr. Chairman, you remember very well the C-17 and some of 
the terrible days it went through, and it barely survived. And 
yet today when we receive a C-17, within 48 hours it is in the 
area of operations doing its mission, without any additional 
work.
    The F/A-22 program is improving. It is currently meeting or 
exceeding all key performance related requirements. We have 
restructured the upgrade spirals to focus on developing the 
system's air-to-ground capabilities and recently delivered our 
initial production aircraft to Nellis Air Force Base.
    We are experiencing some ongoing issues with software 
integration but having nothing to do with the flight controls, 
and we face the classic challenge in transitioning from 
development to production, something that you know, Mr. 
Chairman, I lived through on the B-2, in great agony.
    It is not unusual to see these problems at this stage in 
the aircraft program because, more and more, what we do in the 
Armed Forces is software-based. But one of the things I would 
wish to say is that John and I have spent eight months--
andeight months ago we got into this program in great depth. Over the 
period of time, Mr. Chairman, and with discussions with you and some 
very good encouragement from you, we are proud to say that the planes 
are now being delivered on time, and, in fact, we may have the first 
one that is early.
    We have had a dramatic improvement in meeting the test 
points in the envelope for tests. We have gone back and fixed 
the production problems in which foreign object debris, FOD, 
damaged a couple of our engines. Key performance parameters 
have been met. It is stealthier than it was intended to be. The 
radar exceeds the requirement. We fired at supercruise a series 
of missiles. We have fired guns. We have taken care of canopy 
howl and we are fixing the fin buffeting problem. We have a 
situation with the spares that were not funded previously as 
they should have been, are finally starting to catch up. And we 
are now working on the assembly line and the station-to-station 
work on the assembly line is better than it has ever been.
    But there are still some things, and the one that stands up 
is software, which will plague this program. It is plaguing an 
intelligence program that you know very well, Mr. Chairman. We 
should tell you the airborne laser is going to suffer the same 
thing, and we are now trying to hunt ahead of time to see how 
many of our programs were not properly funded for the period of 
integration and test, because the assumption that everything 
would go together correctly the first time simply is not borne 
out in reality.
    We found that in the past, monies that were allocated to 
fund a second systems integration laboratory for software--
software integration laboratory--were cut to save money. We 
found that in linking up places within the program that were 
supposed to have been done so software could be developed was 
cut in order to save money. We found that there were programs 
associated with classified parts of the program where the 
contractor thought that they weren't allowed to collect data so 
as to be able to do better diagnosis. It was a misunderstanding 
of the rules.
    We are fixing as many of these things as we can, and each 
time we make an investment, like we are investing in the 
software integration lab, it is to do something for this 
program and for the F-35, because so much of the F-35 depends 
on this program functioning well. For instance, 55 percent of 
the engine for the 35 is really based on the F/A-22.
    To work the software issue, we are going to take one 
aircraft and make it our flying-proof aircraft for software. We 
were able to go in December from under two hours of stability 
in software in the lab to well over eight hours. We moved to 
the airplanes because they were in initial production in some 
instances, experiencing difficulties again when we bring 
everything together, including all of the antennas. So we will 
take one plane, make it as close to production configuration as 
possible and make that plane work, and then move that software 
to the other aircraft. This doesn't mean we can't do the test. 
It does. It means we don't go the period of time without one or 
the other subprograms experiencing some difficulty; none 
affecting the safety of flight.
    What is different, Mr. Chairman, is we now have a more 
realistic cost estimating regime established. We were 
embarrassed to tell you that in the past we were doing things 
on a 50/50 basis. We have ended that. We now do it on an 80 
percent basis, which means that we should be able to minimize 
surprises to you, sir.
    We think we have a far better management team in our Air 
Force on top of this program. It is not that we won't face 
unknown unknowns, but we are working hard to make sure that any 
unknown unknown is as bound as it can be. We remain committed 
to our buy-to-budget strategy. We will maximize the number of 
aircraft we procure within the established budget caps.
    We have kept our word to you, sir, and we believe that once 
we can get stability in this program, we can lower the costs. 
We have already demonstrated that we can lower the costs of the 
radar by 40 percent and have a dramatically improved radar 
because technology is moving forward and there are things we 
can do.
    This process of ours of trying not to ask you for more 
money on this serves as not only an insurance policy for the 
taxpayer, but it provides a dramatic incentive for your Air 
Force and our industry suppliers to get it done right. With 
your support, we will continue to deliver the only operational 
system we will field this decade that puts iron on the enemy.
    May I add, Mr. Chairman, we are dedicated to bringing the 
system online because it will alter how we fight.
    As you know, both John and I will be the first to recommend 
to Secretary Rumsfeld that this program be terminated if we 
believe we cannot bring something to you of which you would be 
very, very proud. And therefore, we would ask you, sir, to give 
us our chance, give us more than eight months. Give us a chance 
to bring this plane on to show you what we can do.

                        AIR FORCE TRANSFORMATION

    Mr. Chairman, we are also working very closely with 
Secretary Rumsfeld and our colleagues to implement a range of 
sensible management practices that we believe will help 
minimize obstacles in the path to effective future 
administration of the Department. Particularly, we are looking 
at measures to transform our personnel, acquisition, 
administrative, and range management practices.
    We thank you very much for the investment you have made in 
our future and for the trust you have placed in our concerted 
effort to provide America with air and space dominance. I think 
on behalf of all our airmen, Mr. Chairman, you and your 
colleagues are providing them the wherewithal that, should the 
President ask them to perform, they will do so and they will do 
so to make you proud. Thank you.
    Mr. Lewis. Thank you, Mr. Secretary.
    General Jumper.

                  Summary Statement of General Jumper

    General Jumper. Mr. Chairman, Congressman Murtha, Chairman 
Young, it is a pleasure to be before you today and for this 
chance to tell you about the outstanding men and women of the 
United States Air Force.
    Let me begin, Mr. Chairman, by saying that my boss here, 
who talked about the increase in mission capability rates 
across our force, this would not have been possible without the 
support of this Committee that put out there, into the hands of 
our airmen, the parts and the supplies they needed to do their 
job.

                               RETENTION

    Let me also add that there is no greater help to our 
retention issues of the past than to put into the hands of our 
airmen out on the flight line the parts they need to fix their 
airplane. It is because when we break faith with them by not 
giving them that part, is when they begin to walk out the door. 
When we give them the tools they need todo their job, we find 
that they stay with us. So let me thank you, Mr. Chairman, and members 
of the Committee, for that level of support which has made that 
difference.

                           AIR FORCE ACADEMY

    Right up front, Mr. Chairman, I would like to address our 
situation at the United States Air Force Academy. The Secretary 
and I have been personally involved in this situation. We have 
not put anybody else to be our spokesman on this, as we talked 
earlier. It is our absolute determination that our United 
States Air Force Academy will graduate officers of character, 
of honor, and of integrity, and that the crime of any kind of 
assault will absolutely not be tolerated either among the 
cadets or those who would hope to be officers. We have 
dedicated our full power to this, sir, and we will fix this 
problem.
    Sir, let me continue to mention that this, the year 2003, 
is the 100th anniversary of powered flight, and we have come a 
long way since those days of wood and fabric machines to the 
point now that we are reaching for the frontiers of space in 
this exciting world that we live in. And this environment, we 
all know, sir, is very much different than any environment we 
ever expected.
    If we even go back to before the fall of the Berlin Wall 
and the demise of the Soviet Union and look at the predictions 
that were made back in those times, we would find that by the 
year 2000, the United States was to have been a second-rate 
power. We would find that probably no one around could point to 
a place called Kosovo, and very few people could name even a 
majority of the ``Stan's'' and yet over the decade that has 
passed since, the decade or more since Desert Storm, we have 
found ourselves in all of those situations, and we found that 
we have been able to adjust to those and deal with them in a 
rather spectacular way. Again, thanks to the help from this 
Committee and the great airmen that we have and the flexibility 
we have in all of our services.

                              TOTAL FORCE

    I would also mention, sir, that as Congressman Murtha 
pointed out, none of us fight alone, sir. The days are gone 
where any of us can claim that we can win any battle all by 
ourselves. And we stand not only as a total force of active 
Guard and Reserve but as an integrated force with our Army and 
our Navy and our Marine Corps counterparts to get this job 
done. And you would be proud, sir, of the way that we have gone 
about to exercise together and to correct some of the doctrinal 
differences from the past. This current set of Chiefs of Staff, 
I will tell you, are dedicated to getting over some of those 
previous obstacles. And even today, as I mentioned, the total 
force, the Combat Air Patrols the CAPS that we have over the 
United States of America are 75 percent manned by our Guard and 
Reserve forces, and they have really stepped up to this.
    Over our Capitol city today, we have F-16s from the 388th 
Fighter Wing at Hill Air Force Base. It happens to be an active 
duty wing, but most of the time you would find a Guard unit or 
a Reserve unit overhead our Nation's Capitol.
    Let me also say, sir, what a pleasure it is to work with 
this Secretary of the Air Force, who brings to the men in 
uniform, men and women in uniform, one with command experience. 
He commanded a ship. He served in the Navy for 23 years, and he 
has made this transition from ancient mariner to elder airman 
in grand style, and it is a pleasure to work with a guy who 
cares and who understands the burden of command on a day-to-day 
basis. And I thank my boss for all he does for our airmen.

                               READINESS

    Sir, the boss went through the statistics of what we have 
been doing, and I won't repeat those. As we get ready again for 
the next conflict, I would just like to say, sir, your airmen 
stand ready. They stand ready because of the efforts of this 
Committee and the support of this Committee to do the Nation's 
bidding. They stand tall. They stand proud. They stand properly 
equipped. They stand properly manned, and properly resourced to 
do their job, and they will fall in on this coalition effort 
and this joint effort in a way that will continue to make us 
proud of their efforts.
    And not only to put bombs on target, but we have to 
remember that the first night of the Afghanistan war, we also 
dropped humanitarian relief supplies, 2.4 million meals to 
starving people on the ground. Again, the humanitarian effort 
will be a part of this effort that we see in this upcoming 
campaign when the President makes the decision to go.

                     AEROSPACE EXPEDITIONARY FORCE

    It is not without some pain that we do this. I have 
testified before this Committee before our transition to the 
Expeditionary Force, where we have divided our air forces up 
into 10 equal parts, and they are on a rotational basis now so 
we can deal with whatever contingency does arise. We have now 
got deployed elements of Aerospace Expeditionary Forces, AEF 
numbers 7 and 8. We have pulled forward AEF 9 and 10, and even 
1 and 2. Actually, we pulled 23,000 airmen from forward-planned 
deployment groups into the current group to deal with the 
current situation. And as I said before, they have accelerated 
their training and their workup cycle, and they are ready to 
go.

                                 SPACE

    The boss talked about aging systems, and of course we have 
the ones that are well publicized. It is also interesting to 
note that even our space programs, the defense satellite 
program is now 32 years old. The Minuteman III program, which 
we all considered a modern program, is now 30 years old. When 
you look at the charts, it is hard to believe that, like the 
rest of our lives, time is passing as quickly as it has, and it 
takes its toll on our systems.

                        RECRUITING AND RETENTION

    You know, one of the Secretary of Defense's main 
transformational programs has to do with people. Another 
tribute to this Committee's support of our people is the fact 
that we are making all of our numbers in recruiting. Our 
retention statistics are better than they have been in years, 
and, again, it is because of the incentives and the resources 
that you all have made happen that allow those numbers to be as 
good as they are.
    And, sir, I get to travel--as I do, and members of the 
Committee--all over the world. I remember Mr. Murtha and most 
of the members of the Committee coming over when I was a 
commander in the United States Air Force in Europe during the 
Kosovo crisis, and wandering around and seeing our people, all 
of our soldiers, sailors, airmen and marines, in action. And it 
is always--37 years I have been doing this work, and it never 
ceases to amaze me, the pride and the dedication you find when 
you go out there in the field and you watch these great airmen 
do their work.
    Recently, I was at a field over in southwest Asia, and a 
young captain, Red Horse combat engineer, came up to me and 
saluted. And he is building a runway. Well, anybody knows that 
a runway is not a minor project. It is a pretty major project. 
When you put it on top of a volcanic formation where you have 
to pump hundreds of thousands of gallons of water out of it to 
keep it at the right level, any engineer knows this is a 
significant challenge.
    This young captain, Red Horse engineer, comes up and goes, 
``Sir, I started this project. They want me to rotateout of 
here in about 2 or 3 weeks. I want you to know, sir, I'm not going 
until this damn thing is finished'' and his chief is right behind him. 
His chief master sergeant says, ``Sir, I am not going either.'' and I 
said, ``You men can stay until this thing is finished. You have got my 
permission.'' they are like that all over the place, and you couldn't 
be more proud to be a part of the service.
    I was at Incirlik Air Base, at the bomb dump there. I walk 
up--there is a master sergeant and a tech sergeant. You walk 
up, and they are sharp looking. You salute and you say, Where 
are you from? You expect to hear some active duty base in 
reply. The guy says, ``Sir, I am a Guardsman from Little Rock, 
Arkansas. I am the sheriff of Little Rock.'' and you say, You 
mean you are the sheriff? You took a pay cut to take this job, 
didn't you? He said, ``Yes, sir, I did, but I wouldn't trade 
this job for anything.'' and I ask the tech sergeant, Who are 
you? And he says, ``Oh, I work for him in Little Rock. I say, 
``Well, who the hell is guarding Little Rock?'' These are 
people who wouldn't trade the position they have for anything, 
to put on that uniform and go do these tasks, even if it is 
with a cut in pay.

                      EMPLOYER RECOGNITION PROGRAM

    And the Secretary and I have instituted a program to 
acknowledge these great employers out there. I know Congressman 
Hobson and I have talked about this before, but you will see 
people walking, and with a lapel pin that has got the Air Force 
symbol on it, and in the middle of the wings is an ``E'' for 
employer. And these are recognition for the employers out there 
who let their people put on the uniform, let them go and do 
their job for their Nation, and we are equally proud of them. 
They are just as much heroes as the people who put on the 
uniform because they are sacrificing back home, too.

                        UNMANNED AERIAL VEHICLES

    Mr. Chairman, you and I have had many talks over a long 
period of time about the F/A-22, about remotely piloted 
aircraft and their importance in the future. I won't expand on 
what the Secretary said. You will find the 2004 budget an 
unprecedented support for our remotely piloted vehicle fleet, 
both the Predator A, the Predator B, and the Global Hawk, and 
many more that we can't talk about in this setting, but a 
family of vehicles that we are advancing so that we can pick 
the best of breed and we can make sure that we are giving the 
whole world of remotely piloted aircraft their due in our 
progress toward the future.

                                BOMBERS

    Bombers have always been an area of concern. Congressman 
Dicks and I have talked about this often, and, again, the 500-
pound bomb for the B-2 bomber and other continuous improvements 
in our bomber fleet are going to make sure that we can not only 
stand off, but that we can penetrate and that we can loiter for 
long periods of time. We have seen in Afghanistan where the 
advent of the B-52 puts actually the B-52 in a close air 
support role. And I would like to say that Curtis LeMay is 
rolling over in his grave some place at the thought of this 
strategic long-range bomber doing close-air support. But we are 
at that point now where we can take advantage of these 
platforms to do a variety of missions. As my boss is fond of 
saying, ``we will never again buy a single-mission airplane or 
platform.'' And that is the exactly the way to look at it.

                            JOINT OPERATIONS

    One more point I would like to make is that we are working 
hard to develop the concept of operations to work with the Navy 
and the Army and the Marine Corps so that as the Army develops 
its concept of operations for brigade combat teams and deep 
operations, the Marines and the Navy likewise with their 
concept of operations, we are there and figuring out how to 
complement them with the systems we will bring on in the 
future.
    In the deep operations business, the F/A-22 is going to be 
the thing that is going to penetrate deep, deal with those 
targets on the ground, eventually moving targets on the ground 
and be able to keep corridors open so that C-17s and other 
resupply aircraft can get to those formations deep behind enemy 
lines, and so on and so forth, as we work stealth, standoff, 
and precision with the United States Navy. And we have to have 
the United States Marine Corps deal with some of the problems 
they have with shallow water mines and the like that we think 
we can help with.
    This is the development of joint concepts of operations 
that are now underway with this current crop of CNO and service 
chiefs that are willing to sit down and work these things 
together.
    So, Mr. Chairman, it is a pleasure to be here with my 
colleague and to be able to do what we have done for so long.
    I would like to make one introduction. We have with us 
today Major Miller, who is an F/A-22 test pilot at Edwards Air 
Force Base, and one who can attest firsthand to the fact that 
this aircraft is one that we can indeed be proud of and is so 
much better than anything we have ever seen before, that it 
even waters the eyes of a steely-eyed fighter pilot. Sir, thank 
you very much. We look forward to your questions.
    Mr. Lewis. Thank you very much, Mr. Secretary, and Chief.
    [The joint statement of Secretary Roche and General Jumper 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            F/A-22 AIRCRAFT

    Mr. Lewis. The two of you reflect I think the best of the 
service that we have. You expressed it very well. We are in 
this as one team, one fight. We have a challenge that is short 
term that is ahead of us, but the real challenge goes on for 
years to come.
    Shortly after I got this job, I learned that there was much 
to be learned from the two previous Chairmen of the 
Subcommittee who spent a lot of time with me, whether they 
liked it or not. In the meantime, both of them want the job 
back, and I am not giving it up--yet, anyway. But early on in 
that process, they joined with me, along with the entire 
Subcommittee, to take a look at the future of tactical air.
    I think you have spent some time looking at the GAO report 
that raises a number of questions. Not all of them are new 
questions, but nonetheless, one of the first issues we faced 
during that new stewardship of mine was to talk about the F/A-
22; where it had been, where it ought to be going, and what its 
future might be.
    When our Subcommittee recommended that we delay production 
schedules and take a hard look at testing that was projected 
and make sure the testing took place, most people were most 
amazed that my right arm on things like this, my Ace from 
California was right along with us in connection with at least 
raising concerns. The concern that we were raising was not the 
potential capability of this aircraft. Clearly the airframe is 
demonstrating its phenomenal capability beyond that which many 
have expected.
    But the very questions we were concerned about are now 
raising their head. I am not sure what is going to be part of 
the Defense Acquisition Board review that is coming up on 
March--it is March 27th, I believe--but I am hearing some 
feedback that suggests that there will be some additional 
questions raised. So I wonder if you would help us with that. 
In your opinion, will the Operational Test and Evaluation, 
OT&E, be delayed? Will the program be restructured? Do you have 
any idea will there be additional costs and will those costs 
come out of the production budget?
    Secretary Roche. Let me start, sir. The OT&E, we have 
planned to do sometime between, say, August and November. It 
may go closer to November, because we have got to make sure 
that the software issue is taken care of before we go into 
Initial Operatiional Test and Evaluation, or IOT&E. We are 
concentrating on the IOT&E date, because it is a good way to 
bring everything together, but the ``standing Army'' on this 
program is, like, $50 million a month. If you are not doing 
anything, you are still spending $50 million. That is cost that 
buys you nothing.
    We have made what we believe is very measurable progress, 
as I noted from last summer, where we took over the test 
program and became the two people in charge, replaced the 
general officers who were running it with a team that was more 
conducive to what we wanted to do. The program should not be 
restructured.
    We have all of the issues associated with other early 
programs, like fin buffeting which happens to all twin-tailed 
aircraft. We have gotten that fixed. There were other problems 
associated with the performance of the airplane. They are 
fixed.
    We are now down to that problem which will plague every 
major weapons system in the United States, which is trying to 
have enormous amounts of software orchestrated and working 
together. It is something you slug your way through. There are 
people who say: ``Well, we should move to a new level of 
architecture called open architecture.'' Open architecture 
means it is plug and play for whatever you bring along. Its 
basic design feature is that once you have it in place, it is 
much easier to upgrade parts. But there are no living examples 
of an open architecture system that exists. What there are are 
various levels of modularity.
    The F-35 is going to be the first that will try to have a 
good bit of modularity, but it will still have the same problem 
of how do you orchestrate among these various subsystems.
    We now do so much in these airplanes. The F/A-22, for 
instance, will be an intelligence/surveillance/reconnaissance 
plane as well as an attack aircraft, as will the F-35. It will 
be in communications with aircraft close aboard, as well as the 
operations center in some other country. It will be very 
different than something in the past. And consequently you are 
trying to bring a lot together at the same time.
    The flying test bed was funded and used, and certainly I 
made great use of it for the radar. It did not replicate all 
that in fact shows up on an airplane.
    But a lot has been done for which we should be very proud. 
There has never been an aircraft that supercruised before. This 
airplane supercruises beyond its spec. Its radar is the best 
that has ever been produced. The modification to give it air-
to-ground will make it even better against air-to-air cruise 
missiles and give it air-to-ground capability and cause its 
costs to come down by 40 percent per plane per radar.
    So it is an issue where we are at the point where you have 
to slug your way through. Just as you recall that the B-2 had a 
radar that couldn't see through rain at one point, it was a 
software issue. There were other software issues of control. 
You remember the control surfaces weren't behaving correctly. 
It was a software issue. And you work your way through these 
software issues. The F-15 had software issues, and the F-117. 
Anytime you get into this world that is not unlike my personal 
computer at home--I cannot go beyond America on Line, AOL 5.0, 
because if I do, I freeze up something in my computer. It is 
happy with that ancient software, and it works fine, but if I 
try and do more, I can't. I am not smart enough to figure out 
how to change all the other software.
    Here we are talking about certain subroutines that will 
have a problem. We have made dramatic progress in the lab. Now 
it is a matter of moving that progress to an aircraft, 
stabilize it, and then move it to the other aircraft. But 
meanwhile we are still doing an enormous number of test points 
in the plane. So I don't expect it to be restructured. If we 
were to say the software problem is a problem--we have to end 
the program, for instance--then I don't know any major program 
of any service that could pass that test.
    Yes, it is true, it is very true that this phase of this 
program should have been properly funded. And in doing some 
homework, I know that your Subcommittee made that point very 
clear, because I think you heard the B-2 and some of the other 
programs. It was not. And what we are finding is, as I noted, 
the same thing is showing up in other programs. We are running 
back to say how do we make sure that this period where you 
bring everything together for final integration and begin 
tests, and at the same time you transition the production of a 
program, is the most difficult time, because everything is 
compacted at one point. Thatis where we are in this program, 
but we often times forget all of the accomplishments we have made on 
the program.
    General Jumper. And there is nobody, Mr. Chairman, if I 
might add, who has come to us and said the architecture won't 
work, or you have an impossible problem to solve here. We have 
had groups of experts go out and look at this to reassure us. 
So it is a matter of slugging our way through this final step 
of integration and getting ourselves to the finish line here in 
that part of the program that is always the most difficult for 
a system as you transition it from the engineering and 
development phase into the production phase, and you sweep up 
those last items that you have to work the hardest on.
    Secretary Roche. We spent some time with some people in the 
National Academy of Sciences who specifically worry about the 
future of software and open architecture, and they admitted 
that we are at a complex level, and to go the next level in the 
next airplane is going to be a heck of an accomplishment. It is 
the way you would eventually like to have things be, and we 
would at some point like to go back and backfit the 22. To make 
that leap now would be to give you a program that would be out 
of control, and I would never recommend it.
    Mr. Lewis. I have taken up more than my time. I do have 
other questions relative to these modifications that involve 
air-to-ground capability. That wasn't the original design here, 
and our purpose was to question what course we were looking at 
out there in terms of future challenge on air-to-air. Mr. 
Cunningham can help me with that, I am sure. But in the 
meantime, I am certainly glad that some of my Committee did ask 
some of these questions early on.
    Mr. Murtha.
    Mr. Murtha. I will tell you, the Chairman is modest about 
his part that he played in this. He fought everybody, even Jack 
Lew, one of the most liberal OMB directors we ever had, and 
said it is the only program he ever agreed with. And yet we 
were trying to hold it up because we believed that you needed 
to do more research before you went into production. The 
Chairman withstood tremendous pressure. One time we got into 
conference, and it was--well, I won't go into the details of 
that conference, but we had some very difficult times.
    But I am comfortable with what you are doing now, but I 
have heard a couple things. One is that the--I didn't know the 
tail was fixed. In other words, the buffeting is fixed. Is that 
right?
    Secretary Roche. Yes. The programs we have put in, we have 
gone through the tests now, and they work.

                           COMPUTER PROCESSOR

    Mr. Murtha. Now, the computer, I hear, is so old in this 
machine that they don't even do the parts anymore. Is that 
accurate?
    Secretary Roche. The computer is perfectly fine for 
handling things. There are parts within the computer that are 
no longer in production. For the long run, we are developing a 
replacement--it is a central processor, a long-term processor 
replacement for it. We can do everything with this plane with 
what we have. It has room for additional cards, additional 
memory, et cetera.
    Mr. Murtha. I guess it doesn't make sense to upgrade it at 
this point. Is that what you are saying?
    Secretary Roche. Well, if you rushed it, they are having 
difficulty getting the next level of processor, and we have an 
orderly plan to get to it. And when we get to it, we will. It 
is like the air-to-ground mods the Chairman refers to. We are 
not stopping and putting those in. We are seeing how to phase 
those in, and by phasing them in in a way that also reduces 
costs, then that is a sensible thing to do.
    The reason we do all of this is we started the study--the 
Secretary of Defense asked us to do a very first principal 
study of the F/A-22 a year ago. John and I took this as a 
reason to sit back to say is this what we need, is this right, 
and to look at it. Now, like all staffs, everyone assumed that 
there was a predetermined answer, and they gave it to us. And 
we were both quite upset. And we said, no, we are genuinely 
interested, because if we are going to go out and slug away at 
this thing with the manufacturer and the colleagues in the 
government, we better be on firm ground that this is what we 
want.
    Mr. Murtha. And with us.

                      CRUISE MISSILE PROLIFERATION

    Secretary Roche. And with you, absolutely. We have to have 
credibility with you. When we did it, we found that, yes, there 
are some emerging fighters around. There are surface-to-air 
missile systems that are getting better and better. The key 
that we came to was we had no system that can catch something 
that is moving deep, and we have a whole program that goes at 
that. We have now demonstrated each key part; one quite 
classified, in a closed session we could tell you about, that 
had its second absolute terrific experiment. We now know how to 
go do that.
    The second one was we looked at what was happening in 
cruise missiles, the proliferation, the fact that some of our 
allies are quite content to sell you a surface-to-surface 
cruise missile that is stealthy, and how could we defend 
against it? It is not just a matter of seeing it, you have also 
got to kill it. But it turns out that the supercruise 
capability of the----
    Mr. Murtha. Low observable?
    Secretary Roche. Low observable cruise missiles are on the 
market, and these are going to start proliferating as long as 
people are out to buy them. We asked people--we did a survey. 
We went around saying, What do you think the probability is in 
the next 20 years someone will lob a cruise missile into the 
United States? We found two groups. One group said it will 
absolutely never happen. It would be easier to bring the ship 
in and blow up a port. Other groups said of course it is going 
to happen. The issue is there is enough evidence to suggest 
that our deployed forces will face this.
    It turns out supercruise becomes critical on being able to 
get angles of attack and have multiple shots. We worked our way 
through and said if we make the changes to the plane, we can 
reduce costs and have something that is dramatically better. 
And there is no substitute. F/A-22 can do these things. Nothing 
else can.

                      GUARD AND RESERVE PERSONNEL

    Mr. Murtha. Let me say in conjunction with what the Chief 
said, I was just in Incirlik not long ago with the Speaker, and 
most of the guys were from the National Guard in Pittsburgh. 
And then Mr. Hobson and I went back with the Democrat leader 
and, same way, most of them Reserves, integrated seamlessly. 
The Air Force does a better job than anybody else of putting 
Reserves and Guard people in the front lines. It is really 
gratifying to see them work so well together.

                      SUPPLEMENTAL APPROPRIATIONS

    But now the supplemental, you had to have cut back 
onsomething since you are deployed and spend so much money overseas in 
this Iraqi thing. What are you cutting back on? What do you need money 
for? Where are you running out of money?
    Secretary Roche. I will start, sir, and ask John to 
contribute. Clearly what we are doing is money that had been 
authorized and appropriated for the fourth quarter especially, 
we are moving up to do things, to move troops, et cetera. That 
is building a bill for us. That is one type of cost.
    There is another type of cost, sir. We have had to use a 
lot of our instructor pilots, a lot of instructors, to move 
them overseas in order to have the kind of massive force that 
the President would want us to have there. That means training 
is being delayed.
    We have been assiduous about not postponing maintenance, 
but at some point we are going to have to come back and catch 
up on minor things having to do with maintenance. So we have 
been giving data to the comptroller, as part of all the 
services putting stuff together, and dealing with DoD, both the 
costs of doing that, plus the fact that we have to maintain the 
force over the United States. And if the President asks us to 
go into Iraq, I am sure you would expect that we may have to 
put an increasing amount of forces over the United States; do 
that at the same time do Iraq, at the same time ensure that the 
deterrent in Korea is enhanced.
    Mr. Murtha. What is the bottom line? When do you need 
money?
    Secretary Roche. We run out of money? June, as of right 
now. You got us to June by doing something for us a couple 
weeks ago, which we much appreciated. By the way, thank you for 
lifting some of the caps on reprogramming things. That was just 
wonderful. Thank you.

                        BOEING 767 TANKER LEASE

    Mr. Murtha. And we have got the tanker lease. Has that deal 
been signed yet?
    Secretary Roche. No, sir. The Secretary is looking at it. 
It is a tough thing. You hire somebody like me, and you get a 
business deal. And the business deal is different, it is not 
the usual sort of a thing. It is a unique time because interest 
rates are very low.
    Mr. Murtha. We don't like it. We don't like it, but we have 
got to get tankers out there. That is the problem.
    Secretary Roche. And Don Rumsfeld knows this as well, Mr. 
Murtha, and it is a matter of can he agree with us.
    Mr. Murtha. None of us like it. All of us would rather buy 
them.
    Secretary Roche. Well, it turns out this time we think it 
is almost a wash. But if it is not a good business deal for the 
American taxpayer, we wouldn't bring it forward. We think it 
is. Other analysts think it is not. The poor Secretary is in 
the position between two numbers. They do a study on the 
outside; and the outside, it comes in right down the middle. He 
is considering it. But certainly we have been able to 
demonstrate to a lot of our colleagues the condition of our 
tankers, why we are worried, the sensible moves forward. And if 
we don't do the lease, we have programmed money in our budget 
to begin purchasing in a few years.

                    AIR FORCE ACADEMY INVESTIGATION

    Mr. Murtha. I hope your folks will give us something on 
jammers also.
    Finally, I want to tell you how much I appreciate the 
cooperation you have given our staff in looking at the Air 
Force Academy problem, because, you know, the Navy didn't 
handle their problem very well. The Army did a lot better. This 
is such a serious thing, but I appreciate the openness and the 
willingness to cooperate and the fact that you two are paying 
attention yourself to the issue.
    Secretary Roche. We are. We are the leads. We are doing it. 
We are drafting the memo of instructions. We have promised the 
Members of Congress and Secretary Rumsfeld that by the end of 
this month we would issue corrective action to make--we don't 
want to sit and wait, because we have 218 new female cadets 
starting in less than 90 days, which will give us a total of 
714 young women at the Air Force Academy. We have two 
obligations, Mr. Murtha. One is to ensure that the parents of 
those cadets don't go to sleep at night worrying about their 
daughters in ways they should not have to. And secondly, we 
have got to ensure that the parents of the male cadets realize 
that due process will always apply, and we will do that. This 
is something that we take on very personally, because this is 
not something you have staffs do. This is something leaders do.
    Mr. Lewis. Thank you, Mr. Murtha. Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much, and as a 
member of the Board of Visitors of the Air Force Academy, I 
will say that I have followed very closely, Mr. Secretary and 
General Jumper, how you have handled this. And I think you have 
done a--you hit the problem immediately. You didn't try to 
cover up anything. And we had talked earlier in private about 
some of the things that you were doing. Is that something you 
would like to say for the record now, or would you rather hold 
on that and----
    Secretary Roche. If I may, Mr. Chairman, we are trying to 
pull it all together to have a coherent package. I want to vet 
it with my boss, Don Rumsfeld, and then announce next week, 
sir.

                      SUPPLEMENTAL APPROPRIATIONS

    Mr. Young. Fair enough. I wasn't going to do this, but Mr. 
Murtha sort of opened the subject.
    You know, one of the first jobs that I had this year, other 
than the reorganization and getting the hearings scheduled and 
underway, I will have to deal with the supplemental, and I want 
to deal with it as quickly as possible because I know, as you 
responded to Mr. Murtha, you need the money. I mean, you have 
been building up to a war. You have been flying a lot of 
sorties in Northern Watch and Southern Watch. There is a lot of 
money that has already been spent, but we can't get much 
information as to what that supplemental will look like and 
when we might get it. Are you able to give us any insight as 
to----
    Secretary Roche. Mr. Chairman, I would be glad to tell you 
where my head is. I can't tell you when. That is above my pay 
grade. I know that our Comptroller and the Secretary and the 
Office of Management and Budget, OMB are working together. We 
can't predict the length of this conflict. We don't know what 
the costs will be afterwards in terms of reconstitution. We 
have said as we have looked forward that we know what Operation 
Enduring Freedom, Noble Eagle, and maintaining our forces are 
like. We know what it is like to predeploy to Guam to be able 
to support their increased deterrence in Korea. We have 
estimated that something like $15 billion is what we would 
require for our Air Force, but we have to go through and 
justify that, both with the Comptroller and with OMB, and we 
are in the process of doing that now.
    Mr. Murtha. Would the gentleman yield? One thing you have 
to make sure, we had 192 pages in 1991 of justification 
material. We need that kind of justification so we can turn it 
around quickly.
    Secretary Roche. Yes, sir. That is one of the things we are 
doing with the Comptroller. They are not going to send 
something to OMB that he feels that he can't take before Mr. 
Rumsfeld; Mr. Rumsfeld will say, that makes sense and let's go. 
That is part of the delay.
    Mr. Young. Mr. Lewis and I, along with Chairman Duncan 
Hunter and Chairman John Moore and a few other Members, spent 
almost the whole day--and General Jumper was there--at the 
Pentagon with the Secretary of Defense, and the Comptroller 
very specifically, because he did most of the presentation. And 
frankly, they were a little frustrated on how they were going 
to be treated by OMB on this issue of the supplemental, whether 
or not the request from the services would be seriously 
considered by OMB. But we will just have to wait and see, I 
guess, on that.

                          JOINT STRIKE FIGHTER

    Mr. Chairman, let me take up one other issue. We talked a 
lot about the F/A-22 here today so far, but there is another 
airplane out there that we refer to as JSF, Joint Strike 
Fighter. And my understanding was that at one point you were 
not totally satisfied with the engine requirements and that you 
were considering having competing engines. Is that still the 
plan and is that underway?
    Secretary Roche. I will start and then again--I don't want 
to dominate this. My colleague is very articulate. So the JSF 
is about where the F/A-22, then the F-22, was 10 years ago. It 
is having its weight difficulties. The basic engine has about 
$4 billion-plus monies that needs to be invested in it for 
development, and there was an issue with the second source for 
the engine. This is very, very important, that there be a 
second source, because the basic engine on the F-35 is derived 
from the F/A-22 engine. If there ever was a class problem with 
that engine, you would not want the entire fleet of F/A-22s and 
F-35s shut down.
    Therefore, there was to be monies put in for the second 
engine. That was estimated to be around $1.5 billion to do 
that. That cost has moved up to $2.9 billion. Other things 
associated with the program have the program manager delaying 
that for a while, and that is causing some concern. Now, this 
is something that is being run by the Department of the Navy at 
this point, but General Jumper and I resume ownership of the 
program in total in 14 months, and therefore we have asked the 
Department of the Navy if we can be much more actively 
involved. We will start to become much more actively involved 
in the program precisely because we want to make sure when it 
comes back to us, we are not surprised. But it is early in the 
program. Software issues, for instance, will not even begin to 
emerge for another 5 years. But we need the second engine, to 
make sure that there are two engines for the plane, that will 
have that much production.
    Mr. Young. On the JSF, one last question. And then, Mr. 
Chairman, I will relinquish the time. I have been reading 
reports on 
F/A-22, JSF, you know, a lot of the airplanes, and one of the 
latest reports on JSF said something about the weight being 
excessive for the vertical takeoff mode.
    Secretary Roche. Well, all airplanes--you know, weight is 
the nemesis of every airplane, and at this stage of a program 
when you go from general ideas about how it is designed to very 
specific drawings and then start to do the weights of the 
various members, you will recall the A-12, which was an 
interesting issue because it was designed as if it were metal, 
then built in plastic in many cases, and the weight was 
dramatically heavier.
    So at this stage of a program, that is always a problem. 
The engineers have to, once they realize it, work at it. It is 
starting to hit weight limits across the board, but that is not 
unusual at this stage, once you get the detailed drawings 
begun, and they will fight this problem and fight this problem 
for years.
    General Jumper. Sir, a lot of people think that because we 
flew these test airplanes, that the JSF is really a lot further 
along than it is. It is really just emerging from what we call 
``brochure status'' into the place where you really start 
getting down and having to quantify things. Just like every 
other program we have, there will be this turmoil, and it is to 
be expected in any program like this until this really takes 
shape and the engineering and the design really comes together.
    Secretary Roche. You remember the YF-22 and the YF-23 
prototypes were flying handsomely in 1991 and 1992.
    Mr. Young. We are not giving up on the vertical takeoff 
capabilities.
    Secretary Roche. No, sir.
    Mr. Young. Mr. Chairman, thank you very much.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Dicks, Mr. Murtha asked all the questions on the 
tankers, so you may not need your full 5 minutes.

                           AIR FORCE ACADEMY

    Mr. Dicks. Mr. Chairman, I may want to come back to that, 
since I wasn't here to hear the testimony. I just want to say I 
do appreciate the leadership of Secretary Roche and General 
Jumper on all these issues, and particularly coming to grips 
with the problem at the Air Force Academy. I am a member of the 
Board of Visitors at the Air Force Academy, and I am very 
interested in the report that is going to be presented to us. 
And I have been impressed with the way you have taken this on 
directly. I think you are absolutely right. We have to restore 
confidence that the things at the Air Force Academy are under 
control and that, frankly, women are being treated fairly when 
they are interrogated about these issues. And that apparently 
has not been the case, and I hope we can get that straightened 
out.
    And I appreciate the fact that the Chairman wants to talk 
about substance. I always like to talk about substance as well. 
But this is one we have to take care of for the credibility of 
the Air Force, in my judgment.
    And on the tanker issue, I know that my good friend Jack 
Murtha, who has worked with me on many issues over the years, 
asked you about this. I just want to raise the question. I went 
out to Tinker--I know the Secretary was out there at about the 
same time that I was----
    Secretary Roche. Same day.

                         AGING TANKER AIRCRAFT

    Mr. Dicks. Same day, in fact. And I was shocked to see the 
condition of these older airplanes, and the fact that you are 
in there--in there for 200 or 300 days at a time, and they were 
all built between 1957 and 1963, except for the KC-10s, and it 
is about time we started replacing them. And I worry about this 
in the context of--there have been several accidents, or 
incidents, recently where you have had problems with the older 
airplanes. Isn't that correct?
    Secretary Roche. Yes. As you may remember, Mr. Dicks, we 
had a plane that landed at Andrews Air Force Base and went to 
do a 90-degree turn on the tarmac, and the truck containing the 
wheels on one side remained stationary, and the plane turned on 
top of it and it just broke out from its housing on the wing. 
Wehave had that.
    The E models are the ones we worry about most, sir, because 
they are older. They are the ones who were in service, many of 
them, before I was commissioned. At one point to update them, 
they took planes from the retiring commercial 707s and put the 
engines and pylons on them to give them some additional life. 
Those pylons were never intended to go the length of time that 
they have gone, and these aircraft are now averaging 43 years. 
And the corrosion, the catalytic corrosion, which is a battery-
like effect when you have dissimilar metals, or metals near 
each other in the presence of water, is starting to eat away at 
them.
    It doesn't happen to the B-52s by the way the B-52 is 
designed, but also we don't fly something like the B-52 the way 
we did when it was first bought. If we did, it would age a lot 
faster. These aircraft are flown exactly the way they were from 
day one, carrying a lot of fuel and cargo to our airmen.
    So they are corroding, the aluminum is delaminating, the 
costs on the ground, just to take time. The 68 we want to 
retire will probably put a dent in our refueling capability on 
the order of four to five percent, because we will move the 
crews to R models. But all the R models were commissioned--that 
are there today, were all commissioned and flying before John 
was commissioned as a second lieutenant. We have to get to 
this, because I think everyone now recognizes it is pivotal for 
a global reach.
    Mr. Dicks. One, that is true. In Afghanistan, I believe 
every single airplane that flew in there had to be refueled, 
sir. So it isn't just the bombers or the long-range aircraft. 
It is every airplane.
    General Jumper. It is Navy, it is the Marine Corps as well.
    Mr. Dicks. What I worry about is what if we had a block 
failure of these tankers? We would be in a position where we 
would not have this same military capability that we have 
today. And I also worry about this because of the things that 
are tough out there in the Northwest. How long is the 767 line 
going to be around if we don't get started on this in an 
appropriate time?
    And I know I am preaching to the choir. I know you two have 
been very strong advocates of this program. I just hope you 
will take it back to the Secretary that it is time to make a 
decision and move forward with this, and I think there will be 
strong support in the Congress because people up here recognize 
how serious this problem is.

                          PROCUREMENT FUNDING

    And the other thing I worry about of course, you know as 
General Myers, the Chairman of the Joint Chiefs, testifies 
every year, you know that we are $30 to $40 billion short of 
where we should be on procurement. And we don't have the 
procurement dollars. I mean, I hear voices down at OMB saying, 
well, just buy them. Well, if we had the $30 or $40 billion of 
procurement money that we should have in this budget, we could 
buy them. But we don't. And therefore, that is why we have to 
go through the lease and do it differently.
    Secretary Roche. Secretary Rumsfeld has been spending a 
good bit of time trying to get his head around this. It is 
difficult to make a decision that is so different than the ones 
that we have made in the past, and I have great sympathy with 
him. It is the sort of thing he asks us to do to be 
transformational. And sometimes you are different, and when you 
are different, lots of people have to come on board.
    Mr. Dicks. Right. And I just think it would be a tremendous 
thing to get this thing started and then move it forward. I 
wanted to ask another quick question on the B-2.
    Mr. Lewis. By the way, you have almost convinced Mr. Murtha 
on this one.

                B-2 BOMBER GLOBAL AIR TRAFFIC MANAGEMENT

    Mr. Dicks. Yeah, well, we are working on it. And Mr. Murtha 
is always there when it counts. Now, let me ask you this. Could 
the Air Force execute $38 million if provided in a supplemental 
to add GATM, GATM capability to the B-2 bomber? Could the Air 
Force execute the same amount if provided in fiscal year 2004? 
Do you understand what this program is?
    Secretary Roche. Yes, oh, yes. To make it more acceptable 
to international controllers.
    Mr. Dicks. Right. This is a serious problem, right?
    Secretary Roche. It is and we are going through our fleet 
little by little. In the case of the B-2, I think we are going 
to do that at the same time we worry about changing the 
frequency of the radar, because the radar frequency interferes 
with some commercial frequencies. I can't answer the question 
specifically. I have to go back Mr. Dicks and get back to you. 
But GATM is something that is across the board. By the way, in 
these old KC-135 tankers it is not worth putting in the money 
to make them compatible for GATM.

                       F/A-22 PRODUCT IMPROVEMENT

    Mr. Dicks. Going back, everyone has to have their little 
bit on the F/A-22. I have been a supporter of the F/A-22. One 
thing that we did--the Chairman was involved in this, all of 
the people on this Committee frankly were involved when we had 
to do product improvement on C-17. We invested a considerable 
amount of money at one point to try and get it fixed. Well, now 
it has turned out to be one of our very best programs. We have 
gotten the costs way down, did multiyear procurement. I mean, 
is it time for some kind of a product improvement approach 
here? I know that has been suggested, and there is some 
controversy about it. But how do you feel about it?
    Secretary Roche. In fact, sir, we have invested about $470 
million over time.
    Mr. Dicks. There is a question how much. We may need to do 
more of it. That is, I think, the issue.
    Secretary Roche. We might. At this stage, having won the 
first gold award for product improvement by investing 
andgetting costs down, I am very familiar with this. It was an attempt 
to get the supplier to invest to find out ways of lowering the costs. 
One of the problems with that, Mr. Dicks, is--it is always when you are 
a supplier--the assumption of what is the volume. Every time there is 
controversy about this plane in terms of numbers, every other supplier 
behaved just the way I did; which was, whoops, I had better get my 
money faster. And we become very difficult. We were very difficult to 
deal with.
    When the Congress took action last year, and the suppliers 
saw that and saw the Secretary approve the program a year ago, 
within a week all the supplier negotiations were done because 
there was some sense of stability. This program cries for 
stability. If it can become stable--and we have lowered the 
number to produce per year so as to have something, we have 
both gone down--we have both gone through all the production 
facilities, all of the stations--36 a year. If we could get to 
36 a year, then I know how to work to get the costs out of it. 
Then you can make very tailored additional investments in ways 
of lowering costs.
    Mr. Dicks. Okay, thank you.
    Mr. Lewis. Thank you, Mr. Dicks. Mr. Hobson.

                           GUARD AND RESERVE

    Mr. Hobson. Thank you, Mr. Chairman. Thank you, gentlemen, 
for what you do.
    Somebody talked about the Wrights. I would like to invite 
you this summer to where they learned to fly the airplane, 
Wright Patterson Air Force Base. And on seamless, real quick, 
when Jack and I were there, the commander at Incirlik has a 
picture on his wall outside his office. It is a picture of an 
Ohio KC-135, refueling F-16s from--unfortunately from Toledo, 
not from my base--but it is on his base to show the 
seamlessness of the operation. And he says he has flown with 
the guys and he likes it.
    Very quickly, sir, Mr. Secretary, I want to congratulate 
you and the Secretary of the Navy at the time for concluding 
the 18 December 2002 Memorandum of Agreement that forms an 
educational alliance between the Air Force Institute of 
Technology and the Naval Postgraduate School at Abbot. I really 
very much appreciate all you have done on that.
    I have got a series of questions that I will leave for the 
record. But I do think you did a great job on that and I--you 
know, we need to say thank you when you do things right, 
because sometimes we come around and say, hey. And I am going 
to ask you about one of those in a minute.
    Secretary Roche. Softening me up, are you?

             SATELLITE BANDWIDTH FOR USE ON WEAPONS SYSTEMS

    Mr. Hobson. Yes. I can't let you go without that. But when 
Mr. Murtha and Ms. Pelosi and myself were there, we keep asking 
the troops, ``What do you need''? And the one thing that we got 
back from everybody we talked to was bandwidth. And I hope you 
all are looking at that. And if you have anything you want to 
respond to now in this setting is fine. If you don't want to 
respond now----
    Secretary Roche. I think we both do. We agree. When we put 
a Global Hawk up, we use up an enormous amount of bandwidth. 
And one of the things that Secretary Rumsfeld has championed is 
transformational communication. And our Under Secretary Pete 
Teets, who is taking the lead on our team for it, is to try to 
have a quantum leap in how you handle bandwidth by using more 
laser communications between satellites and satellites to the 
ground.
    This year we will be working on trying to definitize a 
program to make that make sense, because we have a decision in 
2005 as to whether to buy two more advanced Extremely High 
Frequency, EHF satellites or to proceed down this path which is 
really quite revolutionary. We are working the bandwidth issue 
by trying to create more.
    The other thing we are doing is taking each of our 
programs, looking to see if we can reduce the bandwidth it does 
occupy. So we would like to do more Global Hawk control, for 
instance, from the back of Multisensor Command and Control, 
MC2A aircraft and get off the pipes that go intercontinental 
from each little drone, and be able to just have one pipe that 
goes back.
    As you know, we have done an experiment of using a tanker 
as a smart tanker in communications relay instead of each 
airplane using up satellite information. We can take all of 
that to the back end of the tanker with no one there, have it 
all processed by machines, and just have one pipe come back. 
Lowers costs of bandwidth, it allows us to free up bandwidth. 
It is something we worry about a lot.
    General Jumper. Sir, let me just say we have also just 
concluded a test where we actually control the Predator from 
the back of a C-130 aircraft with the C-130 aircraft also 
equipped with the same sensors that the Predator has, so that 
you cannot only look with the C-130, but you can control the 
Predator from the C-130, again directly, not taking up 
satellite bandwidth.
    And the Secretary has also directed, that we get deeply 
into the idea of multiple control of Predators. A lot of the 
time now that you spend with Predators is actually physically 
flying it from one place to another. If we can beef up the auto 
pilot and just tell it go from point A to point B and we can 
split up the bandwidth--and we found a way to take the 
bandwidth that we have now and split it up actually into 
several pieces--that allows you now to control several of these 
Predators, and you just station them where you want them at the 
time that you are using the pilot intervention, either when the 
Predator is defending itself against an air threat or a ground 
threat or when you are taking control of that sensor to look 
through it. These are all innovations that we are trying to put 
forth quickly to deal with the bandwidth problem.
    Mr. Hobson. I would just like to make one comment about 
that. When you both talk about Predator and Global Hawk, I wish 
you would talk to Mitch Daniels, because those are both 
congressional adds, as I understand it, that came out of 
someplace around here by a couple of members of this Committee. 
And so not all member adds are bad.
    Secretary Roche. We should also tell you that it is an 
initially historical analogy that we are using. This is a new 
form of warfare. If you just think of it as a plane without a 
pilot, you will make a mistake every single time. If you think 
of it as an adjunct to air and space power, you can do a lot 
better. The model we are using is actually a model that you 
should be very proud of. In the late 1930s, Wright Patterson 
Air Field--those fields were the home of a series of different 
types of aircraft that were used by the Army Air Corps along 
with the field at Maxwell to understand what would be 
appropriate doctrine for the air in which they were going. And 
they did something by having clumps of these and actually 
testing them. They didn't go and spend millions of dollars to 
come up with the perfect airplane. They actually got their 
pilots involved, et cetera.
    That is exactly what we are doing with these unmanned 
vehicles and remotely piloted aircraft. We are getting our own 
pilots involved and our own systems people involved andwe are 
going to have multiple families going at the same time. It will be far 
cheaper in the long run. But its historic antecedent is Wright-
Patterson Air Force Base in the late 1930s.

                          KC-135 TANKER BRAKES

    Mr. Hobson. Thank you. Let me ask the question that I was 
going to ask you. And I want you to understand I have been into 
this before, some current stuff in the paper. But I am 
distressed for the second time that a French company will be 
supplying brakes for the United States Air Force aircraft. 
First Boeing bought French-made brakes for the C-17, which I 
complained about some time ago and nothing happened. Now the 
Air Force is going to buy French-made brakes and main landing 
gear wheels for the KC-135 tanker rework. On February 24, 2003, 
I wrote to Dr. Marvin Sambur, Assistant Secretary of the Air 
Force for Acquisition, complaining about the KC-135 contract. 
The Air Force had rejected all domestic offers for failure to 
meet solicitation requirements. The successful French bidder 
claimed it met the requirements, but that claim was challenged 
by one of the unsuccessful domestic bidders who had tested the 
French company's materials. Dr. Sambur and I met about this.
    Subsequently he wrote to me on 6 December 2002, saying that 
the Air Force had not tested, as I maintained, the brake; but 
that the Air Force would test it before production. And, three, 
the Air Force would not grant a waiver. I very much appreciated 
his time and his willingness to address this matter. 
Nevertheless I questioned why the test has to wait until 
production, April 2004.
    In my opinion, the Air Force should test immediately so as 
not to lose a year, should the French brake fail to meet the 
specifications, or to give them an extra year to perfect their 
product, that by the terms of the specification should be ready 
now and not then. So I have got some concern about this and 
this isn't a result of anything that has been going on now. I 
have been into this before.
    Secretary Roche. It is a new one on me, to be very, very 
honest. Let me go back and look at it. I know that anytime you 
are talking about parts for the KC-135, you are talking about 
parts for an antiquated airplane, and therefore the supplier 
base is not always what you would want it to be.
    Our understanding, from a note just handed to me, was that 
the French product in fact was able to handle many more 
landings than the American product. We will go look at it, Mr. 
Hobson. We would just be talking off the top of our heads if we 
addressed it now, sir.
    Mr. Hobson. That is fine.
    [The information follows:]

    It is true that formal qualification testing for the KC-135 brakes 
is not slated to begin until April 2004. The Air Force will not wait a 
year to ensure the proposed design and prototype brake will perform as 
advertised. Air Force engineers are already witnessing, first hand, 
prototype testing performed by Messier. This data will be reviewed and 
analyzed by the USAF prior to Critical Design Review (CDR). United 
States Air Force engineering personnel will witness prototype testing 
on the following dates:


------------------------------------------------------------------------
 
------------------------------------------------------------------------
Prototype Test:                             Test Dates:
    Vibration.............................      9 April-11 April 2003
    Peak Torque...........................      21 April-25 April 2003
    Static Torque.........................      18 May-23 May 2003
    RTO (Rejected Take-Off)...............      08 June-13 June 2003
Design Review:                              Program Dates:
    CDR...................................      28 June-3 July 2003
------------------------------------------------------------------------

    Following CDR, the contractor will be required to provide the 
Government articles for anti-skid evaluation no later than 31 March 
2004. This qualification test method and schedule were outlined in the 
solicitation and contract. As such, all offerors proposed a 
qualification program that followed this methodology. The Air Force is 
using the same methodology widely in both military and commercial 
development projects; this is the testing process used by all Air Force 
wheel and brake programs. The key milestone in this initial round of 
testing is the CDR. By following this testing plan the Air Force will 
be able to determine if the Messier design and prototype will perform 
as proposed, well before formal qualification testing begins in April 
2004.

                        FOREIGN SALE OF AIRCRAFT

    Mr. Hobson. The last thing I would like to ask you very 
quickly is the Qatarese are buying an advanced so-called F-16. 
But it doesn't look like any--I mean, it looks like, but it 
isn't like any other F-16. Have you all looked at the 
capabilities of that aircraft, because I never hear anybody 
talk about it. Is that because it might affect some other 
programs, or what is the problem?
    Secretary Roche. Is it Qatar or is it the United Arab 
Emirates?
    Mr. Hobson. Maybe it is the Emirates. UAE. And they are 
paying--I am sorry, you are right. But I understand that they 
are paying for all the research and development on this 
aircraft and that it is a lot different than our F-16s.
    Secretary Roche. Oh, Mr. Hobson, are you ready for my 
cassette? Let me start with the block 60. But I can go before 
that. The block--the F-16 version XM--being done for Israel, 
Poland, Greece, Singapore, Chile, and I have forgotten--I said 
Greece--will have a set of avionics suite on it that is better 
than anything in our F-16s. And by the way, Mr. Chairman, 
except for its older modification line, it will have dramatic 
integration of software and everything else and it will be 
delivered within five years of signing of contract.
    The block 60 is the generation beyond that. It will be the 
first Active Electronically Scanned Array, the AESA radar. Has 
a dramatically improved electronic warfare system, forward-
looking infrared, different engine conformal tanks. It 
resembles an F-16 only in its canopy, wheels, tail and the 
outer wings, and it will be delivered within five to six years 
of contract signing. Korea will have the F-15K, which will have 
different engines, different radar, different electronics, than 
any American F-15; highly, highly complex integration program. 
It will be delivered within six years of contract signing. And 
all these are paid for by these other countries.
    The Australians will develop a thing called wedge-tail 
which is a 737 AWACs-like airplane, brand new radar, brand new 
antenna technology, integrating American and other technologies 
on board, and it will be delivered within seven years of 
contract signing. Something is not right with our acquisition 
process.
    Mr. Hobson. I am glad I led you into that, sir.
    Secretary Roche. Thank you, sir. And I didn't ask you to do 
it.
    Mr. Hobson. No. But I think--we don't hear this and we need 
to know that, I think. Thank you, Mr. Chairman.

                          ACQUISITION PROCESS

    Mr. Lewis. Something is wrong with our acquisition process.
    Mr. Murtha. Yes. What does that mean?
    Secretary Roche. The time it is taking for us to be able to 
bring something into the field as compared to the time it is 
taking a foreign country to invest in, develop, and 
purchasefrom American companies is--the times are too different. And 
even if--as we have looked at it we have said, well, let's double the 
time, because they are using a basic airplane form already. It doesn't 
take that long to design an airplane or how to control it. The time is 
still something like half of ours. This is a process that starts in our 
own Air Force, our own bureaucracy, our own requirements that seem to 
get away from the simple proposition of there is a supplier, there is a 
customer, and there is a contract. The contract specifies how many, 
what they are supposed to do, specifications, and the funding line. We 
introduce all kinds of other bureaucratic things that we find hobble 
our own program.
    We will blame us first. When we went out and got into the 
test program and got into the whole thing, we found that our 
own Air Force was not dealing with itself in any sort of an 
expeditious manner. There was no sense of urgency. There were 
just hundreds and hundreds of people who were quite content 
to--well, wait for this thing to happen. Wait for that to 
happen. Perfectly good people. But the sense of urgency of 
delivering on time wasn't there. But when you get to the same 
companies, exact same companies who are delivering for a 
foreign purchaser with a lot less red tape, things happen a lot 
faster. So we are starting in our own house to try and clean it 
up before we cast any stone at anybody else.
    Mr. Lewis. Let me interpose myself in this. One of the 
cudgels the Chairman has is that within DOD there is a great 
propensity for acquisition people, especially in the civilian 
ranks, to be very, very comfortable with the people they dealt 
with last year; and the people they dealt with last year are 
one of the companies that you used to work for or one of the 
other big guys around, and we keep pushing the thought that 
maybe some competition from the small guys might be good. But 
it is tough to crack those preconceived notions. Within this 
mix you guys are the bosses. You hire and fire. I would like 
to, as you give us some subtext to Mr. Murtha's question and my 
comment, if you tell me that five guys have been fired between 
now and then, it would be interesting relative to the X and Y 
procurement attitude that says, oh, business as usual. No 
urgency in contrast.
    Secretary Roche. As you know, Mr. Chairman, we are not 
reluctant to remove general officers from jobs if we think they 
are not in tune with us. Where your point is especially true is 
our combat controller community and our force protection 
community is working in a number of small drones. They are 
working with only small companies and they are, in fact, 
piggybacking a lot of terrific work that is being done by the 
Army and by the Marine Corps. There is no reason for the Air 
Force to go to any of the big companies. These little ones are 
producing some dramatic things.
    John and I were in the mountains in Nevada a month ago, 
late at night, with a styrofoam little thing that was about 
three feet long and about two feet wide, and we launched it, 
watched it, tracked it. It was all made of styrofoam with a 
stabilized little camera. It was terrific for our force 
protection people. Our combat controllers are working with 
other small things. There is dramatic innovation in some of 
these small companies, and we are trying to tailor part of our 
force to go after it. You can't all of sudden turn to them and 
say, produce an F/A-22. What you can do is try to get to the 
larger companies, and if you know something smart about one of 
the smaller ones, say, go deal with them. Don't buy them.
    Mr. Lewis. Yeah. But the other guys can go--that is, the 
foreign buyer can go get an F-16 that has dramatically adjusted 
capabilities in very short time frames because of a different 
attitude. Maybe hiring and firing, I don't know.
    Secretary Roche. And stability. Stability, sign a contract, 
and you roll.
    Mr. Murtha. Stability meaning what?
    Secretary Roche. When you sign a contract with a foreign 
purchaser, you have a set of specs and you have a contract and 
you have a constant stream of money. You can buy in the 
sensible way the parts you need to deliver and you have to be 
able to prove it works. You don't have disruptions in quantity, 
you don't have people coming back and saying let's study 
whether we need this or not next year. The foreign buyer signs 
a contract, except for very rare moments would the contract 
ever be disrupted, it will flow, and then you have an 
obligation. Now, if you make a mistake, you wind up bearing the 
cost. I made a mistake and it cost $65 million. But that is 
what you do. It is business.
    General Jumper. But you are allowed to--then all the 
subcontractors go out there and they buy--if the contract is 
for 100 airplanes, they buy 100 airplanes' worth of stuff at 
the best possible rate. They get the best price for it. When 
all the subcontractors are allowed to do that, it gets that 
cost down and gets that time down to a manageable proportion.
    Mr. Murtha. Well, what can we do to stabilize it? That is 
what I am asking.
    Secretary Roche. Well, the part that we would ask of you--
and remember, all of this is our own problem, not your problem, 
sir--is that a program have some steadiness to it. If we could 
have two years in a row--and I will use my favorite--of the F/
A-22 treated as a stable program, suppliers know how to behave 
under those circumstances. They settle down. They willingly 
invest because they want to be the long-term supplier to get 
their own costs down. When they see numbers bouncing, when they 
see there is a new study or this is happening or that is 
happening, the natural reaction to go is, This is very 
uncertain, I don't like uncertainty, I don't want to risk 
money.
    Mr. Murtha. Have we done that?
    Secretary Roche. Yes, sir. And so have we.
    Mr. Murtha. In what regard?
    Secretary Roche. In terms of the program funding over many 
years and not having it settled early enough and then having 
some steadiness to the program. But as I say, the part of the 
Congress is at the end of the chain. In our own Air Force we 
have caused instability.

                        F/A-22 PROGRAM STABILITY

    Mr. Lewis. I am going to get to Mr. Visclosky, but you just 
forced me to ask this question that one of my very able people 
who worked on the F/A-22 brought to my attention. The Congress, 
OSD, nor the Air Force has cut F/A-22 in many years in terms of 
dollars available. All problems have come from cost growth and 
schedule delays. Tell me why that is the case if we are dealing 
internally with our own problems.
    Secretary Roche. Well, there have been studies of the 
program which have suggested that the numbers volume, the long-
termproduction would vary whether it would live, not live; how 
many planes there would be or not be--which have caused some 
uncertainty in the supplier base. And certainly when I was a supplier, 
I watched this occur. But I said most of the problems are within our 
own.
    Mr. Lewis. Are you responding to my question? I am 
wondering since we didn't cut numbers, we didn't cut costs.
    Secretary Roche. You didn't cut numbers.
    Mr. Lewis. Who did? Studies are fine, but you know, the 
money is money.
    Secretary Roche. These things go through the budget 
process. My understanding is the program did not go as 
initially it was supposed to have flowed.
    Mr. Murtha. But you took it out of research--you took it 
out of production and you put it in research. In other words, 
you asked us to shift it, so it is not a matter of we cut it. 
We put the same amount of money in there.
    Secretary Roche. That is correct. By the way, with a 
foreign buyer, there is no color of money. You move the money 
back and forth.
    Mr. Murtha. One of the mistakes you make, you request too 
many when you ask for it, because that makes the price go down. 
When I say ``you,'' I am talking about the Air Force.
    Secretary Roche. We agree with you.
    Mr. Murtha. We need to have a more realistic figure in what 
you request so we----
    Secretary Roche. Yes, sir, Mr. Murtha, we agree. Not only 
that, we have found that when we go back--went back and looked 
at what were the cost estimates, it was a 50/50 basis, which is 
crazy. Which meant that the probability of the program going 
south inside the Air Force was very high. Now we are trying to 
tell everybody move to an 80 percent. Put in the uncertainty so 
that we don't have the surprises we have had. Because if we 
surprise you, then you have to worry about how to deal with it.
    But between you and us, the Office of the Secretary of 
Defense has to worry about it, OMB has to worry about it, et 
cetera.
    General Jumper. The software integration lab is a perfect 
example. That was a decision made to save a buck, and it was 
the wrong decision to make. There is also test equipment that 
had to do with the environmental control system on the airplane 
that was cut again by the Air Force to save a buck. These are 
mistakes that were made that start with our own and we have to 
correct.
    Mr. Lewis. I guess it goes back to our original discussion 
here that the stability that these other people seem to 
experience some way, even when we control it, we lose control.
    General Jumper. Absolutely.
    Secretary Roche. What Don Rumsfeld refers to is appetite. 
And there, Mr. Murtha, you are absolutely right. Where the 
appetite is so high, and then someone says, well, that's going 
to cost something--well, no, we will do it this way; everything 
will fit right the first time.
    Mr. Lewis. We will cut corners here.
    Secretary Roche. You don't have to buy all the spare parts 
because it will all go together. That is crazy. What we are 
trying to do is to not leave our success with what we have 
found and we have great sympathy with the comments that you are 
making.
    Mr. Lewis. Well, we desperately were working early on to 
have this not be a broken program. And I am still worried about 
it as we go forward and I await this with great interest.
    Mr. Visclosky, you are generous and patient.

                  MILITARY AND CIVILIAN PERSONNEL JOBS

    Mr. Visclosky. Thank you very much, Mr. Chairman. 
Gentlemen, thank you very much for your work. I have a couple 
of questions on personnel, and if I could just give you three 
examples and then if you could respond. It is my understanding 
that Air Force personnel are replacing civilian truck and bus 
drivers who are performing nonsecurity-type of work at Robins 
Air Force Base in Georgia. Secondly, it is my understanding 
that the Air Force is also planning on replacing civilian 
employees who are currently cleaning restrooms and kitchens and 
renovating military housing also with military personnel, in 
this case at Patrick Air Force Base in Florida. Also, at 
Patrick Air Force Base, military personnel are being assigned 
to collect garbage and clean streets in replacement of civilian 
employees who are about to be let go.
    One, I assume because I am asking the question, that that 
information is correct. Secondly, I guess my question is why 
would we be having military personnel replacing civilians who 
are doing this, when we are calling up Reservists and The 
National Guard to help fight a war? Why are we having military 
personnel do these essentially civilian jobs?
    Secretary Roche. Mr. Visclosky, it is a terrific question. 
It is precisely the opposite of the direction that we have 
given over and over and over. We will follow up on each of 
those. But you should please know, sir, that General Jumper and 
I have been adamant, that we are looking for ways to free up 
military uniform people so they do military things and not do 
things that could be better done by, say, active duty people 
like Guard and Reserve or uniform people that could be better 
done by civilians.
    We are in favor of more contracting. We are in favor of a 
more stable work force, but not to have military people do 
nonmilitary things. There are some who think if you are in 
uniform, you are free. It is not true. It is just not true.
    I have probably lost it now, but there was a period of 
about six months ago, we had the pricing out of what it really 
costs when you use an average airman, and it is something like 
$90-some thousand dollars a year when you put all things 
together. Those airmen should be used for the things that they 
do well, not for things that could be done by others. And we 
have asked each of our major commands to look to free up, 
because we have an end strength problem, and I absolutely agree 
with Secretary Rumsfeld. Before we increase end strength, let's 
make sure we are using the people we have in things we want to 
continue to do, and using them well. We found 2,000 of our 
airmen not working in our Air Force. Now, some of that is very 
legitimate. They are on group staffs CINC staffs, or combatant 
commander staffs, or they are in cross-training in hospitals. 
But we also found 600 of them in the Defense Finance Office. 
And we said we want them back. There is no reason for 600 of 
them to be there.
    So this is absolutely antithetical to all the direction we 
have given, and your question is absolutely right, and we will 
ask the same question.
    Mr. Visclosky. Yes. And I have another example, but if I 
could just submit those to you in writing and get a response 
because----
    Secretary Roche. Absolutely.
    Mr. Visclosky [continuing]. Because my personal position is 
we don't have enough people in uniform to meet the commitments 
we have today, let alone any misallocation of those. And if you 
could respond I would appreciate that very much.
    Secretary Roche. We shall.
    [Clerk's note.--Questions submitted by Mr. Visclosky and 
the answers thereto follow:]

    Question. Why in the time of war would the Air Force be placing 
uniformed personnel into non-security type of civilian jobs in the 
United States?
    Answer. The assumption of responsibility for providing military 
vehicle operations support represents the culmination of an Air Force 
Materiel Command (AFMC) plan approved in 1998. The plan centered on the 
relocation of deployable military positions to Air Force bases where 
they can best support the Air Force expeditionary mission. The change 
was a matter of military necessity when the plan was approved and 
remains so.
    A key element of the AFMC plan called for the migration of 
deployable military personnel from Edwards AFB, CA, a base without 
combat flying units, to Robins AFB, which hosts several operational 
combat flying squadrons. This realignment allowed the function at 
Edwards AFB to become available for competition with industry. The Air 
Force objective is to realize synergies by collocating essential 
military expeditionary combat forces at bases with flying units. 
Bringing all the deployable people together facilitates teaming during 
training, equipping and preparing for deployment, as well as during 
subsequent deployments. To maintain their skills, these military 
personnel perform vehicle operations duties at Robins AFB when they are 
not performing their expeditionary role.
    Question. Why in the time of war are we seeing Air Force personnel 
replacing civilian truck and bus drivers who perform non-security type 
work at the Robins Air Force Base (AFB) in Georgia?
    Answer. The assumption of responsibility for providing military 
vehicle operations support represents the culmination of an Air Force 
Materiel Command (AFMC) plan approved in 1998. The plan centered on the 
relocation of deployable military positions to Air Force bases where 
they can best support the Air Force expeditionary mission. The change 
was a matter of military necessity when the plan was approved and 
remains so.
    A key element of the AFMC plan called for the migration of 
deployable military personnel from Edwards AFB, CA, a base without 
combat flying units, to Robins AFB, which hosts several operational 
combat flying squadrons. This realignment allowed the function at 
Edwards AFB to become available for competition with industry. The Air 
Force objective is to realize synergies by collocating essential 
military expeditionary combat forces at bases with flying units. 
Bringing all the deployable people together facilitates teaming during 
training, equipping and preparing for deployment, as well as during 
subsequent deployments. To maintain their skills, these military 
personnel perform vehicle operations duties at Robins AFB when they are 
not performing their expeditionary role.
    Question. Why are we replacing limousine and protocol drivers who 
drive people from Warner Robins, Georgia, to Atlanta, Georgia? 
Additionally, base shuttle drivers and flight line drivers?
     Answer. The assumption of responsibility for providing military 
vehicle operations support represents the culmination of an Air Force 
Materiel Command (AFMC) plan approved in 1998. The plan centered on the 
relocation of deployable military positions to Air Force bases where 
they can best support the Air Force expeditionary mission. The change 
was a matter of military necessity when the plan was approved and 
remains so.
     A key element of the AFMC plan called for the migration of 
deployable military personnel from Edwards AFB, CA, a base without 
combat flying units, to Robins AFB, which hosts several operational 
combat flying squadrons. This realignment allowed the function at 
Edwards AFB to become available for competition with industry. The Air 
Force objective is to realize synergies by collocating essential 
military expeditionary combat forces at bases with flying units. 
Bringing all the deployable people together facilitates teaming during 
training, equipping and preparing for deployment, as well as during 
subsequent deployments. To maintain their skills, these military 
personnel perform vehicle operations duties at Robins AFB when they are 
not performing their expeditionary role.
     Question. Why is the Air Force planning on replacing unionized 
civilian employees cleaning toilets and kitchen sinks and renovating 
military housing with military personnel at Patrick AFB in Florida?
     Answer. This workload at Patrick AFB is currently being performed 
under contract. Military personnel are not being re-assigned to perform 
these duties on a continuing basis.
    Question. Why are military personnel being assigned to collect 
garbage and clean streets at Patrick AFB when there is a war about to 
be fought and civilian employees are about to be discharged?
    Answer. This workload at Patrick AFB is currently being performed 
under contract. Military personnel are not being re-assigned to perform 
these duties on a continuing basis.
    Question. Does the spending bill being presented by you today 
include additional monies for these civilian jobs?
    Answer. No, the fiscal year 2004 budget request does not include 
additional funds for these civilian jobs for the following reasons: (A) 
At Warner-Robins AFB, military personnel will continue to perform base 
shuttle functions to support Aerospace Expeditionary Force mission 
requirements. Contractors will continue to perform decoy vehicle 
driving functions. The fiscal year 2004 budget request maintains the 
fiscal year 2003 level and includes $1.1 million for contractors to 
perform the decoy vehicle driving mission and other vehicle operations 
duties. (B) At Patrick AFB, subject functions (collecting garbage, 
cleaning toilets or renovating military family housing) are performed 
by contract personnel. No additional funds are required.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky.]

                     CRUISE MISSILE LIFE EXTENSION

    Mr. Visclosky. I also have a series of questions on the 
cruise missile program, and we had a discussion last year about 
the concern I have. And it transcends cruise, but it is an 
important part of it, is Mr. Hobson, Mr. Frelinghuysen, and I 
are on the Energy and Water Subcommittee. And obviously, we 
have a large expense at the Department of Energy as far as the 
weapons rate and potential modernization program. And again for 
the record, I have a whole series of questions, my concern 
being that decisions are being made at the Department of 
Defense--and if they are legitimate ones that is fine--but 
without a recognition of what the costs are long term to the 
Department of Energy----
    Secretary Roche. Yes, this is on things with the Advanced 
Cruise Missile, keeping ACMs going.
    Mr. Visclosky. Given the pronouncements of the President as 
far as where we would like to be as far as----
    Secretary Roche. National Nuclear Posture Review.
    Mr. Visclosky. Exactly. And the one question I would have--
and then I would yield back my time--is apparently the Air 
Combat Command last year was preparing a mission statement for 
the cruise missile life extension. Do you know, Mr. Secretary, 
if that has been completed at this point in time?
    Secretary Roche. I don't know. John, do you?
    General Jumper. I don't know. I was a part of that process 
and as far as I know it was submitted, but we will have to get 
back to you, sir, to get you a specific answer.
    Mr. Visclosky. If you could. And I have a fairly 
significant series of questions on this topic, but again I 
don't think I need to take people's time here, but my lack of 
following up on each one of those questions here should not be 
meant to----
    Secretary Roche. No, I understand sir. In fact, we prefer 
it that way because we think some of the answers are going to 
be classified answers.
    Mr. Visclosky. Right. Thank you very much.
    [The information follows:]

    A mission needs statement (MNS) has not been done for 
cruise missile life extension. The recently signed Nuclear 
Response Concept of Operations (CONOPS) will drive any required 
changes to the current MNS.

    Mr. Lewis. Thank you very much, Mr. Visclosky. We have on 
my right six members who have been here most of the time, 
almost all the time, who have not asked a question. So thank 
you for your patience, gentlemen.
    Mr. Bonilla.

                T-37 AIRCRAFT AT LAUGHLIN AIR FORCE BASE

    Mr. Bonilla. Thank you, Mr. Chairman. I only have a very 
brief question.
    Gentlemen, thank you. As most of the Committee members 
feel, we very much appreciate your service to our country. We 
know you have a lot of things on your mind right now. I just 
want to ask a brief question. With Laughlin Air Force Base and 
the great pilot training they have been doing there for many 
many years, there is a need for an aircraft storage facility 
that I was asking the wing commander about just the other day. 
And as you know in that part of the country, two or three times 
a year there are severe storms that develop. And last April we 
had one that caused damage to 80 percent of the assigned T-37 
aircraft that cost $5 million to fix. You just never know when 
this stuff is going to hit. And they really need, in light of 
the pending crisis we are faced with--and we would just hate 
for anything to stop them from what they need to do--I am going 
to look at, unless you object, and I haven't even spoken to the 
Chairman about this, but I am going to look at trying to put 
the money for this hangar in the supplemental because this is a 
very urgent need that they have down there. It is about a $3.7 
million project.
    General Jumper. We will look at it too, sir.
    Mr. Lewis. We have got one at George Air Force base, too, 
by the way.
    Mr. Bonilla. General, I didn't know if you were aware of 
this or not.
    General Jumper. I was certainly aware of the incident.
    Mr. Bonilla. But you know, we work very closely with 
Laughlin and Randolph down there. We want to make sure they 
have what they need to get the job done and have no 
interruptions.
    General Jumper. I understand, sir. No, that is perfectly 
legitimate. We will certainly take a look at it from our end.
    Mr. Bonilla. Okay. Thank you very much. That is all I have, 
Chairman.
    Mr. Lewis. Brevity was by way of trying to get that money.
    Mr. Nethercutt.

                        BOEING 767 TANKER LEASE

    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, 
gentlemen, and thanks to your team behind you. Thanks for all 
of your good work. I want to pile on a little bit on the tanker 
issue. I know it has been discussed, but I find it surprising 
that in the decision to reduce the E model 68,roughly 20 
percent of your fleet, that there hasn't been more objective or 
documentary evidence as to why this is a good thing, especially in 
light of the fact that we are not planning to purchase a new tanker 
until 2009. And there appears to be some delays in decision-making, 
understandably, and I appreciate that, relative to the lease. I don't 
see any evidence, and we have asked for it: net payroll impacts, 
necessary MILCON adjustments, cost of WINS, savings data, whether the 
reduced fleet for tankers will allow us to meet our two Major Regional 
Conflicts, MRC obligations. And I know your staff is working on it. My 
sense is they have worked hard, and I am not here to just knock them 
around or criticize. But I am surprised this hasn't been done or 
documented, or be able to say here is the case for knocking out 20 
percent, and here is what we are going to do if we don't have a new 767 
tanker lease arrangement and we have to buy only one, I understand, by 
fiscal year 2009.
    Secretary Roche. Yes, sir. The Air Mobility Command has had 
the lead on that. And I am in receipt of your letter and have 
your letter and we will get back to you. We asked those same 
questions: What was going to be the impact on our ability to 
refuel? Given the amount of time these things are down for 
maintenance et cetera, it turns out it is about 4 to 5 percent 
hit in terms of the amount of refueling we would normally do, 
because we would move the crews--we keep the crews and we move 
them to R models and use the R models more because the Es are 
just sitting there.
    The second question we asked is, well, look, what does it 
take to keep these things going? Well, they have to be 
modernized, they have to be repaired, the cost in depot. And we 
should tell you this is going to start affecting more and more 
of our types of airplanes, not just the tankers. As this chart 
shows age going on, we have a problem in F-15s now that we are 
having to deal with, Some of the older F-15s which are now 
averaging 20 years old. The sense was by the Mobility Command, 
and then double-checked by our staff, that it is not worth it 
to the taxpayer to ask that we keep these things limping along, 
even if we don't get the lease. Because we specifically said, 
let's do everything on the basis that there is no lease, just 
like our basic plan is, and the Mobility Command came back and 
said these E models are just sick chickens.
    Mr. Nethercutt. That is fine, Secretary, but did they do it 
over a beer?
    Secretary Roche. No, sir.
    Mr. Nethercutt. Where is the documentation?
    Secretary Roche. Data has come in and we are packaging the 
data to bring it over to you.
    Mr. Nethercutt. Okay. I am just surprised it hasn't been 
maybe more forthcoming or more available to be presented. And I 
am not being smart about it. I am serious. I think this is 
important.
    Secretary Roche. No, I understand.
    Mr. Nethercutt. To not only my State but to other parts of 
the country as it relates to our needs in the coming months and 
days and years.
    Secretary Roche. I would not wish to give an excuse, but 
the Mobility Command has been busy in the last couple of weeks. 
But they have the data and we are vetting it and we will bring 
it over to you.
    Mr. Nethercutt. All right. Well, I would be grateful, 
because I want to support you, and this Committee is going to 
make this critical decision about this reduction in force and 
where we go from here, too. I have seen differences in cost 
analysis. An Inside Defense Article says the Air Force is going 
to save $3 billion in fiscal year 2004 alone from retirements. 
My understanding of what our discussion entailed was about $800 
million over 6 years. So there is this disconnect that I 
think----
    Secretary Roche. There is savings in depots. There is cost 
avoidance by not having to do the GATM work or not upgrading, 
and that is the cost that we are involved. And we will show you 
both direct costs and there is also cost avoidance.
    [The information follows:]

    The Air Force decision to reduce KC-135E model inventory by 
68 aircraft balances Air Force priorities and programs limited 
funds where they are most needed. This fleet reduction 
consolidates and retains a capable war-fighting asset yet still 
allows the Air Force to support other priorities. The cost 
savings for reducing the 68 KC-135Es in fiscal year 2004 
through fiscal year 2009 is $781 million. Those savings are 
derived from eliminating depot maintenance, repairs relating to 
corrosion, manpower and required engine overhauls. Over 80 
percent ($627 million) of the savings is scheduled to be 
directly reinvested into sustaining the remaining KC-135 model 
fleet. The $627 million will be applied to repairing corrosion, 
flight training, and aircrew and maintenance manpower. The 
combat capability of the remaining KC-135s is enhanced by 
increasing crew ratios and maintenance manning, resulting in 
higher utilization rates on the remaining aircraft.

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    Mr. Nethercutt. All right. One final question--and I don't 
want to hold my friends up here. But you can answer this for 
the record or now if you want. I want to talk to you about the 
Evolved Expendable Launch Vehicle, this next-generation heavy 
launch vehicle for the military space programs. And the 
possibility is that I understand NASA wants to launch this 
orbital space plane and have it be a manned aircraft that is 
going to be a different configuration moneywise and designwise, 
I understand, as opposed to unmanned launches from an 
Expendable Launch Vehicle. There are some costs increases if 
you are going to do a manned one, just because of the safety 
issue. And I am wondering if you are able to tell us who is 
going to bear the cost for the burden of this increased 
obligation if it is manned versus unmanned, how you analyze it, 
if you can say something now. If not----
    Secretary Roche. We have had some discussion with NASA. I 
would like to come back to you on the record for that, because 
we have to talk to NASA to help answer the question. It could 
have been exploratory language. I would like to know where it 
stands. This was new on my scope and new on John's scope.
    Mr. Nethercutt. All right. Thank you a lot for your service 
and your answers.
    [The information follows:]

    Since human rating is a NASA-only requirement at this time, 
the Air Force assumes NASA would fund any associated mission-
unique requirements.

    Mr. Lewis. Thank you, Mr. Nethercutt.
    Mr. Cunningham.

                              TANKER LEASE

    Mr. Cunningham. Thank you, Mr. Chairman. First of all, I 
would like to identify myself with the tanker problems. You 
know, if you call Texaco posit coming out of Iraq and it is on 
the ground at Hill Air Force Base, it does not do you any good. 
And there is not a fighter pilot I know that doesn't, you know, 
as soon as you get engaged, start wondering where the Texaco 
is. And it is critical. Just like if Turkey doesn't allow 
overflights and stuff, then that becomes even more critical.

                            F/A-22 AIRCRAFT

    What I would like to do, Mr. Chairman, is give the members 
here, not necessarily our friends in blue, but the members 
here, and especially the staff, some things to think about 
concerning the F/A-22. General Accounting Office (GAO) has 
identified certain problem areas, and members are concerned 
with costs. But when it comes to telling if an airplane is good 
or bad or what, I would rely--even more than the folks in this 
room--I would rely on the Air Force's and Navy Fighter Weapons 
School's, young lieutenants and captains and folks like Major 
Colin Miller here, to tell us, what the capabilities of that 
airplane are, rather than I would bean counters. They care, but 
they don't know firsthand the capabilities of this aircraft or 
their significance.
    Secondly, there are avionics questions. We did stop funding 
a F-22 software integration lab. That is not the Air Force's 
fault, but our own. And now we are having aircraft integration 
problems, and components are not being interfaced properly. 
There are problems, but I truly believe they are fixable.
    There is something else we should consider. Much of the 
avionics integration problems that we are talking about will be 
issues on the Joint Strike Fighter. If we don't fix them now on 
the F/A-22, we are going to end up with over 30-year-old 
fighters instead. Then when the Joint Strike Fighter comes up, 
which is not as capable as the F/A-22, it is going to be 
delayed even more because we haven't fixed those avionics 
integration problems. And we are going to be in deep kimchee in 
our fighter forces. It is going to mean life and death to the 
young kids who fly those aircraft.
    Secondly, there is not a single airplane I know that has 
ever come through tests--problem-free. The F-18/EF, it doesn't 
even have the same radar now that it is going to have in its 
final configuration. And guess what? We are going to have 
integration problems along the way. So if you are willing to 
criticize the F/A-22, you had better be able to criticize other 
programs that you are going to support down the line because we 
are going to have these integration problems.
    The F-15, the very first time I flew it, had a problem with 
the radar flood mode. That forces you to go to pulse doppler, 
and it has a seven percent kill probability. While scanning you 
could track the enemy on the F-15, you couldn't shoot him. 
Well, we fixed that on the F-15; but it took time and it took 
money. And other fighter airplanes had problems. On the F-16, 
we initially had a deep stall. We wanted to put the F-110 
engines in for a fix but the bean counters, again, said, you 
can't do that, you are going to have an FCG beyond 52 percent 
mach. They said the airplane will fall out of the sky. Well, we 
fixed that and F-16 has been a phenomenal aircraft. But it 
takes time to work out problems with these aircraft.
    And if you want to cancel these programs every time we have 
a glitch, there are costs. I am a Navy guy trying to protect an 
Air Force airplane. But I believe in it and I think it is the 
way to go. And the key point is that with the Joint Strike 
Fighter, with F-18 or an F-14, do not have the capability alone 
to penetrate some areas. You are still going to need the F-22, 
with the B-2 to stand the point--because these other aircraft 
we are building today do not have the capability to penetrate 
in all scenarios.
    I yield.
    Mr. Lewis. I thank the gentleman for yielding and for his 
comments and he has been very cooperative all along regarding 
the questions that the Committee has raised on that program. 
The elimination of the lab that you were talking about though, 
Duke, I might mention, came as a direct result of the 
authorizers putting a cap on research and development. In turn, 
the bean counters in the Air Force decided that the thing to do 
was to cut back on that lab. These questions need to be asked 
and this program, presuming it survives all the way through the 
process--and I certainly support its survival--will do so with 
a healthy program because of things this Committee----
    General Jumper. Which is my promise to you, Mr. Chairman.
    Mr. Lewis. It is. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, people have invoked Incirlik. I think all of us 
salute the work that has been going on for 10 years, Operations 
Southern Watch and Northern Watch, and the dangers involved and 
the bravery of those pilots. Obviously, their skill has kept 
them alive and we hope those skills, as they are put to use in 
the future, will keep many of them alive. We salute their 
courage.

                             EB-52 AIRCRAFT

    I have a question relative to the EB-52. The Air Force 
appears to be enthusiastic about developing an EB-52 to assist 
in the electronic warfare role alongside the F/A-22, the F-35s 
and other systems. Can you explain to me the concept of 
operations and why the Air Force is exploring the option of an 
airframe that is one of the oldest in the fleet doing a mission 
that is essential, while at the same time moving forward with 
fighter programs that are supposed to be having EW as an 
organic mission? Wouldn't it be more realistic and reasonable--
and we are here about cost--more cost effective to move forward 
with an electronic attack version of the F/A-22 and the Joint 
Strike Fighter, JSF, and leave the B-52 to bomb until it is 
phased out? What are we doing? This falls under the category of 
is it worth it to the taxpayers.
    General Jumper. Sir, thank you for that question. Admiral 
Vern Clark and I have gotten together as we talked about the 
version, the replacement for the EA-6B, and we have talked 
about trying to expand this definition of electronic warfare to 
beyond just a jamming on a fighter platform, and how we might 
come together with other means to address the larger problem of 
being able to penetrate warheads to targets, which is exactly 
what you are trying to do with electronic warfare.
    One of the options that comes out of this study is the need 
to have persistent jamming of the type we saw in the Kosovo 
war, where we had lots of EA-6s that had to come in and out and 
try to cover a large space, not only for the war over Serbia, 
but for persistent aircraft over Kosovo to stay for long 
periods every time to do close air support and other things. As 
it turns out, if you look at it, you have a B-52, it has an 
external fuel tank out there on the wing tip that is the size 
of a small condominium. You can fill that full of jamming 
equipment, potentially, and the studies are stillongoing, and 
you can provide a stand-off jamming capability that can loiter for long 
periods of time in those situations where you have to persist over that 
battlefield for long periods of time to do close air support and other 
things. And by the way, you don't inhibit its bombing capability one 
iota. So it can go. It can still deliver weapons. It can do the stand-
off jamming as an adjunct mission, all with loiter times that are not 
at all possible with fighter aircraft.
    With the fighter aircraft--and Vern Clark is always in need 
of the capability that would have to come off the carrier--it 
would have to be able to run with the pack, would have to be 
able to conduct a raid to get back in and get back out again, 
and always have that jamming capability along with it. So there 
is a complementary nature to this thing that is a subject of 
our study right now before we come forward with specific 
proposals.
    With regard to the age of the aircraft, again, I would just 
emphasize, sir, that three times during the life of the B-52 we 
have gone in and done major structural upgrades to that 
airplane, because it was always supposed to be able to 
penetrate at low level and high speed over a long-range nuclear 
mission. That mission has not come true. Now we are flying the 
airplane up in the benign high altitude environment. It is 
beefed up beyond anyone's expectation. That is why it continues 
to perform so magnificently and so the platform and the mission 
seem to come together. We don't know all the details yet, but 
that is the nature of what we are looking at, sir.
    Mr. Frelinghuysen. So this is a behemoth that is never 
going to die because it still has--it still can be utilized.
    General Jumper. There is no reason to make it go away, sir, 
because it still is so productive in our inventory.
    Secretary Roche. And in our case, if we were to go 
instantaneously to an all stealth fleet, we might think 
differently. But you would not want to take an F/A-22 that is 
stealthy and give it a stand-off jamming capability so everyone 
knew where it was. This is an aircraft that is big enough and, 
as General Jumper said, the size of these pylons are a size of 
a small condominium. We would use the same equipment the Navy 
would, so we would not be developing anything new.
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis. Thank you. Mr. Tiahrt.

                          TANKER LEASE PROGRAM

    Mr. Tiahrt. Thank you, Mr. Chairman.
    I was thinking maybe my colleague from New Jersey was going 
to advocate for reengineering the B-52 and I was going to tell 
him I am with him 100 percent.
    I would be remiss if I didn't talk a little bit about the 
tanker lease program. One note of caution. If we study this and 
delay and interest rates go up 1 percentage point, that would 
be the equivalent of losing one of the tankers. It would cost 
that much money. So I think delay--there is a good chance 
interest rates will go up. Not a very good chance that they are 
going to go down much further. So I may be preaching to the 
choir on this, but I did want to make that note of caution.
    Also, I did hear that--I read, excuse me, that it would be 
difficult if not impossible to maintain our air bridge to the 
Middle East and conduct a 24-hour bombing campaign because of 
the limitations on our tanker fleet now. And I don't know if 
that is true, and I hope it is not.
    Secretary Roche. It is not true, sir.

                         AIRBORNE LASER PROGRAM

    Mr. Tiahrt. Okay. That is comforting.
    I will move on then to the airborne laser program. I wish 
we had that capability today in the Middle East based on what 
is going to happen in a short amount of time here, the ability 
for us to have an airborne laser there and really take care of 
any Scud problem that could result from it in my mind. I am 
proud of the job that the people in Wichita have done modifying 
the first unit, completed successfully the ground tests. Now it 
is at Edwards Air Force Base. Could you give me status on how 
the program is going? Are we on schedule, are we on budget, and 
how is the technology?
    Secretary Roche. I will start. General Jumper has a long 
history in this program, a great supporter. This is one of 
those technology risks that we should take because if it pays 
off it is really quite dramatic. The program is on schedule, 
but it is hitting that point of integration and tests which I 
discussed earlier, and the program was not properly budgeted 
for that. So they are running ahead of their budget to do the 
right thing.
    We have had a major review of the program with General 
Kadish and the program manager. They have done a terrific job 
on this program and it is one where it is at that point in time 
now where you have to worry about things coming together. If, 
like the F/A-22, people did not buy spare parts, and so for 
instance we found with the F/A-22, sometimes planes would sit 
for two weeks awaiting a small piece of tubing. We are praying 
and trying to catch up as fast as we can in the airborne laser 
to see, well, what parts to be buying ahead of time so that you 
don't have the same sort of a problem. They will go through 
some difficulties, but the technology seems so good it is worth 
really pressing forward.
    General Jumper. Sir, I have followed this program closely 
now for a number of years as the skeptical fighter pilot who--
they said, we are going to shoot this laser through unstable 
atmosphere and hit a small target, and I was the biggest 
skeptic they had. I was dragged off by an enthusiastic group of 
scientists out to Kirtland Air Force Base and at the end of 
three days in 1996, they convinced me that the science is there 
to do this. As the Secretary says, that we are at--this is one 
of those programs where we went directly from a computer-aided 
design on a computer screen to building the airplane as a way 
to achieve efficiency. And as these things come together and 
they actually bolt the pieces of equipment to the floor and 
they feel--they figure out how to do things like suspend the 
tube that directs the laser path through the airplane that goes 
up and back through the airplane several times, these are the 
practical things, engineering things, we are running up against 
right now that are causing delays. Nothing that is a show 
stopper yet, but still watching all this come together, you 
know that the problems are going to be there.
    So it is exactly as the Secretary said. We depended on this 
to all come together in a seamless and faultless way. That is 
not going to happen and we are going to have to be prepared for 
some instability in this development program. But, sir, let me 
tell you, I watched the development of the mirrors up close and 
personal. I sat with the scientists as they explained to me how 
they generate this hydroxide laser beam. I will tell you, the 
technology is there and we really do need to give this a 
chance.
    Mr. Tiahrt. Thank you. I am very encouraged by the progress 
and I hope they can finish ahead of schedule, because I do know 
that it will make our troops much safer in the area.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you Mr. Tiahrt. Mr. Wicker.

                             PILOT TRAINING

    Mr. Wicker. Let me ask, undergraduate pilot training, how 
many pilots did we train last year and how many this year? What 
are we going to need 5 years from now, 10 years from now?
    Mr. Hobson. Is that the Guard and Reserve?
    General Jumper. Yes, sir. We put total about--between 1,300 
and 1,600 pilots through our entire system. That is for us and 
for our allies that we help train each year. And we absorb 
those into our Air Force with about 330 or so fighter pilots, 
maybe a little less, and the rest of them to the rest of the 
systems that are out there. And we do that in a series of our 
training bases that you all know stay very, very busy with a 
very high volume of aircraft and sorties that they fly. It is a 
superb program. Everybody wants to be a part of it and we are 
very proud of that program.
    Mr. Wicker. Where do you think it is going to go in the 
coming years?
    General Jumper. We think that about 1,100 or 1,200 pilots 
per year is where we need to be to support the force that we 
have now. As we look at the greater capability of the combat 
forces that we have, as we bring on precision-guided munitions, 
this is always an area that will be under review. But right now 
there is nothing that tells us we are going to need any less 
than that. Remember that the rated requirements not only for 
the cockpits, but you have to have rated senior officers to be 
able to do the war planning and to be able to advise the 
combatant commanders in the field, et cetera. So it is not just 
to fill the cockpits, it is to fill other things that go along 
with a total air and space force.

                             JOINT TRAINING

    Mr. Wicker. Let me briefly ask you, General Jumper, were 
you paraphrased correctly in the recent issue of ``Aviation 
Week'' when you commented that joint training like that at the 
National Training Center has probably been counterproductive? 
And--well, were you paraphrased critically?
    General Jumper. Well, yes. That was an incorrect 
paraphrase. The point I was making during that, and I think if 
you read the whole thing you will see this, is that in the 
close air support issue we've been dealing with in the Army, 
when you go out to the National Training Center what you find 
is the Army very properly--and I pointed this out in my 
interview--very properly stages maneuver forces, ground force 
on ground force, so they can practice the maneuvering they need 
to do to win the tank battle. At the same time, 52 weeks a 
year, they are supported by close air support that comes from 
Nellis Air Force Base in the form of airplanes that go out and 
participate in these battles.
    The full weight of close air support and being able to 
attrit the Red Forces is not felt, because if you attrited the 
Red Forces, then they couldn't get to this maneuver battle that 
they are trying to get to. So what we have done over the years 
is teach generations of Army officers that I see all these 
airplanes overhead in this battle. But you know what? They 
don't kill anybody. So that generation of Army soldiers walks 
out of there saying, well, this close air support didn't do 
much for me. All for the very right reason. The right reason is 
that if it had the full effect, you couldn't get to this part.
    So what General Shinseki and I have agreed to do is to go 
back and address this problem. By the way, we do the same thing 
in Red Flag. In Red Flag we get together so you increase your 
tactical level of proficiency in the air, just like they work 
on their tactical level of proficiency on the ground at the 
National Training Center. So we have agreed that this is a 
problem and we are going to go back and address this and find 
ways to make sure that we can show the full effect of close air 
support as a part of our joint training.
    Mr. Wicker. Thank you.

                            F/A-22 AIRCRAFT

    Mr. Lewis. Thank you, Mr. Chairman. Thank you, Mr. Wicker. 
The gentleman in blue and the Secretary will be most pleased 
with the comments I have to make next. We have a couple of 
votes on the floor and then, following that, there is a brief 
debate on the motion to recommit that we will all have to be 
enamored with, and then we have a couple of votes after that. 
So that is going to wipe out the rest of our ability to be 
here. So, exercising the discretion of the Chair and the 
recommendations of a couple of our members, led by Top Gun, I 
would like to call upon--if you gentlemen give me the leave--I 
would like to call upon Major Colin Miller to stand, if he 
would. You know, we have got some questions about software, et 
cetera, et cetera, et cetera. But tell us about this airplane, 
what your experience has been. What will it do? Give us a 
little dog-and-pony show, Major.
    Major Miller. Yes, sir. Thank you for the question. I grew 
up in the F-15 in the Air Force, an incredible airplane and 
still extremely capable. The F/A-22 is a whole new ball game, 
it really is, just generations ahead. The things that as a 
pilot--the four transformational capabilities that I see daily, 
the stealth, the supercruise, the integrated avionics and 
maneuverability--when you put them together, you really get a 
synergistic effect that gives you an airplane that I believe 
just will never be beat. The supercruise is really eye-watering 
for a pilot. I never thought I'd say an airplane has too much 
thrust, and I won't say that today. But it is close. When you 
put it in military power, you are really moving around. What we 
are seeing is about a 50 percent increase in the range of our 
standard weapons that we carry on a lot of the fighters.
    At the same time, it really decreases your vulnerability, 
because now all the other weapons that are looking for you have 
to work a very tough thematic problem because you are moving so 
fast. On top of that, you are very stealthy. And so first he 
has to find you, then he has to figure out how to solve that 
problem. And we have run against the ground and air systems, 
and we are starting now to run in integrated scenarios against 
heavily defended battlespace. And when you pull all that 
together, it is extremely frustrating for any force that is 
trying to engage you. While we are denying them shots and 
denying them situational awareness, the integrated avionics, 
when they are working, are really phenomenal. With very low 
work load, the pilot gets a complete picture of the battlespace 
that is in color. People are identified red or blue. And they 
are identified by platform height and whether or not they are 
trying to prosecute a target against you. It even tells you if 
they are trying to prosecute a target, prosecute your wing man, 
so you can help them.
    So we have all that. We also have--datalink is now working 
in the airplane, the phenomenal force multiplier, and will 
bring these on soon. So when you put all these things together 
for a fighter pilot, that is the airplane I want to be in. I 
have great situational awareness and I have great capability to 
prosecute the attack. And in many ways I am invulnerable.
    Mr. Lewis. Major, you may want to know that some years ago 
we would have thought we blew the lid off the Pentagon when we 
suggested that maybe we ought to test this baby before we just 
automatically leapt into a multibillion dollar potential 
procurement. All that you have described is fabulous, presuming 
all these systems are working together. And it was your 
civilian defense members who are concerned about the future of 
the Air Force and this program who insisted we test it first. 
It is really, really important for us to be working together. 
We couldn't be more proud of the Air Force, and you personally, 
and the job you are doing. But we want to make sure that the 
assets we provide for you do, you know, what the people who are 
on the drawing boards say they think it might be able to do.
    So, gentlemen, with that, I think we ought to let all of 
our friends go do much more important work than here. And with 
that, thank you, Major. The Committee is adjourned.
    [Clerk's note.--Questions submitted by Mr. Hobson and the 
answers thereto follow:]

            Sexual Assault Scandal at the Air Force Academy

    Question. It is an understatement to say that I am outraged by 
recent reports that male cadets at the Academy victimized more than 50 
female cadets and that officials at the Academy did nothing to help 
them. Female cadets reporting assaults suffered reprisals by academy 
leaders or fellow cadets. Twenty cadets said they were ignored, 
criticized, or disciplined after reporting a sexual assault. Female 
cadets not reporting assaults kept silent out of fear that they would 
suffer the same reprisals visited upon their more vocal sisters. This 
has to stop.
    With all respect, General Jumper, it gives us no confidence to read 
in the newspaper ``the Chief of Staff defended the generals running the 
Air Force Academy . . .'' If this type of poisoned climate exists, the 
Superintendent and past Superintendents are, ultimately, to blame. It 
is called responsibility and leadership, sir. Two things that it is 
most important to show at the training ground of future Air Force 
officers.
    Who is responsible (perhaps the female cadets themselves, or some 
General who you have promoted, retired, and decorated)?
    Answer. With several reviews and investigations of the Academy 
situation incomplete, we cannot yet be sure we know all the facts, and 
we must not rush to judgment as to the personal responsibility of any 
individual. We intend to take another look at this issue when all the 
relevant information is in. As you are aware, we have replaced the 
leadership team at the Academy. We did so because we believe new 
leadership can most effectively implement the changes the Secretary and 
I will direct at the Academy in our Agenda for Change, which we expect 
to release next week, and any future changes we may find appropriate 
after receiving the reports of the Working Group, the Air Force and 
Department of Defense Inspectors General, and the review group recently 
mandated by the Congress. Our focus has been, and remains, addressing 
the issues raised.
    Question. How are you going to address what has happened in the 
past and how are you going to prevent it from happening in the future?
    Answer. As you may be aware, the Air Force is engaged in a 
comprehensive review of Air Force Academy programs and practices to 
deter and respond to sexual assaults. In connection with that review, 
we are looking closely at factors affecting both reporting and handling 
of alleged incidents of sexual assaults, including the cadet hierarchy 
and the relationships between the upper and freshman classes. We are 
also evaluating how the Academy administers cadet discipline in order 
to ensure there are no obstacles to the reporting of crimes. We are 
evaluating how we select, train, and organize the professional staff to 
ensure we provide the best available supervision and mentoring. We are 
also reviewing the process of investigating allegations of sexual 
assaults, as well as the awareness training, medical care, counseling 
services, legal consultation, victim advocacy, and spiritual support we 
provide to victims to ensure they receive the support that they need, 
and fair treatment throughout the investigative and judicial process.
    While our review is continuing, the Secretary and I have made 
changes in Academy leadership in order to implement some significant 
changes to reinforce our goals to train and equip tomorrow's leaders at 
the Academy. We intend to ensure the safety and security of every cadet 
and to enhance the trust and confidence of the American people in the 
Air Force Academy. We will shortly announce a variety of changes 
including among others those regarding cadet life, Academy leadership, 
officer and non-commissioned officer selection and training, security 
for cadets, and the social climate at the Academy. These changes, which 
are to be implemented in time for the arrival of the entering Class of 
2007 this Fall, are intended to reinforce the values of character, 
leadership, integrity and honor that we must instill in every cadet and 
future Air Force officer.
    Finally, we have made it clear to the cadets that sexual assaults 
will not be tolerated at the Air Force Academy, and all who commit 
sexual assaults will be brought to justice. In addition, those who 
knowingly protect perpetrators, and those who would shun or harass 
anyone with the courage to come forward and report these crimes will be 
held accountable.

                   Air Force Institute of Technology

    Question. Mr. Secretary, I would like to congratulate you and the 
Secretary of the Navy for concluding the 4 December 2002 Memorandum of 
Agreement that forms an educational alliance between the Air Force and 
the Navy. This MOA is an excellent first step in implementing 
``jointness'' for military education and I strongly support it. This 
educational alliance will maintain the Air Force Institute of 
Technology (AFIT) and the Naval Postgraduate School (NPS) as ``world 
class'' higher educational institutions; complementing each other; and 
ensuring high quality, relevant and responsive graduate education 
aligned to defense needs. Thank you.
    How critical are the educational programs of AFIT and NPS for 
meeting the needs of the Air Force?
    Answer. All programs at Air Force Institute of Technology (AFIT) 
are specifically designed to meet Air Force needs. The research 
conducted by AFIT students and faculty directly supports Air Force 
critical technologies. The Department of Defense and Air Force focus 
allows AFIT to quickly respond to new and changing Air Force 
requirements. While programs at the Naval Postgraduate School (NPS) 
meet and respond to Navy needs, in many areas the military focus is 
also applicable to the Air Force. The rationalization effort seeks to 
optimize the educational programs at AFIT and NPS to create world class 
institutions to meet the needs of all the Services and Department of 
Defense, including those of the Coast Guard.
    Question. The MOA commits the two services to filling all seats at 
AFIT and NPS before sending students to civilian schools. How is the 
Air Force implementing that commitment? How is the Navy?
    Answer. Air Force Institute of Technology's (AFIT's) Registration & 
Admissions Office (RR) is responsible for designating the source of 
education (AFIT, Naval Postgraduate School (NPS), or Civilian 
Institutions) for Air Force educational requirements. Our current 
guidance is that Air Force students will attend AFIT first, if the 
program is offered, then NPS, or finally civilian institutions. AFIT/RR 
is in regular contact with AFIT's graduate school and with NPS in 
implementing the guidance.
    Question. The MOA requires the creation of a joint AFIT/NPS 
admissions and quota control process to provide for enrollment of 
students from all services and from the Coast Guard. What steps is the 
Air Force instituting to carry out that requirement?
    Answer. While the Air Force and the Navy have separate admissions 
and quota control processes, the MOA requirement is being addressed in 
ongoing discussions between the two schools.
    Question. The MOA requires the Air Force and Navy to review current 
AFIT and NPS policies and to establish common policies that represent 
best practices at both schools. What mechanisms has the Air Force put 
in place to accomplish this requirement, and how will you involve the 
faculty and leadership of the two schools in conducting the necessary 
review?
    Answer. The draft implementation MOA is currently being reviewed by 
the faculties of both institutions.
    Question. The MOA requires the Assistant Secretaries of Financial 
Management for the two services to program the resources needed to 
launch the alliance and ensure its success.
    What specific initiatives will be funded in order to launch the 
alliance and make it successful, over and above those funds needed to 
sustain the excellence of the ongoing operations of the two schools?
    Answer. The Air Force continues to research funding requirements to 
launch the alliance and ensure its success. The Air Force is committed 
to the alliance and to making sure it is resourced properly to ensure 
its success. The Air Force Institute of Technology (AFIT) Board of 
Visitors, in their March 2003 meeting, recommended that AU/CC and the 
Navy's CNET/CC determine those areas of the alliance that will be the 
most productive in terms of collaboration. AFIT/CC and NPS/CC are 
currently executing that tasking together.
    NPS and AFIT do have different business models in terms of levels 
of direct and reimbursable funding--tuition payments are one area of 
difference. Both models work fine for the respective services at the 
present time. However, the services are reviewing systems to determine 
if a more compatible business model is necessary to further the goals 
of the alliance.
    Question. Is there a dichotomy in that the Navy charges tuition 
which it keeps to lower operating expenses where the Air Force does 
not?
    Answer. The Naval Postgraduate School (NPS) has Title 10 authority 
(Chapter 605--U.S. Naval Postgraduate School, Section 7045(b)) that 
allows the school to charge tuition and related fees and expenses for 
international officers and sister service officers to attend. These 
additional funds are used by NPS to hire additional faculty, etc., due 
to the limitations of authorized faculty positions. Equivalent Title 10 
authority (as that for NPS) would place both institutions on equal 
footing to account for international and sister service officer 
attendees. The Air Force Institute of Technology (AFIT) does not have 
the equivalent authority and must allow international officers and 
sister service officers to attend on a space-available basis. The Air 
Force is currently analyzing possible AFIT requirements for charging 
tuition.
    Question. Oversight of the education alliance is to be carried out 
by the respective Air Force Board of Visitors and the Navy Board of 
Advisors. The MOA directs that each school's governing body will 
interact with each other.
    What steps has the Air Force taken to interact with the Navy Board 
of Advisors?
    Answer. Oversight of the alliance is to be carried out by the 
respective Air Force Board of Visitors (BOV) and the Navy Board of 
Advisors (BOA), with interaction with each other. Air Force Institute 
of Technology (AFIT) and Air University representatives were invited 
and attended the NPS BOA meeting on 29 January 2003. Representatives 
from NPS BOA and the Air University BOV attended AFIT's BOV meeting on 
17 March 2003.
    Question. What would you think about a Joint Board of Visitors?
    Answer. Separate boards recognize that Air Force Institute of 
Technology and NPS remain independent institutions. Close interaction 
will facilitate the collaboration essential to optimize both 
institutions. While a Joint Board of Visitors would give a single focus 
point for oversight of the alliance, and may emerge from on-going 
efforts, it would be premature, in our view, to judge the value of a 
Joint Board.

                       Future of the C-5 Aircraft

    Question. General Jumper. I appreciate your designating the C-5A as 
the follow-on aircraft to the C-141 cargo plane currently operated by 
the 445th Air Reserve Wing at Wright-Patterson Air Force Base, Ohio. 
These planes are to be re-engined. Should that not be possible, the 
445th is to get C-17s.
    On 27 April 2003, Secretary Roche announced that the Airworthiness 
Board would conduct a review of the C-5A to determine if the airlifter 
fleet is too expensive to maintain and should be retired. Where is this 
review?
    Answer. The C-5A will be the first aircraft assessed by the new Air 
Force Fleet Viability Board (formerly the Air Worthiness Board). The 
board will assess technical and cost aspects of specific aircraft 
fleets, and then make recommendations to the CSAF/SECAF on whether to 
sustain or retire those fleets. The board will be assembled by the end 
of May 2003. Once the board is assembled, the C-5A assessment will 
start, and should be complete by October 2003.
    Question. What is your personal view about what we should do with 
the C-5A? Does it include buying additional C-17s?
    Answer. The Air Force is committed to divesting itself of legacy 
aircraft that are no longer supportable. Having said that, we also have 
airlift requirements that are imperative to the Air Force's global 
reach mission. The C-5A is a major contributor to this capability. In 
the initial stages of the C-5 Reliability Enhancement and Re-engining 
Program (RERP), the C-5A is part of the System Development & 
Demonstration (SDD) effort. The SDD process involves an extensive 
teardown and reconfiguration that, along with the Air Force Fleet 
Viability Board recommendations, will allow us to make an educated 
decision on the feasibility, supportability, and cost-benefit of 
modernizing the C-5As. If the C-5A is not found to be a good 
investment, then an additional buy of C-17s will be required to meet 
the 54.5 million ton mile per day minimum requirement for our airlift 
fleet.

                      Science & Technology Budget

    Question. Overall, this has to be viewed as a disappointing budget 
for Air Force Science and Technology (S&T). It runs counter to a number 
of studies (National Academy of Sciences, Scientific Advisory Board) 
that called for a real increase in S&T spending. At a time when the 
national defense needs more scientific development for long-range 
planning, status quo seems inadequate.
    Perhaps the biggest problem is the cut in applied research 
programs, which will be funded at an 8.6 percent reduction from last 
year. These programs are truly the seed corn for future weapons 
systems. Further and frankly, they also tend to pay the personnel bills 
at the labs, so are very important to the organic scientific workforce.
    How did you set the amount of this request? Was it the Air Force or 
OMB?
    Answer. The 8.6 percent reduction cited in this question stems from 
a comparison of the Fiscal Year 2003 and Fiscal Year 2004 amounts as 
reflected in the Fiscal Year 2004 President's Budget (PB) request. 
However, this Fiscal Year 2003 amount includes almost $170 million in 
congressional adds. The Air Force has worked hard to maintain a 
balanced Science and Technology (S&T) portfolio and the fiscal year 
2004 President's Budget requested amount of $2.2 billion is actually 
higher than the fiscal year 2003 appropriated amount of $1.8 billion 
for the Air Force S&T Program and provides for the technology 
development essential for the Air Force vision of an Expeditionary Air 
and Space Force. This amount includes $758 million for applied research 
efforts--an increase of $60 million over the Fiscal Year 2003 requested 
amount, which equates to seven percent real growth. Although the 
civilian pay portion of this Applied Research funding goes down $20 
million this is the result of a bookkeeping change vice an actual 
decrease in civilian pay funding--per congressional direction, civilian 
health care and life insurance funding for retirees was transferred 
back into the centrally-managed account from which it had come the 
previous cycle. If you subtract civilian pay and compare only the non-
civilian pay portion of the applied research funding, the actual real 
growth is 24 percent.

                        Use of Guard and Reserve

    Question. In the September 13, 2002, letter to Defense Secretary 
Rumsfeld, with a copy to Secretary Roche, I complained about the misuse 
of the Guard and Reserves. Part-time reservists are being turned into 
full time soldiers through extended and unpredictable active duty 
assignments. While reservists are more than willing to do their share, 
especially in a time of crisis, they signed on with the expectation 
that periods of active service would be relatively short.
    Are we using the Guard and Reserve instead of asking for the higher 
level of Active Component troops actually needed?
    Answer. The Air Force has adequate active duty end strength. We are 
adjusting the Active Component force mix (not force size) to meet 
requirements and reduce our need to bring Guard and Reserve personnel 
on extended duty. We have defined stress on active duty career field 
areas and are working to redistribute manpower for areas of lower 
stress to higher stress to fulfill active duty requirements. We are 
also overhauling our requirements determination process. This new 
effort will incorporate a quicker method of determining manpower 
requirements that is tied more closely to UTCs (unit type code-
deployment requirements) and defines levels of capability for both 
peacetime and wartime workloads. Ultimately, during a deployment, war 
planners will be able to define the capability required, select the 
right force to meet that requirement and then define level of 
capability at the home station and adjust work out appropriately.
    Question. What is your Active strength and what should it be?
    Answer. The beginning strength for fiscal year 2003 was 368,251; 
this was 9,451 over the authorized strength level of 358,800 for the 
end of fiscal year 2002. Air Force Active Duty End Strength for fiscal 
year 2003 is 359,000. The Air Force has adequate end strength and is 
adjusting its Active Component force mix (not force size) to meet 
requirements. This is a skills mix problem. We have defined stress on 
active duty career field areas and are working to redistribute manpower 
for areas of lower stress to higher stress to fulfill active duty 
requirements. We are also overhauling our requirements determination 
process. This new effort will incorporate a quicker method of 
determining manpower requirements that is tied more closely to UTCs 
(unit type code--deployment requirements) and defines levels of 
capability for both peacetime and wartime workloads. Ultimately, during 
a deployment, war planners will be able to define the capability 
required, select the right force to meet that requirement and then 
define level of capability at the home station and adjust work out 
appropriately.
    Question. What percent of the mission is done by the Active 
Component, the Guard, and the Reserves?
    Answer. This is a complex question because there's no easy method 
to directly compare the contributions of each component of our total 
force. For example, many members of the reserve and guard volunteer to 
serve and are able to contribute significantly to our wartime mission 
without mobilization. Trying to account for the contributions of each 
component to real-world contingencies can also become difficult. Many 
active duty members directly support combat operations from their home 
station because of our investments in technology. Alternatively, 
mobilized reserve and guard members ensure continuity of operations at 
active duty bases by performing the duties of active duty personnel 
deployed.
    With these caveats in mind, let me attempt to provide some insight 
into the level of contributions the reserve and guard are providing 
today. Our total force is composed of over 700,000 personnel. The Air 
Force Reserve (AFR) makes up 11 percent; the Air National Guard (ANG) 
makes up 15 percent; and the active component, including civilians, 
completes the force with 74 percent. Today, the AFR has approximately 
14.5 and the ANG has 11.9 percent of their total force mobilized. 
Directly supporting OPERATIONS IRAQI FREEDOM, SOUTHERN WATCH, NORTHERN 
WATCH, and ENDURING FREEDOM, the active duty component has 12.3 percent 
of its personnel deployed to the theater. The AFR and ANG had 3.4 and 
7.8 percent of their forces deployed, respectively.
    Question. Do the Guard and Reserve requests for equipment and 
military construction projects reflect their share of the mission?
    Answer. Yes. We build our requests for equipment and military 
construction by balancing the mission requirements of the Total Air 
Force . . . Active, Guard, and Reserve. We do not, however, develop 
these requests based on any sort of ``fair share'' system. Our requests 
are developed to meet the most pressing requirements of the Total 
Force, be they Active, Guard, or Reserve.

                       Rotational Force in Europe

    Question. General James Jones, Commander of United States Forces in 
Europe, has discussed the possibility of moving to a United States 
presence in Europe made up of 1) troops on short term rotations, 2) 
families left at home in the U.S., and 3) ``lily pad'' compact bases 
scattered in the New (Eastern) Europe and Africa. Camp Bondsteel would 
be a model. While all bases are at risk of being closed or downsized, 
General Jones singled out Ramstein as a base with ``enduring value.''
    What is the Air Force's opinion of this vision?
    Answer. General Jones' vision fits squarely with our Air 
Expeditionary Concept wherein the U.S. Air Force provides combat ready 
forces capable of responding in hours and days to meet our nation's 
security requirements across the spectrum of operations from 
humanitarian relief to combat operations.
    Our expeditionary construct already capitalizes on changing our 
forward presence footprint from sole reliance on garrison basing to one 
that uses rotational forces to provide the same level of presence. Our 
forces construct schedules our units for a specific time period, of 
approximately 90 days, thus allowing us to maintain a guaranteed amount 
of immediately available forces while affording our personnel the time 
required to perform needed training plus post- and pre-deployment 
actions. While this concept works well in many parts of the world, we 
still need to maintain permanent-party, overseas bases, particularly in 
Europe and the Pacific, to guarantee us access into other critical 
regions of the world during a time of crisis. We are studying our 
requirements at this time so it is premature to commit to any specific 
number, type, or location of bases.
    The use of a rotational force may afford some possible benefits, 
such as allowing the families of our airmen to remain in a single 
location for extended periods of time, but it can present us with new 
challenges in retaining those same airmen as they maybe faced with 
multiple long deployments away from their families. As we say in our 
service, we recruit Airmen but we retain families. Rotational forces 
may place unforeseen strains on our training and experience levels at 
our bases depending on the frequency and duration of rotational 
deployments. We also believe that having American families stationed 
abroad affords other nations the opportunity to directly observe our 
values in practice and learn that we are not so different from them. 
For example, parents all over the world share essentially the same 
concerns for their children.
    While ``lily pad'' bases, such as Al Udeid or Singapore, are 
invaluable to allow us access to their regions in times of need, we 
still need select overseas bases, like Kadena and Ramstein, that afford 
us the opportunity to marshal our air and space assets prior to entry 
into one, or more, critical regions. In particular, Ramstein provides a 
critical capability as a ``jumping-off point'' allowing aircraft from 
the United States, or Southwest Asia, a guaranteed location we can rely 
on to refuel and repair our aircraft. Ramstein, along with our other 
bases in Europe today, allow us a convenient marshalling point to 
embark deploying North Atlantic Treaty Organization (NATO) forces for 
out of area operations.
    Question. Are all military construction projects in Europe on hold 
and is it because of this or something else?
    Answer. The military construction projects for certain European 
bases in the fiscal year 2003 enacted military construction 
appropriation were on hold earlier this year to allow the European 
Command combatant commander an opportunity to review the military 
construction program for his theater. His review is now complete. With 
the exception of one Air Force family housing project in Germany, all 
other Air Force military construction projects in the fiscal year 2003 
overseas program are moving forward toward project award and 
construction.
    Question. Is there the same situation for military construction 
projects in Korea?
    Answer. We have not yet seen the final results of Pacific Command's 
basing study. However, we anticipate our Air Force installations in the 
Republic of Korea, Osan and Kunsan Air Bases, will continue to have 
enduring value to U.S. interests in the region. We do not anticipate 
that the need for the military construction requirements at Osan and 
Kunsan Air Bases in the fiscal year 2004 budget request and our future 
years defense plan will diminish in any way.

                      Joint Strike Fighter Weight

    Question. Recent press reports have suggested that the Joint Strike 
Fighter could be up to 20 percent overweight, threatening the Short 
Take-Off Vertical Landing (STOVL) version of the plane.
    How much of a problem is this and how is it being addressed?
    Answer. Weight control is a significant concern on any aircraft 
development effort, including the Joint Strike Fighter (JSF), and we're 
working to get it right. The current design of the U.S. Marine Corps 
STOVL variant shows it could exceed target weight. The JSF Team is 
currently making adjustments to internal structures layout, materials 
composition and examining all variant designs to ensure target weights 
are met.

    [Clerk's note.--End of questions submitted by Mr. Hobson. 
Questions submitted by Mr. Nethercutt and the answers thereto 
follow:]

                          Air Worthiness Board

    Question. The budget request proposes the establishment of an Air 
Worthiness Board, a group of independent experts that would be charged 
with determining when it is no longer financially viable to keep old 
aircraft in service and mandating retirement of those platforms.
    Please describe the intended composition, responsibilities and 
functioning of the board.
    Answer. The board will lead a continuous process of evaluating 
aircraft for sustain-or-retire decisions. Approximately four aircraft 
fleets will be evaluated each year according to a prioritized list with 
the goal of completing all major aircraft within a five year period. 
The board will be led by a director who may be an active duty Air Force 
Colonel. The director will be assigned to the Deputy Chief of Staff for 
Installations and Logistics, and will be stationed at Wright-Patterson 
AFB, OH. Other board members include Aeronautical Systems Center (ASC) 
senior civilian technical experts from the propulsion, aircraft 
structures, sub-systems, and avionics fields, and a cost analyst from 
the Secretary of the Air Force's Financial Management and Comptroller 
Directorate. A sub-group of the board, known as the Inspections and 
Survey Team (IST), will provide the actual hands-on inspections and 
data analysis. Members of the IST will come from ASC as well as from 
specific weapons system program offices. Some IST members will be 
different for each aircraft fleet.
    A fleet assessment will begin with the IST conducting hands-on 
aircraft inspections and analysis of structural integrity, safety, 
propulsion, avionics, and cost information at a minimum. The IST will 
then provide an assessment to the board, containing the continued cost 
burden to maintain the fleet and the capability impacts of doing so. 
Capability impacts include increased maintenance man-hours, increased 
depot hours, degraded aircraft performance, etc. The board will review 
the IST assessment, validate the technical and cost data, and make a 
sustain-or-retire recommendation to the Secretary of the Air Force and 
Air Force Chief of Staff.
    Question. In evaluating aircraft for possible retirement, will the 
board consider Air Force requirements and the cost of replacing the 
aircraft with an equivalent capability?
    Answer. No. The board's charter is to assess a fleet in order for 
the Secretary of the Air Force and Air Force Chief of Staff to make a 
sustain or retire decision based on technical and cost factors only.
    Question. Why are KC-135Es being rushed into retirement before this 
board is even established?
    Answer. We are convinced that it is essential to begin replacing 
the oldest combat weapon system in the Air Force inventory right away. 
Indeed, increasing costs and decreasing reliability and 
maintainability, in light of our future expectations, have already 
reached the point where it no longer makes sense to continue investing 
limited resources to keep our oldest and least capable KC-135E tankers 
flying. Unfortunately, the Air Worthiness Board, now known as the Air 
Force Fleet Viability Board was not in existence last year to assist 
with the partial retirement decision on the tanker E-models. In fact, 
the urgent and compelling need to begin recapitalizing the KC-135 fleet 
is exactly what prompted initiation of the Air Force Fleet Viability 
Board. Retirement of all KC-135s needs to be addressed now. We are 
choosing the less capable and more maintenance intensive KC-135E 
aircraft for retirement initially, and this will then give future Air 
Force Fleet Viability Boards a better indication of what to expect as 
the KC-135R fleet ages further. The Air Force simply cannot accept the 
risk of unknown systematic failures that could ground the fleet and 
cripple the global reach of U.S. and coalition forces.
    Question. What is unique about the costs associated with 
maintaining and supporting these aircraft that necessitate their 
retirement before the board could review this program?
    Answer. The increasing costs and decreasing availability of the 43-
year old KC-135Es have forced the Air Force to consider retirement in 
order to pay for the ever-increasing costs of the remaining KC-135s. 
The KC-135E costs continue to grow. Presently E-model engine overhauls 
are twice as expensive and are required ten times more often than for 
their R-model counterparts. Additionally, corrosion damage is driving 
bills that the Air Force has not budgeted for, and, in the end, would 
only be an interim fix. The E-model retirement provides funds for 
increased flight hours and manpower reinvestments on the remaining 
tankers. Savings from these retirements will be used to pay for the 
corrosion replacement/overhaul repairs needed to keep the remaining E-
models flying safely. These changes give us higher utilization rates on 
our remaining fleet, mitigating the impacts of the retiring aircraft.

                   Evolved Expendable Launch Vehicle

    Question. NASA has indicated that the EELV may be used as the lift 
vehicle for the Orbital Space Plane. Putting a manned capsule on top of 
an expendable rocket would likely require substantial alterations to 
the system, with a significant associated investment. Limited numbers 
of launches have already called into question the ability of the 
industrial base to support two separate systems. The NASA proposal 
would require substantial safety alterations to the system to make it 
``human-rated''--and these alterations will require a significant 
investment.
    Is the Air Force committed to supporting both variants of the EELV 
with sufficient launches to support both contractors?
    Answer. Yes, the Air Force remains fully committed to supporting 
both variants of Evolved Expendable Launch Vehicle (EELV) to maintain 
assured access to space. Once our heritage systems fly out, all Air 
Force EELV class payloads will launch only on Delta IV and Atlas V 
vehicles. Note also that EELV is a commercial partnership with 
industry; the contractors market and sell their launch services to 
commercial launch customers in addition to the government.
    Question. If tasked to support the OSP mission, would a separate 
human-rated vehicle be developed?
    Answer. This has not been determined. The Air Force has no 
requirements for a human-rated vehicle at this time, but NASA is 
currently working directly with the two Evolved Expendable Launch 
Vehicle (EELV) contractors to characterize vehicle design reliability 
and assess potential improvements to address any human rating issues.
    Question. Would NASA cover the costs associated with the new human-
rated requirements?
    Answer. Yes. Since human rating is a NASA-only requirement at this 
time, the Air Force assumes NASA would fund any associated mission-
unique requirements.
    Question. Would two separate vehicles be held in the inventory 
(cargo-rated and human-rated), or would a single vehicle, capable of 
supporting both requirements, be produced?
    Answer. This has not been determined. NASA is currently exploring 
the human rating issues directly with the Evolved Expendable Launch 
Vehicle (EELV) contractors, and a related study is still pending. The 
best approach will not be known until NASA completes its study.
    Question. Would human-rated versions of both EELV variants be 
developed?
    Answer. NASA would decide this at the conclusion of its human 
rating study and source selection efforts.
    Question. Would these new requirements create additional 
incremental costs that would be borne by the Air Force for future 
launches of the EELV, if only a human-rated variant is available?
    Answer. This is presently unknown. The Air Force anticipates that 
NASA will assume financial responsibility for unique requirements to 
address any identified human rating issues.

    [Clerk's note.--End of questions submitted by Mr. 
Nethercutt. Questions submitted by Mr. Wicker and the answers 
thereto follow:]

                          Joint Pilot Training

    Question. What are your thoughts on Joint Training as it applies to 
undergraduate pilot training? How do you foresee this working, if at 
all?
    Answer. Overall interservice flying training between U.S. Air Force 
and U.S. Navy is a success. All navigator training is accomplished at 
either Randolph AFB, or Naval Air Station (NAS), Pensacola. 
Approximately 100 Air Force and 100 Navy pilot candidates are also 
interservice trained. In addition to undergraduate Pilot/Navigator 
training, the majority of C-130 selected pilot students go through 
Advanced Multi-engine Turboprop training with the U.S. Navy at NAS 
Corpus Christi.
    There are many safeguards to ensure our interservice training is 
effective and efficient; oversight starts from the top. The Joint 
Aviation Executive Steering Committee (JAESC) oversees flying training 
between the Air Force and Navy. This O-8 level group provides overall 
policy guidance. The Interservice Training Review Group (ITRG) is the 
O-6 level group directly below the JAESC and is tasked with executing 
JAESC policy decisions. Additionally, the ITRG is empowered with making 
decisions on interservice flying training consistent with JAESC 
guidance. A Memorandum of Understanding (MOU), signed by the Chief of 
Naval Aviation Training and AETC/DO identifies the responsibilities and 
processes for administrative and operational support for interservice 
flying training.
    Considerable time and effort is put into maintaining the MOU and 
reviewing training requirements and syllabuses to ensure both services' 
training objectives are met. The largest benefit of interservice flying 
training is the instructor exchange. The U.S. Air Force, U.S. Navy, and 
U.S. Marine Corps instructors train Air Force, Navy, Marine, North 
Atlantic Treaty Organization and Foreign Military Sales (FMS) students 
providing them with invaluable instructional experience. The 
camaraderie and experiences of squadron mates from different services 
benefit the overall knowledge of the instructor force. Joint 
Undergraduate Pilot Training is a success story, as well as the 
graduate level Multiengine Turboprop training at NAS Corpus Christi.

                   UAV Pilot and Operational Training

    Question. As UAV applications and uses become more integrated into 
our military, what are your plans for UAV pilot and operational 
training?
    Answer. Unmanned Aerial Vehicle (UAV) operators currently are 
sourced from three sources; (1) Current and qualified Air Force pilots; 
(2) Current and qualified Air Force navigators holding a FAA 
Commercial/Instrument rating; and (3) Air Force pilots that are not 
medically qualified to fly aircraft but maintain Flying Class II 
standards according to AFI 48-123. These aviators attend UAV Transition 
Training at Indian Springs Airfield near Las Vegas, Nevada. Upon 
completion of training they are qualified to operate UAVs in an 
operational unit. This methodology is used today and will be used in 
the future.
    The Air Force is also developing an initiative to allow graduates 
of a proposed enhanced training program, currently called Next 
Generation Navigator (NGN) Training, to operate UAVs. All NGN graduates 
will be designated as Combat Systems Officers (CSO). In this 
initiative, during Undergraduate NGN training, students will be 
identified to ``track'' to Strike/Fighter, Tanker/Airlift/Bomber, or 
UAVs (categorized into Remotely Piloted Aircraft and Unattended 
Aircraft). Upon completion of undergraduate CSO training, those 
selected for the UAV track will attend UAV training just as those 
selected for the F-15E attend fighter training. Upon graduation from 
the UAV Formal Training Unit (FTU) they will be qualified to operate 
UAVs in an operational unit. Once NGN training has matured, UAV 
operators will be sourced primarily from NGN training; however, there 
will still be some presence of pilots and CSOs that crosstrain into the 
UAV career field.

    [Clerk's note.--End of questions submitted by Mr. Wicker. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                    Detection of Nuclear Detonations

     Question. It remains an important mission for our nation to detect 
whether other nations detonate nuclear devices either on the ground or 
in space. This would apply to the situation in North Korea, for 
example, where we would want to know immediately if it conducted a 
nuclear test and to immediately analyze and understand what was tested.
     Last year I raised the issue with General Jumper that when the 
current DSP satellites retire, the Air Force has not yet identified 
which of its future satellites will carry nuclear detonation (NUDET) 
detectors. Nuclear detonation detectors are developed and produced by 
the Department of Energy for the Air Force.
    Last year we discussed this issue in the context of GPS (global 
positioning system) satellites. I understand the focus now is on the 
SBIRS--high (Space Based Infrared System--high) satellites that the Air 
Force is developing to replace DSP.
    I understand that the opportunity to place nuclear detonation 
detection equipment on the first 2 SBIRS--high satellites has been 
lost. While it is possible to put the detectors on the third and 
subsequent satellites, there is no funding in either the Department of 
Defense's or Energy's fiscal year 2004 or subsequent budgets to build 
payloads, integrate them onto satellites, or operate them.
     General Jumper, why is there still confusion on how to continue 
the important nuclear detonation detection mission as we transition 
from the current to the next generation of Air Force satellites?
    Answer. The Air Force plans to continue to provide these critical 
capabilities in the near future. United States Nuclear Detonation 
Detection System (USNDS) sensors on the Global Positioning System (GPS) 
currently provide, and will continue to provide, a majority of the 
system's required detection capabilities. USNDS sensors on Defense 
Support Program (DSP) satellites are expected to remain operational for 
the remaining life of their host satellites. As DSP transitions to the 
Space-Based Infrared System (SBIRS), the classified capabilities 
provided by those NDS sensors will phase out.
    In anticipation of this upcoming transition, the Air Force funded 
and performed several studies to determine possible solutions for the 
post-DSP era, examining many host platform options and technical 
approaches. Final decisions regarding how or if the geosynchronous 
component of USNDS will be continued in the post-DSP era are still 
pending. To assist in determining the path forward, the Department of 
Energy, through the National Nuclear Security Administration (NNSA), 
funded the design and production of prototype geosynchronous sensors 
and a testbed ground processing system. The Air Force is now preparing 
to integrate this experiment onto the last DSP satellite, expected to 
launch in fiscal year 2005. Integration is scheduled to begin 16 May 
2003.
     Question. What is your plan to fix this?
    Answer. The Air Force is evaluating several options to obtain the 
necessary funding, including cooperative efforts with the users of 
United States Nuclear Detection System (USNDS) data. The final strategy 
will be resolved through existing processes that will align priorities 
and funding.
     Question. How much is needed in fiscal year 2004 in both agencies 
to fix this problem?
    Answer. National Nuclear Security Administration (NNSA) requires 
$2.59 million in fiscal year 2004 to begin work developing a future 
geosynchronous neutrongamma sensor. The Air Force believes no Fiscal 
Year 2004 Air Force funding is necessary. If a positive decision is 
made regarding the future of the GEO component of USNDS, Air Force 
funding will be requested in fiscal year 2005.

                            Cruise Missiles

     Question. Last year the Department of Energy submitted a billion 
dollar plan to the Energy and Water Subcommittee to extend the life of 
the W-80 nuclear warhead for Air Force (ACM and ALCM) cruise missiles 
until 2030. In my questions to both the Department of Energy and to 
you, General Jumper, I discovered that while DOE had a billion dollar 
modernization plan for the warhead, the Air Force had no formal plan to 
extend the life of its cruise missiles to 2030. Moreover, the Air Force 
didn't even have funds in its budget to even conduct flight testing in 
support of DOE's program, which is only the first step of what the Air 
Force would need to do to actually field DOE's modernized warhead. 
Consequently, the DOE program is currently being ``restructured''. I 
think everyone would agree that there was a major disconnect between 
the Air Force and Energy a year ago. I'd like to explore with you today 
whether than disconnect is resolved. In my bill, we appropriated $122 
million for the warhead life extension program last year and are being 
asked for another $178 million this year. These are significant 
amounts. Yet the Air Force only plans to spend $39 million through 
fiscal year 2008 on this program.
    It also appears to me that there is much confusion on the exact 
number of warheads to be modernized, which obviously affects the cost 
of the program, and whether the Air Force is demanding that DOE 
modernize many more cruise missile warheads than will be needed in 2012 
under the Bush-Putin strategic arms reduction agreement recently 
ratified by the Senate.
    As I understand it, the Administration's nuclear posture review 
instructs the Air Force to keep the B-52H bombers until 2030. Only the 
B-52H bomber, last delivered in 1962, can carry or launch cruise 
missiles. The B-1 and B-2 have no physical capability to do so. The 
last ALCM (air launched cruise missile) was delivered in 1986 and is 
past its 10 year design life. The last ACM (advanced cruise missile) 
was delivered in 1994 and has a 15 year design life. The 
Administration's plan, after expenditure of billions of dollars for 
modernization, will result in our nation having 70 year old aircraft 
armed with 50 year old cruise missiles. I wonder if this investment is 
worth the cost, and will result in meaningful military capability.
     Under the Bush-Putin agreement, our deployed nuclear weapons will 
drop from about 6,000 today to around 2,000 by 2012. Has the Secretary 
of Defense determined the exact mix of Trident SLBMs, Minuteman ICBMs, 
nuclear bombs, and cruise missiles that will be in the force at that 
time?
    Answer. The exact force mix of nuclear weapons in the 2012 time 
frame is not determined at this point. Discussing these numbers in 
detail would require a closed session. The Nuclear Posture Review (NPR) 
Implementation Plan of March 2003 provides the number of weapon 
delivery platforms (e.g., SLBMs, ICBMs, etc) projected in the force in 
2012. Per the NPR and the Moscow Treaty, the total number of warheads 
in 2012 will be between 2,200 and 1,700. As we draw down to those 
numbers, the balance of specific weapons within this threshold will be 
examined bi-annually to determine the correct end-state for 2012. This 
decision will be based on our nation's progress in achieving required 
capabilities defined under the ``New Triad'' and whether the worldwide 
security environment will allow planned reductions to proceed.
     Question. It seems to me that as we make a \2/3\ reduction in the 
nuclear force structure by 2012, that Trident SLBMs and Minuteman ICBMs 
(which are to receive the more modern warheads from the MX Peacekeeper 
missiles that are being phased out) will be given priority, and that 
cruise missiles will have less of a role. Do you agree?
    Answer. No, because the correct balance of forces is still being 
analyzed. The Nuclear Posture Review (NPR) Implementation Plan of March 
2003 does not provide the exact force mix of nuclear weapons in the 
2012 time frame. Per the NPR and the Moscow Treaty, the total number of 
warheads in 2012 will be between 2200 and 1700. The balance of specific 
weapons within this threshold will be examined bi-annually to determine 
the correct end-state for 2012. This decision will be based on our 
nation's progress in achieving required capabilities defined under the 
``New Triad'' and whether the worldwide security environment will allow 
planned reductions to proceed.
     Question. Last year I asked you to answer this question, but your 
answer for the record asked me to ask someone else. Could you please 
send a classified paper to Mr. Hobson and to me to answer this 
question: Is there any military target in the world today, or one 
contemplated in the future, that cannot be successfully struck with an 
ICBM, an SLBM, or bomber-delivered nuclear bomb--that only a cruise 
missile can successfully attack?
    Answer. The current force structure provides the warfighter with 
the survivability and flexibility needed to plan and prosecute both 
deliberate and adaptively planned nuclear response actions. The 
combined B-52 and cruise missile (air launched cruise missile and 
advanced cruise missile) capability has singularly unique attributes 
designed to penetrate air defense systems and strike a potential 
adversary's high value targets, thereby minimizing risk to the aircraft 
or its aircrew. These attributes include: mission flexibility; hard-
target kill accuracy; low observable characteristics; stand-off 
capabilities. Additional targeting clarification should be directed to 
OSD/LA or JCS/LA, and will likely involve input from U.S. Strategic 
Command.
     Question. Last year you testified ``. . . sustainment of the 
existing cruise missile fleet was the course of action chosen until the 
need for a new system is identified.'' What is your plan to extend the 
lives of current ALCM and ACM cruise missiles to 2030? Is it feasible 
to do that, or will you really need a new missile eventually?
    Answer. It is feasible to extend the lives of current air launched 
cruise missiles (ALCM) and advanced cruise missiles (ACM) to 2030. The 
Nuclear Posture Review (NPR) dated December 2001 states ``. . . its 
current force of cruise missile can be sustained until 2030.'' Air 
Force will support this NPR direction by implementing the Service Life 
Extension Programs (SLEPs). The NPR Implementer gives further direction 
by stating, ``The Secretary of the Air Force will complete ongoing 
sustainment and life extension programs and initiate required service 
life extension programs where necessary to sustain the ALCM and ACM 
until 2030 and restore required weapons systems reliability rates to 
design specification values.'' The SLEP studies identified aging 
components and potential component failures that might need replacement 
to sustain ACM and ALCM until year 2030.
    The NPR Implementer also addresses the requirement for a new 
missile. It states the Air Force will continue to implement the ACM and 
ALCM SLEPs until the development of a new cruise missile. A next-
generation cruise missile program would need to start around 2014 to 
ensure an initial operational capability in the 2030 timeframe.
     Question. Has the Secretary of Defense formally approved a program 
to either extend the lives of current Air Force cruise missiles until 
2030, or to develop a replacement missile?
    Answer. Yes. The Secretary of Defense approved the Nuclear Posture 
Review Implementation Plan in March 2003. The NPR Implementer directs 
the Secretary of the Air Force to maintain the current Advanced Cruise 
Missile (ACM) and Air Launched Cruise Missile (ALCM) fleet via the 
Service Life Extension Programs through 2030.
     Question. What exactly is funded, and what exactly is not funded, 
in the Air Force's Future Years Defense Plan to extend the life of its 
cruise missiles to 2030?
     Answer. The Air Force has fully funded all known cruise missile 
requirements through the future year defense plan (FYDP). Additional 
activities will be funded beyond the current FYDP as required to extend 
Advanced Cruise Missile (ACM) and Air Launched Cruise Missile (ALCM) 
service life through 2030.
    ALCM:
          --Conventional/Air-Launched Cruise Missile Test 
        Instrumentation Kit
          --Inertial Navigation Element (also known as Global 
        Navigation Control Unit)
          --Functional Ground Test Facility
          --Thermal Batteries and Pyrotechnical Devices
          --W-80 LEP Integration
    ACM:
          --Joint Test Instrumentation Kit
          --Functional Ground Test Facility
          --Thermal Batteries and Pyrotechnical Devices
          --Aging and Surveillance Program
          --ACM Subsystem Simulator and Advanced Missile Simulator
          --W-80 LEP Integration
     Question. How much funding in then-year dollars beyond what is 
projected in your current Future Years Defense Plan would realistically 
be needed to extend the life of Air Force cruise missiles to 2030?
    Answer. The following funding is projected beyond the current 
Future Years Defense Plan (FYDP) to extend cruise missile life to 2030. 
This includes Procurement; Research, Development, Test & Evaluation; 
Operation and Maintenance and Military Personnel funding.

Advanced Cruise Missile

                        [In millions of dollars]

 FY10.............................................................  57.6
 FY11.............................................................  58.2
 FY12.............................................................  58.9
 FY13.............................................................  59.5
 FY14.............................................................  63.2
 FY15.............................................................  63.9
 FY16.............................................................  64.6
 FY17.............................................................  65.3
 FY18.............................................................  66.1
 FY19.............................................................  66.9
 FY20.............................................................  67.7
 FY21.............................................................  68.5
 FY22.............................................................  70.2
 FY23.............................................................  71.9
 FY24.............................................................  73.6
 FY25.............................................................  75.4
 FY26.............................................................  58.9
 FY27.............................................................  60.3
 FY28.............................................................  61.7
 FY29.............................................................  63.2
 FY30.............................................................  64.7
                                                                  ______
    Total....................................................... 1,336.3

Air Launched Cruise Missile

                        [In millions of dollars]

 FY10.............................................................  59.5
 FY11.............................................................  60.1
 FY12.............................................................  60.8
 FY13.............................................................  65.5
 FY14.............................................................  66.2
 FY15.............................................................  66.9
 FY16.............................................................  67.6
 FY17.............................................................  68.4
 FY18.............................................................  69.2
 FY19.............................................................  70.1
 FY20.............................................................  70.9
 FY21.............................................................  71.8
 FY22.............................................................  73.7
 FY23.............................................................  75.6
 FY24.............................................................  77.5
 FY25.............................................................  79.4
 FY26.............................................................  59.0
 FY27.............................................................  60.3
 FY28.............................................................  61.6
 FY29.............................................................  62.9
 FY30.............................................................  64.2
                                                                  ______
    Total....................................................... 1,411.2

     Question. Have you conducted a formal analysis of alternatives for 
cruise missile life extension programs?
    Answer. No analysis of alternatives was accomplished for the 
Advanced Cruise Missile or Air Launched Cruise Missile Service Life 
Extension Programs.
    Question. Have you conducted a full life cycle cost analysis for 
cruise missile life extension programs?
    Answer. Both advanced cruise missile and air launched cruise 
missile service life extension program studies included a life cycle 
cost and risk analysis on the components with life extension concerns.
    Question. Have you accomplished an operational requirements 
document for cruise missile life extension?
    Answer. A new operational requirements document (ORD) for cruise 
missile life extension is not required. Air launched cruise missile 
(ALCM) and advanced cruise missile (ACM) acquisition was completed 
under the Strategic Air Command (SAC) System Operational Requirements 
Document (SORD). ORDs are written/updated to document system 
capabilities, justification, parameters, program support, and force 
structure required to satisfy a validated need. They serve as the 
foundation for acquisition. For SORDs beyond Milestone III, it is only 
necessary to re-accomplish the requirements correlation matrix to 
comply with the ORD format for programs less than Acquisition Category 
I (ACAT I). Both ALCM and ACM are complete with acquisition and are 
considered ACAT III.
    Question. What actions has the Defense Acquisition Board taken on 
extending the life of Air Force cruise missiles until 2030, or 
developing a new missile?
    Answer. Defense Acquisition Board (DAB) approval was not required 
for ACM/ALCM SLEP activities. SLEP activities were below cost 
thresholds requiring DAB approval.
    Question. Last year, the Air Force had no funding in its budget to 
support any phase of the Department of Energy's W-80 life extension 
program. This year the situation is improved. Please answer separately, 
how much is in the fiscal year 2004 budget and accompanying future 
years program in support to Department of Energy's W-80 life extension 
program for:
          W-80 flight testing?
          W-80 integration and support?
          W-80 handling equipment?
          W-80 test manuals?
          W-80 publications?
    Answer. The tables below provide details on W-80 related funding:

----------------------------------------------------------------------------------------------------------------
                                               FY04      FY05      FY06      FY07      FY08      FY09     Totals
----------------------------------------------------------------------------------------------------------------
ACM:
     Flight Testing.......................      1.5       2.0       2.0       3.0       1.9   ........     10.4
     Integration and Support..............      1.3       1.1        .69       .94      1.2        .34      5.57
     Handling Equipment...................  ........      2.2   ........  ........  ........  ........      2.2
     Test Manuals.........................       .09       .18       .09  ........  ........  ........       .36
     Publications.........................  ........  ........  ........  ........       .1   ........       .1
                                           ---------------------------------------------------------------------
      Totals..............................      2.89      5.48      2.78      3.94      3.2        .34     18.63
                                           =====================================================================
ALCM:
     Flight Testing.......................      1.4        .29      1.11      2.9       4.7   ........     10.4
     Integration and Support..............      1.7       1.2       1.1        .94      1.2        .34      6.48
     Handling Equipment...................  ........      2.3   ........  ........  ........  ........      2.3
     Test Manuals.........................       .09       .18       .09  ........  ........  ........       .36
     Publications.........................  ........  ........  ........  ........       .1   ........       .1
                                           ---------------------------------------------------------------------
      Totals..............................      3.19      3.97      2.3       3.84      6.0        .34     19.64
----------------------------------------------------------------------------------------------------------------

     Question. Does Air Force expect DOE to deliver any extended life 
W-80 warheads that would go temporarily into storage rather than 
immediately to deployment? If so, why?
    Answer. The Air Force will upload all refurbished W-80 warheads 
onto the active cruise missile inventory.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Mr. Lewis and the answers 
thereto follow:]

            Consolidation of the Military Personnel Accounts

    Question. The fiscal year 2004 budget request recommends 
consolidating the six Guard and Reserve military personnel accounts 
with their respective active duty military personnel appropriations. 
The budget requested that the Reserves personnel pay accounts be Budget 
Activity 7, and the National Guard's personnel pay accounts be Budget 
Activity 8 under the active duty accounts.
    Mr. Secretary please explain the reasons the OSD Comptroller had 
for merging the pay accounts into one appropriation per Service.
    Answer. The OSD proposal to restructure the military personnel 
appropriations for Active, Guard and Reserve into one appropriation is 
a step in the right direction. It begins to finance our enterprise like 
our Total Force fights--as an integrated team. This will provide 
additional flexibility by obviating the need to use transfers to move 
funds between individual programs within the merged accounts. The 
consolidation will also reduce administrative workload and streamline 
funds execution and reporting.
    Question. What level or degree of increased flexibility does the 
Air Force gain from this consolidation?
    Answer. The Air Force will be able to reprogram $10 million into or 
out of the Reserve Component budget activities without prior 
Congressional approval. In addition to this flexibility, there will be 
no limit to the amount that can be reprogrammed with prior 
Congressional approval. With the separate appropriations, Air Force 
needs Congressional prior approval for any amount, and that amount is 
limited by the total amount of transfer authority allowed for the 
Department of Defense.
    Question. Will the Chiefs of the Reserve components have full 
management and control of their financial resources in order to execute 
their title 10 responsibilities for trained and ready forces?
    Answer. Approved DoD accounting and internal control procedures 
assign fiduciary responsibility to the Assistant Secretary of the Air 
Force (Financial Managment and Comptroller) for all Air Force funds. 
Management and control of the individual appropriations are delegated 
to the Air Force Director of Budget (SAF/FMB) for all Active funds and 
to the Air National Guard and Air Force Reserves for their accounts. 
Overall management of the consolidated Personnel account will be a SAF/
FMB responsibility; however detailed program management within the 
budget activities for the Air National Guard and Air Force Reserves 
will continue to reside with those organizations.
    Question. Having separate appropriations accounts for the Active 
and Reserve components allows Congress to monitor how well the services 
are executing their programs. What assurance can you give the Committee 
that the active components will not use the Reserve budget activities 
to fund their own bills or shortfalls?
    Answer. Since the proposal places Guard and Reserve military 
personnel (MILPERS) funding in separate Budget Activities, Congress 
will still have visibility into its execution. The Department's 
proposal to restructure MILPERS appropriations begins to finance our 
enterprise like our Total Force fights--as an integrated team. This 
will provide additional flexibility to move funds between individual 
programs within the merged accounts and reduce administrative workload 
while streamlining fund execution and reporting.

                            Personnel Issues

    Question. Please explain your active duty military personnel end 
strengths levels to the Committee. What was the number of personnel on 
board in October when you started fiscal year 2003? Was that number 
over the authorized end strength level for the Air Force?
    Answer. The beginning strength for fiscal year 2003 was 368,251; 
this was 9,451 over the authorized strength level of 358,800 for the 
end of fiscal year 2002.
    Question. Did that increase of personnel include those under a 
stop/loss action? Did it include any mobilized Reservists? If so, what 
were those numbers?
    Answer. Yes, this increase did include personnel under stop/loss 
action, but did not include mobilized Reservists since mobilized 
Reservists do not count against the active duty end strength. 
Approximately 7,300 of the overage was due to the stop/loss program and 
the remaining 2,200 is attributed to exceeding accession goals and 
improved retention.
    Question. What stop/loss action is currently in effect, and how 
many military personnel are affected by that?
    Answer. On 13 March 2003, the Air Force announced the details of a 
limited Stop Loss action. Effective 2 May 2003, retirements/separations 
of 43 officer and 56 enlisted high-demand specialties are suspended. 
Projected impact (number eligible to retire/separate between 2 May 2003 
and 30 September 2003) is 6,172 active duty officers/4,858 active duty 
enlisted and 834 Air Reserve Component officers/3,030 ARC enlisted.
    Specialties under Stop Loss will be reviewed every 60 days and 
personnel released from Stop Loss will be afforded up to five-months 
transition time. As OPERATION IRAQI FREEDOM progresses and the Air 
Force reconstitutes, we will discontinue the use of Stop Loss using the 
60-day review process.
    Stop Loss exemptions include involuntary/hardship discharges, 
mandatory retirements and separations, discharge by reason of 
conscientious objector status, members who have shipped or are 
scheduled to ship household goods, members on terminal leave, and 
members previously Stop Lossed who have since established a retirement/
separation date. In addition, members may request a Stop Loss waiver if 
there are unique circumstances warranting exemption.
    Question. Can you estimate what your end strength level will be in 
September 2003, the end of this fiscal year, and starting fiscal year 
2004? What level of end strength is funded in the budget request for 
fiscal year 2004?
    Answer. The current estimate of strength for 30 September 2003 is 
367,100 (8,100 over the authorized level of 359,000). This overstrength 
is caused by improved retention and our ability to meet the accessions 
goals. The effect of the new stop/loss program that is expected to 
begin on 2 May 2003 will add to the strength overage. Even though stop/
loss affects more individuals, we anticipate that those who planned to 
separate before the end of the year and now will not be able to could 
add approximately 4,700 to the strength overage, depending on the 
duration of the Stop Loss program currently in effect. The funded 
strength level included in the President's Budget for fiscal year 2004 
is 359,300.

                Anti-Terrorism/Force Protection Mission

    Question. In the fiscal year 2003 appropriation, the Air Force 
received additional funding to address anti-terrorism/force protection 
issues. The Air Force budget request for fiscal year 2004 does not 
sustain the 2003 level of funding.
    Please explain how the active and Reserve forces have been or are 
involved in anti-terrorism/force protection missions this year.
    Answer. Our Total Force has been integrated to provide seamless 
force protection at all our installations: Active, Guard, and Reserve. 
The Air Reserve Component (ARC) has made huge contributions to our 
success in Operations ENDURING FREEDOM, NOBLE EAGLE and IRAQI FREEDOM. 
Through enhanced physical security measures, counterintelligence, and 
intelligence activities, ARC forces have implemented and continue to 
implement heightened levels of protection for our vital resources, key 
infrastructure and our most valuable asset: our people.
    Question. What is the number of Reserve forces currently mobilized 
for Operation Noble Eagle to fill those requirements?
    Answer. The total number of Air Reserve Component personnel 
mobilized in support of Operation Noble Eagle (ONE):

Air National Guard................................................ 8,193
Air Force Reserve................................................. 2,236
      Total.......................................................10,429

    Of this total for ONE support, approximately 40 percent (4,300+) of 
the personnel are considered to be working in traditional force 
protection/anti-terrorism specialties (i.e., physical security, 
counterintelligence, and intelligence).
    Question. The Committee understands that the Air Force lacks the 
required number of Security Forces to provide the appropriate level of 
security for your facilities worldwide. Please explain why the Army 
National Guard is supplying soldiers to support the Air Force's 
security requirements.
    Answer. This is an example of two Services working together in a 
spirit of cooperation to meet a significant and enduring threat facing 
our Armed Forces. With the increased requirements driven by the events 
of 9/11, the subsequent Global War on Terrorism, and the progressive 
demobilization of Air Reserve Component forces, the Air Force lacked 
sufficient resources to provide full dimensional protection to its 
resources. In this case, the Army had the expertise and the available 
personnel necessary to help the Air Force secure its resources until 
such time as the Air Force can implement long-term manpower and 
technology solutions to mitigate vulnerabilities. This is a fit that 
makes sense and it supports our strong foundation for joint operations. 
``One Team, One Fight.''
    Question. What is the number of Reserve personnel mobilized, and 
the length of time they will be providing security forces?
    Answer. The total number of Air Reserve Component (ARC) personnel 
mobilized is approximately 36,000. Security forces personnel currently 
mobilized worldwide are approximately 5,400. ARC security forces 
currently mobilized will continue to serve in a mobilized status until 
April 2004 or until an individual has served 24 months, whichever is 
earlier. The Air Force is proactively managing personnel usage, and 
began systematic demobilization in September 2002, in an effort to 
minimize impacts on individuals while still meeting mission 
requirements. If required by events, any new ARC mobilizations will be 
accomplished to satisfy primarily overseas requirements and only if the 
necessary force protection capability cannot be obtained from the 
volunteer pool (i.e., ARC members that are volunteering to serve on 
extended man-days).
    Question. What is the incremental personnel and O&M costs 
associated with this mission for the Army? Describe the funding 
agreement between the Air Force and the Army.
    Answer. Personnel costs are $620.4 million and O&M are $257 
million. The funding agreement is that the Air Force will pay all costs 
associated with mobilization of these Army members.

                       Equipment Operation Costs

    Question. Mr. Secretary, one of the recurring challenges that you 
face in managing your Operation and Maintenance account is the rising 
cost of operating your equipment. In a February 2003 report, the 
General Accounting Office found that the military services pay little 
attention to operating and support costs and readiness during 
development, when there is the greatest opportunity to affect those 
costs positively. Rather the services focus on technical achievement, 
featuring immature technologies during development and fielding.
    Is this an accurate assessment, and if it is, what do you propose 
as process improvements to gain control of total ownership costs of our 
military equipment?
    Answer. The processes highlighted in the February 2003 General 
Accounting Office report, for the most part, have been or will be 
changed or modified. The Air Force is aggressively attacking 
sustainment costs for both new and aging systems. For example, there is 
a renewed emphasis within the Air Force on the Systems Engineering (SE) 
effort devoted to system development. SE training has been improved 
through the creation of the Center of Excellence for System Engineering 
at the Air Force Institute of Technology. Program managers are required 
to look for ways to incentivize contractors to perform robust SE to 
reduce sustainment costs. In fact, the status of all key SE processes/
practices have been or will be a salient topic of discussion at all 
periodic program reviews. The above notwithstanding, the Air Force's 
new collaborative requirement processes simultaneously focus upon all 
life-cycle issues. Operators, acquirers and sustainers are brought 
together to jointly identify and agree upon requirements from program 
inception. In an attempt to reduce unknown factors that drive up 
Operations and Maintenance costs, emerging technologies are being 
further matured in the laboratory setting before being placed into 
program development. Similarly, immature technologies are being fully 
vetted based upon the need for such a technology. Contrary to past 
practices, immature technologies will only be inserted in a system when 
there is a need to counter a known threat that cannot be accomplished 
in any other manner. In addition to the above, the Product Support 
Management Plan (PSMP), along with the Reduction in Total Ownership 
Cost (R-TOC) plans, are required as part of the particular acquisition 
strategy. A key factor in the PSMP is the emphasis on life-cycle 
sustainment cost. This plan will ensure the system will meet the using 
command's requirement and provide best value. Finally, the Air Force 
began a massive training effort to teach the ``big picture'' of 
innovation, collaboration, and cost implications to all acquisition 
team members. The plan is to train each individual involved in the 
acquisition process (some 12,000 persons) by fiscal year 2007.

         Facilities Sustainment, Restoration and Modernization

    Question. Mr. Secretary, the Department of Defense has established 
standards for Facilities Sustainment, Restoration and Modernization. 
Sustainment is to be funded at a minimum of 93% of requirement. The 
restoration and modernization goal is to correct C3 and C4 conditions 
by 2010.
    Has the Air Force funded sustainment of facilities at the DoD 
desired level of 93% or above?
    Answer. Yes. We are funding sustainment at 95 percent of the 
requirement.
    Question. Has the Air Force established a restoration and 
modernization funding plan that will achieve elimination of C3 and C4 
ratings by 2010?
    Answer. Our goal (based on the fiscal year 2004 Defense Planning 
Guidance) is to restore the readiness of existing facilities to at 
least C-2 status, on average, by the end of fiscal year 2010. Based on 
current funding projections, it is realistic that we will meet this 
goal.
    We are concurrently targeting our investment to eliminate all C-3 
and C-4 rated facility classes. Based on current funding projects (and 
extending them beyond fiscal year 2009 . . . our farthest-reaching 
funding projection), we expect to eliminate all C-3 and C-4 rated 
facility classes by 2014.
    Question. The fiscal year 2003 appropriation included increased 
funding in base operations and Facilities Sustainment, Restoration and 
Modernization to address anti-terrorism and force protection concerns.
    Did the Air Force sustain the higher level of funding for 
antiterrorism/force protection in the fiscal year 2004 request?
    Answer. Thanks to the help of this committee, we were able to 
address a large portion of our facility-related anti-terrorism/force 
protection requirements in our fiscal year 2003 program. With the 
fiscal year 2003 enacted budget, the Air Force is investing more than 
$450 million in anti-terrorism/force protection facility requirements. 
Of this amount, more than $200 million is being invested through our 
military construction program.
    For fiscal year 2004, we have requested nearly $20 million for 
anti-terrorism/force protection-specific projects (i.e., perimeter 
fencing, entry access gates) and antiterrorism/force protection design 
requirements embedded into other construction projects.
    In addition to this investment, we still have anti-terrorism/force 
protection requirements programmed in our future years defense plan. 
Specifically, the Air Force has identified approximately $100 million 
in requirements for fiscal years 2005-2009. These projects either 
enhance existing anti-terrorism and force protection measures or 
eliminate inefficiencies caused by existing workarounds. They include, 
for example, fencing, entrance gates, and vehicle inspection stations.
    Question. What is your assessment of Air Force progress in 
identifying and addressing anti-terrorism and force protection 
concerns?
    Answer. The Air Force is making excellent progress in identifying 
and addressing anti-terrorism and force protection concerns. As part of 
annual vulnerability assessments required by Air Force Instruction 10-
245, we assess each installation to ensure new projects are constructed 
in compliance with DoD antiterrorism standards. Similarly, existing 
facilities are assessed in the context of the installation 
vulnerability assessment.
    In addition to the $450 million being invested in fiscal year 2003 
and the $20 million programmed for fiscal year 2004, we have identified 
approximately $100 million in the future years defense plan (fiscal 
years 2005-2009) for anti-terrorism and force protection military 
construction projects. Projects in the future years defense plan either 
enhance existing anti-terrorism and force protection measures or 
eliminate inefficiencies caused by existing work-arounds. The projects 
include fencing, entrance gates, and vehicle inspection stations.

                           Depot Maintenance

    Question. Historically, the Air Force has been able to fund depot 
maintenance at an average level of about 93%. For fiscal year 2004, you 
increased depot maintenance funding by $226 million, but the percent of 
requirement achieved is only 79%, because costs grew by $486 million. 
Depot Maintenance for Air Force reserve component equipment is also 
funded at about the same level.
    The Air Force's top unfunded requirement for fiscal year 2004 is 
$516 million for depot maintenance which would raise the funded level 
to 92% of requirement.
    Please discuss the surge in Air Force depot maintenance costs, and 
the expected outcome if Air Force depot maintenance is funded at only 
79%.
    Answer. The surge in depot maintenance costs is attributed to 
several factors such as aging aircraft issues that affect both material 
consumption and direct labor hours. For example, the depot work package 
for KC-135E aircraft has doubled in the last 10 years, primarily due to 
aging aircraft issues. One factor is the corrosion on the engine 
struts, the point at which the engines attach to the wing. This 
corrosion must be repaired now or it will continue to worsen, become 
more expensive to repair over time, and could impact safety of flight/
airworthiness of our KC-135E fleet. There are numerous examples like 
this across all our fleets. If depot maintenance funding remains at 79 
percent, the Air Force will defer 42 aircraft and 76 engines. We faced 
tremendous pressure in this budget and took some risk within depot 
maintenance, knowing that we will have challenges to work in fiscal 
year 2004. We are committed to working those challenges.
    Question. What will be the impact on your depot maintenance 
backlog?
    Answer. The Air Force will defer 42 aircraft and 76 engines in 
fiscal year 2004. Additionally, we will defer some level of software, 
other major end items, and Depot Programmed Equipment Maintenance 
(DPEM) funded exchangeables maintenance. We know we have challenges in 
fiscal year 2004 and we are committed to working through those 
challenges.

                                 Spares

    Question. The Air Force's second highest ranked unfunded item is 
$412 million for spares. Your budget briefing materials indicate that 
you increased funding for flying readiness, and that you expect to fly 
the prescribed program, but that you have accepted some risk in the 
area of spares.
    Please elaborate on the risk you have assumed in budgeting for 
spares, and how you intend to manage that risk.
    Answer. The Air Force took some risk with the flying hour spares 
funding in fiscal year 2004. Due to the sustained nature of our effort 
in support of the Global War on Terrorism, the Air Force faces an 
extraordinary degree of uncertainty regarding the operational profiles 
we will actually execute in fiscal year 2004. The Global War on 
Terrorism influenced our maintenance patterns in fiscal year 2002 and 
its effects have influenced our fiscal year 2004 projected meantime 
between failure for repair of parts, which helped determine the fiscal 
year 2004 funded level. However, if the Air Force returns to fiscal 
year 2001 maintenance patterns, we will address strategies to assure 
that funding levels support flying hour execution.

         Outsourcing Functions Performed by Military Personnel

    Question. In order to meet OMB's competitive sourcing goal, DoD 
plans on competing many functions that contain military positions. The 
military positions are not being eliminated but being moved from 
commercial functions to war-fighting functions. Funds, therefore, have 
to be made available to either pay the new in-house organization or a 
contractor. The Air Force has estimated that this could cost between 
$10 to $15 billion dollars over the next five years.
    Has DoD budgeted sufficient resources in order to be able to move 
military positions?
    Answer. To our knowledge, DoD has budgeted no resources for this 
initiative. However, the Air Force identified a first increment for 
this initiative, $2.4 billion over the Five Year Program (FYP), as our 
#1 unfunded priority in the fiscal year 2004 POM. Unfortunately, 
resources have yet to be allocated.

                     Encroachment on Training Areas

    Question. In June 2002, GAO reported that DOD lacks a comprehensive 
plan to manage encroachment on training ranges. Not withstanding the 
fact that the Defense Department's data indicates that the military is 
ready to fight, the GAO documented that encroachment is happening and 
that DOD has not evaluated to what extent, and at what cost, 
environmental laws affect the military's ability to train.
    To what extent has the Air Force separately, or as part of a DOD 
effort, attempted to document the effect of encroachment on the Air 
Force's ability to train and at what costs?
    Answer. The Department of Defense is aggressively working on Range 
Comprehensive planning to address the impacts of encroachment and the 
Air Force is a full partner in support of the effort. The Air Force is 
developing a Resource Capability Model to identify, quantify and assess 
resource opportunities and degradations, based on mission requirements 
and identify the operational risk created when air, land, water, and 
frequency resources are denied or degraded. To date, we have spent 
approximately $300,000 on this effort.
    Question. To what extent does the fiscal year 2004 budget request 
provide funds to pay for the costs associated with encroachment?
    Answer. The Air Force has initiated efforts to begin capturing the 
fiscal impact of encroachment. However, no direct method currently 
exists to determine the full cost associated with encroachment 
mitigation primarily because the costs are embedded within multiple 
funding sources (installation operations and maintenance accounts, 
environmental programs, personnel, acquisition, base operating support, 
and communications and frequency management, etc). For example, the Air 
Force is spending nearly $38 million in military construction to 
acquire 417 acres for the only remaining departure corridor for live 
ordnance at Nellis AFB. Nearly $35 million from the operations and 
maintenance account will be spent on a 10-year bird-of-prey study in 
New Mexico, Texas, and Arizona.
    In consideration of these multiple funding sources, the Air Force 
is striving to better understand the impact of encroachment on 
operational readiness by capturing and identifying the cost embedded in 
these various programs.

                    Purchase Cards and Travel Cards

    Question. Over the past two years, the General Accounting Office 
has published numerous reports detailing difficulties and potential 
fraud in the military departments having to do with the use of 
government travel and purchase cards. The GAO reported recently that 
while more improvement is needed, substantial improvements have been 
made. In fact, the Air Force has lower charge off rates than the Army 
and Navy Departments.
    What are some of the actions the Air Force has taken in response to 
purchase and travel card problems as reported by the GAO?
    Answer. With respect to the purchase card, the Air Force has issued 
two policy letters to quickly implement GAO recommendations, tighten 
controls and improve oversight. We have already mandated standard 
training, and we are incorporating the remaining GAO recommendations 
into the new Air Force Instruction.
    The Office of the Under Secretary of Defense, Comptroller has 
formed a task force with the intention of changing many of the current 
card policies. Concerning the travel card, significant changes will 
include: 1. Tightening the credit worthiness of all individuals that 
receive a travel card. 2. Providing specific disciplinary guidelines 
for both military and civilian cardholders. 3. Modifying personnel 
systems to track actions against a delinquent/abusive cardholder. 4. 
Developing methods to control cards when a cardholder separates or 
retires. 5. Developing a data mining operation to identify abuse of any 
travel card. 6. Implementing mandatory split disbursement for all 
military travelers. Split-disbursement requires a traveler to have 
their travel card payment sent directly to the bank by electronic funds 
transfer when they file their travel voucher.
    Question. Have you reduced the number of cards issued?
    Answer. Yes. The Air Force has reduced the number of government 
purchase cards from 77,580 in September 2002 to 49,621 in March 2003. 
This is a 36 percent reduction in the number of cards. In addition, 
over the past year Air Force reduced their travel cards by 100,000 or 
about 20 percent of the cards. Furthermore, we are working with the 
Office of the Under Secretary of Defense, Comptroller and supporting 
their efforts to further reduce the number of travel cards.
    Question. How do you train your personnel to avoid problems with 
travel and purchase cards?
    Answer. Air Force Instruction (AFI) 64-117 and policy letters 
mandate training requirements for all purchase cardholders and 
approving officials. To provide a common training baseline, all 
cardholders and approving officials are required to take standard 
training from Defense Acquisition University. Agency/Office Program 
Coordinators are required to take the GSA Agency/Organization Program 
Coordinator training. In addition, the Air Force requires both initial 
and annual refresher training for both cardholders and approving 
officials. Areas of training include: Responsibilities of cardholder, 
Bank electronic access program, Federal Acquisition Regulations and 
associated DoD and Air Force supplements.
    Air Force has many different ways of training both the cardholder 
and our Agency Program Managers (APC's) who are responsible for travel 
card administration. We have web sites that provide training for both 
cardholders and APC's. Currently we are mailing out 1,800 new CDs to 
all APC's that emphasize their job functions and responsibilities. The 
Air Force holds two conferences each year, one for level three APC 
managers and another with General Services Administration for all APC's 
and travel cardholders to get hands-on policy and bank training. We 
encourage all our bases to take advantage of the bank-sponsored on-base 
training, where the bank travels to the base and conducts training. It 
is planned to develop a new training CD once all the new Office of the 
Under Secretary of Defense, Comptroller travel card policies are 
completed.
    Question. Do you hold supervisors responsible for verifying the 
appropriateness of credit card use by their subordinates?
    Answer. Yes, the Air Force holds the approving officials 
responsible for the government purchase card usage of the cardholders 
assigned to them. The approving officials must ensure that all 
cardholder transactions are for valid government requirements. 
Regarding the travel card, Air Force commanders own the program. The 
Assistant Secretary of the Air Force (Financial Management and 
Comptroller) advised Air Force commanders to monitor charge card use 
and be mindful of the importance of their continued leadership, careful 
selection and diligent training of those Air Force members entrusted 
with charge cards. To assist in verifying the appropriateness of travel 
card use, agency program coordinators use Bank of America's automated 
reporting system, EAGLES. EAGLES reports are a tool available to the 
program coordinators to identify suspicious travel card activity and 
investigate through regular spot checks. Commanders use this capability 
through their program coordinators to identify problems early and 
address them when they are discovered.
    Question. Secretary Rumsfeld was briefed on the lease proposal by 
Aldridge and Zakheim on March 10th and requested additional 
information. Part of that briefing was a review of a new Institute of 
Defense Analysis (IDA) study which is critical of the lease proposal.
    The lease is expected to cost about $17 billion, with another $4 
billion needed for the service to purchase the aircraft post-lease.
    Mr. Secretary, what can you tell us about Secretary Rumsfeld's 
consideration of the lease proposal? What were the concerns he raised?
    Answer. To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    The DoD leasing panel has been reviewing the lease proposal since 
October 2002. Discussions are occurring at the highest levels within 
the Department of Defense. The Air Force continues to answer all 
questions raised by the Department on the lease proposal.
    Question. What were the issues raised in the Institute of Defense 
Analysis (IDA) study on the proposed lease?
    Answer: To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    Office of the Secretary of Defense, Director, Programs Analysis and 
Evaluation (OSD/PA&E) commissioned this quick-look study to estimate 
the cost of a KC-767. The Air Force is not the release authority for 
this study, however I can relay your request to OSD. The Air Force 
negotiated with Boeing for over seven months--I believe that IDA was 
hampered by having only a few weeks for their quick analysis. IDA's 
initial results were that the cost of the KC-767 should be less than 
the Air Force negotiated price. Numerous meetings and data exchanges 
have occurred and will continue to occur among Air Force, Boeing, IDA 
and OSD representatives to better understand the weapon system and to 
clarify differences in costing methodology.
    Question. What are your thoughts on the IDA's criticism of the 
lease proposal?
    Answer. To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    OSD/PA&E commissioned this quick-look study to estimate the cost of 
a KC-767. The Air Force is not the release authority of this 
proprietary study, however I can relay your request to OSD. The Air 
Force negotiated with Boeing for over seven months--I believe that IDA 
was hampered by having only a few weeks for their quick analysis. I 
believe that IDA did not fully understand and evaluate the cost, 
configuration, and complexities of the Air Force KC-767. Numerous 
meetings and data exchanges have occurred and will continue to occur 
among Air Force, Boeing, IDA and OSD representatives to better 
understand the weapon system and to clarify differences in costing 
methodology.
    Question. What financial or other advantages are there to leasing 
now that may not be present if we purchased at a later date?
    Answer. To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    The key reasons to lease now are low interest rates, low inflation, 
the depressed aircraft industry, and a mature 767 production line. 
Leasing meets a projected need as KC-135s age and tankers require 
recapitalization. Leasing delivers more critical tanker capability to 
the warfighter in the same time period than the conventional program as 
funded in the Fiscal Year 2004 President's Budget. Leasing requires 
less money upfront and allows the Air Force to spread the operating 
cost over the life of the lease. Congress stipulated a multi-year lease 
that enabled the Air Force to negotiate firm fixed price development; 
production, training, and logistics support contracts that avoid the 
uncertainty of cost-plus contracts. Waiting to begin replacement will 
likely result in higher unit costs and a slower ``ramp-up'' of much 
needed new aircraft.
    Question. Will the lease arrangement require research and 
development costs?
    Answer. To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    The KC-767 negotiated lease proposal requires no separate Air Force 
research and development funding. Boeing's international launch and 
commercial pricing of the Global Tanker Transport Aircraft (GTTA) has 
resulted in costs being amortized among two foreign customers (total of 
four aircraft) and the U.S. Government (100 jets).
    Question. If so, who will be responsible for paying for those 
costs, the government or the contractor?
    Answer. To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    Research and development costs are initially borne by the 
contractor, but are recovered in the fixed price of the KC-767 over the 
course of the lease.
    Question. Are there any funds in the President's FY04 budget 
request to support the lease if it is approved?
    Answer. To clarify the record, I was not present at the above-
mentioned meeting that was reported in the media. As far as the costs 
you mentioned, the Air Force has not released cost information on the 
lease and cannot release cost information until the Secretary of 
Defense approves the lease.
    If the Secretary of Defense approves the lease of the KC-767, the 
Air Force will prepare a report to the four defense committees seeking 
lease approval. If the KC-767 lease is approved by the Secretary of 
Defense without changes, funding will be required in fiscal year 2004 
for MILCON and other program startup costs. The Air Force has 
programmed $4.1 billion in the fiscal year 2004 President's Budget 
(fiscal year 2004-fiscal year 2009) for a traditional tanker 
procurement with funding beginning in fiscal year 2006.

                    KC-135 E-Model Tanker Retirement

    Question. Did the Air Force conduct a formal analysis to assess how 
the retirement of 68 E-model tankers would affect DOD's ability to meet 
wartime requirements?
    Answer. Yes. It was determined that the capability lost with a 
reduction of 68 E-model tankers (13 percent of the fleet) is equivalent 
to a 4-5 percent reduction in sortie generation averaged over a 
sustained 30-day conflict.
    Question. Did the Air Force complete a comprehensive analysis of 
potential basing options to know whether they were choosing the most 
cost-effective alternative?
    Answer. The tanker roadmap uses existing tanker bases in the Air 
Force. It is most cost-effective to use existing tanker bases and 
leverage the in-place support facilities and personnel. Active duty 
bases that transfer R-models to the reserve components will be the 
first to receive new replacement tankers, or in the case of McConnell 
AFB, their resultant force structure will increase with R-models. 
Reserve component basing and manpower remain unchanged, however the 
standard reserve component air refueling squadron is re-baselined to 8 
R-model tankers by the time the first 100 new tankers are delivered to 
the active duty.
    Question. What plans are there to replace those models with R-
models for the Air Reserve Component?
    Answer. Air Force active duty R-model tanker units will transfer 48 
total aircraft to the reserve components during the period the E-models 
retire (fiscal year 2004-06). Of those 48, 16 flow to the Reserves and 
32 to the Air National Guard.
    Question. What is the tanker replacement (KC-767) beddown plan and 
how will it effect both the active duty and reserve component bases?
    Answer. The active duty will continue to flow R-models to the Air 
National Guard, allowing them to retire their remaining 56 E-models. 
The Air Force plans to base the first 100 new tankers at active duty 
bases. Whether the Air Force leases tankers sooner or buys them later, 
this plan will not change. The resulting force structure will be a pure 
R-model reserve component and a mix of R-models and new tankers in the 
active duty.
    Question. What is the fall-back position if leasing is not 
approved, and 68 air craft are cut from the inventory? Does the AF only 
plan on procuring a single new tanker in FY09 with all other buys 
outside of the FYDP?
    Answer. The tanker retirements in the fiscal year 2004 President's 
Budget are neither associated with, nor contingent upon the proposed 
lease. The savings from these retirements are used to pay for corrosion 
repairs on the remaining tanker fleet. Although under a traditional 
purchase the first new tanker will not be delivered until fiscal year 
2009, the Air Force does have $4.1 billion programmed in the FYDP to 
recapitalize the tanker fleet. Funding begins in fiscal year 2006.
    Question. Please detail the budget associated with procuring 
tankers, within the FYDP and beyond. Is this reduced number of tankers 
sustainable over the next 7-10 years if leasing does not occur?
    Answer. The funding profile for tanker replacement in the Air Force 
program is indicated in the table below. Currently the Air Force has 
$4.1 billion programmed in the future years defense plan (FYDP) which 
will deliver 16 aircraft by fiscal year 2011 (aircraft purchased in 
fiscal year 2008 and fiscal year 2009 will be delivered in fiscal year 
2010 and fiscal year 2011). Outside the FYDP the preferred production 
rate of 18 aircraft/year will require between $3.8 billion to 4.2 
billion annually. The eventual number and type of tankers the Air Force 
might buy has not been determined.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
       Program Element 41221F           FY04       FY05       FY06       FY07       FY08       FY09       FYDP
----------------------------------------------------------------------------------------------------------------
Total Program......................         $0         $0       $154       $375     $1,417     $2,172     $4,118
Aircraft Delivery *................          0          0          0          0          0          1         1
----------------------------------------------------------------------------------------------------------------
* Delivery occurs two years after aircraft order funding is made available.

    The Air Force tankers will be more sustainable because of planned 
retirements. The Air Force reinvested 80 percent of its savings back 
into the tanker fleet, making needed corrosion repairs on the remaining 
KC-135 fleet. Additionally, reinvested manpower and additional flight 
hours will improve utilization of the fleet.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. How will crew ratios change with this decision? Please 
quantify personnel changes associated with this plan.
    Answer. The crew ratio will increase with the decision to reduce 
KC-135 E-models. The Air Force retained 286 officer and enlisted 
positions as part of the 48 aircraft transfer to the Air Reserve 
Components (ARC), filling requirements in the active duty tanker 
program. This increased the active duty crew ratio from 1.36 to 1.75, 
while also largely maintaining the active duty flight hour program, 
flying more hours per jet. The ARC retained the manpower associated 
with the E-model reduction, allowing the Air National Guard to increase 
their crew ratio from 1.27 to 1.8, and Air Force Reserves from 1.27 to 
1.5.
    Question. Does this create a greater burden on the Guard to support 
missions, if the active force is reduced by 68 a/c? Please quantify the 
number of KC-135 sorties that the Air National generated annually over 
each of the last five years. Is this rate expected to increase 
significantly under this proposal?
    Answer. The Air Force plans to reduce 68 primary aircraft 
authorization (PAA) KC-135Es between fiscal year 2004-06. As part of 
our recapitalization plan, 48 active duty R-models will transfer to the 
Air Reserve Component (ARC) allowing the ARC to retire their first 48 
E-models. Additionally the Air National Guard (ANG) will standardize 
the size of their units at eight PAA, allowing the retirement of an 
additional 20 KC-135Es, and maintain all ARC unit flags. The savings 
will be reinvested into the KC-135 fleet for critical corrosion 
repairs, manpower is reinvested to increase crew ratio to 1.75 active 
duty, 1.8 ANG, and 1.5 Air Force Reserve Command. The active duty/ARC 
reduces the KC-135 PAA fleet by 13 percent, but retains peacetime 
flying hours to support crew training.
    Yes, this creates a greater burden on the Air National Guard. These 
active force aircraft have generated significant sortie rates 
requirements that will continue to exist as they are absorbed by the 
ANG. The active duty to ARC mix changes from 45 percent/55 percent in 
fiscal year 2003 to 41 percent/59 percent respectively by fiscal year 
2006. In peacetime the aircraft will log more hours per year, however, 
the crewmembers will fly/work the same amount. In a maximum effort 
wartime scenario the ARC will pick up an additional four percent of the 
workload.
    Over the last five fiscal years, ANG KC-135 (E & R) sorties 
generated are: 19,859 (fiscal year 1998); 17,684 (fiscal year 1999); 
16,316 (fiscal year 2000); 16,986 (fiscal year 2001), and 19,499 
(fiscal year 2002). ANG sorties are expected to gradually increase 
under this proposal.
    Question. What is the net impact on Fairchild? Grand Forks? 
Elsewhere?
    Answer. Under the most current plan Fairchild AFB will transfer a 
total of 18 R-model tankers to the reserve components to backfill their 
E-model retirements. Grand Forks' contribution is 12 R-models, and 
McConnell's is 18.
    Question. How many tankers are required for a two MTW scenario? 
What is the identified tanker requirement for a MTW involving Iraq?
    Answer. Tanker Requirements Study 2005 (released 2001) was 
conducted by Air Mobility Command in partnership with the Office of the 
Secretary of Defense (OSD) Program Analysis and Evaluation division. 
The study was conducted to determine both aircraft and aircrew 
requirements to meet our nation's aerial refueling needs in the near 
term. The Tanker Requirements Study recommended fleet availability of 
500-600 aircraft at a 1.66 to 1.92 crew ratio, depending upon the 
scenario.
    We are confident that we can, and will, successfully execute all 
required missions. However, as simultaneous operations in other regions 
are added, tanker availability becomes more of a limiting factor, 
delaying deployment of forces, and extending the duration of the air 
war. In the future, the Air Force will continue to assess its tanker 
requirements and make appropriate decisions regarding force structure.
    Question. Please detail the assumed savings from retiring these 
aircraft, including an explanation of assumed cost-avoidance. Are these 
savings being used entirely to recapitalize the remaining E-models?
    Answer. Savings include depot costs, manpower, and engine 
overhauls. Cost avoidance includes expected increases to depot 
maintenance costs and corrosion repairs (including strut replacement). 
These retirements avoid needed replacement/overhaul of the E-model 
struts on approximately half of the fleet ($177 million). The cost of 
program depot maintenance has quadrupled since 1990; cost avoidance for 
higher bills in the Future Year Defense Plan is approximately $530 
million.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
              Program                   FY04       FY05       FY06       FY07       FY08       FY09       FYDP
----------------------------------------------------------------------------------------------------------------
Savings............................        $75       $107       $134       $153       $155       $157       $781
Cost Avoidance.....................         76        151        167        145         78         90        707
                                    ----------------------------------------------------------------------------
      Total........................        151        258        301        298        233        247      1,488
----------------------------------------------------------------------------------------------------------------

    All savings from operation and maintenance costs were reinvested 
back into the KC-135 fleet, directly linked to critical corrosion 
repairs, replacing the struts on the remaining E-models. Additionally, 
reinvested manpower and additional flight hours will improve 
utilization of the fleet.

                    C-17 Request of Only 11 Aircraft

    Question. Last year, Congress added $585.9 million with direction 
to ensure the Air Force properly budget for a second C-17 multiyear 
contract. The Air Force request this year only funds 11 C-17s in FY 
2004.
    Why did the Air Force choose not to fund 15 aircraft in FY 2004 as 
directed by Congress?
    Answer. The congressional add of $585.9 million (three aircraft in 
fiscal year 2003) presented the Air Force with an opportunity to revamp 
the remaining program. The new program is not incrementally funded (we 
buy 11 and get 11); and, unlike last year's request, the Advance 
Procurement is low (we never go above 15 percent). Additionally, we 
maintain Multiyear Procurement at the planned economic production rate 
of 15 aircraft per year. The new program avoids requesting funding 
early-to-need since the contractor doesn't manufacture and assemble 
what would have been fiscal year 2004's 12th aircraft until fiscal year 
2005, meaning funding above 11 in fiscal year 2004 is early-to-need by 
one year. The Air Force will take advantage of existing order backlog 
to only order the number of aircraft required (11) to be started by the 
end of next year. The new program avoids the need to out-prioritize 
other important defense programs, since adding four early-to-need C-17 
aircraft would have required over $600 million in additional funding in 
fiscal year 2004.
    Question. Are any of the 11 aircraft requested in the FY 2004 
budget funded early-to-need?
    Answer. One of the 11 C-17s requested in the fiscal year 2004 
President's Budget is funded slightly (less than one month) early-to-
need. The Air Force is attempting to strike a balance between funding 
as many aircraft as possible, without having to fund aircraft early-to-
need. With the current procurement profile presented in the fiscal year 
2004 President's Budget, no aircraft are funded early-to-need after 
fiscal year 2004.
    Question. The production schedule accompanying the request 
indicates that rather than delivering 4 aircraft from June through 
August of FY04 as was displayed in the 2003 submission, no aircraft 
will be delivered during this period. Is this correct?
    Answer. No, a break in production is not expected. Relative to the 
contract delivery dates, Multiyear Procurement 1 is currently 139 days 
ahead of schedule. Multiyear Procurement 2 resets the schedule reserve 
to 90 days. No changes occurred in the production schedule between the 
fiscal year 2003 and fiscal year 2004 submission to Congress. However, 
the fiscal year 2003 submission was based on multiyear procurement 1 
contract dates, and the fiscal year 2004 submission was based on 
multiyear procurement 1 forecasted early deliveries. Therefore, the 
perceived 3-month ``production break'' from June through August of 
fiscal year 2004 results from showing actual/projected delivery dates 
for first multiyear procurement 1 and contract delivery dates for 
multiyear procurement 2. The negotiated schedule reserve is desired to 
allow for unanticipated events, such as the United Kingdom lease that 
occurred in 2001.
    Question. The final aircraft under the first multiyear contract 
will be delivered 6 months early in May of 2004 as opposed to November. 
How has the second multiyear accounted for this?
    Answer. Multipleyear Procurement (MYP 2) moves the contract 
delivery dates forward to shorten the amount of schedule reserve. The 
MYP 2 contract takes Boeing's internal schedule into consideration 
since Boeing's schedule maintains a constant production flow, and 
provides for a smooth transition between the two MYP contracts.
    Question. If the Air Force were to modify the delivery schedule in 
FY 2004, could an additional 4 aircraft be put on contract prior to the 
start of FY 2005?
    Answer. Yes, but the costs and risks outweigh the potential 
benefits. Modifying the delivery schedule would require increasing 
plant throughput and could result in increased cost/risk to the Air 
Force. The multi-year procurement contract was based on an economic 
production rate of 15 C-17s per year. Production above 15/yr does not 
yield any cost benefits. Increasing C-17 production rate also increases 
C-17 risks, decreases plant reserve/flexibility, and also increases 
difficulty in implementing aircraft block upgrades on time. The 
potential ramp-up could require extra funding for retooling and take as 
much as 12-24 months to implement.
    Question. Interim Contractor Support increases from $532 million in 
FY 2003 to $927 million in FY 2004. Please explain the reason for the 
increase of $395 million. How many total C-17 aircraft will be fielded 
by the end of FY 2003? FY 2004?
    Answer. The increase in the Interim Contractor Support request is 
due to requirements to support the +60 buy, standup of new C-17 bases, 
sustainment support as more aircraft are delivered, aircraft block 
upgrades, and the purchase of spare engines. Of the $395 million 
increase, $229.2 million is due to site activation funding for McGuire 
AFB, NJ, March AFB, CA, Hickam AFB, HI, and Travis AFB, CA. The $85.9 
million is for increased sustainment support as more aircraft are 
delivered. This includes increased spares requirement due to the 
current operations tempo and Kosovo lessons learned. The $50.7 million 
is for aircraft block upgrades. The $29.1 million is for the purchase 
of spare engines. Based on Boeing's projected delivery schedule, 109 C-
17s will be fielded by the end of fiscal year 2003 and 125 by the end 
of fiscal year 2004.
    Question. What is the high altitude airdrop mission capability for 
the C-17?
    Answer. Normally the C-17 performs airdrop operations at and below 
25,000 feet. The 25,000-foot cap is primarily a physiological 
consideration for the aircrew, because the aircraft must be 
depressurized for the drop. Above this limit there are limitations to 
how an individual can perform their duties and stringent regulations on 
the use of life support equipment. The C-17 has demonstrated airdrops 
up to 29,000 feet (with special permission) operationally over the past 
year.
    Question. Please provide us with an update on the status of the C-
17 commercial variant program and what effect that and a NATO or 
foreign sale of this variant might have on the program?
    Answer. The Commercial Application of Military Airlift Aircraft 
(CAMAA), and NATO or foreign sales of this commercial variant should 
have no affect on the current multiyear procurement contract of 60 C-
17s (180 total).
    The CAMAA program office has developed a business plan that 
supports a public/private venture investing in 10 commercial C-17s. The 
CAMAA program is currently on hold, pending the validation of a 
military requirement for 222 C-17s, 42 more than the current buy of 
180, and demonstration that diverting 10 of those 42 additional C-17s 
into a CAMAA variant is both cost effective and militarily efficacious.

                          Bomber Requirements

    Question. The Air Force bomber requirement is defined as 157 
bombers (a mix of B-1, B-2, and B-52) at their full capacity. This 
requirement is defined in a November 2001 Long-Range Strike Aircraft 
White Paper.
    Mr. Secretary, could you please define for the Committee the Air 
Force's numerical bomber requirement by aircraft.
    Answer. The November 2001 Long-Range Strike Aircraft White Paper 
defines a bomber force structure which includes 157 aircraft. The 
bomber force structure includes the following number of aircraft: B-2 
(21), B-1 (60), and B-52 (76).
    Question. Are we currently meeting that requirement, including the 
``full capability'' aspect of that requirement?
    Answer. Yes, the Air Force is pursuing a time-phased modernization 
program that will eventually achieve full capability for our 157 
bombers by 2015. The objective of the modernization program is to 
improve lethality, survivability, supportability, and responsiveness, 
all of which are necessary for the bomber force to achieve the desired 
``full capability.''
    Question. Is the Strike Aircraft White Paper of November, 2001, 
considered by the Air Force to be the bomber roadmap for the future?
    Answer. No, as stated in the Long-Range Strike Aircraft White 
Paper, the document is not the bomber roadmap. The White Paper 
articulates long-range bomber force structure plans, modernization, 
capabilities, concept of operations, and replacement timeline. The 
document is a ``snapshot'' in time and is designed to reflect strategic 
guidance and fiscal plans; therefore, changes in the threat 
environment, advances in weapon technology, unforeseen increases in 
aircraft attrition, or any number of other variables could drive a 
modification, addition, or complete re-write. The Air Force's bomber 
roadmap is now in development at Headquarters, Air Combat Command.
    Question. How often is the Strike Aircraft White Paper reevaluated? 
When will it be reevaluated again?
    Answer: The document is a ``snapshot'' in time and is designed to 
reflect strategic guidance and fiscal plans. The first Strike Aircraft 
White Paper was completed in March 1999 and updated in November 2001. 
The Air Force is currently evaluating guidance and plans to determine 
if an update is needed.
    Question. Please provide for the record a copy of the November, 
2001, Strike Aircraft White Paper?
    Answer. The Office of the Assistant Secretary of the Air Force 
(Financial Management & Comptroller), Congressional Liaison, has 
provided a copy to the House Appropriations Committtee, Subcommittee on 
Defense.

                 B-1B Defensive Systems Upgrade Program

    Question. In a letter to the Committee in December the Air Force 
notified that it was canceling the Defensive Systems Upgrade Program 
(DSUP) due to persistent cost overruns and mission failures.
    What are the estimated termination costs of the DSUP program in 
FY03?
    Answer: As noted in the ``Report to Congress on B-1 Defensive 
System Upgrade Program (DSUP),'' DSUP termination costs could be as 
high as $90 million. That amount includes government costs to modify 
two fleet aircraft to replace the two test aircraft currently 
configured with Block F DSUP, test infrastructure previously shared 
between B-1 Block E and Block F and Boeing allowable termination costs. 
The Boeing share of the termination costs will not be finalized until 
the final contract termination resolution, expected before February 
2004. At this time, the Air Force plans on using $82 million of fiscal 
year 2003 DSUP RDT&E funding to cover anticipated DSUP termination 
costs.

                        B-2 Bomber Modifications

    Question. The FY04 request includes $76.4 million for additional 
upgrades to the B-2. The primary modifications in the request are the 
MK82 JDAM/Smart Bomb Rack Assembly, Link 16/Center Instrument Display/
In-flight Replanner, and Low Observable improvements.
    What is the status of the MK82 JDAM/Smart Bomb Rack Assembly 
modernization program for the B-2?
    Answer. The B-2 Smart Bomb Rack (SBRA)/Joint Direct Attack Munition 
(JDAM)-82 integration program is proceeding on schedule. Testing at 
Edwards AFB began in February 2003. The test period began with a full 
range of ground testing, which was successful. Flight testing started 
shortly thereafter. Both captive carry and separation tests have been 
conducted to date. Communications between the aircraft and the weapons 
have been successful. The first separation test was conducted on 5 
March 2003, and, as planned, sixteen inert, unguided JDAM-82s were 
successfully released. Analysis of the mission data is currently 
underway. The next mission is scheduled for 23 April 2003 and flight 
testing is projected to complete by 10 September 2003.
    The production portion of the SBRA program is also on schedule. The 
baseline contract effort to modify the first bomb racks for use by the 
509th at Whiteman AFB may be awarded in early April. This award will 
insure sufficient SBRA assets are available to meet the RAA (Required 
Assets Available) requirements of four shipsets by November 2004.
    Question. Can you please define for the Committee the increased 
weapon delivery capability that the smart bomb rack assemblies will 
bring to the plane in terms of current capability per type of munition, 
and what the capability will be once the racks are installed.
    Answer. Presently, the B-2 can strike up to 16 individual targets 
with the GBU-31 (2000lb class weapon). The weapons are carried on a 
rotary launch assembly (RLA). The B-2 can carry eight weapons per RLA 
and with two weapons bays can carry a total of 16 weapons.
    The addition of Mk 82 JDAM (GBU-38)/Smart Bomb Rack Assembly allows 
the B-2 the ability to carry up to 80 GBU-38 weapons. This allows the 
B-2 the capability to individually strike up to 80 targets in one 
sortie. The GBU-38 is a 500lb class weapon that can, in certain 
instances, strike targets where collateral damage concerns prohibit the 
use of a 2000lb weapon such as the GBU-31.
    Question. When does the Air Force anticipate it will begin 
modifications to integrate the Small Diameter Bomb into the B-2's 
weapons capability?
    Answer. The fielding of the MK-82 JDAM with the SBRA in fiscal year 
2004 will dramatically increase B-2's payload from 16 JDAMs to 80 
JDAMs. Because of this huge leap in capability in delivering 500lb. 
near precision weapons, there is no funding in the Future Years Defense 
Plan for Small Diameter Bomb (SDB) integration on the B-2. When the 
SDB's development is complete, opportunities for integration on the B-2 
platform will be assessed by the Air Force.
    Question. What increased weapon delivery capability would the Small 
Diameter Bomb bring to the plane in terms of bombs per sortie?
    Answer. Given the capability provided by MK-82 JDAM (fiscal year 
2004 for B-2 integration), the Air Force has chosen not to integrate 
the Small Diameter Bomb (SDB) on the B-2 at this time. However, 
analysis shows the B-2 could carry sixty-four 250lb. weapons (SDBs) 
loaded on the B-2 Rotary Launcher Assembly (RLA) or 80 on the SBRA.
    Question. EHF SATCOM upgrades begin in FY 2005 as compared to last 
year's request, which had the modification beginning in FY 2007. What 
is the reason for the acceleration and how was the significant program 
savings achieved?
    Answer. Changes in the EHF SATCOM program between the fiscal year 
2003 and fiscal year 2004 President's Budget submissions did not result 
in schedule acceleration or cost savings. In the fiscal year 2003 
President's Budget, EHF SATCOM upgrades were scheduled to begin in 
fiscal year 2005. Due to higher Air Force priorities, funds were 
reduced in the fiscal year 2004 President's Budget, resulting in the 
procurement start date slipping from fiscal year 2005 to fiscal year 
2007. These funding cuts and the program delay of two years resulted in 
a slight decrease in funding over the FYDP (fiscal year 2003-fiscal 
year 2009).
    Question. Please explain for the Committee the savings identified 
in the Radar System Modification program. The FY 2004 budget indicates 
the program has been accelerated to begin in FY 2006 instead of FY 2007 
as proposed last year. The total program cost has been reduced from 
$1.271 billion to $500 million.
    Answer. The B-2 Radar program was mid-way through a trade study 
when the fiscal year 2003 President's Budget was submitted. Although 
the trade study examined a range of options, the fiscal year 2003 
President's Budget was based on an estimate that included $.65 billion 
in Research, Development, Test and Evaluation (RDT&E) and $1.27 billion 
in aircraft procurement for a total cost of $1.92 billion (fiscal year 
2003-fiscal year 2009). Program start would begin in fiscal year 2003 
and procurement would begin in fiscal year 2007. As the Air Force 
worked through the trade study, it was determined that the requirement 
could be met with a less expensive option, which was submitted in the 
fiscal year 2004 President's Budget request. The option in the fiscal 
year 2004 President's Budget was phased differently and included a 
budget of $.77 billion in RDT&E and $.5 billion in aircraft procurement 
for a total cost of $1.27 billion (fiscal year 2003-fiscal year 2009). 
Procurement would start one year earlier in fiscal year 2006.

                           B-2 Exhaust Cracks

    Question. Last year the Committee expressed concern about the 
reappearance of surface material cracks aft of the engines. Are you 
continuing to see this cracking?
    Answer. Cracks are continuing to appear aft of the engines on the 
aft deck. As of 13 March 2003, all aircraft except two have cracks and 
the remaining two are expected to eventually experience cracking as 
well. Although these cracks do not pose a safety-off-light concern, 
they will propagate to a point where they impact Low Observable (LO) 
characteristics. The majority of the cracks are within acceptable 
limits at this time; it is anticipated that they will eventually grow 
to a point where repairs are required. Depending on the rate of 
continued cracking and crack growth, there is the possibility of a 
serious impact on mission capability.
    Question. Is there anything more you know about the cause of these 
cracks and have they affected the aircraft's performance in any 
measurable way?
    Answer. The root cause of aft deck cracking has not been 
determined. A team of government and industry experts has been 
assembled to help monitor the crack growth, conduct tests, and develop 
a system engineering approach to conclusively determine the failure 
mechanism. On 25 March 2003, a contractor team started work, using 
fiscal year 2003 funding, to complete the structural root cause 
analysis. The results of that investigation will help to derive viable 
short- and long-term solutions.
    Aft deck cracks have affected the Low Observable (LO) performance 
on two aircraft. External patches have been installed temporarily on 
these two aircraft to contain excessive cracking. The patches are 
considered temporary, since they do not maintain the desired LO 
performance.
    Question. Have you determined a fix for this problem?
    Answer. At this time, no permanent fix has been determined for this 
problem. The Air Force has developed an interim solution for aircraft 
with limited cracking that will maintain the desired Low Observable 
(LO) performance. In addition, the Air Force is pursuing an interim 
repair for seriously cracked aft decks that will also maintain LO 
performance. The root cause analysis will help determine the way ahead 
for a permanent solution.
    Question. Is there anything in the request to address this problem?
    Answer. Our government and industry team is using the available 
fiscal year 2003 funding to complete structural root cause analysis 
scheduled to be completed by September 2004. There is currently no 
funding budgeted for this problem beyond the fiscal year 2003 
appropriation.

                    B-52 Stand-Off Jamming Platform

    Question. The Air Force plans to use B-52s as an Airborne 
Electronic Attack platform by developing a pod capable of covering 
early warning and ground control intercept radars with particular 
attention to radars feeding advanced long range SAMs. The Situational 
Awareness Defensive Initiative (SADI), which is the follow on to the B-
52s current early warning and jamming capability, is being rebaselined 
in FY 2004 to include this new initiative.
    Why is the B-52 the best platform for this mission? Why not use a 
767 or other aircraft?
    Answer. The B-52 is the best platform for this mission since it is 
available and will be in service until 2040, can perform the electronic 
attack mission in conjunction with the attack missions it currently 
performs, has high electrical generating capability, and has the long 
range and loiter characteristics necessitated by the stand-off jamming 
role. Use of a 767 or similar aircraft as a stand-off jamming platform 
is not as advantageous because of the additional costs to acquire the 
aircraft and to operate and maintain an additional fleet of single 
mission aircraft. The OSD sponsored Airborne Electronic Attack (AEA) 
Analysis of Alternatives (AoA) study concluded, to be survivable in an 
anti-access threat environment, the services needed both stand-in and 
stand-off jamming capability. To be effective at the longer ranges 
posed by these threats, stand-off jamming requires a large amount of 
Effective Radiated Power (ERP). The B-52 can generate the necessary 
electrical power to power a high ERP jamming pod while maintaining its 
weapons carriage capability. In addition, the B-52 platform provides 
both the range and persistence necessary to support other assets within 
the Global Strike Task Force.
    Question. How would a standoff jamming capability affect the 
current weapons employment capability?
    Answer. B-52 weapons employment capabilities will not be impacted. 
The B-52 maintains its existing vast combat capabilities, delivering 
Conventional Air Launched Cruise Missile, Joint Air to Surface Standoff 
Missile, Joint Direct Attack Missile, Joint Stand Off Weapon, Wind-
Corrected Munitions Dispenser, and the Miniature Air Launched Decoy 
weapons, while performing as a stand-off jammer simultaneously.
    Question. What requirement/capability changes are being made to the 
B-52 stand off jamming mission?
    Answer. The B-52 has an ALR-20A panoramic receiver that due to 
serviceability issues needs replacing. An existing requirement to 
replace the ALR-20A with the Situational Awareness Defensive 
Improvement (SADI) has been modified to incorporate enhanced 
capabilities to control the jamming pod. The jamming pods will be 
composed of electronically steerable arrays and will replace the 
external fuel tanks on the B-52.
    Question. Funding provided in FY 2003 is to carry the program 
through FY 2004. What efforts will this $22.4 million be used for over 
this two year period?
    Answer. The $22.4 million will be used for risk reduction efforts 
and trade study analysis to define the new program cost and schedule 
and aid in final source selection of the new Situational Awareness 
Defensive Initiative architecture.

                F-16 Aircraft Procurement Cancellations

    Question. In the FY 2003 request, the Air Force had proposed to 
begin purchase of an additional 6 aircraft in FY 2004 and 6 aircraft in 
FY 2005 at a total cost of $459 million. The FY 2004 budget deletes the 
request for any additional aircraft and realigns $63.7 million of the 
proposed funding to F-16 modifications for a net savings of $395 
million.
    What is the Air Force's argument for deleting funding for the 
additional aircraft as proposed in the FY 2003 request?
    Answer. The Air Force determined that it would be more cost 
effective to invest the funds originally to be used to procure the 
remaining (12) F-16 Block 50s into programs that will upgrade the F-16 
Block 40 to a similar capability as the F-16 Block 50. To accomplish 
this, funds were placed into Common Configuration Implementation 
Program, Falcon STAR (Structural Augmentation Roadmap), and High Speed 
AntiRadiation Missile (HARM) Targeting Systems R7.
    Question. What drove the increased unit flyaway costs above what 
was anticipated when the FY 2003 budget was submitted?
    Answer. The increase in unit flyaway costs was driven by higher 
than anticipated funding requirements for the APG-68 radar (required to 
match USAF fielded version) and escalation of diminishing manufacture 
source costs (parts obsolescence).
    Question. While funds made available from the deletion of the 
additional aircraft have been reinvested in aircraft improvements, this 
amounts to only $63.7 million above what was anticipated when the 2003 
request came to Congress. What higher priority programs are being 
funded with the remaining $395 million in savings?
    Answer. The Air Force reinvested $103.8 million into F-16 
modifications for the Common Configuration Implementation Program, 
Falcon STAR structural augmentation program, and HARM Targeting System. 
Examples of other programs the remaining ``savings,'' were invested 
into are B-2 Ultrahigh frequency satellite communications, F-117 
expanded data transfer system, contract logistics support for F-16/HH-
60, and munitions programs.
    Question. How can the capability gained from these modifications 
outweigh the loss of 12 operational Block 50 aircraft?
    Answer. By reprogramming a portion of the funds, funding 
disconnects in the top three F-16 modernization/structural programs are 
eliminated. This action funds dramatic improvements in the operational 
capability of our F-16 Block 40/50 fleet, approximately 650 jets. These 
three programs are: (1) High-Speed Anti-Radiation Missile (HARM) 
Targeting System Revision #7; resulting in suppression of enemy air 
defenses (SEAD) improvements; (2) Common Configuration Implementation 
Plan--provides a near-peer capability for all Block 40/50 aircraft 
giving these aircraft flexibility to perform all multirole missions 
(Precision Attack, SEAD/Destruction of Enemy Air Defenses (DEAD), Air 
Superiority), not just one or two specialized missions; and (3) Falcon 
Star, a structural modification program that insures all F-16s 
(including the early Block 25s and 30s) can reach their design life of 
8,000 flight hours. The elimination of 12 jets in order to fund these 
programs is prudent.
    Question. Will Foreign Military Sales sustain the line?
    Answer. Yes. The line is virtually only producing aircraft for 
Foreign Military Sales (FMS) customers (with the exception of one 
United States Air Force F-16 from the fiscal year 2001 budget slated 
for production in December 2004). We expect a Letter of Offer and 
Acceptance from Poland with the month for approximately 48 aircraft, 
the production line is scheduled to make 349 aircraft--348 for foreign 
customers and one for the United States Air Force. This will keep the 
production line open until December 2008.
    Question. What Foreign Military Sales do we have?
    Answer. As of Wednesday, 19 March 2003, foreign customers have 
ordered a total of 2113 F-16s. 1814 have been built, with 299 remaining 
to be produced.

                    F/A-22 Raptor Avionics Problems

    Question. Initial Operational Test and Evaluation is presently 
scheduled for August of 2003. The greatest risks to certification of F/
A-22 for IOT&E have been identified as avionics test progress, software 
development, flight envelope expansion, and test aircraft 
configuration.
    Instabilities and problems with the Electronic Warfare (EW) and 
Communications, Navigation, and Identification (CNI) subsystems have 
seriously delayed the progress of the avionics flight test program.
    The F-22 avionics recently demonstrated a 90-percent start up and 
8.8-hour run time in the avionics lab. However, when transferred to the 
aircraft, avionics only achieved a 1-hour run time before system crash. 
The Air Force has newly activated a second Avionics Integration Lab in 
Marietta to address avionics instability issues. In addition, OSD 
convened an independent Avionics Red Team to assess avionics 
development and status.
    What were the findings and recommendations of the Red Team?
    Answer. Their findings reflected that systems engineering processes 
lacked the rigor necessary to meet the schedule constraints. The Red 
Team recommendations center on implementation of new software 
development tools and data capturing methods for finding and fixing the 
root causes of instability events. The team went on to state that, 
after we implement these new tools, there is no reason we can't resolve 
the stability issue. They agreed the architecture appears sound and the 
stability issues are normal for a system of this complexity.
    Question. What has the Air Force done to implement Red Team 
recommendations?
    Answer. We are implementing the Red Team's recommendations to 
strengthen the key systems engineering processes to better understand 
and correct stability related issues. By the end of June, the 
recommended data collection tools will be fully implemented to allow 
identification and correction of the software instability root causes. 
Adding functionality is on hold until the software is stabilized. 
Improvements to the current version are being implemented in smaller 
increments to better isolate and assess stability progress.
    Question. Has the program been able to identify why the avionics 
has such greater stability in the Avionics Integration Lab verses on 
the aircraft itself?
    Answer. Run time stability differences are attributable to 
differences between lab and aircraft configurations, to include cable 
lengths, number of apertures, environment, and hardware. The Avionics 
Integration Lab is being changed to better replicate the aircraft. For 
example, the lab changed the power-on sequencing so as to replicate 
aircraft. Additionally, the lab now employs more extensive 
communications to simulate an aircraft under testing conditions. The 
Program Office has identified several differences between the lab and 
the aircraft and these differences have been corrected.
    Question. Mr. Secretary, in your opinion, will a stable, 
operationally effective, and suitable F/A-22 avionics suite be 
delivered for the August scheduled Initial Operational Test and 
Evaluation?
    Answer. The program remains event-driven. We will not begin 
Dedicated Initial Operational Test and Evaluation (DIOT&E) until we 
have delivered a stable, effective, and suitable avionics software 
suite. As such, DIOT&E is currently estimated to start in October 2003.
    Question. If a stable, operationally effective, and suitable F/A-22 
avionics suite cannot be achieved prior to the scheduled IOT&E, will 
the Air Force still proceed with IOT&E?
    Answer. No. Dedicated Initial Operational Test and Evaluation 
(DIOT&E) start is an event-driven milestone--we will not begin DIOT&E 
until we are ready to succeed. Based on remaining development work, we 
are estimating a DIOT&E start date of October 2003. This provides 60 
days (from previous start date of August 2003) to implement aircraft 
and laboratory changes necessary to achieve software stability.
    Question. What is the standard the program is trying to achieve to 
qualify as a stable, operationally effective, and suitable F/A-22 
avionics suite?
    Answer. The F/A-22 program objective for runtime stability and 
start-up performance at the start of Dedicated Initial Operational Test 
and Evaluation are 20 hours and near 100 percent, respectively.

           F/A-22 Attack Role's Effects on Avionics Problems

    Question. Underlying the avionics challenges is a problem in how 
the Air Force implemented their software development efforts. The 
proper approach requires ensuring that all the bugs are worked out of 
the software that provides a basic level of capability before adding 
the next level of capability. Instead the Air Force continued to add 
new software modules, which introduced new bugs before the old ones 
were solved.
    Mr. Secretary, at what point in the development of the Raptor was 
the decision made to add an attack capability?
    Answer. The requirements of the attack capability has been inherent 
in the aircraft since 1993 Program Management Directive added the Joint 
Direct Attack Munition capability to the development program and the 
Operational Requirement Document was updated in 1996 to reflect the 
multi-role capability of the aircraft. In September 2002, the Chief of 
Staff of the Air Force and I announced the re-designation of the F-22 
as the F/A-22. This was done in part to re-emphasize and remind members 
of the defense community of the inherent air-to-ground capabilities in 
the current design and the improved strike capability to be realized 
through planned spiral modernization.
    Question. Did the decision to add the attack mission to the 
Raptor's capability affect the avionics development and in any way 
contribute to the instability of the software?
    Answer. No. Neither current nor future F/A-22 air-to-ground 
capabilities are in any way related to the current avionics 
instabilities being seen in flight test. The Joint Direct Attack 
Munition (JDAM) software module has not yet been integrated into the F/
A-22 avionics software. Future air-to-ground capabilities (beyond 
JDAM), as captured in the F/A-22 Spiral Modernization Roadmap, are also 
not part of the current software loads nor contributors to avionics 
instabilities.

                     F/A-22 Raptor EMD Cost Growth

    Question. The Air Force has identified $876 million in cost growth 
in the Engineering and Manufacturing Development (EMD) funding for the 
F-22 program (FY03-06). To cover these additional costs, the Air Force 
is delaying modernizations in the aircrafts capabilities and reducing 
the number of aircraft procured in Lot 3 from 23 to 20, and in Lot 4 
from 27 to 22.
    Mr. Secretary, you were recently quoted in Defense Daily as saying 
``We are now at a point where we are cutting down on the cost curve'' 
on the F/A-22. What developments have occurred or what data have you 
seen which would lead you to make this statement?
    Answer. The aircraft cost is decreasing. The Lot 3 aircraft costs 
are 11 percent less than Lot 2, and 46 percent less than the initial 
production lot. Continued program stability will enable supplier 
confidence and is critical to future cost reductions. Supplier 
confidence leads to increased supplier investments, reduced production 
costs, and ultimately, maximized production quantity under the ``buy-
to-budget'' acquisition strategy.
    Question. In fact, haven't the actual costs been consistently 
higher than the Air Force estimate?
    Answer. No, actual production costs have not been consistently 
higher than the Air Force estimates since 2001. The Air Force uses a 
Target Price Curve (TPC) agreement to incentivize Lockheed-Martin and 
Pratt & Whitney to meet cost goals for the airframe and engine, 
respectively. The TPC agreement has, until Lot 3, been an effective 
tool for estimating actual costs. All lot buys from Production 
Representative Test Vehicle (PRTV) I through Lot 2 have met their TPC 
goals. The most recent lot placed on contract, Lot 3 (fiscal year 2003 
funds), is the first lot of aircraft that did not meet its TPC goal. 
However, the Lot 3 unit costs are still less than Lot 2. The higher-
than-expected Lot 3 cost affects the cost curve for the remaining lots. 
These effects, however, are already included in the latest buy estimate 
of 276 total aircraft. Still, it is important to note that unit costs 
are consistently decreasing with each successive lot, to include Lot 3.
    Question. What planned modernizations will be delayed due to the 
reprogramming of these funds to cover the overrun?
    Answer. Candidate capabilities that have been delayed include air-
to-ground radar modes, Link 16 transmit, helmet-mounted cueing system, 
and Small Diameter Bomb integration.
    Question. If we had the F/A-22 today, what could it do in 
Afghanistan and Iraq that we couldn't otherwise already do?
    Answer. In Iraq, our forces had the luxury of 12 years of no-fly 
zone operations to degrade and destroy their integrated air defenses 
and pave the way for quick entry of coalition ground forces if 
required. A stealthy F/A-22 fleet would allow the same capability 
against adversaries with more advanced air defenses.

          F/A-22 GAO Report Supports Reducing Production Rate

    Question. The GAO issued a report on March 14th citing numerous 
problems with the test aircraft, concluding that the F/A-22 program has 
not met key performance, schedule, and cost goals, and recommending 
that the annual production rate not exceed 16 aircraft until 
operational testing is complete (scheduled for July, 2004).
    Mr. Secretary, General Jumper, could you please give us your 
response to the criticisms raised by the GAO report, and their 
recommendation to slow the production rate?
    Answer. The Air Force strongly disagrees with the GAO 
recommendation to slow the production rate. The GAO's rationale is that 
the Air Force should limit annual production at 16 aircraft until the 
need for future modifications can be determined. In fact, in December 
of 2002, the Department of Defense certified to Congress that savings 
afforded by procuring greater than the 16 aircraft far exceeds 
potential retrofit costs. Flight, fatigue, and static test activity 
have been extremely successful and do not indicate the need for any 
further structural updates. The F/A-22 is already meeting or exceeding 
all key aircraft performance parameters.
    The GAO report also neglects to examine the subsequent impacts of 
their recommendations. Slowing the production rate will lead to 
increased program costs as supplier confidence decreases, ramp rates 
fail to achieve maximum efficiency, learning curve projections fall 
short of expectations and inflation is allowed to factor further into 
the equation. In addition, slowing production delays delivering the F/
A-22's revolutionary capabilities into the hands of the warfighter.
    Question. Is the vertical fin buffeting solution under test or has 
it been incorporated into the manufacturing line? What is the 
associated cost?
    Answer. The F/A-22 fin buffet solution has been validated and fully 
flight-tested for altitudes above 10,000 feet. The actual solution 
requires minor retrofits for Lot 1 and prior aircraft. The cost to 
retrofit all affected aircraft is $2 million. For Lots 2 and beyond, 
the fixes are already incorporated in the manufacturing line. Flight 
test of the fin buffet solution for the flight envelope below 10,000 
feet is scheduled to begin in May 2003, as part of the already 
scheduled envelope testing for that flight region. However, it is 
important to note that our analysis for the region below 10,000 feet 
predicts no further modifications will be needed.
    Question. What modifications have been made to address the higher 
than predicted aft fuselage temperatures and thermal management system 
deficiencies? Are these modifications under testing or have they been 
incorporated into the production line?
    Answer. To mitigate the high temperatures, we've developed and 
demonstrated the following modifications: addition of thermal blankets 
to protect specific high temperature areas, replacement of the most aft 
internal vertical frame with Titanium and insertion of copper shims 
between a specific Titanium-Titanium interface. Formal qualification 
testing is also already underway. These modifications have been 
completed on the aircraft that will conduct Dedicated Initial 
Operational Test and Evaluation (DIOT&E). Production Representative 
Test Vehicle II through Lot 2 jets will be retrofitted after they are 
delivered. Finally, for Lot 3 and beyond, these modifications have 
already been incorporated into the production baseline.
    Question. Has the horizontal tail redesign been incorporated into 
the production line? What is the estimated cost of the horizontal tail 
redesign? Will aircraft continue to be delivered while a redesign is 
occurring? Will you retrofit previously delivered aircraft with the new 
tail?
    Answer. Yes, the horizontal tail redesign is now part of the Lot 3 
and beyond production baseline. We redesigned the horizontal tail as a 
Producibility Improvement Project (PIP). The redesign cost is about 
$15.7 million, but because the redesign is a PIP, it will result in a 
total production savings of $183 million (return multiple of 11.6). It 
is important to note that the existing tails are fully capable through 
periodic in-service inspections throughout their service life. Hence, 
there is no plan to retrofit previously delivered aircraft.

     Lack of F/A-22 Integrated Diagnostics for Maintenance at IOT&E

    Question. Development and integration of fully integrated 
diagnostics has slipped to a software block that delivers after the Air 
Force's planned start of IOT&E. Without integrated diagnostics, 
maintenance carried out in accordance with the current F/A-22 
maintenance concept will not be possible and contractor logistic 
support, to include special test equipment and personnel, will be 
required.
    Mr. Secretary, will fully integrated diagnostics be delivered in 
time for IOT&E?
    Answer. No. The maintenance concept for Initial Operational Test 
and Evaluation (IOT&E) does not require fully integrated aircraft 
Diagnostic & Health Management (DHM) software. The program is therefore 
not planning to deliver the full capability for the start of IOT&E. The 
IOT&E maintenance concept and the corresponding required DHM 
functionality to fulfill that concept have been approved by both the 
Air Force Operational Test and Evaluation Center (AFOTEC) and Air 
Combat Command. IOT&E is event based--testing will not start until the 
agreed-to set of DHM functionality is complete. Full DHM functionality 
will be tested as part of Follow-On Test and Evaluation.
    Question. If not, do you anticipate contractor logistic support and 
special test equipment and personnel will be required?
    Answer. Yes. The approved Initial Operational Test and Evaluation 
(IOT&E) maintenance concept includes the use of field service 
representatives and special test equipment (STE) to mitigate increased 
aircraft turn-around times. As mentioned, the full DHM functionality to 
be delivered and tested during Field Operational Testing and Evaluation 
will eliminate the use of field service representatives and STE.
    Question. Will this increase costs in the testing program?
    Answer. Yes. The requirement for the use of special test equipment 
(STE) will drive minimal additional labor costs resulting from the need 
to have sustained contractor support for STE operations and 
maintenance. No additional STE will be procured, as testing will use 
the F/A-22's initial inventory of STE. These costs are included in the 
latest Engineering and Manufacturing Development (EMD) cost estimate 
and are fully funded.

                 F/A-22 Envelope and Flight Monitoring

    Question. All F/A-22 test aircraft today have multiple operation 
limitations. All are monitored during flight for unacceptable loads/
stresses. Missions have been terminated early as a result of exceeding 
monitored load and/or temperature limits. IOT&E requires both an 
adequate flight envelope and can not occur if this monitoring is 
required.
    Is the GAO report correct in stating that to prevent heat buildup 
during flight testing, the aircraft is restricted to flying just over 
500 miles per hour, about the same speed as a modern jet liner, and 
that with heat sensors in the rear portion of the aircraft, it slows 
down whenever the temperature approaches a certain level?
    Answer. The GAO report is correct for the nine Engineering & 
Manufacturing Development (EMD) airframes only. Three of the EMD 
aircraft will support Initial Operational Test and Evaluation (IOT&E) 
and have already been modified to mitigate heat build-up. The remaining 
aircraft will be modified upon delivery or on the production line. 
Production Representative Test Vehicles through Lot 2 aircraft will be 
modified upon delivery. Lot 3 and beyond aircraft will have the 
modifications as part of the production line. These aircraft will have 
no airspeed envelope restrictions.
    Question. Mr. Secretary, in your opinion, will the F/A-22 be able 
to achieve an adequate flight envelope and unmonitored flight clearance 
in time for the scheduled IOT&E?
    Answer. Yes. Based on the current test point burn rate, F/A-22 will 
achieve an adequate flight envelope and unmonitored flight clearance in 
time for Initial Operational Test and Evaluation (IOT&E). The current 
plan will clear the envelope by August 2003 in time to meet the 
currently projected IOT&E start date of October 2003. It is important 
to note that entry into IOT&E is event-driven. One of the criteria for 
starting operational testing is having the required flight envelope 
available.
    Question. What is the standard the program is trying to achieve to 
qualify as an adequate flight envelope and unmonitored flight 
clearance?
    Answer. The Air Force is currently expanding the F/A-22 flight 
envelope through the flight sciences test program at Edwards AFB. 
Aircraft #4002 and #4003 are instrumented test vehicles that are 
capable of monitoring air loads across all the flight control surfaces 
for establishing and clearing structural limits as well as validating 
computer performance models. Initial Operational Test and Evaluation 
(IOT&E) will begin with non-instrumented aircraft after #4002 and #4003 
have cleared the 9G symmetric and 7.2G asymmetric envelope above 10,000 
ft. Recently, the Air Force Operational Test and Evaluation Center 
(AFOTEC) added an envelope requirement below 10,000 ft for IOT&E. Based 
on the current burn down rate, this expanded envelope will be cleared 
by IOT&E start. This standard has been agreed to by the AFOTEC, as well 
as DoD Director of Operational Test and Evaluation (DOT&E) as being 
production representative.

              Lack of Many F/A-22 Operational Capabilities

    Question. Significant operational capability is being deferred 
until after the start of IOT&E and completion of EMD. Deferred testing 
includes ferry configuration, external stores, and JDAM carriage 
release, full gun employment envelope, full use of speed brake 
function, and numerous system specification compliance test points. 
Deferred mission avionics capabilities include JDAM employment, AIM-9X 
integration, helmet mounted cueing system integration, and Joint 
Tactical Information Distribution System transmit capability.
    With so much operational capability being deferred until after the 
start of IOT&E and completion of EMD, do we not run the serious risk of 
testing aircraft that are not combat representative?
    Answer. The Initial Operational Test & Evaluation (IOT&E) aircraft 
will be combat representative and will closely match the Initial 
Operational Capability (IOC) configuration with few exceptions. We do 
not intend to test an aircraft that is not combat representative. The 
F/A-22 was designed with four revolutionary capabilities: stealth, 
supercruise, advanced maneuverability, and integrated avionics that 
will be extensively tested during IOT&E. The only significant EMD-
deferred operational capability not planned for IOT&E is Joint Direct 
Attack Munition employment. This along with other minor deferred 
capabilities will be tested in Follow-On Test & Evaluation (FOT&E) 
prior to IOC.
    Question. Do we not face a high risk of increased program costs if 
we run into significant obstacles in fully incorporating their 
capabilities?
    Answer. Yes, increased program costs could result if unexpected 
significant obstacles are encountered as future capabilities are 
developed and integrated on the F/A-22. However, the program is 
confident that it has the right approach to manage technical and cost 
issues that minimize the risk associated with future capability 
integration.

        Conventional Warhead Intercontinental Ballistic Missile

    Question. The Pentagon and Air Force are considering converting 
some of the long-range, ground-based nuclear missiles into nonnuclear 
rockets that could be used to strike states like Iraq and North Korea 
on short notice. The Air Force Space Command in Colorado Springs will 
begin formally exploring the idea of converting some Minuteman III 
missiles this fall in a two-year analysis of alternatives.
    At what level in the Air Force organization is consideration being 
given to converting long-range, ground-based nuclear missiles into 
conventional rockets?
    Answer. Let me first respond to your statement. I believe some 
clarification may be necessary. The Conventional Ballistic Missile 
(CBM) concept differs from others that currently have funding 
programmed in the Future Years Defense Plan (FYDP). In fiscal year 
2004, Air Force Space Command (AFSPC) will begin formal analyses of two 
potential programs that are separate and distinct from the CBM concept 
referenced above: Per Nuclear Posture Review (NPR) direction, AFSPC 
will start a two-year Analysis of Alternatives (AoA) for the Land-Based 
Strategic Nuclear Deterrent, a potential follow-on system to begin 
replacing the aging Minuteman III force by 2018. A significant life 
extension effort is now underway for the Minuteman III force, designed 
to ensure system viability through 2020.
    In addition, AFSPC will begin to analyze options for providing a 
prompt conventional global strike capability, by means of a Common Aero 
Vehicle. While the method for delivering such a system is not yet 
determined, options may include an ICBM like boost vehicle. This CBM 
concept has been discussed at AFSPC and the Air Staff. It is only one 
of several possible alternatives being examined to meet the NPR goal of 
enhancing our deterrent posture with a mix of conventional and nuclear 
advanced concepts to provide the widest possible range of options for 
our nation's leaders. These internal discussions simply allow us to 
weigh alternatives and in no way represent a decision to design, 
produce or deploy a CBM. In short, there is no developmental CBM effort 
underway, nor is one programmed in the current FYDP.
    Question. With regard to the consideration being given to putting a 
conventional warhead on an ICBM, how is the Air Force addressing the 
concerns that our adversaries, regardless of whether it is a 
conventional warhead, could portray any launch of an ICBM as a nuclear 
first strike?
    Answer. In order for an adversary to have the potential to portray 
the launch of a conventionally tipped ICBM as a nuclear strike, they 
would need to have early warning sensors capable of detecting the 
launch of an attack. Only Russia has such a capability and we do not 
consider them to be an enemy, though they are not a traditional ally. A 
series of agreements are in place to reduce the risk of 
misunderstanding: The 1988 Ballistic Missile Launch Notification 
Agreement and the 2000 Pre-and Post-Launch Notification Agreement call 
for advance notice of ICBM launches. In addition, the 2000 Shared Early 
Warning Agreement provides for sharing of information derived from 
early warning sensors. The latter two agreements have been signed but 
have not yet been implemented. Finally, the 1971 Accidents Measures 
Agreement calls for notifications in connection with events that have 
the potential to create the risk of nuclear war, including certain 
launches and ambiguous incidents involving detection of objects from 
early warning sensors. This information sharing regime provides 
satisfactory protection against the risk of misunderstanding while 
simultaneously preserving the operational security necessary for system 
effectiveness.
    Question. What funds are included in the FY2004 President's Budget 
in support of this analysis?
    Answer. There is currently no funding programmed specifically for 
Conventional Ballistic Missile.
    Question. Will the analysis of alternatives include any research or 
development efforts?
    Answer. As stated previously, there is currently no funded analysis 
for the Conventional Ballistic Missile (CBM) concept. This has simply 
been an internal discussion to allow us to weigh alternatives. In no 
way does this represent a decision to design, produce or deploy a CBM.
    Question. How would such a conversion of missiles affect current 
treaties in force?
    Answer. Intercontinental Ballistic Missiles (ICBMs), including the 
Minuteman III, are currently subject to the Strategic Arms Reduction 
Treaty (START). START does not distinguish between nuclear and 
conventional warheads. Therefore, deploying a conventional warhead on 
an ICBM would have no effect on the United States' ability to continue 
to comply with START.
    Question. This proposal has been considered by the Defense 
Department before. What were the results of any prior consideration and 
what information does the Department have as a result?
    Answer. A Conventional Ballistic Missile Advanced Concept 
Technology Demonstration was funded by Congressional adds in fiscal 
year 1997, 1998, and 1999. Concept and design work for a high-speed 
precision penetrator front end, to be tested on an excess Minuteman II 
booster, proceeded through critical design review. However, DoD 
terminated the effort due to lack of firm requirements and absence of 
programmed funding to continue the effort beyond fiscal year 1999. 
Residual fiscal year 1999 funds were applied to other projects 
following consultation with Congressional committees.

                       Low-Yield Nuclear Weapons

    Question. The Air Force is pursuing legislative relief from a 1994 
Defense Authorization Act prohibition against doing any research and 
development that could lead to production of low-yield nuclear weapons. 
The Air Force has a research program approved last year and run by 
STRATCOM for a ``robust deep earth penetrator''. STRATCOM has requested 
proposals to begin R&D on the target analysis system.
    Mr. Secretary, is there any conflict between the 1994 National 
Defense Authorization Act's prohibition against any R&D which could 
lead to production of a low-yield nuclear weapon, and the Air Force's 
``robust deep earth penetrator'' program?
    Answer. We do not have a ``robust deep earth penetrator'' program. 
However, we are considering developing a Robust Nuclear Earth 
Penetrator (RNEP). It is our view that development of the RNEP does not 
conflict with the 1994 National Defense Authorization Act's prohibition 
against any research and development that could lead to the production 
of a new low-yield nuclear weapon. RNEP, if approved for production, 
would involve modifying an existing weapon to enhance its penetration 
capability and providing an external guidance package to improve 
accuracy.
    Question. If this prohibition were lifted, is this the direction 
you would take this program in?
    Answer. The prohibition contained in the 1994 National Defense 
Authorization Act does not apply to the Robust Nuclear Earth Penetrator 
(RNEP). The RNEP program will proceed independent of any relief from 
the 1994 National Defense Authorization Act. Currently, the Air Force 
has no plans to request development of any new nuclear weapons, 
including low-yield weapons. However, lifting the present prohibition 
would allow us to explore the full range of options that could 
strengthen our ability to deter, or respond to, new and emerging 
threats. Even if lifted prior Congressional approval and authorization 
is still required before full-scale development of any new weapon can 
begin.
    Question. If the prohibition were lifted, given the current state 
of the penetrator program, how long would you estimate it would take to 
have a functioning low-yield nuclear weapon capable of holding hard and 
deeply buried WMD threats at risk?
    Answer. The prohibition contained in the 1994 National Defense 
Authorization Act does not apply to the Robust Nuclear Earth Program 
(RNEP) and therefore does not impact this effort. Currently, the Air 
Force has no plans to develop or deploy a new low-yield nuclear weapon 
for holding hard and deeply buried weapons of mass destruction at risk.

                   Countermeasures for Large Aircraft

    Question. What contribution has the Air Force made to the review of 
ways to protect commercial aircraft from shoulder fired anti-aircraft 
missiles?
    Answer. The Air Force has participated in Office of the Secretary 
of Defense working groups to define DoD positions on issues raised by 
the National Security Council/Office of Homeland Security Task Force on 
man portable air defense systems (MANPADS). Additionally, the Air Force 
had participants on the ``Red Team'' that assessed the technical 
options to address the MANPADS threat to commercial aviation. Further, 
the Air Force has conducted its own ``quick look'' study on the MANPADS 
threat and Air Force capabilities to defeat the threat.
     Question. Please describe for us the system under development for 
our large military aircraft like the C-17 and C-130.
    Answer. The Air Force's Large Aircraft Infrared Countermeasures 
Program (LAIRCM) is in Low Rate Initial Production. It successfully 
completed live-fire testing last summer and will begin in-flight 
testing 21 April 2003 with first deliveries to Air Mobility Command 
beginning on or about 5 May 2003.
    LAIRCM is an advanced version of the joint UK/USSOCOM Directed 
Infrared Countermeasures Program (DIRCM). Both DIRCM and LAIRCM systems 
share common components including: Ultraviolet Missile Warning System, 
the System Processing Unit and the turret assemblies. The primary 
difference is LAIRCM uses a colorless, eye-safe multiband laser to 
counter the incoming missile/s, whereas, the older DIRCM system uses 
high intensity lamps for this purpose. System makeup: LAIRCM will 
install three turret assemblies on large aircraft (C-17, KC-10, etc.) 
and two turrets on the smaller aircraft like the C-130. Here's how the 
LAIRCM system functions:
    First, when the Missile Warning System detects an incoming infrared 
missile, the Processing System and control unit points the laser turret 
at the missile, allowing the turret's fine tracker to lock onto the 
missile's seeker head. The multiband laser then directs energy onto the 
seeker head ``walking'' the missile off the aircraft. The laser does 
not damage nor destroy the missile; it just ``spoofs'' the missile's 
guidance thus decoying it away from the aircraft. USSOCOM has elected 
to upgrade existing DIRCM lamp-based systems to the laser jamming 
system because DIRCM's lamps do not have sufficient power to protect 
the larger aircraft like C-17, C-5, KC-767, etc.
     Question. What would be an estimate of the cost to deploy this 
technology on commercial airliners?
    Answer. In December 2002, the Air Force asked the Large Aircraft 
Infrared Countermeasures (LAIRCM) System Program Office (SPO) to 
prepare a cost estimate to protect U.S. commercial aircraft with LAIRCM 
equipment. The SPO, in conjunction with Northrop Grumman (LAIRCM's 
equipment manufacturer) and Boeing (installs LAIRCM on C-17 aircraft), 
came up with an estimated $2 billion total program cost to install 
LAIRCM on 775 U.S. commercial airliners (approximately $2.3 million per 
aircraft). This cost broke down as follows: $1.8 billion for LAIRCM 
equipment and its installation, $100 million for new production 
facilities, and $100 million for aircraft nonrecurring engineering 
expense (NRE).
    NRE is required for each series of aircraft, e.g. B-767, MD-11, B-
747, etc. to determine the optimum location on each series of aircraft 
for the 3-5 missile warning sensors and the laser turret(s). This $15-
25 million cost is a one-time expense for each aircraft series.
    Since December 2002, Northrop Grumman has refined their proposal to 
a LAIRCM-like system and reduced best estimates to approximately $1.9 
million per aircraft for a 300 aircraft pilot program installed across 
a three-year period (fiscal year 2003-05). The aircraft installation 
approach has been further studied, resulting in a single conformal 
installation, which reduces the NRE required for each aircraft series, 
e.g., B-767, MD-11, B-747. They also have proposed a follow-on program 
beginning in fiscal year 2006, installing this LAIRCM-like solution on 
1,000 aircraft per year, Northrop has suggested that the unit cost will 
further decline to $1 million per aircraft excluding NRE and large 
volume production facilitization. Northrop also estimates less than a 
one percent increase in cost per flying hour to maintain this LAIRCM 
equipment.

            Multi-Sensor Command and Control Aircraft (MC2A)

     Question. The MC2A program envisions placing AWACS and J-STARS 
like radar capabilities aboard a 767 modified aircraft. The plane would 
also ultimately have connectivity with space based radar and could 
command and control UAVs and UCAVs.
    What is the current planned delivery date of the first MC2A test 
bed aircraft?
    Answer. The MC2A 767-400ER test bed delivery date is calendar year 
2010. The test bed will roll off the Boeing commercial aircraft 
production line in late calendar year 2005, complete militarization and 
airframe modifications in late calendar year 2007, and begin 
Development, Test and Evaluation in late calendar year 2008 to deliver 
in calendar year 2010.
     Question. What is the current planned delivery date of the Multi-
Platform Radar Technology Insertion Program sensors?
    Answer. Global Hawk's developmental Multi-Platform Radar Technology 
Insertion Program (MP-RTIP) sensor will be delivered in calendar year 
2006, the MC2A developmental MP-RTIP sensor will be delivered in 
calendar year 2008. These delivery dates are synchronized with the 
programs' schedules to meet the warfighter's required capability 
delivery dates.
     Question. If there is a delay in one how will that effect planning 
for the other? Answer: It will cause a commensurate delay to the 
overall program. If either the MC2A or Multi-Platform Radar Technology 
Insertion Program (MP-RTIP) is delayed, the overall schedule will need 
to be resynchronized. MC2A's four acquisition lanes--the 767-400ER test 
bed, MP-RTIP sensor, weapons systems integration and Battle Management, 
Command and Control (BMC2) efforts must all be synchronized to enable 
delivery of the MC2A capability by warfighter's desired 2012 date. 
Additionally, a delay in the MP-RTIP program will result in a 
commensurate delay in the delivery of the Global Hawk MP-RTIP 
capability.
     Question. Has there been a delay in the contract award for either 
part of this program?
    Answer. The MC2A 767-400ER test bed contract award has been delayed 
from October 2002 to June 2003 due to fiscal year 2003 congressional 
reductions. The MultiPlatform Radar Technology Insertion Program 
contract was awarded in December 2000, and modified for the MC2A-sized 
radar sensor in September 2002.

    [Clerk's note.--End of questions submitted by Mr. Lewis. 
The 2003 Annual Report to the Congress by the Secretary of 
Defense follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Clark, Adm. Vernon...............................................   205
Hagee, Gen. M. W.................................................   205
Johnson, Hon. H. T...............................................   205
Jumper, Gen. J. P................................................   345
Roche, Hon. J. G.................................................   345
Shinseki, Gen. E. K..............................................     1
White, Hon. T. E.................................................     1


                               I N D E X

                              ----------                              

                   Fiscal Year 2004 Air Force Posture

                                                                   Page
Acquisition Process..............................................   427
Aging Tanker Aircraft............................................   420
Airborne Laser Program (ABL).....................................   439
Aircraft, Countermeasures for Large..............................   478
Air Force Institute of Technology (AFIT).........................   444
Air Worthiness Board.............................................   448
Annual Report to the President and the Congress by the Secretary 
  of Defense.....................................................   481
Anti-Terrorism/Force Protection Mission..........................   457
Boeing 767 Tanker Lease..............................416, 434, 436, 439
Bomber Requirements..............................................   468
    B-1B Defensive Systems Upgrade Program.......................   469
    B-2 Bomber Program:
        Exhaust Cracks...........................................   470
        Global Air Traffic Management (GATM).....................   422
        Modifications............................................   469
    B-52 Standoff Jamming Platform...............................   471
C-5 Aircraft, Future of the......................................   445
C-17 Request of Only 11 Aircraft.................................   467
Computer Processor...............................................   414
Cruise Missiles..................................................   451
    Life Extension...............................................   432
    Proliferation................................................   415
Depot Maintenance................................................   459
EB-52 Aircraft...................................................   437
Equipment Operation Costs........................................   457
Evolved Expendable Launch Vehicle (EELV).......................435, 449
F/A-22 Raptor Program.....................................412, 436, 441
    Avionics Problems............................................   472
        Attack Role's Effects on Avionics Problems...............   473
    Engineering and Manufacturing Development (EMD) Cost Growth..   474
    Envelope and Flight Monitoring...............................   476
    General Accounting Office (GAO) Report Supports Reducing 
      Production Rate............................................   474
    Lack of Integrated Diagnostics for Maintenance at Initial 
      Operational Test and Evaluation (IOT&E)....................   475
    Lack of Many Operational Capabilities........................   476
    Product Improvement..........................................   422
    Program Stability............................................   429
F-16 Aircraft Procurement Cancellations..........................   471
Facilities Sustainment, Restoration and Modernization (SRM)......   458
Foreign Sale of Aircraft.........................................   426
Intercontinental Ballistic Missile (ICBM), Conventional Warhead..   477
Introduction.....................................................   345
Joint Strike Fighter (JSF).......................................   418
    Weight, Joint Strike Fighter.................................   448
KC-135 Tanker Program:
    Brakes.......................................................   425
    KC-135 E-Model Tanker Retirement.............................   463
Multi-Sensor Command and Control Aircraft (MC2A).................   479
Nuclear Detonations, Detection of................................   451
Nuclear Weapons, Low-Yield.......................................   478
Personnel Issues.................................................   456
    Air Force Academy Investigation..................347, 417, 420, 443
    Consolidation of the Military Personnel Accounts.............   455
    Force in Europe, Rotational..................................   447
    Guard and Reserve Personnel, Use of...................416, 423, 446
    Military and Civilian Personnel Jobs.........................   430
    Outsourcing Functions Performed by Military Personnel........   460
Procurement Funding..............................................   421
Purchase Cards and Travel Cards..................................   460
Remarks of Mr. Murtha............................................   346
Remarks of Mr. Young.............................................   346
Satellite Bandwidth for Use on Weapons System....................  423s
Science and Technology Budget....................................   445
Spares...........................................................   459
Statement of James G. Roche and General John P. Jumper, The Joint   358
Summary Statement of General Jumper..............................   353
    Aerospace Expeditionary Force (AEF)..........................   354
    Air Force Academy............................................   353
    Bombers......................................................   356
    Employer Recognition Program.................................   356
    Joint Operations.............................................   356
    Readiness....................................................   354
    Recruiting and Retention...................................353, 355
    Space........................................................   355
    Total Force..................................................   354
    Unmanned Aerial Vehicles (UAVs)..............................   356
Summary Statement of Secretary Roche.............................   347
    Aging Aircraft...............................................   349
    B-1 Consolidation............................................   348
    F/A-22 Program...............................................   350
    Mission Capable Rates........................................   349
    Modernization................................................   350
    Operation Enduring Freedom (OEF).............................   348
    Operation Noble Eagle (ONE)..................................   348
    Personnel and Readiness......................................   350
    Russian SU-37 Aircraft.......................................   349
    Spare Parts..................................................   349
    Transformation.............................................348, 352
Supplemental Appropriations....................................416, 418
T-37 Aircraft at Laughlin Air Force Base.........................   453
Training Issues:
    Encroachement on Training Areas..............................   460
    Joint Training...............................................   441
    Pilot Training, Joint......................................440, 450
    Unmanned Aerial Vehicle Pilot and Operational Training.......   450

                     Fiscal Year 2004 Army Posture

Abrams and Bradley Modernization Programs........................84, 98
    Abrams and Bradley, Fiscal Year 2003 Funds for...............    87
Aerial Common Sensor (ACS).......................................   125
Aircrew Training Hours...........................................   112
Ammunition:
    M855 ``Green Tip'' Ammunition................................   102
    Training Ammunition..........................................   133
    War Reserve Ammunition.......................................   134
Anti-Terrorism and Force Protection (AT/FP) Mission..............   108
    Guard and Reserve Force Protection Mission...................   107
Armor Requirements, Counterattack Corps..........................    86
Armored Vehicle Launched Bridge (ALVB)...........................    99
Army Combat Power................................................    83
Army Contracting Agency (ACA)....................................   114
Army Corps of Engineers..........................................70, 96
Bandwidth........................................................    70
Basic Officer Leadership Course..................................   115
Business Initiative Council......................................    88
Chemical Agents Demilitarization.................................   138
Chemical and Biological Warfare..................................    93
Combat Feeding Program...........................................    74
Facilities Sustainment, Restoration, and Modernization (SRM).....   113
Family of Medium Tactical Vehicles (FMTV)........................    96
    Recompetition................................................   131
Future Combat System (FCS)......................................77, 121
    Key Technologies.............................................    78
Helicopter Programs:
    AH-64 Apache Longbow Service Life Extension..................   130
    CH-47 Chinook Helicopter.....................................   126
    RAH-66 Comanche Helicopter..................................76, 128
        Technical Development, RAH-66 Comanche...................   129
    UH-60 Black Hawk Fielding Plan...............................   126
Hemacoolers......................................................70, 96
Impact Aid.......................................................    81
Installation Management Agency, Army.............................   113
Introduction.....................................................     1
Iraq, Operation Iraqi Freedom (OIF):
    Post-Conflict Requirements in................................    71
    Preparations for Military Operation in.......................   100
Joint Experimentation and Transformation.........................   104
Joint Logistics Warfighting Initiative...........................   116
Joint Tactical Radio System (JTRS)...............................   131
Land Warrior Program............................................75, 135
Life Cycle Costs.................................................    87
Military Construction (MILCON)...................................    70
Non-Line of Sight Cannon (NLOS-C)...............................81, 123
Patriot PAC-3 Missile Program....................................   138
Personnel Issues, Army...........................................   103
    Active and Reserve Component Mix.............................    73
    Consolidation of the Military Personnel Accounts............93, 110
    End Strength Requirements....................................    72
    Force Structure..............................................    94
    Forces in Europe, Redeployment of Army..................91, 96, 105
    Moral of the Troops..........................................    68
    National Guard and Reserve Personnel.........................    97
    Reserve Component Missions...................................   111
    Reserve Component Pay........................................    80
Readiness, Rising Cost of.......................................67, 109
Recapitalization Programs........................................   112
Remarks of Mr. Hobson............................................    69
Remarks of Mr. Murtha............................................     4
Soldier Support Equipment........................................   105
Spare Parts Shortfalls...........................................   112
Statement, The Fiscal Year 2004 Army Posture.....................   140
Statement of Thomas E. White and General Eric. K. Shinseki, The 
  Joint..........................................................    12
Stryker Brigades.................................................77, 89
    Acquisition, Stryker.........................................    90
    and M113 Comparative Analysis...............................93, 120
    Combat Capabilities, Stryker Brigade.........................    92
    High-Speed Sealift Support for Stryker.......................    92
    Stryker/Mobil Gun System.....................................    99
Summary Statement of General Shinseki............................     8
    Budget Request, Fiscal Year 2004.............................    10
    Personnel....................................................    10
    Transformation...............................................     9
Summary Statement of Secretary White.............................     5
    Future Combat System.........................................     6
    Personnel Initiatives........................................     5
    Readiness and Optempo........................................     5
    Residential Communities Initiative...........................     7
    Summary......................................................     7
    Transformation...............................................     6
Supplemental Funding, Fiscal Year 2003......................68, 82, 102
Terminations, Fiscal Year 2004 Program...........................   117
Training, Environmental Restrictions on..........................    79
Transformation...................................................    88
Unmanned Aerial Vehicles (UAVs), Small...........................   101
    Tactical Unmanned Aerial Vehicle (TUAV) Shadow 200...........   124
Venture Capital Fund.............................................   137
Weapons of Mass Destruction-Civil Support Teams (WMD-CST)........   109

                     Fiscal Year 2004 Navy Posture

A-12 Aircraft Settlement.........................................   305
AV-8B Harrier Jump-Jet...........................................   306
Acquisition Process, Consideration of Operating Costs During.....   335
Advance Amphibious Assault Vehicle (AAAV)........................   329
Air Force Institute of Technology (AFIT).........................   298
Anti-mine Warfare................................................   291
Antiterrorism and Force Protection...............................   337
Ballistic Missile Defense Systems Weapons........................   323
Broad Area Maritime Surveillance.................................   309
CH-46 Helicopter, Rotor Blades for the...........................   290
Chemical Biological Incident Response Force (CBIRF)..............   326
Controlling Cost through Management..............................   289
CVN-21 Aircraft Carrier..........................................   314
CVN-77 Aircraft Carrier..........................................   316
DDG-51 Destroyer Program.........................................   319
DD(X) Destroyer Program..........................................   317
Depot Maintenance:
    Impact of Operating Tempo on Depot Maintenance...............   324
    Marine Corps Depot Maintenance...............................   334
    Ship Depot Maintenance.....................................300, 325
EA-6B Aircraft...................................................   297
Force in Europe, Rotational......................................   299
Internally Transportable Vehicle (ITV)...........................   332
Introduction.....................................................   205
Iraq, Operation Iraqi Freedom (OIF)..............................   299
Joint Strike Fighter (JSF) Program.............................295, 300
    Cost Estimates...............................................   302
    Design Issues of Concern.....................................   303
    Interchangeable Engine Program...............................   302
    Performance Attributes.......................................   301
    Software Development and Testing.............................   302
    Technological Challenge......................................   304
Lightweight 155mm Howitzer.......................................   330
Littoral Combat Ship (LCS).......................................   312
Man Overboard Identification (MOBI) System.......................   301
Military Personnel Accounts, Consolidation of the................   341
Missile Defense, Navy Participation in...........................   293
Modular Weapon System (MWS)......................................   333
Multiyear Procurement Authority Request..........................   289
Naval Reserve Missions...........................................   343
Navy/Marine Corps Intranet.......................................   296
Navy and Marine Corps TACAIR Integration.........................   305
Penguin Missile, Plan for........................................   294
Personnel Issues.................................................   342
    Personnel Reductions, Navy...................................   340
Product Quality Deficiency Reporting Systems.....................   339
Recognition of Greg Walters, Committee Staff.....................   206
Special Operations Forces........................................   297
    Integration of...............................................   290
SSGN Program, Funding Requirements for...........................   292
Statement of Admiral Vernon Clark................................   231
Statement of General Michael W. Hagee............................   263
Statement of Hansford T. Johnson.................................   208
Summary Statement of Admiral Clark...............................   228
    Investment Strategy..........................................   229
    Readiness....................................................   228
    Ships Forward Deployed.......................................   228
    Summary......................................................   230
Sunmmary Statement of General Hagee..............................   261
    Budget Request, Fiscal Year 2004.............................   261
    Marine Corps Deployments.....................................   261
    Readiness and Contingency Requirements.......................   262
Summary Statement of Secretary Johnson...........................   206
    Budget Request, Fiscal Year 2004.............................   207
Supplemental Funding Requirements................................   290
Training Area Encroachment.......................................   334
Unmanned Aerial Vehicles (UAVs):
    Pioneer Unmanned Aerial Vehicle..............................   310
    Tactical Unmanned Aerial Vehicle Fire Scout..................   308
    Unmanned Combat Aerial Vehicle (UCAV)........................   307
V-22 Helicopter Update.........................................292, 304
Virginia Class Submarine:
    Cost Overruns..............................................288, 321
    Multiyear Procurement........................................   320

                                  <all>

</pre></body></html>
